<html>
<title> - NOMINATIONS OF THE 107th CONGRESS, FIRST SESSION</title>
<body><pre>[Senate Hearing 107-324]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-324
 
                  NOMINATIONS OF THE 107th CONGRESS, 
                             FIRST SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

 MAY 17, 2001: LINDA FISHER, to be Deputy Administrator, Environmental 
Protection Agency; JEFFREY HOLMSTEAD, to be Assistant Administrator for 
Air and Radiation, Environmental Protection Agency; STEPHEN JOHNSON, to 
    be Assistant Administrator for Toxic Substances, Environmental 
      Protection Agency; and JAMES CONNAUGHTON, to the Council on 
                         Environmental Quality

JULY 25, 2001: DAVID A. SAMPSON, to be Assistant Secretary for Economic 
 Development, Department of Commerce; ROBERT FABRICANT, to be General 
Counsel, Environmental Protection Agency; GEORGE TRACY MEHAN III, to be 
  Assistant Administrator for Water, Environmental Protection Agency; 
JUDITH ELIZABETH AYRES, to be Assistant Administrator for International 
Activities, Environmental Protection Agency; DONALD R. SCHREGARDUS, to 
 be Assistant Administrator for Enforcement and Compliance Assurance, 
                    Environmental Protection Agency

  SEPTEMBER 21, 2001: BRIG. GEN. EDWIN J. ARNOLD, to the Mississippi 
 River Commission; BRIG. GEN. CARL A. STROCK, to the Mississippi River 
   Commission; NILS J. DIAZ, to be Commissioner, Nuclear Regulatory 
 Commission; PATRICK HAYES JOHNSON, to be Federal Cochairperson, Delta 
Regional Authority; HAROLD CRAIG MANSON, to be Assistant Secretary for 
Fish, Wildlife, and Parks, Department of the Interior; MARIANNE LAMONT 
 HORINKO, to be Assistant Administrator for Solid Waste and Emergency 
 Response, Environmental Protection Agency; PAUL MICHAEL PARKER, to be 
Assistant Secretary of the Army for Civil Works; and MARY E. PETERS, to 
    be Administrator, Federal Highway Administration, Department of 
                             Transportation

OCTOBER 17, 2001: WILLIAM W. BAXTER, to the Tennessee Valley Authority; 
KIMBERLY TERESE NELSON, to be Assistant Administrator for Environmental 
 Information, Environmental Protection Agency; and STEVEN A. WILLIAMS, 
   to be Director, U.S. Fish and Wildlife Service, Department of the 
                                Interior

                                     






                           U.S. GOVERNMENT PRINTING OFFICE
78-075                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    one hundred seventh congress\1\
                 first session: january 25-june 6, 2001

                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director
                              ----------                              

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                first session: july 10-december 20, 2001

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILARY RODHAM CLINTON, New York      ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director

\1\Note:  During the first session of the 107th Congress, the 
    committee roster appeared in the Congressional Record on 
    January 25, 2001.
On June 6, 2001, the majority of the Senate changed from 
    Republican to Democrat when Senator James M. Jeffords, of 
    Vermont, changed party affiliation from Republican to 
    Independent. Senator Harry Reid, of Nevada, assumed the 
    chairmanship of the committee. On July 10, 2001, Senator 
    Jeffords was appointed as chairman of the committee by the 
    Democratic Leader.

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 17, 2001
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    27
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     8
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     8
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    21
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     4
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    26

                               WITNESSES

Connaughton, James, Nominated to be a Member of the Council on 
  Environmental Quality..........................................    14
    Committee questionnaire......................................   104
    Prepared statement...........................................   102
    Responses to additional questions from:
        Senator Baucus...........................................   114
        Senator Reid.............................................   115
Fisher, Linda, Nominated to be Deputy Administrator, 
  Environmental Protection Agency................................     9
    Committee questionnaire......................................    30
    Prepared statement...........................................    28
    Responses to additional questions from:
        Senator Baucus...........................................    41
        Senator Reid.............................................    38
        Senator Voinovich........................................    40
        Senator Wyden............................................    43
Holmstead, Jeffrey, Nominated to be Assistant Administrator, 
  Office of Air and Radiation, Environmental Protection Agency...    11
    Committee questionnaire......................................    45
    Letters, Comments on PM standards............................    72
    Prepared statement...........................................    44
    Responses to additional questions from:
        Senator Baucus...........................................    69
        Senator Clinton..........................................    70
        Senator Corzine..........................................    71
        Senator Lieberman........................................    69
        Senator Reid.............................................    56
        Senator Smith............................................    66
        Senator Voinovich........................................    67
    Statement, Testimony before House committee on air quality 
      standards..................................................    61
Johnson, Stephen, Nominated to be Assistant Administrator, Office 
  of Toxic Substances, Environmental Protection Agency...........    13
    Committee questionnaire......................................    83
    Prepared statement...........................................    81
    Responses to additional questions from:
        Senator Baucus...........................................   100
        Senator Clinton..........................................   102
        Senator Reid.............................................    98
        Senator Smith............................................    96
        Senators Smith/Reid......................................    95
        Senator Wyden............................................   101

                          ADDITIONAL MATERIAL

Statement, nomination of Stephen Johnson, Senator Mikulski.......     2
                                 ------                                

                             JULY 25, 2001
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................   120
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island   125
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   123
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..   117
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....   120
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...   122

                               WITNESSES

Ayres, Judith Elizabeth, Nominated to be Assistant Administrator 
  for the Office of International Activities, Environmental 
  Protection Agency..............................................   131
    Committee questionnaire......................................   179
    Prepared statement...........................................   177
Fabricant, Robert, Nominated to be General Counsel, Environmental 
  Protection Agency..............................................   127
    Committee questionnaire......................................   149
    Prepared statement...........................................   148
Frost, Hon. Martin, U.S. Representative from the State of Texas..   118
Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.   117
Mehan, George Tracy, III, Nominated to be Assistant Administrator 
  for the Office of Water, Environmental Protection Agency.......   128
    Committee questionnaire......................................   159
    Prepared statement...........................................   157
    Responses to additional questions from:
        Senator Graham...........................................   176
        Senator Smith............................................   175
        Senator Voinovich........................................   177
Sampson, David A., Nominated to be Assistant Secretary for 
  Economic Development, Department of Commerce.................119, 125
    Committee questionnaire......................................   141
    Prepared statement...........................................   138
    Responses to additional questions from Senator Smith.........   146
Schregardus, Donald R., Nominated to be Assistant Administrator 
  for the Office of Enforcement and Compliance Assurance, 
  Environmental Protection Agency................................   135
    Committee questionnaire......................................   191
    Prepared statement...........................................   189
    Responses to additional questions from:
        Senator Boxer............................................   198
        Senator Chafee...........................................   201
        Senator Corzine..........................................   201
                                 ------                                

                           SEPTEMBER 21, 2001
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..   205
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   222

                               WITNESSES

Arnold, Brigadier General Edwin J., Nominated to be a Member and 
  President of the Mississippi River Commission..................   208
    Committee questionnaire......................................   230
    Prepared statement...........................................   228
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...   206
Diaz, Nils J., Nominated to be a Member of the Nuclear Regulatory 
  Commission.....................................................   209
    Committee questionnaire......................................   239
    Prepared statement...........................................   237
    Responses to additional questions from:
        Senator Corzine..........................................   268
        Senator Reid.............................................   270
Horinko, Marianne Lamont, Nominated to be Assistant 
  Administrator, Office of Solid Waste and Emergency Response, 
  Environmental Protection Agency................................   216
    Committee questionnaire......................................   301
    Prepared statement...........................................   299
    Responses to additional questions from:
        Senator Bond.............................................   315
        Senator Boxer............................................   318
        Senator Clinton..........................................   320
        Senator Corzine..........................................   319
        Senator Jeffords.........................................   311
        Senator Smith............................................   313
Johnson, Patrick Hayes, Nominated to be Federal Cochairperson, 
  Delta Regional Authority.......................................   209
    Committee questionnaire......................................   274
    Prepared statement...........................................   272
    Responses to additional questions from Senator Jeffords......   288
Manson, Harold Craig, Nominated to be Assistant Secretary for 
  Fish, Wildlife, and Parks, Department of the Interior..........   214
    Committee questionnaire......................................   322
    Prepared statement...........................................   320
    Responses to additional questions from:
        Senator Baucus...........................................   333
        Senator Boxer............................................   334
        Senator Jeffords.........................................   331
        Senator Smith............................................   334
Parker, Paul Michael, Nominated to be Assistant Secretary of the 
  Army for Civil Works, Department of the Army...................   218
    Committee questionnaire......................................   338
    Prepared statement...........................................   337
    Responses to additional questions from:
        Senator Baucus...........................................   346
        Senator Boxer............................................   349
        Senator Clinton..........................................   352
        Senator Corzine..........................................   351
        Senator Daschle..........................................   352
        Senator Graham...........................................   348
        Senator Smith............................................   344
        Senator Wyden............................................   347
Peters, Mary E., Nominated to be Administrator of the Federal 
  Highway Administration, Department of Transportation...........   219
    Committee questionnaire......................................   355
    Letter, Representative Bob Stump.............................   354
    Prepared statement...........................................   352
    Responses to additional questions from:
        Senator Jeffords.........................................   363
        Senator Lieberman........................................   366
Strock, Brigadier General Carl A., Nominated to be a Member of 
  the Mississippi River Commission...............................   210
    Committee questionnaire......................................   291
    Prepared statement...........................................   289

                          ADDITIONAL MATERIAL

Letter, nomination of Mary Peters, Rep. Bob Stump................   354
Statements:
    Lincoln, Hon. Blanche Lambert, U.S. Senator from the State of 
      Arkansas...................................................   227
    McCain, Hon. John, U.S. Senator from the State of Arizona....   226
                                 ------                                

                            OCTOBER 17, 2001
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..   367

                               WITNESSES

Baxter, William W., Nominated to be a Member of the Board of 
  Directors of the Tennessee Valley Authority....................   368
    Committee questionnaire......................................   384
    Prepared statement...........................................   382
    Responses to additional questions from:
        Senator Bunning..........................................   390
        Senator Jeffords.........................................   389
        Senator Wyden............................................   392
Nelson, Kimberly Terese, Nominated to be Assistant Administrator, 
  Office of Environmental Information, Environmental Protection 
  Agency.........................................................   371
    Committee questionnaire......................................   395
    Prepared statement...........................................   392
    Responses to additional questions from:
        Senator Bond.............................................   405
        Senator Smith............................................   403
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........   373
Thompson, Hon. Fred, U.S. Senator from the State of Tennessee....   367
Williams, Steven A., Nominated to be Director, U.S. Fish and 
  Wildlife Service, U.S. Department of the Interior..............   374
    Committee questionnaire......................................   408
    Prepared statement...........................................   406
    Responses to additional questions from:
        Senator Baucus...........................................   419
        Senator Boxer............................................   419
        Senator Chafee...........................................   418
        Senator Lieberman........................................   423
        Senator Smith............................................   417

                          ADDITIONAL MATERIAL

Frist, Hon. Bill, U.S. Senator from the State of Tennessee.......   381


                  NOMINATIONS OF THE 107th CONGRESS, 
                             FIRST SESSION

                              ----------                              


                         THURSDAY, MAY 17, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
628, Senate Dirksen Building, Hon. Bob Smith (chairman of the 
committee) presiding.

 CONSIDERATION OF THE NOMINATIONS OF LINDA FISHER, JEFFREY HOLMSTEAD, 
                 STEPHEN JOHNSON, AND JAMES CONNAUGHTON

    Present: Senators Smith, Reid, Inhofe, Carper, Bond and 
Clinton.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. The nomination hearing will come to order.
    I would say good morning to the witnesses and our apologies 
for being late but the Senate had other ideas for us this 
morning as we had votes on the Senate floor.
    I'm going to give each of you an opportunity in just a 
moment to introduce your families who are here but first, by 
way of brief introduction for each of you, the purpose today is 
consider all four of your nominations for various positions at 
EPA--Linda Fisher, as Deputy Administrator of the EPA; Jeffrey 
Holmstead for the position of Assistant Administrator for Air 
and Radiation; Stephen Johnson to serve as Assistant 
Administrator for Toxic Substances; and finally Jim 
Connaughton, nominated to be a member of the Council on 
Environmental Quality. I'd like to thank them for joining us 
here today and for their willingness to meet with as many 
Senators and their staffs as possible since the President sent 
us their names. They are all very well qualified and I can say 
from my meetings with them, they are also quality individuals 
with quality families who we will meet here in a moment.
    The Office of Government Ethics has certified that all four 
of these nominees' financial disclosure forms indicate that 
they are in compliance with all applicable laws and regulations 
governing conflicts of interest.
    Linda Fisher, as President Bush's nominee, is no stranger 
to the Agency. She has served in various positions in both the 
Reagan and Bush Administrations and while there, Ms. Fisher was 
awarded the EPA Award for Sustained Outstanding Contributions 
to International Environmental Protection in 1991 and the EPA 
Outstanding Service Award in 1984.
    After leaving EPA, she joined the private sector working 
for Monsanto, a company widely recognized for forward thinking 
on environmental matters. She most recently held the title of 
Vice President for Government Affairs at Monsanto.
    She holds a BA from Miami University, an MBA from George 
Washington and earned her law degree from the Ohio State 
University.
    Jeffrey Holmstead, the nominee to be the new EPA Assistant 
Administrator for the Office of Air and Radiation also served 
in the first Bush Administration in the White House Counsel's 
Office. In his position as Assistant Counsel Mr. Holmstead's 
primary focus was environmental law, most recently working on 
the implementation of the Clean Air Act. He also worked with 
the Reactivity Research Working Group and has been very 
involved in their efforts exploring new and more effective 
approaches for controlling ground level ozone.
    Mr. Holmstead holds a BA and an AA from Brigham Young, as 
well as a law degree from Yale.
    Stephen Johnson has been nominated to serve as EPA's 
Assistant Administrator for the Office of Prevention, 
Pesticides and Toxics. He has 25 years of direct experience 
with the issues facing the Office of Prevention, Pesticides and 
Toxic Substances. He joined EPA in 1979 in the position of 
pathologist in that same office. Most recently he has served as 
Acting Assistant Administrator in that office.
    For his service, he has received numerous annual 
performance awards, Special Act Award, 1991; Meritorious 
Presidential Rank Award, 1997; and has been nominated to 
receive the Distinguished Presidential Rank Award.
    Mr. Johnson earned a BA from Taylor University and a BS 
from George Washington.
    I would ask unanimous consent that a letter of support for 
Mr. Johnson from Senator Mikulski be entered in the record at 
this time.
    [The information referred to follows:]
                                               U.S. Senate,
                                Washington, DC 20510, May 17, 2001.

Hon. Bob Smith, Chairman,
Committee on Environment and Public Works,
U.S. Senate,
Senate Office Building,
Washington, DC 20510.

Dear Senators Smith and Reid: I regret that I could not be there in 
person today to introduce Stephen Johnson, and I hope you will share 
this letter with the members of your committee as they consider Mr. 
Johnson's nomination.
    As you know, Mr. Johnson has been nominated to serve as EPA's 
Assistant Administrator for the Office of Prevention, Pesticides, and 
Toxic Substances. He is currently acting in this position, where he has 
the important responsibility of implementing our nation's pesticide, 
toxic substance, and pollution prevention laws.
    Mr. Johnson is a lifelong resident of Maryland, and he has worked 
in public service for over 20 years. In his many years of service to 
EPA, he has held positions of increasing responsibility and earned 
several awards of distinction. His dedication and service to EPA 
demonstrates his commitment to upholding the Agency's critical mission.
    I believe that Mr. Johnson's nomination represents a unique 
accomplishment for a career civil servant, and I hope that the 
committee will give him every appropriate consideration.
                        Sincerely,
                                       Barbara A. Mikulski,
                                             United States Senator.
    Senator Smith. Finally, James Connaughton has been 
nominated to be a member of the President's Council for 
Environmental Quality. Mr. Connaughton has been a partner in 
the Environmental law firm of Sidley Austin Brown & Wood since 
1991. He has spent his career working on a variety of 
environmental issues including compliance, environmental 
management, legislative issues and damage assessment. He has 
substantial experience with handling ecological risk and 
natural resource damage assessment and is knowledgeable in the 
implementation of local, State and Federal laws pertaining to 
environmental risk assessment.
    Before joining Sidley Austin, Mr. Connaughton clerked for 
the Honorable Marvin Aspen, U.S. District Court, Illinois.
    He received his undergraduate degree from Yale and his law 
degree from Northwestern.
    Welcome to all of you.
    Before I turn to Senator Reid and other members for opening 
statements, I would ask each of you at this time if you have 
family members here to please feel free to introduce them. We 
will start with you, Ms. Fisher.
    Ms. Fisher. Thank you, Mr. Chairman.
    I appreciate the fact we can go ahead and introduce the 
children first. They have all pledged to perfect behavior 
throughout the hearing. We will keep our fingers crossed.
    Senator Smith. That may not be true with the Senators.
    [Laughter.]
    Ms. Fisher. Let me first introduce my two children who are 
joining me today, my son, Keenan, 7 years old and a first 
grader at St. Patrick. As you can tell from his build, he is a 
hockey player and likes baseball and basketball. Next to him is 
my daughter, Kelly. Kelly is a kindergartener at St. Patrick's 
and a 6-year-old. She likes gymnastics and soccer.
    Senator Smith. Mr. Holmstead?
    Mr. Holmstead. I am delighted to be able to introduce my 
children as well. I am afraid we're running short on granola 
bars so I don't know how long they'll last before they need to 
excuse themselves.
    Let me first introduce my wife, Lisa Holmstead who is a 
full-time mother of our four children. Our oldest is Emily, who 
is 11 and a fifth grader at the Rachel Carson Elementary School 
in Gaithersburg, Maryland. Her nickname is the reading machine. 
Next is my 8-year-old Eric. He's a second grader at the Rachel 
Carson Elementary School. He has an orange cast on his foot as 
a result of a biking accident but he's hobbling around pretty 
well. Next is my 5-year-old daughter Elizabeth, who is in 
kindergarten and who loves to have breakfast with her dad. 
Finally is my 2-year-old son, Eli who is very happy to be here. 
He's being held by my mother, his grandmother, Mellie Holmstead 
and my father who is seated next to her, Kay Holmstead. Both of 
them are visiting for this event from Bolder, Colorado.
    Senator Smith. Nice to have you here.
    Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    I'd like to introduce my family as well. My wife, Debbie, 
is with me today and our three children and our son-in-law. Our 
youngest daughter is Allison. She's a freshman at Taylor 
University in Indiana and our son, Matthew, who is a junior at 
Taylor University. Their final exams are next week, so they 
really enjoyed the opportunity to get out of class for a day to 
join us here.
    Senator Smith. Would you have been here if it had been next 
week?
    [Laughter.]
    Mr. Johnson. And our oldest daughter, Kerry and our son-in-
law, Jeremy, are with us today as well.
    It's also my pleasure--and I'm not sure how unusual or 
routine this is--but my mother-in-law and father-in-law are 
here today. I'd like to introduce my father-in-law, John Jones 
and my mother-in-law, June Jones.
    For the record, I would like to note that believe I am in 
good standing as a son-in-law, at least as of this morning.
    Senator Smith. Mr. Connaughton?
    Mr. Connaughton. Mr. Chairman, first, I'll introduce my 
wife, Susanna Connaughton, and our two children, Spencer, who 
is nine and a third grader at Sidwell Friends School; and 
Grace, who is six and she's at the Norwood School.
    Also with me are my parents, Jim and Monica Connaughton. 
You should know my parents came to this country shortly before 
I was born from Ireland, so I know this is a special moment for 
them.
    Also here is my mother-in-law, Stacey Bolten. I'm also in 
good standing with her. She lives next door to us so I'd better 
be.
    My sister, Eileen Hart, is here with my nephew, T.J., my 
niece, Tara, and my other nephew, Michael.
    Not here in person, but here in spirit are my sister, 
Bernadette; my brother, Paul; my brother, John; their spouses 
and an additional ten nieces and nephews. There also is a whole 
crowd back in Ireland who are very eager to see the report of 
this hearing.
    Senator Smith. Welcome to all of you. It's nice to have you 
here. It's nice to see you here to support your family member 
to have the honor of being nominated for a position in 
government. A lot of us feel it is honorable service and in 
spite of what you read, there are a lot of fantastic people who 
serve and make great sacrifices to serve in government.
    Senator Reid?

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Thank you, Mr. Chairman.
    Senator Mikulski has asked us to enter into the record a 
very nice letter that she wrote on your behalf, Mr. Johnson, 
culminating with ``I believe Mr. Johnson's nomination 
represents a unique accomplishment for a career civil servant. 
I hope the committee will give him every appropriate 
consideration.''
    I would ask permission that my full statement be made a 
part of the record.
    Senator Smith. Without objection.
    [The prepared statement of Senator Reid follows:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Thank you, Mr. Chairman for holding this hearing this morning. I 
know the Administration, and in particular, Administrator Whitman, are 
anxious to get their people in place to help with the important issues 
ahead.
    As many of you know, I have sent a letter to the President and 
Administrator Whitman informing them that I intend to hold 
Administration nominations until the radiation standard for Yucca 
Mountain, including the groundwater standard, is published in the 
Federal Register.
    The proposed Yucca Mountain Repository would be located 
approximately 90 miles from Las Vegas, Nevada's largest and expanding 
city. In addition to being home to more than 1.3 million Nevadans, Las 
Vegas and its neighboring communities draw more than 30 million 
visitors each year. Contamination of groundwater or the surrounding 
environment from radiation would create an unacceptable human health 
risk and would threaten the tourism and recreation-based economy, which 
provides jobs and important tax revenue to Nevada and its communities.
    The NRC must determine whether Yucca Mountain will meet radiation 
release standards established by the EPA under authority granted by the 
1992 Energy Policy Act. The Act requires EPA to set the standards based 
on, and consistent with, the findings and recommendations of the 
National Academy of Sciences' ``Technical Bases for Yucca Mountain 
Standards'' report. EPA not only considered the report but also public 
comments received on the report from public hearings as well as 
additional written comments. EPA also considered previous applicable 
regulations such as the generic standards for radioactive wastes used 
at the Waste Isolation Pilot Project in New Mexico.
    EPA held public hearings in Nevada and Washington, DC. in October 
1999 and had a 90-day comment period in late 1999.
    Although the EPA submitted a final rule to the Office of Management 
and Budget (OMB) in late January 2001, the standards have not been 
published.
    I am concerned that the Nuclear Regulatory Commission and the 
Department of Energy are attempting to weaken the provisions of the EPA 
standards through the interagency review. The DOE and NRC are legally 
responsible for site recommendation and licensing respectively, NOT 
radiation standards.
    There is a clear separation of authority. Through their actions, 
the DOE and NRC may give the impression that they are seeking to 
establish limits they believe Yucca would satisfy. This would undermine 
the public's confidence in the objective, scientific nature of the site 
recommendation and standard setting processes and set a worrisome 
precedent for EPA's ability to conduct its statutory responsibilities 
using sound science.
    This standard is not only important to the citizen's of my State of 
Nevada, it is important for all of us because, under the law, EPA--the 
Agency responsible for protecting our environment--should be allowed to 
do just that--protect the environment.
    The chairman and I have talked and, at this time, I will not object 
to reporting nominees from the Environment and Public Works Committee.
    I have also talked to Administrator Whitman. I have agreed to 
support the nomination of Ms. Fisher, who is nominated to be 
Administrator Whitman's Deputy, because the Administrator agrees with 
me and has assured me that she will do everything she can to get the 
EPA standard for Yucca Mountain published.
    However, until the standard for Yucca Mountain that represents the 
best judgment of the EPA--not the NRC or DOE--is published in the 
Federal Register, I will hold other Administration nominees from moving 
out of the Senate.
    I would like to thank Mr. Holmstead for responding to questions I 
had before this hearing and would like to ask unanimous consent that 
the questions and his responses appear in the hearing record at the 
appropriate place.
    We also have some additional information that we have requested Mr. 
Holmstead to supply to the committee and hope that we can get that 
information soon and review it expeditiously.
    With that, Mr. Chairman, I look forward to hearing from the 
nominees here today.
    Senator Reid. I want to say to the nominees we have had an 
ongoing battle the past several months with setting groundwater 
standards at Yucca Mountain, the site of the proposed 
repository for nuclear wastes. I have had a number of 
conversations with the Administrator, Governor Whitman, and I 
last week made an announcement that we as Democrats wouldn't 
show up at this hearing but I received a call from Governor 
Whitman indicating that she was unable to do her work because 
she is understaffed and she needed somebody to help her. As a 
result of that, we are going to move very quickly on Ms. Fisher 
and hold up the other three until the groundwater standards are 
issued. Governor Whitman indicated she could do that.
    I say for your families, this is what government politics I 
guess is all about. There's nothing wrong with it except I'm 
concerned that the Nuclear Regulatory Commission, the 
Department of Energy and some in the Administration are trying 
to weaken the provisions of the EPA standards through the 
interagency review. The DOE and NRC are legally responsible for 
site recommendation and licensing respectively, not setting 
radiation standards.
    This is so important that we have even had a vote on a 
matter in relation to this on the Senate floor. It was vetoed 
by the President. We had enough votes to sustain the 
President's veto, so this is a matter of some concern.
    I'm confident that Governor Whitman will move this along 
quickly. In my last conversation with her, I told her I'd just 
done an interview where I said nice things about her and she 
said, ``That's going to get me in more trouble.'' So I think 
I'll say some real bad things about her today and maybe that 
will help her with getting some things done.
    I am impressed with the qualifications of each of the 
individuals here. I especially appreciate Mr. Holmstead. We had 
some questions and he had to grant a waiver so that we could 
get some of this information. It appears none of it is going to 
be of any consequence but it is something we needed to do to 
look at these records. We appreciate your cooperation.
    Thank you, Mr. Chairman, for your punctuality in holding 
this hearing. As you know, we had two votes on the education 
bill, the Elementary and Secondary Education bill today and we 
are moving now onto the tax bill. I am responsible for helping 
to manage that, so I will have to depart, recognizing this 
hearing is important. We are going to do everything we can to 
move this along with the cooperation of Linda Fisher and 
Governor Whitman.
    Senator Smith. Thank you, Senator Reid.
    For the witnesses and their families' benefit, it is the 
action of the Senate unfortunately that there are so many 
things going on and members do come in and out. Sometimes we 
have two or three committee meetings at the same time. Don't 
ask why that happens because I don't know but it does and we 
haven't been able to figure out how to be two places at the 
same time.
    Senator Inhofe?

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I'll say to the families who are here today that it's 
extraordinary that we have a lovefest like this. It isn't 
always the case, it's just that we have such exceptional 
people. I would repeat everything good and you and I thank all 
of you for taking the time to come by and visit personally.
    Over the last few years, I've had several serious concerns, 
including an increase in the volume of the cost of regulations 
and the diminishing returns caused by regulators chasing 
smaller and smaller risks at greater and greater costs to 
businesses and families.
    I'm going to mention about four areas and if you will just 
take some notes and either address these areas in your opening 
statement or when you respond to questions, or for the record 
at a future time, maybe when you get back. I would like to have 
your opinions in all these areas.
    The first is transparency. Too often the EPA's regulatory 
system is slow, sloppy, secretive and they have not done things 
out in the open. I'd like to make sure we have the opportunity 
to have the entire public be able to know what's going on, what 
regulations are out there, what rules are being suggested, and 
have everyone be heard.
    Second is cost of benefit. I think it's time to reframe the 
debate on environmental regulation by focusing on making 
smarter decisions to maximize benefits, minimize costs and save 
more lives. There was a Harvard study not long ago that came to 
the conclusion that roughly 60,000 lives are lost each year due 
to the current regulatory system, chiefly because billions of 
dollars are squandered on eliminating negligible and 
nonexistent risk while failing to protect the public. I would 
like to have you take the time to look at this study--we'll be 
glad to supply it to you from our office--and I'd like to get 
the response of each of you to that.
    Sound science, at our Tuesday budget hearing, I was very 
encouraged by Administrator Whitman's comments on sound 
science. She said, ``The environmental policy should always be 
based on the soundest information available.'' I was also 
encouraged by her comments regarding the need to realize that 
``science and public policy proceed along fundamentally 
different lines. We will continue to use the best available 
science and scientific analysis to aid the development of 
environmental policies.'' Too often we have seen politics, 
particularly in the previous Administration, used to support 
the policies as opposed to sound science.
    The third general area is regulation through litigation and 
guidance. The prior Administration bypassed the safeguards of 
the Administrative Procedure Act which requires Federal 
agencies to provide opportunities for informed and meaningful 
public participation. They used such things as interim final 
rules, guidance documents and policy statements which did not 
really require any kind of public comment. We want this out in 
the public, we want to know ourselves but more important we 
want the public to be aware.
    In April, the U.S. Court of Appeals in Appalachian Power v. 
EPA actually had to strike down an abusive EPA guidance 
document. The court found, EPA was creating broad new authority 
through the guidance document; the EPA did intend the guidance 
document to have a binding effect; and the guidance was 
illegally issued outside of the APA rulemaking process. Such 
activities must and will be stopped. The new source review is a 
good example of this. I'd like to have you directly address 
that in one of the three forms that I suggested.
    The debate over regulation is not about whether a better 
quality of life, cleaner air or safety and more productive 
workplaces is desirable; it's about how regulations affect the 
quality of life. Are Americans better off or worse off when 
government regulators intervene?
    With that, if you could give me the response either for the 
record or during the course of this hearing, I'd appreciate it. 
I feel very fortunate in having four people of your quality and 
qualifications serving with us.
    Senator Smith. Thank you, Senator Inhofe.
    Senator Carper?

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you and welcome to each of you and 
your families and supporters.
    About 3 months ago, we sat here in this room and Governor 
Whitman sat at that table and we had the opportunity to 
question her with respect to her nomination as Director of EPA. 
She and I were Governors of neighboring States for the last 7 
years and I have a great deal of respect for her. I said, ``You 
have a reputation of always surrounding yourself with excellent 
people in New Jersey, not only in environmental areas but in 
other areas as well.'' I said, I have no concern if left to 
your own devices as Director of EPA, you'll surround yourself 
with excellent people.
    My fear which I expressed at the time was that she would 
not be given free rein in terms of choosing the people who 
surrounded her. I understand today half the people at this 
table are people she chose--I'm kidding. I understand she's 
chosen you all. I have it on good word that you're capable, 
able, hardworking people.
    Ms. Fisher, have you ever been to Ohio?
    Ms. Fisher. I was raised there.
    Senator Carper. Ever been to Ohio State?
    Ms. Fisher. Yes.
    Senator Carper. A couple members of this committee went to 
law school and I was an undergraduate at Ohio State. I welcome 
you and hear very good things about you.
    Mr. Johnson, people sing your praises, and Mr. Holmstead, 
and Mr. Connaughton, I here mostly good things about you. I 
will be honest, a couple of concerns have been raised and I 
hope during the course of the hearing we will be able to 
address any of those.
    Having been through a confirmation hearing of my own, I 
have some idea what you have to go through to be considered. It 
is an awful process. You're to be commended for being here. We 
look forward to this hearing and getting to know each of you.
    Thank you.
    Senator Smith. Senator Bond?

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. The chairman mentioned there are conflicting 
hearings. I may be holding a record this morning. There are 
four hearings I'm supposed to attend this morning but it is 
very important for me to be able to say on the record how 
impressed I am with the four nominees in front of us. Some of 
them I have worked with personally over many years and know 
them well. Others I know them by reputation, by the record they 
have achieved, by their level of service. I've enjoyed the 
opportunity to get to know them.
    We have very tough tasks set out for you and I'll have some 
questions. I want to be here for one round of the questions.
    I do want to say I'm sorry Senator Reid left. I do 
appreciate the fact that we could move forward with this 
hearing. I hope we can move very quickly to confirm all four. 
As Senator Carper, I have some experience as Governor and it's 
one thing to be able to appoint the top policy head of a 
department. That's great, you get all these policy 
pronouncements but without the people to make it work, you 
can't get things done that I think Senator Reid and our 
colleagues on both sides of the aisle want to see done.
    This is a critical time in this Administration because many 
of the departments are sitting there with one head or one plus 
one and the frogs in their pocket are the we that they talk 
about. There is such a disconnect when you don't have the folks 
with responsibility to move the programs forward.
    I hope, Mr. Chairman, we can resolve the questions Senator 
Reid has quickly. I think it can be done more quickly if we had 
a full complement in EPA.
    Thank you for holding the hearing. I appreciate the fact 
that Senator Reid allowed us to go forward with this hearing.
    Senator Smith. Thank you, Senator Bond.
    Let me make one quick announcement. A lot of members do 
have busy schedules but I'm going to stick to 5 minutes on the 
first round and then we'll see where we are after that, so we 
can get through as quickly as possible.
    To each of the witnesses, we'll have a light here for a 5-
minute summary. Your complete statement will be made a part of 
the record. If you could summarize in 5 minutes, I would 
appreciate it.
    Ms. Fisher, we'll start with you.

     STATEMENT OF LINDA J. FISHER, NOMINATED TO BE DEPUTY 
         ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY

    Ms. Fisher. Thank you.
    I'm delighted that President Bush and Governor Whitman have 
invited me to become a member of their environmental team. They 
are committed to continuing the tradition of a strong 
environmental program that has marked this country's history 
for the past 30 years. I am committed to that as well.
    The American people are overwhelmingly supportive of a 
strong government role in protecting the environment. The EPA 
has met that role with remarkable energy and enthusiasm in the 
past and I am confident that EPA will continue to serve the 
American public with distinction under the Bush Administration.
    The American public trusts EPA to protect their families, 
their communities and the land and water and air of our 
country. I understand the enormous responsibilities that come 
with that trust and I will do everything in my power to be sure 
those responsibilities are met.
    As you know, I did serve for 10 years in several management 
positions at EPA. During that time, I witnessed firsthand the 
personal dedication of EPA's career staff. I saw the importance 
of bringing the best science to bear on the difficult policy 
questions the Agency faces and I saw the critical need for 
sound, economic analysis to support those decisions.
    I also learned the importance of a strong enforcement 
program and how important that is to the credibility of the 
entire Agency's programs. I had the opportunity to work in the 
spirit of collegiality with Members of Congress and I grew to 
understand the importance of involving all of the public in our 
decisionmaking. This experience at EPA, and what I took away 
from it, will help me meet the challenges that face every 
Deputy Administrator.
    At the same time, I understand that the environmental 
issues we face have evolved since I was here at EPA. Numerous, 
widely dispersed and small sources of pollution in some places 
are the cause of the most serious environmental problems. New 
problems like climate change have moved to center stage. For 
these new and emerging problems, the Agency's traditional 
regulatory approaches which were critical to past success might 
not be the most efficient or effective. For these reasons, EPA 
is changing too. The Agency today is trying a broader array of 
regulatory tools to meet new environmental challenges.
    For example, over the past decade, economic incentives have 
proliferated at the Federal, State and local level. Under 
Governor Whitman's leadership, EPA will expand the use of these 
tools to help solve ongoing and emerging environmental 
problems.
    For the last several years, EPA has also undertaken a 
number of pilot projects to test innovative ways of 
streamlining the regulatory system. State governments as well 
have tried these new tools. President Bush and Governor Whitman 
want to shape EPA to meet the environmental challenges of the 
21st Century by integrating into the Agency's entire structure 
and culture new ideas for protecting the environment.
    Therefore, over the new few months, we are going to take a 
hard look at these bold experiments, try to identify what has 
worked well, what hasn't worked and understand why. Then in 
partnership with the States, try to integrate where appropriate 
the most effective new ideas into our programs.
    Part of our incentive for incorporating innovation has been 
driven by the business community itself. More than ever before 
in our history businesses are recognizing their role as 
stewards of the environment. They recognize that corporate 
environmental stewardship and social responsibility are 
increasingly essential if they are to operate successfully in 
the global marketplace. More and more businesses today are 
forming voluntary partnerships not just with EPA and State 
regulatory agencies, but also with the public through 
nongovernmental organizations.
    Encouraging and strengthening these partnerships with the 
States, with the public and with the private sector to achieve 
more voluntary environmental protection will be one of my goals 
at EPA. If tomorrow's EPA is to fully and successfully 
incorporate the kinds of innovations I have mentioned today--
innovations like economic incentives and streamlined and 
flexible and regulatory systems, then tomorrow's EPA employees 
will need different kinds of training and skills.
    Yet today EPA faces very serious human resource issues. For 
example, about 50 percent of our senior management may actually 
retire from the Agency over the next 5 years. Developing a 
diverse and well-trained work force that is prepared to meet 
new environmental challenges will be one of the most difficult 
challenges I think Governor Whitman's team is going to face. It 
is a problem I will be personally involved with resolving.
    I would like to say a word about global environment. More 
and more U.S. companies are operating in the global 
marketplace. My experience in the private sector working to 
forge global acceptance of bioengineered agricultural products 
showed me the global dynamic of many environmental issues we 
face today. Problems that are as broad as climate change or as 
focused as pesticide residues are important to virtually all 
nations and they affect everyone on earth.
    How this nation and other nations respond to the 
environmental issues presented by worldwide economic growth and 
expanded global trade will directly affect not just our 
competitiveness but also our ability to protect our global 
environment. Therefore, we must work in concert with other 
governments if we are to attain our environmental and economic 
goals.
    During my tenure as EPA Deputy Administrator I will support 
Governor Whitman as we join in partnerships with countries to 
solve problems that affect the planet we all share.
    Thank you very much. I look forward to working with you and 
members of this committee as we move forward in the next 4 
years. I will be happy to answer your questions.
    Senator Smith. Thank you.
    Mr. Holmstead?

   STATEMENT OF JEFFREY HOLMSTEAD, NOMINATED TO BE ASSISTANT 
   ADMINISTRATOR, OFFICE OF AIR AND RADIATION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Holmstead. Thank you.
    It is a great honor to be here today as the President's 
nominee to be Assistant Administrator for the Office of Air and 
Radiation at EPA. I am pleased to be joined by my wife, my 
children and my parents.
    I sincerely hope that this committee and the full Senate 
will see fit to confirm me because I am very eager to have the 
chance to work with Governor Whitman as she starts her tenure 
as the Administrator of EPA. I believe that with the support of 
President Bush and this committee, I will be able to help 
Governor Whitman make continued improvements in the quality of 
our air, while at the same time making EPA's regulatory 
programs less burdensome and more cost effective.
    Growing up in Boulder, Colorado gave me a great 
appreciation for the environment and the outdoors. Even so, 
when I graduated from law school in 1987, I did not plan to 
spend my career working on environmental problems. After a year 
of practicing corporate law, I had the opportunity to serve in 
the White House under President George Bush, Sr. where I spent 
most of my time working on environmental issues. At the White 
House, I soon found that working to find effective ways to 
protect and improve the environment was more challenging and 
rewarding than anything else I could imagine.
    Ever since, I have focused my career on environmental 
issues. It is indeed a great honor to be nominated by the 
President to continue working on the issues of such great 
interest to me personally and of such vital importance to all 
of us.
    I share Governor Whitman's commitment to protecting the 
environment and her goal of leaving the environment cleaner 
than she found it. I recognize that the job for which I am 
seeking confirmation will present many challenges and many 
difficult issues, but I honestly believe that we can overcome 
the challenges and resolve the issues. My optimism comes from 
the belief that we all share the goals of using good science to 
identify our environmental goals and developing good policies 
to achieve those goals cost effectively.
    Starting from these shared goals, I hope to have the chance 
to work with all the stakeholders that care about environmental 
issues to increase cooperation and decrease the acrimony that 
has occasionally gone along with these issues in the past. I 
think we can take pride in the progress that all of us--States, 
industry, advocacy groups, Congress and EPA--have made in 
cleaning our nation's air over the last three decades.
    Since 1970, when Congress first passed the Clean Air Act, 
we have come a long way in advancing both the science and the 
art of environmental protection. Both EPA and the States have 
become more effective at designing programs to achieve our 
common goals. As Linda mentioned, we are using more market-
based strategies and other flexible regulatory tools. More and 
more, State and local agencies and environmental groups are 
working with businesses to solve environmental problems as 
partners. EPA has been both a partner and often a leader in 
these efforts.
    I believe that EPA can and should do even more. Just 
because a program gets results does not mean that it cannot be 
improved. An effort to make a program simpler and more flexible 
should not be viewed as an excuse to make it less effective. If 
EPA is open to new possibilities, if we actively seek the best 
ideas from everyone--our partners at the State and local level, 
our stakeholders and our staff--we can develop better 
approaches for protecting and improving our nation's air. If we 
base these approaches on the best available science and if we 
focus on results and allow people to find innovative ways to 
achieve those results, we can continue to improve the quality 
of our air and make our regulatory programs less burdensome and 
more cost effective.
    If I am confirmed, I will look forward to working with you 
and your staffs to achieve these goals. Thank you.
    Senator Smith. Thank you, Mr. Holmstead.
    Mr. Johnson?

    STATEMENT OF STEPHEN JOHNSON, NOMINATED TO BE ASSISTANT 
  ADMINISTRATOR, OFFICE OF PREVENTION, PESTICIDES, AND TOXIC 
          SUBSTANCES, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you.
    I am honored and privileged to have the opportunity here 
before you this morning and to be nominated to serve as the 
Assistant Administrator for the Office of Prevention, 
Pesticides and Toxic Substances. As a career civil servant for 
the last 20 years, it is a privilege and distinct honor to have 
the support of President Bush and Governor Whitman.
    During my brief remarks this morning, I will mention 
several key priorities and principles that I will pursue if 
confirmed. Then I'd like to close with a few personal comments.
    Given my private sector and EPA experience, I understand 
the importance of practical and reasonable solutions to today's 
environmental challenges. If confirmed, I will foster an 
atmosphere that is accessible and responsive, I will also 
aggressively promote decisions based in sound science, strive 
to foster consensus-based and common sense approaches as we 
advance public health and environmental protection.
    As you know, our office's major responsibilities include 
pesticide and industrial chemical regulation, food safety and 
pollution prevention. These areas pose enormous challenges as 
well as opportunities. Important work remains.
    Let me mention a few key priorities. Our regulatory 
oversight of pesticides, industrial chemicals, biotechnology, 
food safety and pollution prevention will continue to require 
sustained and dedicated attention. Making sure our decisions 
our based on sound science will require expertise within the 
EPA and active participation of the scientific community, 
including extensive peer review.
    I hope to build on the solid progress under the Food 
Quality Protection Act to reassess the older pesticides, while 
assuring an abundant food supply.
    My office has the additional challenge of addressing the 
cutting edge issues of biotechnology. I will help ensure that 
the United States regulatory system is based in science and 
maintains consumer confidence. This is a key focus.
    On the subject of industrial chemicals, voluntary 
partnerships particularly the high production volume testing 
program and the children's testing program, will be key 
priorities as well.
    I am committed to strengthening the many voluntary 
initiatives and to advance pollution prevention, initiatives 
such as integrated pest management as well as partnerships with 
many organizations like the American Hospital Association.
    I'd like to briefly mention my operating philosophy and 
principles I will follow if confirmed as Assistant 
Administrator. These include advancing the best science to 
support or regulatory decisions; open and regular communication 
with all our stakeholders--in other words, transparency; 
building strong and trusting relationships with all 
stakeholders; working to quickly address the concerns of our 
stakeholders; establishing partnerships; strengthening those 
partnerships with our other Federal agencies, particularly the 
Department of Agriculture, the Food and Drug Administration, 
our States and local communities; and within OPPTS to promote 
professionalism, dedication and diversity within the staff; and 
truly build human capital that we can all be proud of.
    I'd like to close with a few personal observations. My 
father is a World War II veteran and worked in the Department 
of the Navy for more than 30 years. He has a strong commitment 
to public service. Growing up, I always admired his government 
service. His commitment to public service has helped me 
appreciate the importance of reaching for excellence in 
government. I am proud to have the opportunity to continue in 
that tradition.
    I've been fortunate to be able to devote the majority of my 
career to public service and environmental protection. For me, 
serving in the government with a goal to help all Americans and 
their families has been a distinct privilege. When I reflect on 
the past and consider the future, I know that I will face 
difficult, complex and serious issues. Having a foundation in 
sound science, exercising common sense, utilizing cost benefit 
analysis, coupled with extensive stakeholder participation, I 
believe will result in quality decisions.
    As Assistant Administrator, I hope to achieve national 
goals with a keen sense of the needs and realities of our 
individual families and communities. I hope that my service 
will reflect positively on my children, their everyday choices 
and the community that each of us lives in.
    Thank you for the opportunity to appear before you today. I 
look forward to working with you on a bipartisan basis to 
advance public health and environmental protection. I would be 
glad to answer any questions you may have.
    Thank you, Mr. Chairman.
    Senator Smith. Thank you.
    Speaking of a bipartisan basis, it is important to point 
out that you've served Presidents Reagan, Bush, and Clinton 
thus far in your work and now coming back again to work with 
another President, so that is true bipartisanship.
    Mr. Connaughton?

STATEMENT OF JAMES CONNAUGHTON, NOMINATED TO BE A MEMBER OF THE 
                COUNCIL ON ENVIRONMENTAL QUALITY

    Mr. Connaughton. Thank you, Mr. Chairman.
    It is an honor to appear before you and the other 
distinguished members of this committee.
    I am both grateful and honored that President Bush has 
nominated me to be a member of the Council on Environmental 
Quality and if confirmed, to appoint me as chairman.
    Being a lawyer, I'm going to start with the law and it is 
an important one, NEPA. When Congress enacted NEPA over 30 
years ago and created the Council on Environmental Quality, 
Congress declared it is the continuing policy of the Federal 
Government to create and maintain conditions under which man 
and nature can exist in productive harmony and fulfill the 
social, economic and other requirements of present and future 
generations.
    Senator John Chafee, one of the greatest environmental 
statesmen of the Senate, described this quite simply as a tall 
order but an important one. I agree and fully embrace NEPA's 
broad policy objective. It is why I joined the environmental 
profession and have focused my practice on promoting compliance 
and innovative approaches to environmental protection.
    Environmental stewardship is a family matter in my house. 
My daughter, Grace, 6 years old, constantly amazes my wife, 
Susanna and I, with her passion for nature and for 
conservation. She has wonderful little stickers all over the 
house telling us to turn off the water and turn off the lights.
    Every day my son, Spencer, comes into the room first thing 
in the morning and says, ``OK, Daddy, give me an environmental 
issue,'' and then he earnestly and confidently discusses how to 
address it. Their passion and concern reinforces my own 
commitment to environmental stewardship. For that reason, I 
look forward with great enthusiasm to leading CEQ in its core 
mission, first, to provide objective, well informed and 
realistic advice to the President, his advisors and the Cabinet 
about the future direction of environmental police. Second, to 
coordinate the implementation of environmental programs and 
resolve policy disputes among Federal agencies, State, tribal 
and local government and private citizens. Third, to promote a 
balanced decisionmaking process that accounts for the views of 
all affected parties.
    With respect to these three core tasks, I'd like to 
highlight three aspects of my background that are particularly 
relevant to this nomination. The first is the strength of my 
commitment to serving the public interest. I have an 
exceptional role model, my father. With the unflagging support 
of my mother, he spent over 30 years as a clinical professor of 
child psychiatry working to improve the lot of children and 
families, often in the most desperate of circumstances, in 
Baltimore's inner city. I will count myself fortunate if I can 
bring to government service even a fraction of the decency and 
dedication to the public good that my father demonstrated every 
day of his career.
    Second, I am a strong proponent of searching for and 
harnessing the power of consensus in meeting shared 
environmental goals. I have had the privilege of traveling the 
world helping to create international standards that promote 
effective, resulted oriented environmental management and 
responsible environmental communication. These standards 
reflect the consensus of hundreds of dedicated professionals 
from industry, environmental organizations, consumer 
organizations, government and academia from the U.S. and 50 
other countries.
    Tens of thousands of organizations today are quietly and 
efficiently adopting these standards to improve environmental 
performance. Remarkably, participation in this process and 
implementation of these standards is entirely voluntary. I have 
seen firsthand the dramatic results that such voluntary, market 
driven action can achieve. It is faster, it is cheaper and it 
works.
    Third, I am a forceful advocate and practitioner of 
environment stewardship where it matters most, at the source. I 
have spent much of the last 4 years traveling the country 
helping countries implement what is known as ISO 14001, the 
international environmental management system standard from 
Oklahoma City, OK to Ocala, FL, from Detroit, MI to East 
Liberty, OH, from Windfall, PA to Kingstree, SC, I have worked 
with business managers and operators on the factory floor 
showing them how to integrate environmental obligations into 
their day to day operational procedures and their long term 
strategic business planning.
    Their efforts are predicated on three fundamental 
commitments: compliance, prevention of pollution and continual 
improvement. These hardworking people are the nation's front 
line in environmental protection. We must do what we can to 
capitalize on their energy, unleash their creativity and remove 
obstacles to their success.
    President Bush has encouraged Americans to join him in 
renewing our commitment to protecting the environment and 
leaving our children and grandchildren with a legacy of clean 
water, clean air and natural beauty. Embarking on the twenty-
first century of environmental quality requires not only 
reinforcement of what is working but also the zealous 
application of new ideas and new methods.
    If confirmed, I look forward to advancing NEPA's goal of 
ensuring productive harmony between man and nature, to a 
constructive dialog with Congress, with Federal, State, tribal 
and local government agencies and most important, with the 
public whose trust we all hold.
    Thank you.
    Senator Smith. Thank you.
    Let me start by asking two questions which we have to ask 
as part of the committee responsibility. You can answer it 
together. Are you willing at the request of any duly 
constituted committee of the Congress to appear in front of it 
as a witness if requested.
    [All witnesses respond in the affirmative.]
    Senator Smith. The record will show all witnesses answered 
yes.
    Do you know of any matters which you may or may not have 
thus far disclosed which might place you in conflict of 
interest if you are confirmed in this position?
    [All witnesses respond in the negative.]
    Senator Smith. The record will show all witnesses answered 
no.
    If each of you could take about a minute and cite for me, 
starting with you, Ms. Fisher, what you would see as your 
greatest challenge as you come into that position? I'll give 
you the parameters of where I would like to go. Many of you 
have talked about the command control of the past which has 
worked but I think we are now transitioning into a new role 
where more and more businesses are becoming good environmental 
partners. We're talking about good science now, talking about 
cooperation as opposed to confrontation, market-based 
initiatives. So I would say as you step into that role, 
starting with you as the Deputy, what do you see as the 
greatest challenge for you?
    Ms. Fisher. First, we need to recognize that the 
environmental problems we are going to face are going to need 
different solutions and we will need to move the EPA staff, as 
well as the regulated community, toward different kinds of 
solutions. We are all comfortable with how we have done 
business in the past and one of our biggest challenges is going 
to be to learn to address problems differently and in different 
ways than we have in the past, and to get comfortable with 
those, although they look and feel different, that may get us a 
lot of environmental protection.
    Second, as I mentioned in my testimony, this issue of the 
work force, the retirements that we face, identifying people 
who are coming up through the ranks and reaching out beyond EPA 
to find others to bring into the Agency that can serve in these 
very critical positions, is probably the secondmost important 
priority.
    Third is streamlining, the traditional regulatory approach. 
It has gotten us huge successes in the past as you mentioned, 
but we are going to have to find ways to make that regulatory 
system much more flexible, much more nimble if we're going to 
be successful.
    Senator Smith. Mr. Holmstead in your area of the air, we 
now see a situation where energy production is a problem, yet 
at the same time we do have air standards to meet. I might ask 
you to comment on that particular part in terms of your 
priority, how you feel about that, where you would go with that 
issue?
    Mr. Holmstead. I think there are a number of innovative, 
flexible things that we can do to encourage more energy to come 
on line sooner and to address the issues that face many of our 
refineries in terms of the kinds of processes they are 
currently required to undergo before they can make changes. I 
think we can look for additional flexibility in terms of the 
issue of boutique fuels, which to some extent is contributing 
to the gas prices that we face. These issues are both 
challenges and opportunities. I believe we can accomplish all 
of those goals.
    Stepping back and talking more broadly, I think the 
greatest challenge and the greatest opportunity is to work with 
all of you and your staff to fashion legislation to address 
multiple pollutants from electric utilities. As you know, the 
President and the Governor have made this issue a high priority 
and, therefore, it becomes perhaps my highest priority.
    There are a number of very cost effective opportunities to 
reduce pollutants from electric utilities. Because of the way 
the process has worked over the years, there's a number of 
largely uncontrolled plants and I think using the kinds of 
trading approaches, flexible approaches that have been 
successful over the past 10 years, there is a great opportunity 
for the Agency working together with you and others to achieve 
some very significant reductions in that area.
    Senator Smith. The same question for you, Mr. Johnson, in 
the pesticide area?
    Mr. Johnson. I think certainly the greatest challenges that 
we face deal in some specific areas which I mentioned in my 
testimony, including implementation of the Food Quality 
Protection Act and how we reassess these older pesticides, 
making sure they meet today's standards and particularly are 
protective of sensitive subpopulations such as children.
    A statement Governor Whitman has used that I'd like to 
refer to is that the mission of EPA has not changed in the Bush 
Administration. The methods by which we accomplish that mission 
may change. I think there are a number of opportunities as we 
move forward both in implementation of the Food Quality 
Protection Act, as well as dealing with issues of industrial 
chemicals, issues of biotechnology and others, that we do so in 
a partnership way.
    My program has some excellent experience with partnerships. 
One we are heavily involved with now is the High Production 
Volume Challenge Program, a partnership between the American 
Chemistry Council, Environmental Defense and EPA, all working 
together to address an issue where we have a lack of data on 
some of these industrial chemicals. In a collaborative, 
voluntary way we are getting that information. We have made the 
information available to the public. So I think there are those 
kinds of examples we need to build on.
    Senator Smith. Mr. Connaughton, same question.
    Mr. Connaughton. The challenge for CEQ is one that CEQ has 
held for 30 years and that is bringing the Federal departments 
together in a manner where national decisions can be made, in a 
way that promotes our environmental goals but also now more 
importantly than ever, also meets our social and economic 
needs.
    The issues that cut across Federal agencies often lead to a 
pretty robust, extensive and unfortunately lengthy internal 
Federal dialog before we begin to see action in the country. At 
the same time, the process often does not give appropriate 
weight to local input, local needs and the ability and trust 
that I think we can now, 30 years after the beginning of the 
modern environmental regulatory age, give to local and State 
authorities to regain control of the direction in which they 
want to take their communities.
    Senator Smith. Senator Carper?
    Senator Carper. Several of you in your statements mentioned 
your parents. I see one or two in the audience who might 
actually be your parents. Whether you were alluded to or not by 
your children, particularly those of you who were cited as 
wonderful role models in public service, I want to say thank 
you and thank you for raising these children with the kind of 
values that have led them to this hearing today and to their 
nomination.
    Mr. Connaughton, you spoke of your two children and I think 
you mentioned you have a little girl who goes around putting up 
stickers that say turn off the lights and turn off the water. I 
have two boys, 11 and 12. When I arrived home last night, every 
light in our house was on. What's her name?
    [Laughter.]
    Mr. Connaughton. Her name is Grace and you don't want her 
in your house because she will tell your boys, ``nature is 
nature is nature,'' and she knows the connection.
    Senator Carper. Grace, I want some of those stickers to 
take home.
    To the children and your spouses, we thank you for your 
willingness to share your moms and dads and your spouses with 
the people of our country.
    Mr. Connaughton, you mentioned not only are you being 
nominated to serve on the Council on Environmental Quality but 
you might even be its chairman. We have heard some talk that 
there may be a reorganizing of the Council on Environmental 
Quality, some change in its composition, its role. Have you 
heard anything along those lines and if so could you share what 
discussions you've heard?
    Mr. Connaughton. Actually, I'm not aware of any change in 
composition in terms of the way CEQ has operated even 
throughout the Clinton Administration. CEQ's mission is a 
statutory one. Also its mission of interagency coordination and 
advice to the President is a necessary one. It is my 
understanding, based on conversations with the Administration 
in preparing for this hearing, that it is also an intentional 
one for the Administration. The idea is to continue to maintain 
CEQ as an important center for communication and dispute 
resolution within the Federal agencies and to ensure that the 
President has close at hand substantive environmental policy 
advisors who can help him and the Cabinet and his advisors in 
the White House, and ensure that environmental considerations 
are integrated into public policy decisionmaking.
    Senator Carper. Ms. Fisher, during the last Administration, 
those of us who live on the Delmarva Peninsula worked closely 
with your predecessor and with Governor Whitman's predecessor 
on the issue of water quality. I live in a State where there 
are 300 chickens for every person and there are downstream 
consequences for all those chickens. Historically our farmers 
have used the chicken nutrients to fertilize our farm fields. 
We face a situation today where we have about a third as much 
farmland as we had in 1960 over which to spread the nutrients 
and about three times as many chickens. The problem is we have 
too much nutrients, too much phosphorous and are concerned 
about runoff into waterways and ultimately into the Chesapeake 
Bay.
    I had a great opportunity to work with EPA over the last 
couple of years where it said to States, we'll let you figure 
out how to meet the standards. We want to set high standards, 
cleanup our waterways, reduce runoff, but we'll work closely 
with the States. I want you to know a little of the history of 
that and ask you to comment philosophically on how you would be 
inclined to come at it.
    We find if you go to the folks closest to the problem 
sometimes they have a pretty good idea how to fix it. I have 
found that farmers, for the most part, are pretty good 
conservationists. What we have tried to do in our State is to 
empower them to come up with solutions. For example, we have 
called for development of nutrient management plans for each of 
our farmlands. We've not mandated it but have asked it to be a 
voluntary activity. In one of our neighboring States, they made 
it a mandatory activity.
    In a year in my State, close to 100,000 acres of farmland 
now have voluntary nutrient management plans. In our 
neighboring State, I am told none. It says volumes about what 
you can get done when you involve the people on the ground in 
this case in addressing that. Would you give me your take on 
that? By the way, Mike McCabe was the EPA official who worked 
directly with us and very closely.
    Ms. Fisher. I had lunch with him a few weeks ago as I was 
embarking on this new opportunity at EPA to learn from his 
experiences.
    I think you have identified an area where many of the 
agricultural pollution problems we face are not going to lend 
themselves to the typical EPA approach of command and control 
regulation. We have found in the past that working in 
partnership with the States and the farm community can be very 
helpful in identifying as you suggest the most efficient and 
effective ways of protecting the environment. I think 
particularly with sectors of the economy that aren't used to 
environmental regulation, a cooperative approach and one closer 
to the people frequently work a lot better.
    I have not heard particularly what happened in Delaware but 
I'll definitely look into it. I think what you described sounds 
like the model for how we are going to have to deal with many 
of our emerging problems.
    Senator Carper. Thank you.
    May I ask indulgence to ask a question on behalf of Senator 
Reid? It's a yes or no question.
    Senator Smith. All right.
    Senator Carper. This is for Mr. Holmstead. In the pre-
hearing questions I think you responded to, Senator Reid asked 
if you supported the revised national ambient air standard 
quality for ozone and PM 2.5 as published in 1997? His question 
is either a yes or no answer, do you?
    Mr. Holmstead. The short answer is yes.
    Senator Carper. That's a great answer.
    Senator Smith. Senator Inhofe?
    Senator Inhofe. As I listened to your opening statements of 
the five concerns that I had, I think most of you covered most 
of them. Just so we don't overlook them, would you mind 
responding to each for the record. Mr. Johnson, I think you 
covered all of them but I'd like to get it all down so we'll be 
able to refer to it at a later date.
    There is a chart here that we've put together. I have been 
concerned that so much discussion has taken place during this 
time of energy crisis as to what is causing the cost and the 
shortages. A recent report entitled, ``The U.S. Downstream, the 
EPA Takes Another Bite Out of America's Fuel Supply,'' by 
Merrill Lynch concluded that EPA's clean air regulations ``will 
clearly have the impact of reducing existing U.S. refinery 
capacity.''
    As we've gone through these hearings in the past few years 
with the recognition that we are at nearly 100 percent refinery 
capacity, it's very difficult to come to any conclusion other 
than many of these regulations play a part in this. I would ask 
a commitment of you folks that when you're promulgating rules 
and talking about rules that you will consider the energy 
ramifications those rules might provide.
    For the record, they all nodded yes.
    Mr. Holmstead. Senator, if I might add, I believe the 
President's energy advisors have actually advised that he issue 
an Executive Order that specifically requires us to consider 
the energy impacts of any regulations we develop.
    Senator Inhofe. There has another area that hasn't been 
covered and one that I feel very strongly about. A statement 
was attributed to Administrator Browner when she left office 
saying ``At least I won't have to hear Inhofe's Jimmy Dunn 
story anymore.'' Well, we are going to hear it one more time.
    Back in 1994 or 1995, I can't remember which, I got a call 
from a guy named Jimmy Dunn. I happen to know him very well and 
have known him for many years. He is a third generation of Mill 
Creek Lumber in Tulsa, Oklahoma. It is a very competitive 
industry. It was in 1994 because I was still in the House at 
that time. He said, Inhofe, the EPA has just put me out of 
business. I said, what did you do wrong? He said, I don't know 
what I did wrong, I've been giving my used crankcase oil to the 
same contractor for the last 10 years. He's a contractor 
licensed by the Federal Government, by the County of Tulsa, by 
the State of Oklahoma. They traced some of this to the Double 
Eagle Superfund site and I got a letter from the EPA saying 
they are going to fine me $5,000 a day. I said, fax the letter 
to me. He faxed it and it's very carefully worded to inflict 
terror on people.
    I say this in a very serious vein because I spent 30 years 
in the real world many times being abused by the bureaucracy 
myself so I know what it's like to be on the receiving end of a 
bureaucracy that has no limits in terms of resources to expend 
to go after someone. When you casually read this, you would 
assume you would be fined that amount.
    As it turned out, it didn't happen but I've often wondered 
how many Jimmy Dunn's are out there that never wrote a letter 
or made a phone call to a Member of Congress to someone who is 
accountable to the public? You're going to have to talk to 
people in your departments, people answering to you, that there 
is going to be a new attitude in responding to the public and 
recognition that we, the four of you and us at this table, 
actually work for the public and keep in mind they are the ones 
paying for all this fun. I'd like to ask you to make a 
conscious effort to do that. If we do get letters, I won't be 
shy about reading them in these public hearings.
    Thank you.
    Senator Smith. Senator Clinton?

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. I'm always relieved that there is only one 
Jimmy Dunn story. I don't mind hearing it over and over.
    Senator Inhofe. Oh, no, I've got a lot more.
    [Laughter.]
    Senator Clinton. As often as Senator Inhofe has told it, I 
would imagine there would be a lot more stories he could add to 
it. The point is very well taken. Obviously we are looking to 
enforce our laws in a conscious manner and in a way that brings 
people together around the goals we share, not to drive people 
apart or inflict terror on anyone. We want to end up with a 
cleaner environment for our children, especially as beautiful 
children as are here today.
    I think the objective that all of us on this committee 
share is certainly one I heard echoed from each of you. I 
commend you for being willing to take on the responsibilities 
that each of you has signed up for and look forward to working 
with you.
    I had a couple of specific questions. The first are for Mr. 
Holmstead. In response to questions with respect to the current 
enforcement actions against certain power plants, you have 
stated, and I agree 100 percent, that the EPA should set clear 
standards and then vigorously enforce them.
    I'm interested in your reaction to a recommendation that 
appears in the energy policy document that the Administration 
has issued today that the President direct the Attorney General 
to review existing enforcement actions regarding new source 
review to ensure the enforcement actions are consistent with 
the Clean Air Act and its regulations.
    You probably know New York has brought some of those 
enforcement actions out of frustration. We are the recipient of 
a lot of pollution from elsewhere and are looking for a way to 
work with our neighbors in the Midwest to try to end that and 
give them the support they need to be able to do that.
    Given your new position, do you believe these enforcement 
actions are consistent with the Clean Air Act and its 
regulations?
    Mr. Holmstead. I know that those enforcement actions have 
been controversial and some companies have claimed there was 
somehow a change in the criteria used. I have to say that never 
was involved in any of those cases and I really don't know 
exactly what the criteria are. I know that a lot of very smart 
and conscientious people at the Agency believe those are fully 
justified. I have no reason to question that.
    I'm also aware of the President's recommendation that the 
Department of Justice take a close look to make sure they are 
consistent with the Clean Air Act and I will obviously be 
supportive of that effort. I have no idea how this review may 
come out, but I expect it will be completed fairly quickly.
    Senator Clinton. I appreciate that and your personal 
attention to it is very welcome.
    Following up on that, acid rain has been a particular 
problem in the northeast. It is something that affects the 
chairman's State and my State and is a real challenge we are 
trying to deal with but we can't do it in our States. There is 
no way New Hampshire and New York can control the acid rain 
because we don't generate it. The wind patterns obviously bring 
it to us.
    There is a very specific issue that I'm concerned about and 
that is whether or not you support the NOx SIP Call and whether 
you support a Federal requirement to make the NOx SIP Call 
annual as opposed to only governing the 5-month ozone season. 
Do you have any response to that?
    Mr. Holmstead. I--and anyone I think who believes in cost-
effective regulations--believe that the NOx SIP Call is a very 
effective way to reduce not only the problem of acid rain but 
other problems as well. As you know, NOx is a significant 
contributor to ground level ozone and to fine particulates and 
other things. I have to say I have not thought a lot about 
whether the NOx SIP Call should be an annual program.
    The President and Governor Whitman, and others, have made 
it clear that having a multi-pollutant bill is a high priority. 
As you know NOx is only one of the casues of acid rain. The 
primary cause is SO<INF>2</INF>. We recently entered the Acid 
Rain Trading Program under Title 4, and it will be fully 
implemented by the year 2010. So those emissions will continue 
to decrease over the next 9 years. I think it's pretty clear 
that we can and we should do more cost effectively; but under 
our current Clean Air Act authority, we have no other mechanism 
for getting additional SO<INF>2</INF> reductions.
    So I look forward to working with you and others to develop 
a multipollutant bill that would further address that issue.
    Senator Clinton. I am so pleased to hear that. I think this 
committee in a bipartisan way can produce a multipollutant bill 
that would take care of NOx, SO<INF>2</INF> and mercury. We 
obviously have disagreements about carbon dioxide but it 
certainly would add to the ability of all of us from the 
Federal and State perspective to be able to control the acid 
rain problem.
    I have a quick question for Mr. Connaughton. I thank you 
for literally talking with me on the run yesterday. One thing I 
haven't gotten used to is I set an appointment, then I have to 
go vote, and run down the hall with a nominee running with me 
to be able to have a conversation. I appreciate that.
    Mr. Connaughton. I like dynamic conversations.
    Senator Clinton. That was dynamic and I was impressed you 
weren't winded.
    I want to make clear for the record something you and I 
talked about yesterday which you graciously provided in a 
letter dated May 4 with respect to your previous representation 
of General Electric. I want to be sure I understood that you 
will recuse yourself, not just for one year but a full recusal 
for the time of your service on decisions related to the Hudson 
River PCB cleanup where General Electric is a responsible 
party. Is that correct?
    Mr. Connaughton. That is correct, Senator.
    Senator Clinton. What about other matters in which GE is 
involved or other previous clients? Will that similarly affect 
your recusal policy?
    Mr. Connaughton. In preparing for this hearing, I worked 
very closely with the Office of Government Ethics. They 
evaluated all the matters that I worked on and we prepared the 
letter you saw on May 4. I think there were six or seven 
particular matters where the full recusal was described. We 
wanted to do that before this hearing so there would be no 
question about that.
    Then as we move forward, I have committed and will live up 
to the ethics laws. CEQ typically doesn't get into the 
particular details in these matters, so it would be very 
unusual for any of those kinds of conflict scenarios to arise, 
but certainly I'll be exercising appropriate prudence and an 
abundance of prudence. It does not serve either the President 
and the Federal Government nor outside stakeholders to create 
appearances of conflict where it is not necessary. The goal is 
to advance environmental policy.
    Senator Clinton. Thank you, Mr. Connaughton.
    Senator Smith. Senator Bond?
    Senator Bond. A few general comments. If anybody would like 
some more Jimmy Dunn stories, we can provide them. Missouri is 
full of them and don't think just because we don't take up the 
time that they aren't there. We're happy to supply them at your 
request.
    Second, the discussions brought to mind one of the guiding 
principles that Administrator Whitman has set forth and that is 
to use sound science. Acid rain particularly floats my boat 
because I was one who worked with Senator Byrd on the acid rain 
trading system to cram through the acid rain provisions in the 
Clean Air bill. It was done in a hurry to make sure that law 
was in place prior to the completion of the multiyear, $1 
billion NAPAP study, National Acid Precipitation Assessment 
Project which determined that frankly all the cost and burdens 
that were put forth in those particular provisions on clean 
air, were excessive and perhaps much of the benefit could be 
achieved by putting lime in 26 lakes in the northeast. Whether 
the science has changed or not, I think the precedent that this 
Congress adopted at the urging of the Administration and with 
the leadership of some in Congress of moving prior to getting 
the science is precisely the kind of effort we don't want to 
see. We don't want EPA doing that and I hope you would help 
rein us in prior to making similar precipitous moves in the 
future.
    There has been a lot of discussion about the National 
Energy Policy and I guess since 10:45 a.m. has now come and the 
President has officially released it, I was reading through the 
recommendations. It looks like EPA has a big chunk of the pizza 
pie that's come out. I was particularly interested, Mr. 
Connaughton, in Chapter 3, the NEPD Group recommends the 
President issue an Executive Order to rationalize permitting 
for energy production in an environmentally sound manner by 
directing Federal agencies to expedite permits and other 
Federal actions necessary for energy-related project approvals 
on a national basis.
    An interagency task force is to be chaired by CEQ to ensure 
Federal agencies responsible for permitting energy related 
facilities are coordinating their efforts. I assume this 
doesn't come as a surprise to you. Do you have any feelings at 
this point as to the direction or the possible benefits in 
terms of energy supply that might come from such a 
rationalization?
    Mr. Connaughton. I too recently learned. I have not yet 
seen the policy but anyone reading the school newspaper we all 
read knows that was coming.
    I look forward to taking on that challenge. It is an 
important one for our economy and at the same time, it is 
important that we meet the goals of NEPA in ensuring that it's 
done in an environmentally responsible way. To me this is 
mainly a process issue; it is not an environmental issue, per 
se, internally, but certainly externally getting new energy 
supplies up and on line has an environmental dimension. 
Generally, newer is cleaner. Getting our old infrastructure 
replaced in an effective and timely way I think promotes not 
just our economic good but also our environmental good.
    In terms of the process, it's going to be daunting. There 
are numerous Federal agencies with numerous responsibilities in 
any of these kinds of initiatives. I am a very goal oriented 
person. In the time I have spent running around the country and 
other parts of the world with very large organizations, we have 
had our greatest success when we defined a goal and then 
reached consensus on process. I find that is a very effective 
way of making things happen fast.
    I'm hopeful with the authority provided under NEPA, and 
with close cooperation of the folks internal to the Government 
but as importantly external stakeholders, we can see real 
results in terms of streamlining.
    Senator Bond. I suggest once you have an opportunity to 
review this document, you will be further daunted because CEQ 
obviously is going to play an important role as it should as 
will the Environmental Protection Agency.
    I'd like to turn to Linda Fisher for another particular 
area of great interest to me and that is infrastructure 
development and maintenance. We think it is imperative for this 
country, highways, runways, waterways, pipelines, power plants, 
not just for convenience and economic growth but good highways 
in Missouri mean saving lives. We kill people on inadequate 
highways where we are not able to build highways.
    Today, it can up to 8 to 10 years to go through the process 
for a highway project, 10 to 15 years to build a runway for an 
airport. I think that is unacceptable. We all want sound 
environmental protections based on science and common sense. We 
need to build, modernize and maintain our infrastructure 
because, as Mr. Connaughton said, newer is usually safer. I 
think EPA can do more to streamline and coordinate the efforts.
    What recommendations would you have and how can EPA take 
steps to ensure that the environmental goals and protections 
mandated are observed but we can move these projects to get the 
infrastructure we need?
    Ms. Fisher. I think EPA has actually already started a 
process with CEQ to look at the permitting issues raised or 
presented by some of the infrastructure improvements and 
expansions, particularly in the transportation sector. It's an 
area that has been identified for the Agency and they have 
already begun to see what they can do to make streamlining 
changes.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Smith. Do you have any further questions, Senator 
Bond? I'd be happy to yield.
    Senator Bond. I appreciate your indulgence. I wanted to ask 
a quick question to Mr. Johnson. I'm very impressed with your 
record of service.
    I would like your assessment on whether you feel the food 
safety laws that you have, FDA has, and USDA has, provide 
adequate authority and responsibility to understand and 
consider and make approval or disapproval decisions on new 
products produced with modern biotechnology?
    Mr. Johnson. I believe the laws we have and the framework 
the Government has, and certainly the role of the Department of 
Agriculture and the Food and Drug Administration and EPA, is a 
sufficient regulatory framework to carry out our 
responsibilities to ensure that this type of technology is 
advanced, is promoted and at the same time that we can assure 
complete public health and environmental protection.
    Having said that, it is an area of rapidly evolving science 
and it is one that there are new science issues that confront 
us each and every day. So I believe it really calls on each of 
us, both at EPA, USDA and FDA, to make sure we have a very 
close, coordinated working relationship and to make sure that 
while the laws are adequate, we need to make sure there is 
close cooperation to ensure we are making the right decisions.
    I think certainly we have taken a number of steps. In fact, 
there is a senior Ag biotech advisory committee that is Cabinet 
level. A number of the Secretaries, including Governor Whitman, 
sit on it to oversee and help ensure we have that close 
coordination.
    Senator Bond. The process is working now though?
    Mr. Johnson. So process is working now, correct.
    Senator Bond. I can't leave without putting on my small 
business hat to ask Linda Fisher if she's familiar with the 
provisions of SUBRA, the Red Tape Reduction Act, which requires 
that EPA convene panels to consider the impact on small 
businesses and how the goals of a particular regulation can be 
achieved with minimal impact on small businesses that might 
otherwise be unnecessarily hindered without achieving any 
greater environmental benefit. Are you familiar with that 
process and do you agree to support it and ensure its terms are 
met?
    Ms. Fisher. Yes, Senator, I am familiar with it. It is one 
of the laws passed since I left government. I have been briefed 
on it and do intend to support it and ensure it is properly 
implemented at EPA.
    Senator Bond. As the author of the law, we'd be happy to 
help you. We have some people who are available if you have any 
questions about it. We look forward to working with all of you 
on that.
    Thank you again, Mr. Chairman, for your indulgence.
    Senator Smith. Thank you, Senator Bond.
    I want to thank all of the witnesses for being here. I must 
say your parenting is obviously done very well. All these young 
children and we haven't had any eruptions or problems at all. I 
complement you on that.
    I want to make a couple of closing announcements. I do have 
a business meeting scheduled for next Wednesday, the 23d at 
9:30 a.m. to move your nominations from the committee to the 
floor. Largely because of the impending Memorial Day recess, I 
want to report these nominees at that meeting.
    It is my understanding that all the nominees have made 
themselves available to each of the members and their staffs 
and at least one has already received and responded to some 30 
or so written questions. Any additional written questions that 
may be offered would be due by noon tomorrow and if those 
questions are received, they will be provided to you. If you 
can get those back to us in writing by noon Tuesday, the 22d, 
we will be ready to report you out the following day on 
Wednesday.
    That is all we have at this time. Thank you to each one of 
you for being here.
    The hearing is adjourned.
    [Whereupon, at 11:15 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Mr. Chairman, I want to thank you for holding this nomination 
hearing so quickly. I think it is important for us to move these 
nominees and confirm them.
    I know a lot of members have a number of issues with different 
programs at the Agency, and right now we only have one Senate confirmed 
person over at the EPA and that is Administrator Whitman. Many of the 
issues that members are raising would best be addressed through the 
oversight process so I believe we should confirm these people as 
quickly as possible and hold as many Oversight Hearings as we need. It 
makes no sense to continue to beat up on an agency with only one 
nominee in place.
    I am thoroughly impressed with the caliber of today's nominees.
    Linda Fisher, Deputy Administrator of EPA--I have been impressed 
with Ms. Fisher for a number of years, in fact I tried to get her to 
come back to Ohio to be the head of the Ohio EPA when I was Governor. 
With her experience at the EPA I believe she will make a great Deputy.
    Jeff Holmstead, Assistant Administrator for Air--I met with Mr. 
Holmstead yesterday and I was impressed with his experience. He worked 
on the Clean Air Act Amendments of 1990 in the first Bush White House 
so I know that he understands the issues and has a lot to contribute.
    Steve Johnson, Assistant Administrator for Prevention, Pesticides, 
and Toxic Substances--Mr. Johnson is a career EPA employee and I think 
it's great that the President nominated him for this position. As I 
have stated before I am very concerned about the Human Capital Crisis 
in the Federal work force. Nominating a career employee sends a very 
positive message that excellence in government is rewarded. That's a 
positive message we need to send to attract high caliber recruits into 
the work force.
    Jim Connaughton, Member of the Council for Environmental Quality--
Mr. Connaughton brings excellent credentials including his voluntary 
work with the ISO-14,000 process which are the international 
environmental compliance standards. In that capacity I understand he 
has worked with over 60 different business sectors, environmental 
groups and international countries, reaching consensus. This is exactly 
the type of job skill needed at CEQ. You need someone who can problem 
solve with multiple parties.
    I think the President has made four excellent choices for these 
important positions. The major issue which I would like you all to 
address is how we deal with the Human Capital Crisis in the Federal 
work force. I would like suggestions from you on how we can better 
attract top candidates and an understanding of how the problem affects 
the EPA.
    Ms. Fisher, specifically I would like you to address an issue with 
the SES (Senior Executive Service) employees. We have a lot of talented 
and dedicated employees who have been in their jobs for a number of 
years. I know the SES program recommends that senior managers rotate 
their jobs, I believe every 5 years. I would like you to look into this 
and see when it was last done. It is a good way of relieving job 
boredom and it provides managers with an opportunity to spread their 
skills across the Agency and creates a more vibrant workplace.
    I look forward to working with all of you and I hope we can get you 
confirmed as quickly as possible. Thank you Mr. Chairman.
                               __________
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you Mr. Chairman. I would like to thank the nominees and 
their families for being here today.
    As I'm sure you know, the Environmental Protection Agency is very 
important to my State. And, for the most part, I think the EPA has done 
a good job partnering with the people in Montana. I'd like to continue 
that trend with the present administration. My No. 1 concern, of 
course, is the health and safety of the people of my State and the 
nation. And that concern goes hand in hand with protecting our 
environment.
    Our industrial history has left Montana with a legacy of 
contamination, from acid mine drainage to asbestos. The clean-up of 
Montana's sites has been a tremendous financial and technological 
challenge, costing hundreds of millions of dollars. We've had some 
terrible tragedies as well. Hundreds of people in Libby, Montana have 
become sick or died because of their exposure to asbestos. This 
asbestos originated at a vermiculite mine nearby. Workers brought the 
dust home on their clothes, mine waste was used at the local high 
school track. Per capita, more people have been diagnosed with asbestos 
related diseases in Libby than anywhere else in the country. In short, 
Libby, Montana has become one of the worst industrial disasters in the 
history of the nation.
    It's my top priority to ensure the residents of Libby get the help 
they need to make their homes and community safe for them, their 
children and their grandchildren. And, to make sure that this type of 
disaster never happens again in this country. I want the EPA to be able 
to effectively protect people from the hazards of asbestos, and other 
toxic substances.
    EPA is currently conducting assessments of the indoor air levels of 
asbestos in Libby homes, many of which have asbestos insulation that 
originated at the Libby mine. I encourage EPA to thoroughly investigate 
the potential danger posed by this type of asbestos insulation in 
homes. Libby residents, and people from across the country who have 
homes insulated with same type of asbestos, are understandably 
concerned that their insulation may be increasing their exposure to 
harmful asbestos fibers. I will be very interested to see the results 
of EPA's assessments, and to discuss further with the Agency the 
potential impacts of those results, both on public health and on 
possible removal efforts.
    I know not all of the nominees here today are involved in this 
issue, but I wanted to stress its importance to me and my State, and 
the nation. I will be interested to hear your views on this subject, 
and others, such as pesticide harmonization and natural resource 
damages. I thank you for your time, and I look forward to working with 
all of you if you are confirmed.
                               __________
     Statement of Linda Fisher, Nominee for Deputy Administrator, 
                    Environmental Protection Agency
    Mr. Chairman, and distinguished members of this committee. I have 
the honor and pleasure to appear before you today as the nominee to be 
EPA's new Deputy Administrator. I am delighted that President Bush and 
Governor Whitman have invited me to become a member of their 
environmental team. I believe I am uniquely qualified to support that 
team, and contribute to the environmental and human health improvements 
that are a major goal of the Bush Administration.
    President Bush and Governor Whitman are committed to continuing the 
tradition of strong environmental progress that has marked this 
country's history for the past 30 years. I am committed to it as well.
    The American people are overwhelmingly supportive of a strong 
government role in protecting the environment. The Environmental 
Protection Agency has met that role with remarkable energy and 
enthusiasm in the past, and I am confident EPA will continue to serve 
the American people with distinction under the Bush Administration. The 
American public trust EPA to protect their families, communities, and 
the land, air, and water where they live. I understand the enormous 
responsibility that comes with that trust, and I will do everything in 
my power to make sure those responsibilities are met.
    To this end, I believe my previous experience at EPA will be of 
great benefit. As you know, for 10 years I served in several management 
positions at EPA. During that time I witnessed first-hand the personal 
dedication of EPA's career staff. I saw the importance of bringing the 
best possible science to bear on difficult policy questions. I saw the 
critical need for solid economic analysis as a bedrock support for 
environmental decisions. I learned the importance of a strong 
enforcement program to the credibility of the Agency's programs. I had 
the opportunity to work in a spirit of collegiality with Members of 
Congress in order to attain our shared environmental goals. I grew to 
understand the importance of involving the public in our 
decisionmaking. This experience at EPA--and what I learned from it--
will help me meet the challenges that face every EPA Deputy 
Administrator, and will help me provide more capable service to 
Governor Whitman, President Bush, and most important to the American 
people.
    At the same time, I understand that environmental issues have 
evolved a great deal since I left EPA. Numerous, widely dispersed, and 
smaller sources of pollution are in some places the cause of the most 
serious environmental problems. New problems, like climate change, have 
moved to center stage. For these new and emerging problems, the 
Agency's traditional regulatory approaches, so critical to bringing 
about past successes, may not be the most efficient or effective 
response.
    For these reasons EPA is changing, too. The Agency today is testing 
a broader array of regulatory and non-regulatory tools to meet new 
environmental challenges. For example, over the past decade 
environment-related economic incentives have proliferated at the 
Federal, State, and local levels. Whether they take the form of 
environmental fees and charges, deposit-refund systems, marketable 
permits, information systems, or other voluntary programs, economic 
incentives have shown that they can make a unique, effective, and low-
cost contribution to the nation's environmental efforts. Under Governor 
Whitman's leadership, EPA will expand the use of economic incentives to 
help solve both ongoing and emerging environmental problems.
    For the last several years EPA also has undertaken a number of 
pilot projects to test innovative ways of streamlining the regulatory 
system, making it more flexible, and cutting red tape. State 
governments as well in New Jersey, for example have taken the lead in 
testing promising new ways of controlling pollution from point sources. 
President Bush and Governor Whitman want to shape EPA to meet the 
environmental challenges of the 21st century by integrating into the 
Agency's whole structure and culture the best new ideas for protecting 
the environment. Therefore, over the next few months we're going to 
take a hard look at these bold experiments, and identify what works, 
what doesn't work, and why. And then in partnership with the States, we 
will integrate, where appropriate, the most effective ideas throughout 
our programs.
    Part of our incentive for incorporating innovation throughout EPA 
is being driven by the business community, which like EPA is also 
changing to meet the challenges of the future. More than ever before in 
our history, many businesses are recognizing their role as stewards of 
the environment. They recognize that corporate environmental 
stewardship and social responsibility are increasingly essential if 
they are to operate successfully in the global market place. It is 
important to attracting the best employees, it strengthens their 
relationships with their communities, and it builds a more positive 
relationship with their customers and shareholders. More and more 
businesses today are forming voluntary partnerships not only with EPA 
and State regulatory agencies, but also with non-governmental 
organizations, here and abroad. Encouraging and strengthening those 
partnerships with the public, with the States and with the private 
sector to achieve more voluntary action, will be one of my goals at 
EPA.
    If tomorrow's EPA is to fully and successfully incorporate the 
kinds of innovations I've mentioned today innovations like economic 
incentives, streamlined and flexible regulatory systems, and voluntary 
partnerships , then tomorrow's EPA employees will need different kinds 
of skills and training. Yet EPA today is facing serious human resource 
issues. For example, 50 percent of our senior leadership may retire 
within the next 5 years. Developing a diverse, well-trained work force 
that is well prepared to meet new environmental challenges with a 
broader array of creative, more flexible tools, may be one of the most 
difficult problems facing our new management team at EPA, and one that 
I intend to be personally involved with.
    I would like to say a final word about the global environment. More 
and more, US companies are operating in the global market place. My 
experience in the private sector, working to forge global acceptance of 
bioengineered agricultural products, showed me the global dynamic of 
many environmental issues today. Problems as broad as climate change 
and as focused as pesticide residues are important to virtually all 
nations, and they affect virtually everyone on earth. How this nation 
and other nations respond to the environmental issues presented by 
worldwide economic growth and expanded global trade will directly 
affect not only our competitiveness, but also the quality of our global 
environment.
    Therefore, we must work in concert with other governments if we are 
to attain our mutual environmental and economic goals. During my term 
as EPA Deputy Administrator I will support Governor Whitman and the 
rest of EPA as we join in partnership with countries to solve problems 
that affect this precious planet that we all share.
    Thank you very much. I will be happy to answer any questions you 
may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses by Linda Fisher to Additional Questions from Senator Reid
    Question 1. Little or nothing is known about the health effects of 
exposure to tens of thousands of chemicals commonly used in this 
country; and the standards and procedures for restricting chemicals 
under the Toxics Substances Control Act, particularly as interpreted by 
the court in the asbestos decision, are so cumbersome that TSCA is not 
an effective tool for protecting the public from what can be very 
dangerous and even deadly substances. The more I learn about cancer 
clusters and disease outbreaks with suspected environmental links, the 
more I am convinced that we have to place a higher priority on 
understanding the health impacts of chemicals and environmental 
contaminants, and on protecting the public from exposure to substances 
that may adversely affect their health.
    As Deputy Administrator, will these be priority issues for you, and 
will you commit to working with me, and this committee, toward 
improvements in these areas?
    Response. Yes, I am committed to ensuring that EPA has the ability 
to effectively regulate industrial chemicals in this country and to 
protect public health and the environment. Although TSCA was passed 25 
years ago this year and has not been reauthorized since that time, it 
does still provide the Agency with the authority necessary to assess 
new chemicals coming into the marketplace, gather information on 
chemicals currently produced and circulated in commerce, identify and 
require further testing on chemicals that may pose risks, and control 
production and commercial distribution of those chemicals which may 
pose an unreasonable risk to health or the environment. In addition, 
TSCA requires chemical companies to provide the Agency with all 
available scientific information regarding health and safety concerns 
on the chemicals that they produce.
    Since the 1970's, EPA has implemented TSCA to ensure that new 
chemicals are screened prior to their introduction into the 
marketplace. Currently, EPA is reviewing about 1200 new chemical 
submissions a year. Last year, 700 were permitted to be sold in the 
U.S. To address the most widely used chemicals in this country, EPA 
launched the High Production Volume (HPV) Challenge program in 1998, 
which asked the U.S. chemical industry to voluntarily provide health 
and safety data to the public on the almost 2800 HPV chemicals. In 
addition, the Agency established a voluntary initiative to gather 
critical data on those chemicals that may pose a risk to children.
    You may also be aware that the Agency has significant efforts 
underway to reduce chemical emissions, to prevent pollution from the 
outset, to design and provide safer chemicals from the start, and to 
work with the chemical industry to find safer chemical substitutes.
    The Agency appreciates the interest that this committee has in our 
ability to ensure that chemicals are used safely in this country, and 
we stand ready to work with you in addressing some of the challenges in 
implementing TSCA.

    Question 2a. I am very concerned about the proposal to cut 270 
positions from the EPA enforcement staff nationwide. I think that the 
States play a vital role in enforcement, but the States and Federal 
Governments play complementary roles and should both be sufficiently 
funded.
    Do you think that there has been unnecessary money devoted to 
Federal enforcement at EPA? If so, which cases or programs do you feel 
should not have been taken?
    Response. I believe that the FY02 budget request has sufficient 
resources to sustain a vigorous environmental monitoring and 
enforcement program while providing the States with additional 
resources to carry out delegated enforcement and monitoring activities. 
This will allow the Federal program to focus on those aspects of 
environmental enforcement which the States cannot do, or in which they 
need assistance, e.g., non-delegated programs, addressing significant 
violations by large, multi-State industries, or acting as backup for 
State and tribal enforcement efforts.

    Question 2b. Can you guarantee that the States can replace all the 
Federal actions which would have been taken but for the funding shift?
    We are not identifying specific actions that must be conducted by 
the States with the grant funds. However, as the Administrator has 
said, the States are closer to the environmental problems and will be 
able to use the grant funding effectively to enforce environmental laws 
at the local level and ensure a consistent national level of 
environmental enforcement.

    Question 2c. Do you plan on requiring the States to use the money 
for strictly enforcement actions? How do you plan to measure the 
success of the State enforcement programs?
    Response. The States will have flexibility to use the grants for 
enforcement and enforcement related activities, including compliance 
monitoring and compliance assistance for the regulated community. 
States will be held accountable for their results through reporting 
mechanisms established in the grant guidance and agreements that will 
be developed during the coming months, with input from States, Tribes, 
and other stakeholders.

    Question 3.  In light of the cuts in positions in your Office of 
Enforcement and Compliance Assurance at EPA, what activities do you 
think might be affected? Are there certain programs or initiatives that 
you are planning on protecting from these cuts? What will you do if 
there is a case, for example, in a small State with a small legal 
office, that the State does not have the resources to address?
    Response. The enforcement programs affected by the workyear 
reduction will be identified as we work with the regional offices and 
States during development of the fiscal year 2002 work plans. EPA will 
continue to have a vital role in shaping and carrying out the nation's 
environmental compliance and enforcement program. The Agency will 
continue to take actions where there are significant violations at 
companies with facilities in more than one State, where States are not 
yet delegated programs, and where the Federal Government is the 
statutory lead. EPA will also backup States where they cannot get the 
job done.

    Question 4.  Soon industry will begin screening tests of high 
production volume chemicals, under the voluntary program worked out by 
EPA, Environmental Defense and the chemical industry. This is long 
overdue. I think the public would be shocked to learn how little is 
known about the potential dangers of chemicals before they are allowed 
into commerce. My question is about the need for action beyond the HPV 
program. Simply comparing requirements of TSCA with those under the 
Food Quality Protection Act raises some seemingly obvious deficiencies 
in TSCA. Has EPA prioritized chemicals for testing, so that those that, 
based on current information, pose the greatest threat to health or 
high risk of exposure will promptly be subject to analyses beyond HPV 
screening? What about chemicals that new biomonitoring data reveals are 
pervasive in the general population?
    Response. As you know, the HPV Challenge Program, launched in 
October 1998, will provide EPA and the public with Internet access to 
screening level health and environmental effects data on over 2,100 
widely used chemicals. The data made publicly available through this 
collaborative effort will allow a diverse set of stakeholders, 
including Federal, State and local governments and other interested 
parties to set priorities for the collection of additional information. 
This program will help the Agency prioritize higher order testing and 
exposure analyses to ensure that risk assessment and management 
activities focus on chemicals which may present the greatest risks. In 
addition, EPA has established a Master Testing List (MTL) which serves 
as an agenda to prioritize industrial chemical testing needs of EPA and 
other Federal agencies. EPA also participates in the Organization for 
Economic Cooperation and Development's (OECDs) HPV Screening 
Information Data Set (SIDS) Program, which screens HPV chemicals to 
evaluate the need for followup action from a global perspective. The 
OECD process provides a platform to harmonize chemical testing protocol 
and laboratory testing, as well as opportunities for international 
collaboration to share costs.
    In December, 2000, EPA launched a pilot of the Voluntary Children's 
Chemical Evaluation Program (VCCEP) that specifically used 
biomonitoring data as a key parameter to identify and focus on 
chemicals to which children would have the highest likelihood of 
exposure. EPA selected chemicals for the first tier pilot which were 
found to be present according to available biomonitoring data to be 
present in the human body (adipose tissue/blood/breast milk and breath) 
and found by existing environmental data to be present in a person's 
environment( in food, drinking water, breast milk, air). The VCCEP was 
developed through an extensive stakeholder involvement process. The 
program is designed to ensure that health effects and exposure data are 
made available in a phased (tiered) process. Development of such data 
will allow EPA and others to evaluate potential health risks to 
children associated with certain chemical exposures so that appropriate 
mitigation measures may be taken. EPA will use available biomonitoring 
data in setting chemical risk assessment priorities.

    Question 5. Shouldn't the Congress and EPA be taking a hard look at 
issues under TSCA beyond HPV testing, such as (1) whether there's a 
need to more effectively set priorities to ensure prompt focus on 
additional testing of chemicals that pose the greatest risk of exposure 
or adverse health effects, and (2) whether the current standard and 
mechanisms under TSCA for testing and restricting chemicals promote 
timely and effective action necessary to ensure basic protections to 
public health?
    Response. Yes, if it is the will of Congress, the Agency stands 
ready to assist this committee on efforts to address improvements to 
TSCA.
                                 ______
                                 
    Responses by Linda Fisher to Additional Questions from Senator 
                               Voinovich

    Question 1. As part of my concern for the Human Capital Crisis 
currently affecting the Federal work force and EPA in particular I am 
interested in the general work assignments of the Senior Executive 
Service (SES) employees. We have a lot of talented and dedicated 
employees who have been in their jobs for a number of years. I know the 
SES program recommends that senior managers rotate their jobs on a 
regular basis. I would like a commitment from you to look into this and 
see when it was last done. It is a good way of relieving job boredom 
and it provides managers with an opportunity to spread their skills 
across the Agency and creates a more vibrant workplace.
    Response. I too am greatly concerned by the serious Human Capital 
Crisis facing the Federal work force and EPA in particular. I 
appreciate your thoughtful remarks on this matter and am pleased to 
respond to your question regarding EPA's efforts to rotate members of 
the Senior Executive Service (SES).
    You have my commitment that I will explore this issue further, but 
I would like to provide some preliminary information so that I am 
timely in my response to your request. As part of its overall Human 
Capital Strategy, EPA has been closely examining its work force, 
including issues such as recruitment, retention, retraining, and 
retirement. This strategy focuses on the issues facing our most junior 
positions as well as our those in our distinguished SES corps. We 
recognize that we must maintain an energized unit of senior leaders 
with a wide and diverse spectrum of skills and experiences to see us 
through the challenges that lie ahead.
    Accordingly, we have begun to consider options for an SES 
rotational program that incorporates the best features of previous 
efforts to formally rotate members of EPA's SES corps. We will also 
integrate new and innovative approaches that will enhance previous 
efforts. SES rotations will carefully assess individual and 
organizational needs so that the right opportunities are created and 
lasting benefits are realized. This proposal will be vetted among the 
senior management team in the coming weeks and finalized accordingly.
    While I agree that more should and can be done to broaden the 
experiences of our SES and to revitalize its members, our current SES 
corps is quite mobile. Please consider the following data: 
approximately 59 percent of our SES employees have been in their 
positions for less than 5 years; 25 percent of our SES employees have 
changed positions within the last 5 years; 10 percent of SES employees 
at EPA are reassigned to different positions each year; and of these 
reassignments, approximately 30 percent are across program or regional 
office lines and 10 percent are geographic.
                                 ______
                                 
 Responses of Linda Fisher to Additional Questions from Senator Baucus
    Question 1. Do I have your commitment that you will maintain 
momentum on the issues which continue to challenge the EPA in Libby, 
Montana, including maintaining funding, until we have a clean bill of 
health for the people in Libby, MT? I can't tell you right now exactly 
what we'll need, because the situation there is fluid, but I want to 
know that you are committed to doing what's necessary to protect the 
people in Libby from further contamination, as quickly as possible.
    Response. EPA has committed substantial resources for Libby, MT, 
cleanup activities and is committed to sustained funding for further 
cleanup action. Cleanup activities involve various commercial 
properties (Export Plant and Screening Plant), some residential areas, 
and the school areas (including the high school track, middle and 
elementary school play areas). In fiscal year 2000, EPA expended $12 M 
for cleanup. Thus far in fiscal year 2001, EPA has committed $18M to 
clean up. EPA is now engaged in sampling scenarios for 15-25 homes to 
determine the full extent of contamination in the Libby community. In 
late fiscal year 2001, EPA will ascertain the need for further cleanup 
activity at residential properties.

    Question 2. Ms. Fisher, you've testified in front of this committee 
before on asbestos related issues. As I'm sure you know, EPA tried to 
tighten regulations on asbestos, but ultimately failed. There is 
overwhelming scientific evidence and information on the hazards of 
asbestos, and despite that, EPA is still not allowed to more 
effectively protect people from it. EPA needs the necessary tools to 
more effectively regulate dangerous substances such as asbestos. I want 
to know if you, Ms. Fisher, are committed to working with me and the 
members of this committee and Congress to make sure no further 
tragedies like Libby happen because of asbestos or other toxic 
substances.
    Response. You can be assured that I personally and the Agency will 
do everything possible to ensure that there are no future situations 
like the one in Libby. The situation in Libby is tragic, and EPA is 
taking meaningful steps to help better understand and resolve the 
matter. Let me outline some of the steps being taken:
    1. I understand that the agency is at the early stage of forming a 
Blue Ribbon Panel which will seek expert views on how the Agency should 
proceed with our asbestos and durable fibers program. The Panel's 
charge will be to explore options including but not limited to:

    <bullet>  Revising the current NESHAP for asbestos
    <bullet>  Regulatory actions
    <bullet>  banning products
    <bullet>  labeling requirements
    <bullet>  product reporting requirements for manufacturers and 
    importers
    <bullet>  notification and disclosure rules for property transfers
    <bullet>  Consumer education efforts
    <bullet>  Possible legislative action on asbestos products
    <bullet>  Durable Fiber Testing Program
    <bullet>  Peer review of risk assessment methodologies

    2. An agency-wide Asbestos Coordination Team (ACT) was also formed 
over a year ago as a way to share information within the Agency 
(Superfund, OPPT, Regional offices, ORD) as well as outside the Agency 
with our other Federal partners (DOL, HHS, DOT, ATSDR, CPSC).
    3. The ONE (OSHA, NIOSH, MSHA, and EPA) Committee meets on a 
regular basis to share information and current activities within each 
Agency. Both EPA and MSHA have inspected the three remaining 
vermiculite mines and will continue to do so on a regular basis to 
avoid another Libby-like situation. In addition, other mines where 
asbestos contamination may be present have been inspected.
    4. The Superfund program has conducted site assessments of the 
approximately 250 sites where asbestos contaminated vermiculite was 
processed. Of those 250 sites, 16 require more in depth assessment and 
possible cleanup.
    5. OPPT and Region 8 in Libby are conducting a vermiculite home 
attic insulation study to 1) determine if the insulation is 
contaminated with asbestos and 2) if so, does that asbestos pose a risk 
to the home owner. In August 2000, OPPT completed a study of 
vermiculite gardening products and found that while a few of the 
products contained low levels (<1 percent) of asbestos, the risks to 
consumers using these products were minimal.

    Question 3. I'm sure you know that EPA is considering placing Libby 
on the National Priorities List, in order to direct more funding to 
Libby for remediation efforts. Business folks obviously are concerned 
about what Superfund designation will do to complexion of the 
community, that such a designation will be looked on as a stigma, 
keeping business and investment away from Libby.
    I want your assurance that you will not make this decision without 
fully exploring the ramifications with the people of Libby, and the 
State of Montana. I don't want placing Libby on the national priorities 
list to take the place of other funding options.
    Response. EPA is currently gathering environmental data in order to 
make an informed National Priorities List (NPL) listing decision in 
Libby, MT. EPA has monthly meetings with the Libby community (called 
the Community Advisory Group), in which we obtain feedback on all 
courses of action related to the Libby cleanup. EPA fully appreciates 
that there may be a ``stigma'' associated with listing on the NPL. In 
making decisions about the best way to clean up the contamination, EPA 
will maximize the use of resources as expeditiously as possible. If 
listing is deemed necessary, such a decision will include a timetable 
for removing the Libby site from the NPL as soon as possible.

    Question 4. The last 12 years of public policy on Superfund is that 
polluter should pay, and that Superfund should not become a public 
works program relative to clean-up. It's a good public policy; it 
worked even under the first Bush Administration. However, Superfund has 
become a policy of containment, rather than clean-up. In over about 70 
percent of Federal sites, the Record Of Decision calls for containment, 
not clean-up. I worry that we will get a policy of containment, not 
clean-up, for all superfund sites, rather than just containment in 
areas where permanent clean-up is not feasible.
    With the number of Superfund sites in Montana that still require 
substantial clean-up efforts, obviously, this concerns me. Following 
the policy of the polluter pays, and putting more emphasis on clean-up, 
do you have any thoughts on reforming Superfund that you could agree 
with?
    Response. EPA is willing to work with Congress on legislative 
proposals that can achieve bi-partisan support to improve Superfund. As 
you know, brownfields legislation is a priority of the President and 
has been a more immediate focus of attention for this Administration. 
EPA supports S. 350, ``The Brownfields Revitalization and Restoration 
Act of 2001.'' Further, EPA supports H.R. 1831, ``The Small Business 
Liability Relief Act.'' I will be interested in discussing Superfund 
legislation with Congress more fully as the session develops.
    With respect to the selection of cleanup remedies, EPA selects 
remedies that address statutory provisions in the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) 
regarding permanence and treatment. These provisions ensure that 
cleanups are protective over the long term, and facilitate the return 
of previously contaminated property to beneficial use. In fact, since 
the Superfund program began, treatment remedies have been selected for 
use at 58 percent of all NPL sites.

    Question 5. Ms. Fisher, as you know, price discrepancies exist 
between the United States and Canada when it comes to farm pesticides. 
The price charged to US farmers is sometimes almost twice as much as 
what the Canadian farmer pays. Generally, the Canadian and US 
pesticides are almost identical and are manufactured by the same 
company, or related companies. Recent surveys have placed prices in the 
US from 117 percent to 193 percent higher than those in Canada for 
virtually the same products.
    Last year, the Environmental Protection Agency was placed in the 
position of being an accessory to this scheme because of the laws 
governing the importation of farm pesticides. Although the EPA knew 
there was not an environmental or health risk, the Agency had to stop 
financially strapped farmers from buying a less expensive, but 
identical, product from Canada. Montana farmers have been losing 
between 10 to 40 million dollars per.
    First, what does pesticide harmonization mean to you?
    Response. Pursuant to my ethics agreement of May 1, 2001 (copy 
attached) I stated that I would not participate in any particular 
matter having an effect on my holdings in certain publicly held stocks 
until I divest these interests or obtain a waiver. Among my holdings I 
own stock in several pharmaceutical and pesticide manufacturing 
companies. I also continue to have an on-going financial relationship 
with my former employer, Pharmacia Inc. As stated in my ethics 
agreement, I will divest my interests within 3 months of my Senate 
confirmation. Until I divest these interests or obtain a waiver, I will 
recuse myself from participating in the matters related to these 
particular questions. I note that these questions have also been posed 
to Stephen Johnson, the nominee for the position of Assistant 
Administrator for Prevention, Pesticides and Toxic Substances, and I 
understand that he will be providing answers to the committee.

    Question 6. What actions need to be taken to have cross border 
availability of pesticides and what would the timeline look like?
    Response. See above.

    Question 7. Legislation was introduced--legislation that was 
drafted with the technical help of the EPA I might add--to prevent the 
agency from being used in this manner again. Unfortunately, the 
legislation was not passed. Thus, the Agency, and our farmers, are 
going to be in the same position again this year, and the Agency will 
be once again be used to fix the prices our farmers pay. Legislation to 
solve this problem has been introduced again this year.
    Do you support this type of legislation? If legislation fails to 
pass Congress again this year, how would you solve this problem?
    Response. See above.
                               __________
  Responses by Linda Fisher to Additional Questions from Senator Wyden
    Question. Last year, EPA declared almost six miles of the Lower 
Willamette River as it passes through Portland, Oregon to be a 
Superfund site. Congress has authorized the Corps of Engineers to 
remove contaminated sediments from navigable waters to enhance the 
environment and improve water quality. The Corps and public and private 
parties on the Willamette are interested in using this so-called 
``environmental restoration'' authority to expedite the clean-up of the 
river and to reduce the Superfund transaction costs that divert funds 
from actual clean-up work. In particular, they would like to enforce 
Superfund's standards by working with EPA to coordinate the Corps' 
``environmental restoration'' process with the Superfund process.
    I would appreciate your help in ensuring that EPA seriously 
considers this creative and cost-effective approach to the clean-up of 
the Lower Willamette. If you are confirmed, would you study this 
possible blended approach and try to make it succeed in the case of the 
Willamette Superfund site?
    Response. The Portland Harbor site, which includes portions of the 
Lower Willamette River, was listed on the NPL on December 1, 2000. 
Since then, a Memorandum of Understanding between EPA, six Tribal 
Nations, Federal and State Trustees, and the Oregon Department of 
Environmental Quality has been developed. The Region is currently 
negotiating an Administrative Order on Consent (AOC) and the Statement 
of Work (SOW) with several Potentially Responsible Parties to do the 
Remedial Investigation and Feasibility Study (RI/FS). Part of these 
negotiations involve discussions related to the Army Corps of 
Engineers' ``environmental restoration `` authority. As part of the on-
going activities, EPA has been working closely with the Corps of 
Engineers to evaluate approaches for integrating Army Corps of 
Engineers activity or funding, including environmental restoration 
authority, which may become available for work at the site.
    It is EPA's expectation that we will continue to work with all 
parties to consider creative, cost-effective and technically sound 
approaches to address the contamination at the Portland Harbor 
Superfund site.
                               __________
 Statement of Jeffrey Holmstead, Nominee for Assistant Administrator, 
      Office of Air and Radiation, Environmental Protection Agency
    Thank you Mr. Chairman and members of the committee for the 
opportunity to testify before you this morning. It is an honor to be 
here today as the President's nominee to be the Assistant Administrator 
of the Office of Air and Radiation. I am especially pleased to be 
joined by my wife, my four children, and my parents.
    I obviously hope that this committee and the full Senate will see 
fit to confirm me, because I am eager to have the chance to work with 
Governor Christie Todd Whitman as she starts her tenure as 
Administrator of the Environmental Protection Agency. I believe that, 
with the support of President Bush and this committee, I will be able 
to help Governor Whitman make continued improvements in the quality of 
the nation's air while at the same time making EPA's regulatory 
programs more effective and less costly.
    As Senator Campbell can understand, growing up in Boulder, 
Colorado, gave me a great appreciation for the environment and the 
outdoors. Even so, when I graduated from law school in 1987, I did not 
plan to spend my career working to solve environmental problems. But 
after a year of practicing corporate law, I had the opportunity to 
serve in the White House of President George Herbert Walker Bush, where 
I spent much of my time working on environmental issues. After arriving 
in the White House, I soon found that the work of trying to find 
effective ways to protect and improve the environment was more 
challenging and rewarding that anything else I could imagine. I have 
focused my career on environmental issues ever since. It is a great 
honor to be nominated by President George W. Bush to continue working 
on the issues that are of such vital importance to all of us and our 
children.
    I share Governor Whitman's commitment to protecting the environment 
of the United States and her goal of leaving the environment cleaner 
than she found it. I recognize that the job for which I am seeking 
confirmation will present many challenges and many difficult issues. 
But I believe we can overcome the challenges and resolve the difficult 
issues. My optimism comes from a sincere belief that we all share the 
goal of using good science to identify our environmental goals, and 
good policy to achieve those goals cost-effectively. Starting from this 
shared goal, I hope to have the opportunity to work with all 
stakeholders to increase cooperation and decrease the acrimony that has 
occasionally accompanied these issues in the past.
    I think that we can take pride in the progress that all of us 
States, industry, advocacy groups, Congress, and EPA have made in 
cleaning the nation's air over the last three decades. Since 1970, when 
Congress first passed the Clean Air Act, we have made many advances in 
the science and the art of environmental protection. Both EPA and the 
States have become more effective at designing programs to achieve our 
common goals. We are using more market-based strategies and other 
flexible regulatory tools. More and more, State and local agencies are 
working with businesses and communities to solve environmental problems 
as partners. EPA has been both a partner and often a leader in these 
efforts. But I believe that EPA can do even more.
    In other areas of endeavor it has been said that we can see further 
than the people who came before us because we stand on their shoulders. 
Thirty-one years have passed since the Clean Air Act of 1970, 24 years 
since the amendments of 1977 and 11 years since the President's father 
signed the 1990 Clean Air Act Amendments into law. Much progress has 
been made over the years and just as importantly, much has been 
learned. These lessons put us on a path of continued progress for the 
future.
    Just because a program gets results does not mean it cannot be 
improved. An effort to make a program simpler and more flexible should 
not be viewed as an excuse to make it less effective. If we are open to 
new possibilities, if we actively seek out the best ideas from everyone 
our partners, our stakeholders, and our staff we can develop better 
approaches for protecting and improving our nation's air. By basing 
those approaches on the best available science, by focusing on results 
and allowing people to find innovative ways to achieve those results, 
we can continue to improve the quality of the nation's air and make our 
regulatory programs more effective and less costly.
    If I am confirmed, I look forward to working with you and your 
staffs to achieve these goals. Thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses of Jeffrey R. Holmstead to Additional Questions From Senator 
                                  Reid
    Question 1. Will you, if confirmed, do everything in your power to 
ensure that the Agency complies with its statutory requirement to 
promulgate a rule that sets strong public health and safety standards 
for the protection of the public from releases of radioactive materials 
from the proposed Yucca Mountain site?
    Response. Under the Energy Policy Act, EPA is required to set 
health and safety standards for the disposal of high level radioactive 
waste, including any such waste that may be stored or disposed of at 
the proposed Yucca Mountain site. If I am confirmed, I will work to 
ensure that EPA fulfills this obligation and all other statutory 
obligations that have been assigned to the Office of Air and Radiation.

    Question 2. What are your views on the final rule EPA sent to OMB 
and what are your plans for moving that forward?
    Response. Although I have worked in the field of environmental law 
for almost 12 years, I have never had the opportunity to work on 
radiation issues, and I am not yet familiar with the details of this 
rule. I understand that the Administrator supports the need for 
groundwater protection at Yucca Mountain and I am supportive of this 
approach. Otherwise, I have not formed any views on the rule. If I am 
confirmed, however, I will work to ensure that EPA meets its statutory 
obligations in a timely fashion, including its obligations under the 
Energy Policy Act.

    Question 3. Once a rule is final, will you, if confirmed, do 
everything in your power to ensure that all NRC and DOE activities 
comply with that rule and other applicable Agency requirements, 
assuming the Administration proceeds with further consideration of the 
Yucca Mountain site?
    Response. Under the Energy Policy Act, EPA's role is to publish a 
rule setting forth standards designed to protect public health and the 
environment from any potential releases of radioactive materials. The 
Act charges the Nuclear Regulatory Commission (NRC) with the 
responsibility for determining compliance with that standard. I am 
confident that the NRC will do it's job in a responsible manner and 
ensure that any of DOE's activities at the Yucca Mountain site comply 
with the standards.

    Question 4. Will you, if confirmed, actively oppose further action 
on the proposed Yucca Mountain site if environmental data indicates 
that the final standard cannot be met or is unlikely to be met?
    Response. As noted above, NRC is responsible for determining 
compliance with the EPA standard, and I am very confident that it will 
carry out its responsibilities effectively. If I am confirmed, I will 
closely follow the activities of DOE and NRC and call attention to any 
issues that may affect public health or the environment.

    Question 5. What role should EPA have in setting radiation 
protection standards in general, relative to other Federal agencies?
    Response. I understand that the EPA is the only Federal agency 
charged with setting standards for protecting public health and the 
environment from avoidable exposure to radiation. Thus, the Agency 
develops guidance for all other Federal agencies to follow. As part of 
this process, EPA sets ``fence line'' standards for NRC-licensed and 
Department of Energy (DOE)-owned facilities. I am supportive of EPA's 
current role.

    Question 6. Please describe your role in the White House Counsel's 
office and the work that you did for or as part of Vice President 
Quayle's Council on Competitiveness: In particular, please describe 
positions that you may have taken with respect to Clean Air Act 
regulations or opinions on then-pending legislation or litigation, 
including the landmark Wisconsin Electric Power Company case on new 
source review.
    Response. I served in the White House Counsel's Office from 1989 to 
1993--first as Assistant Counsel to the President (from 1989 to 1990) 
and then as Associate Counsel to the President. During my time in the 
Counsel's Office, I worked on a wide variety of issues, including 
government ethics and matters of constitutional law. My primary focus, 
however, was environmental law and policy. I was part of a small White 
House group that worked with Federal agencies and Departments on a 
broad range of environmental issues, including the implementation of 
the Clean Air Act Amendments of 1990.
    I was not a member of the Council on Competitiveness; nor did I 
work for the Council on Competitiveness. My boss, C. Boyden Gray, was 
the Counsel to the President and was one of several senior officials 
who attended meetings of the Council on Competitiveness. Because I was 
often responsible for doing the staff work to prepare him for these 
meetings, I had the opportunity to interact on a regular basis with the 
staff of the Competitiveness Council.
    I was not involved in the Wisconsin Electric Power Company case on 
New Source Review. Nor was I involved in any other litigation involving 
the Clean Air Act. Although I was not part of the Administration's 
legislative team that was working on the 1990 Clean Air Act Amendments, 
I was involved in developing some of the Administration's positions on 
the 1990 Amendments--primarily on Title V. (Much of the work to develop 
the Administration's positions on the 1990 Amendments had been done 
before I arrived at the White House in August 1989.)
    I was involved in numerous meetings and discussions (probably 
hundreds) about Clean Air Act regulations and other issues that arose 
during the implementation of the 1990 Amendments. Because my White 
House files were Federal records, I was not able to retain any of them 
when I left the White House. As a result, I do not have a record of all 
the Clean Air Act issues I may have worked on. Listed below are the 
significant issues that I can recall, and the positions I took on them:
    <bullet>  Title V Operating Permit Regulations--I worked with EPA 
staff to ensure that the Title V program would allow for necessary 
operational flexibility. Along with many other people in the 
Administration, I was concerned that Title V had the potential to 
become an NSR-type pre-approval? program that would require facilities 
to go through a lengthy review process to make even minor changes.
    <bullet>  Recycling Requirement for Waste Combustors--I (and many 
others in the Administration) questioned whether it was legitimate 
under the Clean Air Act for EPA to require operators of Waste 
Combustors to sort and recycle materials from the wastes that were 
shipped to them for incineration.
    <bullet>  Use of Contingent Valuation Studies--At several meetings 
regarding a proposal to address visibility impairment in the Grand 
Canyon, I questioned the use of contingent valuation studies as a way 
to calculate benefits.
    <bullet>  Acid Rain Program--I was a strong proponent of the acid 
rain trading program and was involved in numerous meetings to discuss 
technical issues related to how it would function. I do not recall 
specific issues or the positions I took on them.
    <bullet>  Air Toxics Regulations--Again, I was involved in numerous 
meetings related to the Title III program designed to reduce emissions 
of hazardous air pollutants (HAPs). In general, I advocated the use of 
sound science in ranking HAPs under Section 112(g) and the use of 
subcategories to ensure that EPA did not use a ``one-size-fits-all'' 
approach for developing MACT standards.

    Question 7. During your tenure in the White House Counsel 195 
office, did you have any role in or do work on private property rights 
legislation or litigation? Do you believe that any public health or 
environmental protections unconstitutionally limit private property 
rights?
    Response. I do not recall working on private property rights 
legislation or litigation, although it is possible that I may have 
attended meetings at which these issues were discussed. I agree with 
the Supreme Court that, under certain circumstances, government actions 
designed to protect the environment may constitute a ``taking'' of 
private property that would require the government to pay just 
compensation.

    Question 8. Did you, at any point during your tenure in the White 
House Counsel's office, formally recommend changes to the Clean Air 
Act? If so, what changes did you recommend?
    Response. As noted above, I was involved in developing some of the 
Administration's positions on the 1990 Amendments to the Clean Air Act. 
I do not recall ever recommending that further changes be made to the 
Clean Air Act after the 1990 Amendments were passed by Congress and 
signed by the President.

    Question 9. Have you advocated any changes to the Clean Air Act 
since your tenure at the White House? If so, what changes did you 
advocate and on whose behalf did you advocate them?
    Response. In several meetings with clients over the last 8 years, I 
have discussed possible changes to the Clean Air Act. In these 
meetings, I have discussed the pros and cons of making certain changes 
to the Act. However, I do not believe that I have ever advocated any 
changes to the Act on behalf of any client (or on behalf of anyone 
else).

    Question 10. Are there any other changes to the Clean Air Act that 
you have publicly advocated?
    Response. As noted above, I do not believe that I have ever 
publicly advocated any changes to the Clean Air Act.

    Question 11. Do you support the revised NAAQS for ozone and PM-2.5 
as published in 1997?
    Response. The Supreme Court has endorsed EPA's efforts to protect 
the health of millions of Americans from the dangers of air pollution, 
and has affirmed the Agency's constitutional authority to set these 
kinds of health protection standards in the future. Congress delegated 
to EPA the standard-setting function, and the Court found that EPA has 
carried it out appropriately. The Agency is continuing to defend these 
standards in court and is preparing the way for their implementation. I 
am supportive of these actions.

    Question 12. What views, if any, have you expressed publicly or in 
litigation regarding the science underpinning the revised ATAAQS for 
ozone and PM-2.5?
    Response. I have not publicly expressed any personal views 
regarding the science underpinning the revised NAAQS for ozone and PM-
2.5. Nor have I been involved in any litigation on the subject. I did 
represent a client during the rulemaking process and submitted comments 
on it's behalf. These comments are attached.

    Question 13. Did you participate in any litigation regarding the 
NAAQS while in private practice? If so, please describe the positions 
that you advocated and the clients involved.
    Response. I did not participate in any litigation regarding the 
NAAQS while in private practice.

    Question 14. What are your views on the recent Supreme Court 
decisions on the revised NAAQS for ozone and PM-2.5 and the NOx SIP 
call?
    Response. The Supreme Court's decision on the revised NAAQS for 
ozone and PM-2.5 is obviously important for several reasons. It 
affirmed the constitutionality of a key provision of the Clean Air Act. 
It also affirmed EPA's long-standing interpretation that the Clean Air 
Act precludes EPA from considering cost when setting these health-based 
standards, while also noting that cost can be considered in 
implementing the standards. Although the decision settled these key 
issues, it also made clear that the Agency must reevaluate its 
implementation strategy and seek to harmonize subparts I and II of Part 
D of Title I. This will be a substantial challenge and, if I am 
confirmed, I will look forward to working on it.
    The Supreme Court decision on the NOx SIP Call let stand an 
important decision by the Court of Appeals for the District of Columbia 
Circuit. The D.C. Circuit's decision upholding the NOx SIP Call will 
(1) help protect public health in the eastern portion of the United 
States, and (2) allow States to use an innovative trading program that 
provides industry the flexibility to achieve the necessary emission 
reductions in the most cost-effective way.

    Question 15. Will you work to make the new nonattainment area 
designations for the new ozone standard, as required by law, as 
expeditiously as possible?
    Response. If I am confirmed, I intend to move forward expeditiously 
with all the necessary steps to implement the new ozone standard. These 
steps include designating nonattainment areas and developing an 
implementation strategy that responds to the Supreme Court's remand.

    Question 16. What are your views on EPA's UvB proposal now pending 
at OMB and will you pledge to move it forward expeditiously?
    Response. Although I am aware of the importance of this proposal, I 
have not reviewed it. Nor have I closely followed the scientific 
questions involved. As a result, I cannot comment on the proposal. If I 
am confirmed, I will do my best to ensure that a proposed rule is 
published expeditiously.

    Question 17. Some Senators have called for changes to the new 
source review process. Does this require legislation or should such 
changes be accomplished through regulation?
    Response. The Agency has been reviewing the new source review 
program and working with stakeholders to determine how the new source 
review program should be modified so that we can achieve our 
environmental goals more efficiently. If I am confirmed, I would like 
to do a thorough but efficient study of the NSR program. When that 
study is complete, I will work with the various stakeholders to 
determine whether any appropriate changes should be done through 
regulation or legislation.

    Question 18. The Agency has begun a number of enforcement actions 
against power plant owners for violating new source review 
requirements. Do you agree with Administrator Whitman's publicly 
reported position that those actions should not be dropped? Will you 
support continued and vigorous enforcement using the criteria that led 
to those enforcement actions?
    Response. I agree with Administrator Whitman that it is important 
to ``first offer the carrot, but not to retire the stick.'' In my view, 
EPA should set clear standards and then vigorously enforce them. With 
respect to the current NSR enforcement actions against power plant 
owners, I have not been involved in any of those actions and am not 
familiar with the criteria that led to them.

    Question 19. According to several sources, you are or were an 
adjunct scholar at Citizens for the Environment, which is affiliated 
with Citizens for a Sound Economy. Please explain that group's purpose 
and mission and it's relationship to CSE, and your role as it related 
to policy position or political campaign development.
    Response. In 1993, shortly after I left the White House, a former 
government colleague who was then working with citizens for the 
Environment (CFE) asked me if I would testify on behalf of CFE on a 
bill that would elevate EPA to cabinet status. In May 1993, I testified 
in support of the bill at a joint hearing of the Environment, Energy, 
and Natural Resources Subcommittee and the Legislation and National 
Security Subcommittee. (A copy of my written testimony is attached.) 
Because I worked with CFE staff to prepare the testimony and was 
testifying on behalf of CFE, I became an adjunct scholar at CFE.
    At that time, CFE was (and I believe still is) a nonprofit, 
nonpartisan organization that searches for market-oriented solutions to 
environmental problems. It was created in 1990 under the auspices of 
the Citizens for a Sound Economy Foundation, an educational foundation 
based in Washington D.C.
    In about 1995, I also made a lunchtime presentation to CSE staff to 
provide general background information on the Clean Air Act. Although I 
may have attended one or two other meetings at CSE, I have not done any 
further work with CSE or CFE. Except for the position in support of the 
1993 bill to elevate EPA to cabinet status, I have not been involved in 
developing any policy positions for CSE or CFE. Nor have I been 
involved in any political campaign development activities with CSE or 
CFE.

    Question 20. What policy positions, if any, has Citizens for the 
Environment taken with respect to the Clean Air Act or the Agency's 
radiation protection responsibilities, while you have been a member?
    Response. Although I have served as an adjunct scholar to CFE, I do 
not believe that I have ever been a member of CFE. I have not worked 
with CFE to develop any positions on Clean Air Act or radiation 
protection issues and am not aware of any position that CFE may have 
taken on any such issue.

    Question 21. If these two groups are affiliated closely, such as 
sharing board members or funding sources or staff resources, please 
explain what policy positions that Citizens for a Sound Economy has 
taken with respect to the Clean Air Act or the Agency ? radiation 
protection responsibilities, while you have been a member of the 
Citizens for the Environment?
    Response. As far as I know, I have never been a member of CSE. I 
have not worked with CSE to develop any positions on Clean Air Act or 
radiation protection issues and am not aware of any position that CSE 
may have taken on any such issue.

    Question 22. Please list any other political affiliations with or 
your membership in groups that have proposed amending the Clean Air Act 
or other statutes which the Asst. Administrator for Air and Radiation 
must implement. Please include the major proposals and the 
organizations' missions.
    Response. As far as I know, no group that I am a member of or 
otherwise affiliated with has proposed any amendment to the Clean Air 
Act or any other statute that the Assistant Administrator for Air and 
Radiation must help to implement. I have certainly not been involved in 
developing any such proposal.

    Question 23. Apparently, while at Latham and Watkins, you co-
authored a book with the Environmental Law Institute on pesticide 
regulation. Have you advocated changes to the Food Quality Protection 
Act or FIFRA? If so, what changes did you advocate and on whose behalf?
    Response. I have been in several client meetings at which possible 
changes to the Food Quality Protection Act (FQPA) have been discussed. 
However, I have never advocated any such changes in public. One or more 
of my clients may have supported legislation to amend the FQPA, but I 
was not involved in developing such legislation or in any effort to 
advocate for it.

    Question 24. Do you believe that implementation of the FQPA is 
proceeding quickly enough to remove dangerous pesticides from use and 
production?
    Response. Under the FQPA, EPA must reassess all existing pesticide 
tolerances in accordance with a statutory schedule. I understand that 
EPA has complied with this schedule and continues to place a high 
priority on reassessing pesticides that appear to pose the greatest 
risk. I believe that the Agency is strongly committed to the task of 
removing dangerous pesticides from use and production.

    Question 25. As you may know, the accident prevention provisions of 
the Clean Air Act were amended recently because of FBI and industry 
concerns about providing worst-case scenario data on the Internet. Does 
the public have a right to know about the potential for catastrophic 
chemical/toxic air accidents that could affect individuals 'property 
and their community?
    Response. I believe that the public should have access to 
information about potential accidental air releases in their 
communities. I also believe, however, that this type of public access 
must be balanced against the need to protect those same communities 
against terrorist acts. I understand that the Office of Solid Waste and 
Emergency Response has issued a final rule under section 112(r) of the 
Clean Air Act regarding the availability of this information, but I am 
not familiar with that rule.

    Question 26. What role should the Air program office play in 
reducing greenhouse gas emissions, pursuant to our treaty commitments 
under the U.N. Framework Convention on Climate Change to reduce those 
emissions to 1990 levels?
    Response. I believe that the Office of Air and Radiation (OAR) 
should continue to play its historic and important role in reducing 
greenhouse gas emissions. I believe that the programs run by OAR have 
and will continue to achieve significant results. Domestically, since 
President George H.W. Bush established the first programs (Green Lights 
and ENERGY STAR) in 1992, OAR has entered into thousands of voluntary 
partnerships with large and small businesses, State, and local 
governments, and others. The programs are reducing the growth in U.S. 
greenhouse gas emissions, while saving money for American families and 
businesses. In addition, OAR is working with auto manufacturers to 
develop dramatic fuel economy improvements in all types of motor 
vehicles, from cars to heavy duty trucks. OAR also has a large program 
of bilateral cooperation activities which help further reduce 
greenhouse gas emissions. Work is focused in countries that are large 
greenhouse gas emitters and that offer large ``win-win'' opportunities 
for reducing emissions--countries with economies in transition to a 
free market and key developing countries.

    Question 27. Will you, if confirmed, ensure that this committee and 
its staff receives timely and useful technical assistance from the Air 
program offices should we begin work on preparing legislation to 
require reductions in greenhouse gases from electric power generators 
or other sectors?
    Response. Yes. The Agency's policy has long been to provide timely 
and useful technical assistance at the request of this committee and 
its staff. If confirmed, I will use my best efforts to see that the 
Office of Air and Radiation faithfully adheres to this policy.

    Question 28. As you may know, the Administration has not yet 
released guidance to the stales on best available retrofit technology 
(BART) under the regional haze rule, despite requests from several 
Governors and environmental groups. There does not seem to be any need 
to delay the BART proposal. What would your plans be with respect to 
this important matter?
    Response. I have not made any specific plans with respect to the 
BART Guidance. I recognize its importance and know that it is a high 
priority action that needs (and is receiving) a thorough review by 
Governor Whitman and her staff. If I am confirmed, I will do my best to 
ensure that this guidance is completed and released in a timely manner.

    Question 29. As you may know, Administrator Whitman indicated at 
her nomination hearing that she and the President believe that Federal 
facilities should be treated the same as private facilities, in terms 
of compliance with environmental requirements. Do you agree?
    Response. I support the position of the President and the 
Administrator that Federal facilities should be held to the same 
environmental standards that apply to private facilities. This issue is 
a priority for her and, as she has said, it will require significant 
coordination among Federal agencies and with the States, tribal 
governments, and Congress.

    Question 30. What are the greatest challenges awaiting the next 
Assistant Administrator for Air and Radiation?
    Response. Obviously, there are a number of important and 
challenging issues that face the Office of Air and Radiation. They 
include making continued progress in cleaning the air, reducing the 
number of people living in nonattainment areas, reducing the number of 
asthma attacks in children, reforming new source review, and many 
others. Perhaps that greatest challenge is finding a way to bring 
stakeholders together to find appropriate solutions for these and other 
issues. Because we all share the goal of using good science to protect 
the environment in the most efficient and cost effective manner 
possible, I believe that we should be able to work together and find 
ways to address the legitimate concerns of all stakeholders.
    testimony of jeffrey r. holmstead on behalf of citizens for the 
  environment environment, energy, and natural resources subcommittee 
             legislation and national security subcommittee
                              may 6, 1993
    Good morning. My name is Jeff Holmstead. I am an attorney with. the 
law firm of Latham & Watkins, but this morning I am not representing my 
law firm or any of it clients. Rather, I am appearing on behalf of 
Citizens for the Environment (also known as CFE), where I serve as an 
adjunct scholar. I very much appreciate the opportunity to appear 
before you this morning.
    Citizens for the Environment is nonprofit, nonpartisan organization 
that searches for market-oriented solutions to environmental problems. 
CFE was created in 1990 under the auspices of the Citizens for a Sound 
Economy Foundation, an educational foundation based in Washington, DC. 
that has over 250,000 members nationwide.
    As an organization that is committed to the free market, we 
recognize the important role played by the Environmental Protection 
Agency. While many people, including our organization, question the 
intervention of the Federal Government into the private market in many 
areas, it is clear that, because of market failures, protecting the 
environment is not only a valid but an important function of 
government. Because individuals and firms do not bear the full social 
cost of any pollutants that they discharge into the environment--so-
called negative externalities the private market will not effectively 
control such discharges. Therefore, to correct this market failure, it 
is important for the government to take action to ensure that 
individuals and firms internalize the full social costs of their 
actions. In recognition of this important role played by the 
Environmental Protection Agency, we support its elevation to cabinet 
status.
    We believe that there are also other reasons for Congress to 
elevate the Agency to cabinet status. First, it is clear that the 
American people are committed to the protecting the environment. Making 
the Agency a department and giving it a place at the cabinet table will 
reflect the importance that we as a country place on environmental 
protection. Second, as others have noted, most other countries have 
accorded cabinet or ministry status to the agencies responsible for 
environmental protection in their countries. Although the State 
Department is charged with conducting international negotiations--
including negotiations involving environmental issues--the interests of 
the United States may be better served in such negotiations by giving 
our Environmental Protection Agency a status equal to that of its 
counterparts in other countries.
    Third, and perhaps most important, we believe that elevating EPA to 
cabinet status will bring more political accountability to the Agency. 
Currently, the United States spends more of its resources on 
environmental protection than any other country in the world. Most 
estimates suggest that the cost of environmental regulation in the 
United States is currently between $100 and $150 million a year. By the 
end of the decade, this number is expected to reach close to $200 
million--about 3 percent of our gross national product. Most Americans 
have come to realize in recent years that such regulatory costs are the 
equivalent of a hidden tax that is added to the cost of virtually every 
product or service they buy.
    While there is no doubt that most Americans are willing to have 
their resources spent on environmental protection, they also expect--. 
and have a right to expect . . that those resources will be spent 
wisely. If they are unhappy about the actions that the Federal 
Government is taking to protect the environment either because of the 
level of protection provided or the way in which their resources are 
being spent--? they should be able to express their dissatisfaction in 
the voting booth. Yet many people still regard EPA as an independent 
agency that is largely outside the President's control. We believe 
that, in order to ensure that the President is politically accountable 
for the Agency's actions, it is important for the Agency to be 
recognized as part of his cabinet.
    We also believe that the agency should be elevated in a 
straightforward manner without unnecessary legislative mandates. Quite 
apart from the concerns that we have about several of the proposals 
that have been discussed in recent months, we are strongly of the view 
that such a ``clean'' bill has the best chance of being enacted. If 
history is any guide, the more the bill is loaded up with extraneous 
measures, the less its chances of actually being passed by the Congress 
and signed by the President. We therefore urge the Subcommittee to 
support a clean bill that would elevate the Agency to cabinet status.
    Because of our interest in ensuring political accountability, the 
only additional measures we would support are those designed to enhance 
public scrutiny of the Agency's actions. For instance, we would support 
a measure along the lines of that sponsored by Senator Johnston that 
would require rules promulgated by the new Department to be accompanied 
by an analysis comparing the costs of the rule with the risks to human 
health and the environment that the rule is meant to address. 
Similarly, we would support a requirement similar to Senator 
Murkowski's proposal to require public cost-benefit assessments for 
certain rulemakings.
    We have particular concerns about certain proposals that the 
Subcommittee is considering. We do not believe that it is necessary or 
desirable to create a separate Bureau of Environmental Statistics. 
Under its current structure, the Agency already can (and does) collect 
and assess all the data that would come under the jurisdiction of the 
new Bureau. Adding new bureaucracy would simply require more 
expenditures of taxpayer dollars at a time when there is significant 
public sentiment for cutting government spending. We are also concerned 
that such a Bureau may create the illusion that many important 
environmental issues are purely statistical, when in fact they are much 
more complicated. For example, risk assessments appear to be 
exclusively a scientific and statistical exercise, when in fact they 
contain a number of important policy assumptions. We are concerned that 
if risk assessments or similar environmental analyses are assigned to a 
separate Bureau within the Agency, these sorts of policy choices will 
not be subject to necessary public scrutiny.
    We also oppose other proposals that would be unnecessary or 
duplicative. For instance, some have suggested the creation of a new 
Commission to study the Agency's structure and operations. Numerous 
groups--both inside and outside the Federal Government., have already 
studied such issues. Although the issues themselves may warrant further 
consideration, we question whether taxpayer dollars should be used to 
create a commission to study them further at this time. Such a 
commission is likely to be viewed as yet another unnecessary government 
expenditure at a time when the public is demanding fiscal restraint.
    In conclusion, Citizens for the Environment supports the elevation 
of the Environmental Protection Agency to cabinet status. We urge the 
Subcommittee to do just that, without additional measures that will add 
unnecessary costs and reduce the chances of final passage. The only 
additional measures we would support are those specifically designed to 
enhance the public accountability of the new department.
    Again, I appreciate the opportunity to appear before you this 
morning. I would be pleased to answer any questions that you may have.

    Question 31. One of the items you mentioned in answer to the pre-
hearing questions was your work on regulations to implement Title V of 
the Clean Air Act, specifically on the operating permit program. Some 
have characterized your involvement as advocating less public 
participation in that permitting process than the law requires and 
allows. Is that accurate? And, if so, should public or citizens' 
participation be limited in permit decisions that might increase 
pollution in their neighborhood?
    Response. I strongly support public participation in regulatory 
decisions, including the right of citizens to comment on significant 
permitting decisions. I have never advocated the use of less public 
participation in the permitting process than the law requires. I have 
always taken the position that EPA should strike the proper balance to 
ensure that (1) the public has an opportunity to comment on significant 
permitting actions and (2) the permitting process provides sufficient 
flexibility for facilities to make minor changes without the need to go 
through a lengthy and burdensome process. Requiring a public process 
for insignificant changes hurts businesses by unnecessarily delaying 
actions, hurts permitting agencies that are understaffed and overworked 
by creating additional workload, and hurts the public by diverting 
attention from truly important regulatory actions. I believe that lines 
can be drawn between significant and insignificant actions and that 
State and local permitting agencies can be trusted to ensure that 
actions are properly characterized.
    I also believe that some of the new permitting ideas that EPA has 
been exploring, such as Plant-wide Applicability Limits or PALs, are 
promising and should be further investigated. PALs focus public comment 
on a relatively few situations. The PAL approach gives the public a 
meaningful opportunity to comment on the full range of air issues 
associated with a facility, and also provides the facility with an 
appropriate amount of flexibility.

    Question 32. As you may know, the Sierra Army Depot in Herlong, 
California, was recently recognized as the largest air polluter in 
California. That facility, which conducts open burning and detonation 
of old munitions, sends the bulk of its toxic emissions downwind into 
the Washoe Valley, affecting thousands of Nevadans. The Depot's Title V 
permit is now being revised and the public and I have had a chance to 
comment on those revisions and the relevant regulations and guidance. 
Should the public have been excluded from the opportunity to comment on 
that permit revision?
    Response. No. There is clearly a role for the public in the Title V 
permitting process, and the role the public played in the permitting of 
the Sierra Depot is an appropriate one. In this case, citizens 
requested that EPA reopen the Depot's permit to correct several alleged 
flaws. The Washoe County District Health Department also wrote in 
support of this request. As I understand it, EPA examined the permit 
and found that it did, in fact, contain flaws that would justify a 
reopening. Under EPA regulations, when a Title V permit is reopened, 
the public must have an opportunity to comment on a draft of the 
corrected permit. As you note, such an opportunity was afforded in the 
case of Sierra Depot. In addition to your comments, several concerned 
citizens, citizen groups, and a nearby Indian Tribe also submitted 
comments on the proposed permit, as revised. I understand that the 
Lassen County Air Pollution Control District is considering all these 
comments is d?veloping its final permit, which is expected to be issued 
very soon.

    Question 33. Would it be your intention to prepare and support 
imposition of a Federal Implementation Plan for those States that 
refuse to complete adequate final SIP revisions to satisfy the NOx SIP 
Call by the statutory deadline?
    Response. If confirmed, I will work to ensure that the emission 
reductions associated with the NOx SIP Call are achieved. My hope is 
that we will be able to work with the States to ensure that they submit 
plans to achieve these reductions without having to resort to Federal 
implementation plans. Although I believe that we will be able to 
accomplish this goal, I would support the use of a Federal plan for any 
State that may refuse to complete an adequate final SIP revision.

    Question 34. I was glad to read in your answers that you believe 
the BART (best available retrofit technology) guidance is a high 
priority, since that will help implement the Regional Haze rule. This 
will help assure that our scenic vistas in the West are not diminished. 
What did you mean when you wrote that you ``questioned the use of 
contingent valuation studies as a way to calculate benefits in rules . 
. . to address visibility impairment in the Grand Canyon?'' How else do 
you recommend that the government and the public assess the intangible 
benefits of these scenic vistas? Do you believe that it is EPA's 
responsibility to ensure that air quality related values, such as 
visibility, are protected?
    Response. I believe that EPA has an important responsibility to 
protect and enhance air quality related values such as visibility. I 
also believe that the Agency must use the full range of analytical 
tools, including contingent valuation studies, in deciding how to 
protect these values. It is important, however, to recognize both the 
strengths and the limitations of all analytical tools, including 
contingent valuation studies.
    As you may know, in the context of visibility issues, a contingent 
valuation study is often based on a survey in which people are shown 
two photographs of a scenic vista--one that shows a clear view of the 
scene and another that shows a hazy view of the same scene. They are 
then asked how much they would be willing to pay to make the hazy scene 
look like the clear one. By extrapolating their answers to a much 
bigger population (perhaps the entire population of the United States), 
the researchers then estimate the total monetary value of improving the 
scenic vista in question. As many researchers have acknowledged, there 
are several problems with this approach. First, studies have suggested 
that the amount someone may say they would be willing to pay for a 
particular ``good'' is often quite different than the amount they are 
actually willing to pay when offered the opportunity to purchase it. 
Second, unless properly designed, contingent valuation surveys tend to 
understate uncertainties. For example, in the case of visibility, there 
is an implication that regulatory action can make the ``hazy vista'' 
look 'like the clear one. In fact, however, actual visibility may 
depend on a variety of factors, many of which cannot be controlled by 
regulatory action.
    Notwithstanding the limitations of contingent valuation studies, I 
believe that they can be useful tools for decisionmakers who must 
decide how to protect visibility and other intangible benefits. In the 
end, I believe that publicly accountable officials should use an open 
process to consider all the available information and weigh all the 
relevant factors. Then they should exercise their best judgment in 
deciding how to protect and enhance air quality related values and 
explain their decision to the public.

    Question 35. I would appreciate your reassurance that you are 
committed to openness and transparency in the Federal regulatory review 
matters involving the Clean Air Act. As you know, the Clean Air Act 
contains many requirements to ensure that citizens are capable of 
obtaining information on these Federal processes. In particular, I 
would like to know that you intend to comply with the spirit and letter 
of section 307(d)(4)(i) of the Act and will not seek to modify that 
provision or the regulations implementing that section.
    Response. As noted above, I strongly support an open rulemaking 
process. From my own experience, I know that many stakeholders have 
valuable information and insights that can only be provided through an 
open process. I will comply with section 307(d)(4)(i) and do not intend 
to seek modification of that provision or any regulations implementing 
it.

    Question 36. The answers to the pre-hearing questions are a little 
confusing on one last point. Were you or were you not a member of 
Citizens for the Environment (CFE) and Citizens for a Sound Economy 
(CSE)?
    Response. As I explained in my answers to the pre-hearing 
questions, I have served as an Adjunct Scholar to CFE. which is 
affiliated with CSE. In those answers to the pre-hearing questions, I 
stated that I do not believe that I have ever been a member of CFE'' 
and that. ``[a]s far as I know, I have never been a member of CSE.'' I 
qualified my answers because I thought it was possible that one or both 
of these organizations might consider me a member because of my service 
as an Adjunct Scholar, even though I have taken no other action to 
become a member. After receiving your follow-tip questions, I contacted 
CSE to see whether they have any record of my being a member of either 
organization. As of now (when my responses are due), I have not 
received a response. All I can state is that I cannot recall ever 
taking any action (such as paying dues) to become a member of either 
organization, and I do not receive any sort of membership benefits 
(such as publications) from either organization.

    Question 37. As you know, the EPA is often criticized for failing 
to have an adequate scientific basis for many of its policy decisions. 
During her nomination hearing, Administrator Whitman pledged to address 
this problem by making ``science the foundation for EPA's 
policymaking.'' 'What steps would you lake as the Assistant 
Administrator to ensure sound science is used in the policymaking 
process at the Office of Air and Radiation?
    Response. The quality and credibility of EPA's policy decisions 
depend on sound assessment of the best available scientific 
information. I believe that EPA, as a whole, has made important 
progress in improving the quality of scientific research, scientific 
assessment, and the peer review process upon which it relies--and that 
the air office has taken part in this process. In this regard, recent 
developments include the Research Coordination Teams for defined 
strategic goals, multi-year planning (such as that encouraged by the 
NRC for particulate matter), an Agency-wide Science Inventory, and an 
expanded grants program to invite fresh ideas from the academic 
community.
    Even with this progress, I think more can be done. If I am 
confirmed, I intend to encourage continued improvements within the 
Office of Air and Radiation and in the Agency as a whole. I agree with 
many of the NRC recommendations for improving science at EPA, including 
developing scientific leadership and talent, a balanced and stable 
research program, developing partnerships and outreach to other Federal 
Departments, States, universities, industry, and other countries, 
holding both our research and regulatory programs accountable to 
periodic review, and implementing and improving the peer review 
process.
    I would look forward to working closely with EPA's Office of 
Research and Development and others in the Agency to improve the 
quality and relevance of scientific research and to insure our draft 
regulations undergo scientific scrutiny within and outside the agency. 
The recent outreach and review of the NATA project by EPA's Science 
Advisory Board is an example of the way in which we can improve our 
assessment of air toxics. If confirmed, I intend to hold the work of my 
staff to the highest standards in ensuring the quality of our work, and 
to encourage the development of procedures to determine how well things 
are working on a continuous basis.

    Question 38. There is substantial uncertainty about the health 
effects of low-level radiation, although this is a potential threat to 
the American people from a variety of sources. According to the EPA, 
however, the sound science initiative does not include funding for 
radiation. Do you believe the EPA should make understanding low-level 
radiation exposure an element of the sound science performance goal?
    Response. While there is some uncertainty associated with the risk 
estimates of low radiation exposures, all major scientific 
organizations and national and international regulatory agencies 
currently use the Linear No Threshold (LNT) model as the basis for 
their radiation protection strategies. Although EPA uses this approach, 
it is also sponsoring and closely following two important activities to 
evaluate health effects at low levels of' radiation. The first is the 
National Academy of Sciences, BEIR VII, study to assess the dose-
response relationship at low exposures based on new data from Japanese 
survivors. Second, EPA is closely following the Department of Energy's 
(DOE's) Low Dose Radiation Research Program, a $20 million, 10-year 
effort to evaluate health risks from exposures to low levels of 
radiation by looking specifically at the biological mechanisms that 
cause cancer.
    If I am confirmed, I will work to ensure that EPA's radiation 
science continues to incorporate the best available information. I also 
will work with the EPA's Office of Research and Development (ORD) to 
determine whether radiation science work done by OAR should be included 
in the GPRA Sound Science Performance Goal that is managed by ORD.

    Question 39. The EPA is responsible for establishing the radiation 
release standards for Yucca Mountain. The EPA has, however, come under 
pressure from the Nuclear Regulatory Commission and the Department of 
Energy to modify parts of the standard. Do you believe the EPA should 
be the lead agency in setting this standard? Do you believe the EPA 
should apply the same standards to drinking water supplies to Yucca 
Mountain as it applies to drinking water supplies throughout the rest 
of the country? Will you work to make sure the standard which is 
released by the EPA truly reflects the best judgment of the EPA and not 
that of the NRC or DOE?
    Response. I am supportive of EPA's role as the lead agency in 
setting radiation release standards for Yucca Mountain. As Governor 
Whitman has said, protection of groundwater at Yucca Mountain is 
important for current residents and future generations. As stated in my 
answers to the pre-hearing questions, I have not been involved in 
policy discussions on Yucca Mountain, but if I am confirmed before the 
Yucca Mountain standards are established, I will seek to ensure that 
they reflect EPA's best judgment.

    Question 40. In your response to pre-hearing questions you 
indicated ``The EPA is the only Federal agency charged with setting 
standards for protecting public health and the environment from 
avoidable exposure to radiation.'' Could you please explain what you 
mean by ``avoidable''? What determines the level of radiation exposure 
that should be avoidable? Does high cost of compliance make some 
radiation exposure unavoidable?
    Response. Everyone is exposed to background levels of radiation 
that are unavoidable. Examples include naturally occurring radioactive 
materials in air and water, and cosmic radiation from the sun, which 
increases at higher elevations. EPA defines avoidable exposure as 
radiation from man-made activities that create new radioactive isotopes 
(such as nuclear power plants) or that concentrate those found in 
nature (such as radon in homes). I do not believe that compliance costs 
or technical achievability should be a significant factor in 
determining whether risks are considered to be avoidable or 
unavoidable. In my view cost and technical achievability should be 
considered in determining the best way to reduce the risk from 
radiation, regardless of how it is classified.

    Question 41. There is considerable overlap of regulatory 
responsibility between the Nuclear Regulatory Commission and the EPA on 
radiation standards. For example, the Nuclear Regulatory Commission has 
considered developing standards for the release of metals from nuclear 
weapons facilities or commercial power plants that may have some 
contamination through the material. This material should also be 
regulated by the Environmental Protection Agency as this material may 
enter general commerce and appear in everyday household products. Also 
the Nuclear Waste Policy Act gives the EPA and NRC separate 
responsibilities for setting and enforcing radiation standards at Yucca 
respectively. But the EPA has general responsibilities for protecting 
the public and environment from radiation exposure, and should enforce 
those at Yucca Mountain. In your response to my pre-hearing question 
regarding the role of the EPA in setting general radiation protection 
standards, you indicated ``EPA sets 'fence-line' standards for NRC-
licensed facilities and DOE-owned facilities.'' Do you believe the EPA 
should also regulate products such as contaminated metals coming from 
these facilities that may be recycled into consumer products? What 
about ensuring compliance with radionuclide standards for air emissions 
from these facilities as well? Do you agree that the EPA should apply 
this ``fence-line'' standard at Yucca Mountain as well?
    Response. While EPA is not currently developing standards for 
recycling radioactive materials, the Agency is following the activities 
of the National Academy of Sciences and the Nuclear Regulatory 
Commission (NRC) to ensure that these materials are addressed in a 
responsible manner. EPA's current efforts are focused on controlling 
the indiscriminate or accidental loss of sealed radiation sources that 
have the potential to cause a greater risk to the public if ruptured in 
scrap yards or steel mills. In the meantime, we are regulating air 
emissions from DOE's facilities under our National Emission Standard 
for Hazardous Air Pollutants, Subpart I-I. With regard to Yucca 
Mountain, EPA's proposed standard addressed all exposure pathways, 
including air.
                                 ______
                                 
Responses of Jeffrey R. Holmstead to Additional Questions from Senator 
                                 Smith
    Question 1. Describe your role as a ``contact'' during a 1998 
lobbying campaign related to EPA rules designed to address interstate 
air pollution.
    Response. In 1998, I was a partner at the law firm of Latham & 
Watkins. Among other Things, I was responsible for overseeing the 
firm's compliance with the Lobbying Disclosure Act (LDA). In this 
regard, my primary responsibilities were (1) to educate my colleagues 
about their obligations (and the firm's obligations) under the LDA; (2) 
to ensure that anyone at the firm who became a ``lobbyist'' within the 
meaning of the LDA was promptly registered as such; and (3) to ensure 
that the firm filed semiannual reports on the ``lobbying activities'' 
of any of its partners and employees. Because I was responsible for the 
firm's LDA compliance, I was listed as the ``contact'' person on all 
the LDA forms submitted by the firm, even though I was never a 
lobbyist.
    I had no involvement in the lobbying campaign mentioned above. Nor 
do I have any recollection of this effort or who may have been involved 
in it. If I was listed as a ``contact,'' I assume that my law firm must 
have filed an LDA report regarding these lobbying activities. I believe 
that a review of the LDA forms submitted by Latham & Watkins during 
1998 will show that I am listed as the contact person on all such 
forms.
    I would also like to address two other issues that have been raised 
in recent press reports. A recent article in the BNA Daily Environment 
Report states that, when I served in the White House Counsel's Office, 
I was ``detailed'' to the Competitiveness Council. This is simply 
incorrect. I was never detailed to the Competitiveness Council (or 
anywhere else).
    Second, according to the same article, a group called the Clean Air 
Trust claims that I ``testified before Congress in favor of requiring 
EPA to consider costs in developing air quality standards under the 
Clean Air Act.'' Again, this is simply incorrect. I have never 
testified on this issue. Until last week, when I had the opportunity to 
appear before your committee, the only time I gave testimony to 
Congress was in 1993, when I testified in support of a proposal to 
elevate EPA to cabinet status. A copy of this testimony was attached to 
my answers to the pre-hearing questions.
    In my testimony, I said that, although I generally preferred a 
``clean'' bill that would simply elevate EPA to cabinet status, I could 
support ``a measure along the lines of that sponsored by Senator 
Johnston that would require rules promulgated by [EPA] to be 
accompanied by an analysis comparing the costs of [a] rule with the 
risks to human health and the environment that the rule is meant to 
address.'' Senator Johnston's measure would not have done anything to 
change the Agency's approach for setting air quality standards under 
the Clean Air Act.
                                 ______
                                 
Responses of Jeffrey R. Holmstead to Additional Questions from Senator 
                               Voinovich
    Question 1. During your nomination hearing you were asked whether 
you supported the 1997 NAAQS for ozone and particulate matter, yes or 
no. Considering the pending litigation and the planned scientific 
review I do not believe a simple yes or no suffices, particularly since 
the Agency is currently reassessing the science. Would you please 
elaborate on your answer.
    Response. As you know, the Supreme Court recently resolved two key 
issues related to the 1997 NAAQS for ozone and particulate matter 
(PM)--that the statutory provision under which EPA sets the NAAQS is 
not an unconstitutional delegation of legislative power and that EPA 
may not consider costs in setting the NAAQS. However, the 1997 NAAQS 
for ozone and PM are still under review by the U.S. Court of Appeals 
for the District of Columbia Circuit (the D.C. Circuit). The Agency is 
committed to defending these standards in court and is preparing the 
way for their implementation. Like Governor Whitman, I am supportive of 
these actions.
    I also recognize, however, that the Agency may still need to 
respond to legal or policy issues that may arise from the ongoing 
litigation in the D.C. Circuit. At a minimum. EPA must still respond to 
the D.C. Circuit's remand to consider whether ground-level ozone has a 
beneficial effect by providing protection against UvB radiation. If I 
am confirmed, I will work to ensure that EPA responds to this and any 
other issues raised by the D.C. Circuit expeditiously and based on 
sound science.
    With respect to the on-going reassessment of the science, I support 
the Agency's goal of completing the scientific review of PM health 
effects before fully implementing the PM 2.5 standard that EPA set in 
1997. I understand that this review is well under way. If I am 
confirmed, I will work to ensure that it is completed as expeditiously 
as possible. in accordance with the requirements of a thorough 
scientific review.

    Question 2. As you may know, the Science Advisory Board was highly 
critical of the first draft report under EPA's Residual Risk program 
for Secondary Lead Smelters. The SAB identified a number of assessments 
and analysis that they found were either missing or incomplete such as 
population risks and uncertainty analysis. The report acknowledged that 
of the 174 source categories, the Lead Smelter Industry should be one 
of the easiest Reports since the industry is relatively data-rich. In 
fact the SAB noted ``lack of data will likely pose much greater 
problems when other source categories are addressed in the future, 
appropriate recognition of this problem is needed by both Congress and 
the Agency in order to develop an adequate data base to support the 
residual risk analysis program. `` I am concerned that over the last 10 
years this issue has been ignored by the Agency. Will you commit to 
conducting a review, when you are confirmed, to ascertain the state of 
the Agency's preparedness for the residual risk program, identifying 
the steps and timeline for the Agency to complete the necessary work?
    Response. Based on my prior work in the private sector, I 
understand the challenges that EPA faces in trying to develop a data 
base that will allow the Agency to evaluate the need for residual risk 
standards and to develop such standards where necessary. I understand 
that the Agency has already started a process to review the needs of 
this program and to set a time line for completing the necessary work. 
If I am confirmed, I will closely follow these efforts and work to 
ensure that the Agency has an effective strategy for meeting the needs 
of the residual risk program.

    Question 3. As you are probably aware, several reports have been 
issued within the last 10 years critical of the overall quality and 
independence of the science supporting EPA regulations. These include 
EPA's own report in 1992, Safeguarding the Future: Credible Science, 
Credible Decisions, and more recently, the National Resource Council's 
2000 report, Strengthening Science at the U.S. EPA. What are your 
thoughts on ways to strengthen the science behind important clean air 
regulatory decisions, such as rules on air toxins and criteria 
pollutants?
    Response. The quality and credibility of EPA's policy decisions 
depend on sound assessment of the best available scientific 
information. I believe that EPA, as a whole, has made important 
progress in improving the quality of scientific research, scientific 
assessment, and the peer review process upon which it relies--and that 
the air office has taken part in this process. In this regard, recent 
developments include the Research Coordination Teams for defined 
strategic goals, multi-year planning (such as that encouraged by the 
NRC for particulate matter), an Agency-wide Science Inventory, and an 
expanded grants program to invite fresh ideas from the academic 
community.
    Even with this progress, I think more can be done. If I am 
confirmed, I intend to encourage continued improvements within the 
Office of Air and Radiation and in the Agency as a whole. I agree with 
many of the NRC recommendations for improving science at EPA, including 
developing scientific leadership and talent, a balanced and stable 
research program, developing partnerships and outreach to other Federal 
Departments, States, universities, industry, and other countries, 
holding both our research and regulatory programs accountable to 
periodic review, and implementing and improving the peer review 
process.
    I would look forward to working closely with EPA's Office of 
Research and Development and others in the Agency to improve the 
quality and relevance of scientific research and to insure our draft 
regulations undergo scientific scrutiny within and outside the agency. 
The recent outreach and review of the NATA project by EPA's Science 
Advisory Board is an example of the way in which we can improve our 
assessment of air toxics. If confirmed, I intend to hold the work of my 
staff to the highest standards in ensuring the quality of' our work, 
and to encourage the development of procedures to determine how well 
things are working on a continuous basis.

    Question 4. I believe exposure data is an area the EPA has 
virtually ignored. In testimony before the Senate Environment and 
Public Works Committee, Dr. Mort Lippmann, Interim Chair of EPA's 
Scientific Advisory Board (SAB), criticized the ``highly conservative 
nature of unit risk factors for air toxins'' and urged EPA to support 
efforts to develop an alternative approach to quantifying health 
effects from air toxins that would yield more ``realistic'' estimates 
of population impacts. This is a critical point given that EPA is about 
to issue a number of residual risk standards for air toxins. Would you 
support this effort to develop an alternative approach to quantifying 
risks from air toxins that would result in more realistic estimates of 
population risks?
    Response. Yes. I believe that EPA should take steps to make sure 
that its programs are based on the best possible estimates of real-
world exposure. I understand that, as part of the residual risk 
program, EPA intends to conduct population-based risk assessments in 
order to ascertain the full distribution of exposures and risks within 
a population. EPA is already working toward developing alternative 
methods to support such population-based risk estimates. I also 
understand that EPA recently held a workshop to address this topic in 
conjunction with the SAB. The Agency has committed to support followup 
efforts to this workshop as well as additional efforts within and 
outside the Agency. I am supportive of these efforts.
                                 ______
                                 
Responses by Jeffrey R. Holmstead to Additional Questions from Senator 
                                 Baucus
    Question 1. Can you assure this committee that should you be 
confirmed, clean air standards will be premised solely on sound 
science?
    Response. If I am confirmed, I will work to ensure that all actions 
taken by the Office of Air and Radiation are based on sound science. As 
you know, a recent decision by the Supreme Court made it clear that the 
Agency may not consider costs when its sets national ambient air 
quality standards (NAAQS). I can assure the committee that, if I am 
confirmed, I will work to ensure that any actions related to the NAAQS 
are consistent with this decision.
                                 ______
                                 
Responses by Jeffrey R. Holmstead to Additional Questions from Senator 
                               Lieberman
    Question 1. One of the more important regulatory initiatives for 
the air quality in my home State of Connecticut is the NOx SIP call, 
which would greatly reduce the ozone pollution transported into 
Connecticut from States to the West. Could you comment on your view of 
the SIP call and your plans to enforce it?
    Response. I believe that the NOx SIP Call represents a cost-
effective approach for improving air quality in many areas of the 
Eastern United States. If I am confirmed, I will work to ensure that 
the emission reductions associated with the NOx SIP Call are achieved. 
My hope is that we will be able to work with the States to ensure that 
they submit plans to achieve these reductions without having to resort 
to Federal implementation plans. Although I believe that we will be 
able to accomplish this goal, I would support the use of' a Federal 
plan for any State that may refuse to complete an adequate final SIP 
revision.

    Question 2. Another problem of concern to the State of Connecticut 
is the fuel additive MTBE, which is required under the Clean Air Act's 
oxygenate requirement . Do you support giving States relief from the 
oxygen mandate if it will not result in any environmental harm?
    Response. I know that the use of MTBE has raised concerns about 
contamination of drinking water and groundwater. Clean air and clean 
water are equally important, and I do not believe that we should pursue 
one at the expense of the other. The Clean Air Act has a specific 
provision that allows EPA to waive the oxygenate requirement under 
certain conditions. I support giving States relief from the oxygenate 
requirement if they can show that these conditions are met. I would 
also be open to legislative action to address the issue of MTBE.

    Question 3. I have also been very interested in pursuing 
comprehensive, multi-pollutant legislation to control emissions from 
power plants. In our hearing on climate change 2 weeks ago, however, it 
became clear that any such legislation must include a commitment to 
reduce carbon or it will not provide the regulatory certainty that our 
utilities need. Regrettably, President Bush's energy plan released 
today only proposed regulating three pollutants. What approach would 
you advocate?
    Response. If I am confirmed, I will look forward to working with 
the committee to develop comprehensive, multi-pollutant legislation to 
control power plant emissions. I understand the need for regulatory 
certainty for electric utilities. I support the President's position on 
a multi-pollutant bill, and I believe that the Administration's 
approach will provide the regulatory certainty needed.

    Question 4. One issue that this administration must face is climate 
change. In recent weeks, a number of Senators, including Senators 
Stevens and Byrd, have expressed concern about this issue. Senator Byrd 
even pointed out the need for mandatory commitments to reduce our 
carbon emissions. Could you please comment on what approach you would 
recommend we take on this critical issue.
    Response. Like President Bush and Governor Whitman, I take the 
issue of climate change very seriously. As you may know, the 
Administration is now conducting a cabinet-level review to develop a 
climate change policy that protects and the environment, consumers, and 
the economy. I understand that the cabinet-level group is trying to 
identify the policies that the United States should pursue domestically 
and internationally. Governor Whitman is a member of the team reviewing 
our policy options. The President has said that he is optimistic that, 
by working constructively with our friends and allies through 
international processes. we can develop technologies, market 
incentives, and other innovative approaches to global climate change. 
if I am confirmed, I look forward to participating in this important 
effort.
    The Office of Air and Radiation has a great deal of expertise in 
several areas important to developing policy responses to the issue of 
climate change, including: using voluntary programs to achieve energy 
efficiency gains and the reduction of various greenhouse gases; doing 
research to demonstrate more energy efficient vehicle technologies: and 
using emissions trading programs that help lower the costs of achieving 
environmental protection goals. I support these kinds of approaches, as 
well as any others that the President may decide to pursue in regard to 
climate change.

    Question 5. I applaud the Bush Administration's decision to move 
forward earlier this year with the implementation of new diesel fuel 
and engine standards for 2007. The rulemaking was exhaustive and 
inclusive and I believe has arrived at a resolution that will benefit 
all interested parties. In that regard, I am concerned about any effort 
to open the rule to review, especially in light of the need to provide 
certainty for business planning, as requested by the affected 
industries. Could you comment on your plans to implement the rule and 
whether you have any plant to initiate a review of it?
    Response. EPA remains committed to implementing the 2007 heavy-duty 
vehicle and fuel standards--and to the environmental objectives that 
they will achieve. The Agency has announced that it will seek an 
independent review of progress made by the engine manufacturers and oil 
refiners toward meeting the program requirements. Although EPA has not 
decided what independent group will conduct the review, the Agency 
anticipates that it will begin in mid-2002 and conclude by early 2003.

    Question 6. I am troubled by the recent recommendation by President 
Push in his National Energy Plan that the Attorney General review 
existing enforcement actions regarding New Source Review to ensure that 
the enforcement actions are consistent with the Clean Air Act and its 
regulations.
    The Clean Air Act defines ``modification'' as a physical change o?r 
change in the method of operation that increases the amount of an air 
pollutant emitted by the source. 42 U.S.C. Sec. 7411(a). By regulation, 
EPA exempted from the definition of ``physical change'' those projects 
which are routine maintenance, repair and replacement. EPA historically 
has analyzed the ``routine maintenance'' exemption by using a test that 
assesses four primary factors--(1) the nature and extent; (2) purpose; 
(3) frequency; and (4) cost of the proposed work. See Memorandum from 
Don R. Clay, EPA Acting Assistant Administrator for Air and Radiation, 
to David A. Kee, Air and Radiation Division, EPA Region V (Sept. 9, 
1988); Letter from Don R. Clay, Acting Assistant Administrator for Air 
and Radiation, to John W. Boston, (Feb. 15, 1989). This approach was 
upheld by the Seventh Circuit Court of Appeals. WEPCo v. Reilly, 893 
F.2d 901 (7th Cir. 1990). EPA's more recent use of the same test in its 
enforcement case against TVA also was upheld by the EPA Environmental 
Appeals Board. Tenn. Valley Auth., 9 E.A.D. CAA Docket No. 00-6 (U.S. 
Envtl. Prot. Agency, Sept. 15, 2000), EAB Final Order.
    In view of this legal background, do you agree that EPA's 
interpretation of the NSR provisions, and in particular, the routine 
maintenance exception, as exemplified in the WEPCO and TVA cases, is a 
correct interpretation of the Clean Air Act and applicable regulations?
    Response. As you know, there is considerable controversy 
surrounding this issue. The Agency believes that its interpretation of 
the NSR provisions is a correct interpretation of the Clean Air Act and 
the applicable regulations, and I have no reason to question this view. 
As I understand it, however, some companies believe that EPA is 
currently interpreting certain factors in a new and improper way. The 
President has asked the Department of Justice (DOJ) to review this 
issue in the context of certain cases, and I hope that DOJ will 
complete this review very quickly. In the meantime, EPA and its co-
plaintiffs are continuing to litigate and to negotiate in the hope of 
reaching appropriate settlements in these cases.
                                 ______
                                 
Responses by Jeffrey R. Holmstead to Additional Questions from Senator 
                                Clinton
    Question 1. As some States move to phaseout MTBE, do you support 
providing States with relief from the oxygen mandate under the Clean 
Air Act in cases where such relief would provide both price relief at 
the pump and improve the environmental performance of gasoline?
    Response. The Clean Air Act has a specific provision that allows 
EPA to waive the oxygenate requirement under certain conditions. I 
support giving States relief from the oxygenate requirement if they can 
show that these conditions are met. I would also he open to legislative 
action to address this issue.

    Question 2. Please provide an outline of the specific timelines and 
emissions reductions that you would support as part of a multi-
pollutant bill. In addition, please describe those mechanisms that you 
would support in legislation for achieving these emissions reductions 
in a timely and cost-effective manner?
    Response. The Administration has just started to put together a 
multi-pollutant bill. If I am confirmed, I look forward to working to 
develop of this bill and to securing its passage by Congress. As this 
time, however, I cannot provide you with specific timelines and 
emission reduction levels. I believe that the Administration's bill 
will establish a flexible. market-based program (with appropriate 
measures to address local concerns) to significantly reduce and cap 
emissions of sulfur dioxide, nitrogen oxides and mercury from electric 
utilities. I believe that such reductions should he phased-in over a 
reasonable time while providing market-based incentives such as 
emission trading credits to achieve the required reductions.
                                 ______
                                 
Responses by Jeffrey R. Holmstead to Additional Questions from Senator 
                                Corzine
    Question 1. Earlier this year, the Supreme Court upheld the 1997 
air quality standards. Are these standards appropriate in your view? 
And are you committed to implementing them?
    Response. As you indicated, the Supreme Court recently affirmed the 
Agency's constitutional authority to set these kinds of health 
protection standards. However, the 1997 NAAQS for ozone and PM are 
still under review by the U.S. Court of Appeals for the District of 
Columbia Circuit (the D.C. Circuit). The Agency is committed to 
defending these standards in court and is preparing the way for their 
implementation. Like Governor Whitman, I am supportive of these 
actions.
    The Agency may still need to respond to legal or policy issues that 
may arise from the ongoing litigation in the D.C. Circuit. At a 
minimum, EPA must still respond to the D.C. Circuit's remand to 
consider whether ground-level ozone has a beneficial effect by 
providing protection against UvB radiation. If I am confirmed, I will 
work to ensure that EPA responds to this and any other issues raised by 
the D.C. Circuit expeditiously and based on sound science. I will also 
work to ensure that the Agency takes all actions that are necessary to 
implement the NAAQS as quickly as possible.

    Question 2. The Supreme Court decided in EPA's favor earlier this 
year on the ``NOx SIP call''. Not all of the States have submitted 
revisions for their State Implementation Plans, and the deadline is 
approaching. Are you committed to preparing and implementing a Federal 
Implementation Plan for States that fail to submit their own plans?
    Response. If confirmed, I will work to ensure that the emission 
reductions associated with the NOx SIP Call arc achieved. My hope is 
that we will be able to work with the States to ensure that they submit 
plans to achieve these reductions without having to resort to Federal 
implementation plans. Although I believe that we will be able to 
accomplish this goal, I would support the use of a Federal 
implementation plan for any State that may refuse to complete an 
adequate final SIP revision.

    Question 3. EPA's ``New Source Review'' actions against power 
plants have been the subject of considerable controversy. Do you think 
that these actions should continue? If you haven't yet studied the 
specifics of the cases, 'can you explain the framework and criteria you 
would use to evaluate the issue?
    Response. I am aware that there is considerable controversy 
surrounding these cases. As you anticipated, however, I have not 
studied the specifics of these cases or the arguments made by the power 
plants. I understand that these cases are continuing while the 
Department of Justice (DO.!) reviews them in accordance with the 
National Energy Policy Report. EPA career staff' recently met with 
their counterparts at the Department of Justice to begin determining 
the framework for the DOJ review. I believe that the review should be, 
based on the law as written and on prior precedent in the area. 
Governor Whitman recognizes that a lengthy review process could prove 
problematic and has asked Attorney General Ashcroft to conduct his 
review as expeditiously as practicable.
                                 ______
                                 
                                          Latham & Watkins,
                                                     March 12, 1997

Office of Air and Radiation
Docket and Information Center
Attention: Docket No. A-95-54
U.S. Environmental Protection Agency,
401 M Street, SW
Washington, DC

    Re: Proposal to Establish NAAQS for Fine Particles

Dear Sir or Madam: On behalf of the Electronic Industries Association 
(ETA), we hereby submit the enclosed comments on the Environmental 
Protection Agency's proposal to establish National Ambient Air Quality 
Standards (NAAQS) for fme particles. 61 Fed. Reg. 65638 (Dec. 3, 1996). 
If you have any questions or need further information, please contact 
me at 202-637-2287.
            Sincerely yours,
                   Jeffrey R. Holmstead of Latham & Watkins
                                 ______
                                 
                                          Latham & Watkins,
                                                     March 12, 1997

Office of Air and Radiation
Docket and Information Center
Attention: Docket No. A-95-54
U.S. Environmental Protection Agency,
401 M Street, SW
Washington, DC

    Re: Proposed Interim Implementation Policy

Dear Sir or Madam: On behalf of the Electronic Industries Association 
(ETA), we hereby submit the enclosed comments on the Environmental 
Protection Agency's proposed Interim Implementation Policy on New or 
Revised National Ambient Air Quality Standards (NAAQS). 61 Fed. Reg. 
65752 (Dec. 13, 1996). If you have any questions or need further 
information, please contact me at 202-637-2287.
            Sincerely yours,
                   Jeffrey R. Holmstead of Latham & Watkins
                                 ______
                                 
                                          Latham & Watkins,
                                                     March 12, 1997

Office of Air and Radiation
Docket and Information Center
Attention: Docket No. A-95-54
U.S. Environmental Protection Agency,
401 M Street, SW
Washington, DC

    Re: ANPR on Implementation of New or Revised NAAOS

Dear Sir or Madam: On behalf of the Electronic Industries Association 
(ETA), we hereby submit the enclosed comments on the Environmental 
Protection Agency's advance notice of proposed rulemaking (ANPR) that 
seeks comments on the future implementation of new or revised National 
Ambient Air Quality Standards (NAAQS) for ozone and fine particles. 61 
Fed. Reg. 65764 (Dec. 13, 1996). If you have any questions or need 
further information, please contact me at 202-637-2287.
            Sincerely yours,
                  Jeffrey R. Holmstead of Latham & Watkins.
                                 ______
                                 
                                                    March 12, 1997.
  comments by the electronic industries association before the united 
states environmental protection agency on the proposed national ambient 
              air quality standards for particulate matter
National Ambient Air Quality Standards for Particulate Matter, Proposed 
Rule
                                                            A-95-54
                                                 61 Fed. Reg. 65638
David Isaacs, Esq., Deputy General Counsel and Staff Director, 
Environmental Affairs, Electronic Industries Association.

2Timothy I. Mohin of Intel Corporation,
Joe Downing III of Texas Instruments.
                Chairpersons of the EIA Clean Air Working Group

            Of Counsel:
Jeffrey R. Holmstead,
David A. Kass,
Latham & Watkins
                                 ______
                                 
                                                    March 12, 1997.
  comments by the electronic industries association before the united 
  states environmental protection agency on the proposed rule for the 
implementation of new or revised ozone and particulate matter, national 
                     ambient air quality standards
Interim Implementation Policy on New or Revised Ozone and Particulate 
Matter National Ambient Air Quality Standards, Notice of Proposed 
Policy
                                                            A-95-38
                                                 61 Fed. Reg. 65752
David Isaacs, Esq., Deputy General Counsel and Staff Director, 
Environmental Affairs, Electronic Industries Association.

Timothy I. Mohin of Intel Corporation,
Joe Downing III of Texas Instruments.
                Chairpersons of the EIA Clean Air Working Group

            Of Counsel:
Jeffrey R. Holmstead,
David A. Kass,
Latham & Watkins
                                                    March 12, 1997.
  comments by the electronic industries association before the united 
  states environmental protection agency on the proposed rule for the 
implementation of new or revised ozone and particulate matter, national 
      ambient air quality standards and regional haze regulations
Implementation of New or Revised Ozone and Particulate Matter National 
Ambient Air Quality Standards and Regional Haze Regulations, Advance 
Notice of Proposed Rulemaking
                                                            A-95-58
                                                 61 Fed. Reg. 65764
David Isaacs, Esq., Deputy General Counsel and Staff Director, 
Environmental Affairs, Electronic Industries Association.

2Timothy I. Mohin of Intel Corporation,
Joe Downing III of Texas Instruments.
            Chairpersons of the EIA Clean Air Working Group

            Of Counsel:
Jeffrey R. Holmstead,
David A. Kass,
Latham & Watkins
                                                           
                            (March 12, 1997)
                        INTRODUCTION AND SUMMARY
    The Electronic Industries Association (EIA) submits these comments 
on the proposals by the United States Environmental Protection Agency 
(EPA) to (I) establish new National Ambient Air Quality Standards 
(NAAQS) for fine particles, 61 Fed. Reg. 65638 (Dec. 13, 1996); (2) 
revise the NAAQS for ozone, Id. at 65715; (3) adopt an ``interim 
implementation policy'' relating to the new or revised NAAQS for fine 
particles and ozone, Id. at 65752; and (4) seek comment on future 
implementation issues relating to the new or revised NAAQS, Id.. at 
65764. In these comments, EIA will not address EPA'5 proposal to 
establish a new reference method and other requirements for monitoring 
ambient levels of fine particles, Id. at 65780, but will address all 
the other proposals that EPA published on December 13, 1996.
    These comments were prepared by EIA's Clean Air Working Group, 
which has the active participation of major U.S. electronics 
manufacturers EIA is the oldest and largest trade association 
representing the U.S. electronics industry. It is comprised of more 
than 1,000 member companies that design, manufacture, distribute and 
sell electronic parts, components, and systems for consumer, 
commercial, military, and aerospace use. EIA has been involved in a 
broad range of implementation and flexibility issues under the Clean 
Air Act (CAA). Our focus has been on ensuring the compatibility of CAA 
requirements with the hundreds bf routine process upgrades, 
advancements, and innovations that an electronics or other high 
technology manufacturer must undertake each year to compete in the 
global marketplace, to control costs, to maintain quality, to meet 
corporate pollution prevention goals, and to satisfy new regulatory 
requirements.
    EIA strongly supports the goals of the Clean Air Act and recognizes 
the importance of setting the NAAQS at levels that will protect human 
health and the environment. Over the years, EIA and its members have 
worked cooperatively with EPA and with state and local governments to 
develop and implement innovative programs that are designed to protect 
and improve the quality of our nation's air, while at the same time 
addressing the flexibility needs of the electronics industry? As 
discussed further below, the technologically dynamic nature of the 
electronics industry distinguishes it from other traditional 
manufacturing sectors. For this reason, ETA has focused its advocacy 
efforts on addressing the unique flexibility needs of its members. . As 
part of this effort, ETA was pleased to participate in the EPA-
sponsored Pollution Prevention in Permits (``P4'') Pilot, which 
resulted in the first cap-type permit for an electronics facility.
    The American electronics industry is proud of its environmental 
record and strongly supports measures needed to protect public health 
and the environment. In this case, however, ETA has several serious 
concerns about EPA's proposals to revise the ozone NAAQS and establish 
new NAAQS for fine particles. It also has concerns .about the approach 
that will be used to implement such standards if they are adopted. 
ETA's views, which are discussed more fully in the body of the 
comments, are summarized below:
Proposed Revisions to the NAAQS for Ozone
    <bullet>  EPA's Clean Air Scientific Advisory Committee (CASAC) 
concluded that the proposed NAAQS for ozone would not be 
``significantly more protective of public health'' than the current 
standard, and that there is no ``bright line'' that distinguishes the 
current ozone standard from any other standard under consideration. 
CASAC letter of November 30, 1995. As a result, CASAC stated that the 
selection of any specific standard for ozone is strictly a ``policy 
judgment.'' Id.
    <bullet>  In making this policy judgment, EPA should consider the 
costs of lowering the ozone standard. Under these circumstances, 
nothing in the Clean Air Act precludes the Agency from taking costs 
into account when setting the NAAQS. Indeed, where there is no 
scientific basis for choosing one standard over another, we believe it 
would be arbitrary and capricious not to consider the costs of 
achieving alternative standards.
    <bullet>  EPA estimates that the imposition of all reasonably 
available control measures would cost approximately $2.5 billion a year 
and would only allow ``partial attainment'' with the proposed NAAQS for 
ozone. The cost of control measures that would be required to reach 
full attainment are almost certain to be much higher:
    <bullet>  The establishment of a new NAAQS would also impose 
significant costs on state and local governments. EPA estimates that, 
under the proposed standard, the number of ozone nonattainment areas 
would roughly triple. This would impose an enorrnous burden on state 
and local agencies, which would be required to go through a lengthy 
planning process to gather data and develop programs to meet the new 
standards.
    <bullet>  Although the electronics industry is not a significant 
source of ozone precursors, many electronics manufacturers have made 
key planning decisions based on the current NAAQS for ozone. For 
example, many companies have taken steps to ensure that their 
facilities will not be treated as ``major sources'' under various EPA 
programs--an approach that helps to protect air quality while providing 
the facilities with operational flexibility. A change in the NAAQS 
standard has the potential to undermine this approach.
    <bullet>  Thus, lowering the ozone NAAQS would impose significant 
costs on governments, businesses, and consumers, but would not result 
in meaningful health benefits. Under these circumstances, EPA should 
not lower the NAAQS for ozone. Specifically, EPA should either retain 
the current ozone NAAQS or establish an equivalent standard with a 
longer averaging period. If EPA decides to switch to a longer-averaging 
period, it should select a standard that will not undermine the 
programs that government agencies and businesses have developed to meet 
the current standards.
Proposed NAAQS for PM<INF>2.5</INF>
    <bullet>  EPA and its scientific advisors have acknowledged that 
there is much uncertainty about the health effects of fine particles. 
Based on the current record, it is not clear that the proposed NAAQS 
for PM<INF>2.5</INF> is. necessary to protect the public health. 
Indeed, in light of the uncertainty about fine particles, there may be 
little or no public health benefit from the proposed NAAQS for 
PM<INF>2.5</INF>.
    <bullet>  According to EPA, it will cost approximately $6 billion a 
year to achieve even ``partial attainment'' with the proposed 
standards. The cost of full attainment is likely to be much higher.
    <bullet>  Under these circumstances--where there are uncertain 
health benefits and certain (and significant) costs--EPA should not 
establish new standards for PM<INF>2.5</INF> at this time. Rather, the 
Agency should retain the current PM standards until such time as 
further research can address the significant uncertainties about the 
health effects of fine particles. In this regard, we note that EPA is 
seeking congressional funding for a major research program that is 
specifically designed [t]o reduce the great uncertainty about PM's 
health effects.'' Budget of the U.S. Government, Fiscal Year 1998.
Proposed Interim Implementation Policy
    <bullet>  The technologically dynamic nature of the electronics 
industry distinguishes it from other traditional manufacturing sectors. 
To avoid obsolescence, a typical electronics manufacturing facility 
will undergo numerous chemical and equipment alterations in the span of 
a single year and will install several completely new generations of 
technology during its operational lifetime. In order to be competitive 
in the global marketplace, an electronics facility must have the 
flexibility to make these changes quickly.
    <bullet>  If EPA proceeds to establish an interim implementation 
policy, the policy should be designed to preserve the operational 
flexibility that the electronics industry and other quick-to-market 
industries need to remain competitive internationally.
    <bullet>  Under EPA's proposed interim implementation policy, all 
``moderate'' ozone nonattainment areas would automatically be 
reclassified as ``serious'' nonattainment areas. Among other things, 
this would lower the major source threshold in these areas from 100 
tons per year to 50 tons per year. As a result, many facilities that 
currently qualify as minor sources would become major sources and thus 
would potentially be subject to a lengthy permitting process when 
making physical or operational changes.
    <bullet>  Such an automatic ``buildup'' would not result in 
substantial emissions reductions and should not be included in any 
interim implementation policy.
Long Term Implementation issues
    <bullet>  If the Agency proceeds to revise the ozone NAAQS or 
establish new NAAQS for PM<INF>2.5</INF>, it should develop an 
innovative and flexible implementation policy that will achieve cost-
effective emissions reductions without hampering operational 
flexibility.
    <bullet>  Such a policy should be designed to spread the compliance 
burden fairly among industrial, public, and governmental sectors. The 
policy should not focus exclusively on private manufacturing 
facilities.
    <bullet>  The implementation policy should not lower major sources 
thresholds or otherwise expand existing permitting processes that could 
prevent quick-to-market companies from making physical or operational 
changes that are needed to respond to the changing demands of the 
marketplace.
    <bullet>  Many states have developed so-called ``minor NSR'' 
programs that take into account the flexibility needs of the 
electronics industry. These programs, which have been carefully crafted 
to protect air quality while allowing flexibility, should not be 
reopened under any long-term implementation policy.
    <bullet>  The nature of the electronics manufacturing process 
results in high air flow volume with low concentrations of pollutants. 
Under these circumstances, states have developed regulatory 
requirements for electronics facilities that rely on pollution 
prevention, work practices, and other environmental management 
techniques to control emissions. Such programs should be left in place.
                       i. the proposed standards
A. EPA Should Base the Proposed Revision to the Ozone NAAQS on Sound 
        Science and Should Take Other Relevant Factors Into Account
    EIA strongly supports the goals of the Clean Air Act and recognizes 
the importance of setting the NAAQS at levels that will protect human 
health and the environment. ETA also believes, however, that the Agency 
must rely on sound science and widely accepted principles of public 
policy when developing the NAAQS. EPA's Clean Air Scientific Advisory 
Committee (CASAC), a group of scientific experts established by the 
Clean Air Act and appointed by the EPA Administrator, has reviewed the 
scientific data regarding the health effects of ozone, and has 
concluded that the scientific evidence does not point to any specific 
level as being appropriate for the ozone NAAQS. In reviewing the 
scientific data regarding the health effects of ozone, CASAC concluded 
as follows:

    [T]here is no ``bright line'' which distinguishes any of the 
    proposed standards (either the level or the number of allowable 
    exceedances) as being significantly more protective of public 
    health. For example, the differences in the [estimated] percent of 
    outdoor children responding between the present standard [0.12 ppm 
    averaged over 1 hour] and the most stringent proposal (8-hour, one 
    exceedarice, 0.07 ppm) are small and their ranges overlap for all 
    health endpoints.

    CASAC letter of November 30, 1995. Thus, there is no scientific 
basis for concluding that the proposed ozone standard would necessarily 
provide greater health benefits than the current standard. For this 
reason, CASAC specifically stated that, within the range of standards 
being considered by EPA, the selection of a specific standard was not a 
scientific issue, but was strictly a ``policy judgment.'' Id. EPA 
itself acknowledged this fact in the preamble to its proposal to revise 
the NAAQS for ozone. See 61 Fed. Reg. at 65727.
    In making this policy judgment, EPA should consider the costs of 
lowering the ozone standard. EPA has historically taken the position 
that, under the Clean Air Act, it may not consider the costs of 
establishing the NAAQS, but must set them based solely on scientific 
evidence about health and environmental effects.\1\ In this case, 
however, CASAC has stated that the scientific evidence alone does not 
point to any particular standard, and that the standard must. be based 
on other policy considerations. Under these circumstances, nothing in 
the Clean Air Act precludes the Agency from taking costs into account 
when setting the NAAQS. Indeed, where there is no scientific basis for 
choosing one standard over another, we believe that it would be 
arbitrary and capricious not to consider the costs of achieving 
alternative standards.
---------------------------------------------------------------------------
     \1\In support of this position, some commentators have referred to 
the 1980 decision by the D.C. Circuit Court of Appeals in Lead 
Industries Association v. EPA, 647 F.2d 1130 (D.C. Cir. 1980). This 
case, however, addressed the issue of whether EPA is required to take 
costs into account when developing NAAQS, not whether the Agency has 
the discretion to consider costs if it so chooses. In Lead Industry, 
the petitioner argued that the Clean Air Act required EPA to consider 
costs when setting the NAAQS. Not surprisingly, the Court rejected this 
argument. Although there is some language in the Lead Industries 
decision indicating that EPA is precluded from considering costs when 
setting NAAQS, this language is clearly dicta, and is not part of the 
Court's holding. Neither this nor any other case has held that EPA 
lacks the discretion to consider costs when setting or revising the 
NAAQS.
---------------------------------------------------------------------------
    EPA has estimated that the cost of ``partial attainment' with the 
proposed ozone standards would be approximately $2.5 billion per year. 
See EPA Ozone Regulatory Impact Analysis (Ozone RIA). For at least two 
reasons, however, this estimate significantly understates the likely 
cost of the ozone proposal. First, the Agency was not able to identify 
enough control measures to allow 24 of the projected ozone 
nonattainment areas to reach attainment with the proposed standard, and 
therefore did not include the full cost of reaching attainment in those 
areas. In fact, according EPA's analysis, there are four cities (Los 
Angeles, New York City, San Diego, and Bakersfield) where the control 
measures identified by EPA would not be sufficient to attain even the 
current standard. See Appendix A of the Ozone RIA.
    Second, EPA's cost estimates only include the cost of actual 
control measures, and do not include the planning and other costs that 
would be borne by businesses and government agencies. These costs could 
also be substantial. EPA estimates that, under the proposed standard, 
the number of ozone nonattainment areas would roughly triple. This 
would impose an enormous burden on state and local environmental 
agencies, which would be required to go through a lengthy planning 
process to gather data and develop policies and programs to meet the 
new standards.
    Although the electronics industry is not a major source of ozone 
precursors, it would likely be adversely affected by the proposed ozone 
standard. Many electronics manufacturers have made key planning 
decisions based on the current NAAQS for ozone. For example, many 
companies have taken steps to ensure that their facilities will not be 
treated as ``major sources'' under various EPA programs. This approach 
not only benefits the companies by ensuring that they will have 
operational flexibility, but also benefits the environment by capping 
potential emissions from these facilities. A change in the NAAQS 
standard has the potential to undermine this approach and cause 
significant disruptions in the electronics industry.
    We understand the need to invest in clean air and a healthy 
environment, and we do not object to any regulatory requirement simply 
because of the burden that it may impose on our industry. 
Notwithstanding the cost and potential disruption of the proposed 
revision to the ozone NAAQS, EIA would support the proposal if it would 
provide meaningful health or environmental benefits. But EPA's own 
scientific advisors have concluded that the proposed ozone standards 
would not necessarily provide such benefits. Under these 
circumstances--where the proposal would clearly impose significant 
costs on governments, businesses, and consumers but not necessarily 
provide meaningful benefits--the appropriate ``policy judgment'' seems 
clear. EPA should not revise the NAAQS for ozone as outlined in the 
proposed rule. Rather, ETA believes that the Agency should either 
retain the current ozone NAAQS or establish an equivalent standard with 
a longer averaging period. As noted in the preamble to the proposed 
rule, CASAC has indicated that a longer--averaging period would be more 
appropriate for addressing the adverse health effects related to ozone 
exposures. In addition, a longer averaging period may provide a more 
stable standard that is less likely to force an area into nonattainment 
based on unusual weather patterns. If EPA decides to switch to a 
longer-averaging period, it should select a level (and an 
implementation approach) that will not undermine the programs that 
government agencies and businesses have developed to meet the current 
ozone standards.
B. EPA Should; Not Establish New NAAQS for PM<INF>2.5</INF> Until 
        Further Research Can Address the Major Uncertainties About 
        the,Health Effects of PM<INF>2.5</INF>
    CASAC also conducted a comprehensive review of the scientific data 
regarding the health effects of fine particles--i.e., airborne 
particulate matter measuring 2.5 microns or less (PM<INF>2.5</INF>). 
Based on this review, it concluded that there is much uncertainty about 
the underlying science, and that a number of important questions should 
be addressed before EPA proceeds to set a NAAQS for PM<INF>2.5</INF>. 
In a letter dated June 13, 1996, CASAC advised the Agency that, because 
of the judicial deadline for making a decision about whether to revise 
the current PM NAAQS, CASAC did not have ``adequate time to analyze, 
integrate, interpret, and debate the available data on this very 
complex issue.''
    EPA itself has recognized that there are substantial uncertainties 
about the potential health effects of PM<INF>2.5</INF>. As part of the 
Administration's recent budget proposal, the Agency has requested $26.4 
million in order to conduct the research that is necessary ``[to reduce 
the great uncertaii#y about PM'S health effects.'' Budget of the United 
States Government, Fiscal Year 1998, p. 81 (emphasis added). According 
to the budget proposal, this amount of funding is needed to support 
research in three areas: ``(1) evaluating the relationship between 
health effects and PM exposures; (2) determining the amount and size of 
particles inhaled and retained in the lungs; and (3) investigating 
biological mechanisms by which PM concentrations in outdoor air may 
induce health effects and, in doing so, evaluating potential links 
between PM exposures and health effects.'' Id.
    In spite of these uncertainties, it might be appropriate to 
establish a NAAQS for fine particles if it would be relatively 
inexpensive to achieve such a standard. The Regulatory Impact Analysis 
(MA) prepared by EPA, however, estimates that it will cost $6.3 billion 
per year to achieve partial attainment with the proposed standard. EPA 
PM Regulatory Impact Analysis (MA) at 7-8. As with the proposed ozone 
standard, the Agency has not attempted to estimate the cost of full 
attainment because ``it is not possible to estimate the costs of the as 
yet unknown measures that will be required to allow residual 
nonattainment areas to come into compliance.'' See Letter of Sally 
Katzen, Administrator of the Office of Information and Regulatory 
Affairs, to Chairman Thomas Bliley, Jr. (February 14, 1997). Thus, 
there is also significant uncertainty about the full cost of the 
proposal.
    The Agency has not yet been able to collect basic data regarding 
PMG52.5 emissions, including what sources are responsible for 
PM<INF>2.5</INF>, what chemical components form PM<INF>2.5</INF> in the 
atmosphere, and what steps will likely be needed to address 
PM<INF>2.5</INF> emissions. In its proposed Interim Implementation 
Policy, for example, EPA notes it cannot develop an implementation 
policy for fine particulates ``until it is able to technically predict 
and measure emissions of fine particles generated by individual sources 
and better understand and estimate the formation and dispersion of 
ambient fine particle concentrations in the atmosphere.'' 61 Fed. Reg. 
at 65762.
    EIA recognizes that absolute certainty should not be a prerequisite 
for the imposition of environmental standards, and that EPA must often 
move forward to protect public health in the face of unanswered 
questions. In this case, however, there are enormously important 
questions that must still be addressed, and the cost of moving forward 
is very high. In light of the many questions surrounding fine 
particulates, including the uncertainty about the health effects data 
and the types of sources that are responsible for airborne 
concentrations of PM<INF>2.5</INF>, ETA believes that the Agency should 
not establish NAAQS for PM<INF>2.5</INF> at this time. EPA is under no 
obligation to establish a new NAAQS for PM<INF>2.5</INF>. It can comply 
with the existing judicial deadline and the underlying requirements of 
the Clean Air Act by reaffirming the current PM<INF>10</INF> standards 
and taking the time needed to address the significant scientific 
uncertainties about the potential health effects of fine particles. 
Rather than setting a new standard for PM<INF>2.5</INF>, EPA should 
follow the advice given by CASAC and ``implement a targeted research 
program to address these unanswered questions and uncertainties.'' See 
CASAC letter of June 13, 1996.
                       ii. implementation issues
A. The Electronics Industry Has Unique Flexibility Needs that Must Be 
        Addressed in Any Implementation Policy
    The technologically dynamic nature pf the electronics industry 
distinguishes it from other traditional manufacturing sectors. To avoid 
obsolescence, a typical electronics manufacturing facility will undergo 
numerous chemical and equipment alterations in the span of a single 
year and will install several completely new generations of technology 
during its operational lifetime.
    In the electronics industry, the ability to bring a new product to 
market rapidly is of paramount importance to the product's ultimate 
success. Even a 1- or 2-week delay in a new product announcement or the 
shipping of a new product can have serious effects on the product's 
ultimate success. Each year, a typical electronics manufacturing 
company may announce as many as several hundred new hardware products 
in the United States alone. Obviously, these products cannot simply 
appear on the customer's floors, but require new and modified 
manufacturing processes, often with a completely new generation of 
technology.
    As a result, electronics manufacturing processes are in continuous 
evolution. Roughly every 18 to 24 months, new generations of products 
are introduced through implementation of new processes, and of these 
processes, approximately one-third involve major departures from the 
prior processes in terms of chemistries, equipment and/or chemical use. 
Process alterations are essential to meet the competitive demand for 
upgrades, advancements and innovations. To provide a concrete example 
of the types of business challenges faced by both the electronics and 
semiconductor manufacturers in our industry, EIA has undertaken an 
informal survey of its members.
    One EIA member, Intel Corporation, has analyzed its semiconductor 
operations. This analysis demonstrates that beginning at startup, and 
for each subsequent 5-year period that follows, a typical facility 
using the latest process technology would:

    <bullet>  Introduce at least two new generations of technology, 
which may occur either through constant alterations phased in over time 
or by completely ``gutting'' the interior of the facility other than 
the piping, ducts and other components which link the manufacturing 
operation with the general facility services area.
    <bullet>  Make 30 to 45 process chemical alterations per year as 
existing processes are refined and new processes are developed.
    <bullet>  Install 5 to 15 new equipment types and/or new processes 
to meet technical needs that were identified at facility startup, but 
for which at the time of startup, no equipment or process satisfying 
the requisite specifications have actually been developed, constructed 
and validated.
    <bullet>  Undertake hundreds of minor process ``tweakings,'' such 
as an amendment in flowrate or temperature adjustments.

    EIA has also gathered information from other members regarding the 
types and frequency of routine process upgrades, advancements and 
innovations made each year in typical electronics operations. The 
results indicate that, in general, an electronics manufacturer will 
undertake 100-3 00 alterations per year depending on the size of the 
facility. Approximately one-quarter of these alterations involve the 
installation of equipment, primarily in replacement or ``like-kind'' 
replacement situations.
    To remain competitively viable, a U.S. manufacturer cannot afford 
any significant regulatory delays prior to implementing process and 
equipment alterations. Thus, any implementation policy for new or 
revised NAAQS must take into account the following:

    <bullet>  The global competitive dynamics of our industry create 
the economic reality that process alterations must be implemented 
swiftly to retain existing markets and/or capture new markets. Thus, to 
remain competitively viable, a U.S. manufacturer cannot afford any 
significant regulatory delays prior to implementing process 
alterations.
    <bullet>  Regulatory regimes that require permitting or other 
environmental authorities to comprehend and catalogue each and every 
process detail create inordinate administrative burdens for both 
regulators and industry due to the ever-evolving nature of electronics 
and semiconductor processes. Moreover, in many cases, such regimes are 
simply incompatible with our industry's competitive need to implement 
process changes in a swift, decisive manner.

    In sum, regulatory flexibility--as defined by the ability to 
undertake these routine changes without significant delay--is critical 
to our industry's global competitiveness.
B. If EPA Revises the Ozone NAAQS or Sets New NAAQS for 
        PM<INF>2.5</INF>, the Interim Implementation Policy Should Not 
        Reduce Operational Flexibility by Automatically Lowering Maj or 
        Source Thresholds
    EPA has proposed an ``interim implementation policy'' that would 
become effective when a new or revised NAAQS is finalized and would 
remain in effect in an individual state until the state has developed 
(and EPA has approved) a state implementation plan (SIP) designed to 
meet the new NAAQS. For the most part, the proposed policy would simply 
adopt a ``no backsliding'' policy that would keep all current programs 
and requirements in place. In at least one key respect, however, the 
proposed policy would go beyond this no backsliding principle. Under 
the proposal, all ``marginal'' ozone nonattainment areas would 
automatically be reclassified as ``moderate'' areas, and all moderate 
areas would become ``serious'' areas. Among other things, this would 
lower the New Source Review (NSR) major source threshold from 100 tons 
per year (tpy) to 50 tpy in moderate areas that are reclassified as 
serious during the interim period.
    This change is likely to have a significant impact on many 
facilities currently located in moderate nonattainment areas. Many 
companies, including members of ETA, have diligently pursued a minor 
source strategy since 1990, using careful strategic planning and, in 
some cases, expensive pollution prevention and other control measures, 
to ensure that their plants are not categorized as major sources. This 
strategy has preserved operational flexibility for the facilities and, 
at the same time, has yielded important environmental benefits by 
capping potential emissions at these plants. By automatically lowering 
the major source thresholds, the proposed interim policy has the 
potential to undermine this minor source strategy.
    Significantly, there is no evidence to suggest that lowering major 
source thresholds will have an appreciable impact on reducing 
emissions. In many areas, emissions of ozone precursors come primarily 
from mobile and area sources. For example, 1996 emissions data compiled 
by the Arizona Department of Environmental Quality shows that in 
Maricopa County, Arizona, stationary sources are responsible for only 
about 6 percent of VOC emissions and 5 percent of NOx emissions. The 
rest of the VOC and NOx emissions in the county come from area and 
mobile sources. In other areas, emissions of concern come primarily 
from older, stable facilities that do not intent to make physical or 
operational changes and therefore will not be subject to NSR. In these 
areas, extending the NSR program to smaller stationary sources has 
little or no potential to reduce emissions of ozone precursors. If EPA 
proceeds to establish an interim implementation policy, the policy 
should not include an automatic ``bump up'' that would lower major 
source thresholds in certain areas. Rather, it should simply adhere to 
the no backsliding principle.
C. If EPA Revises the Ozone NAAQS or Sets New NAAQS for 
        PM<INF>2.5</INF>, it Should also Establish a Long-term Interim 
        Implementation Policy that Allows for Innovation and 
        Flexibility
    EPA has taken the position that subparts 2 and 4 of part D of title 
I of the Clean Air Act would not apply to the revised ozone and 
PM<INF>2.5</INF> NAAQS, because those subparts were ``explicitly tied'' 
to the ozone and PM NAAQS that were in place when the 1990 Clean Air 
Act Amendments were adopted. See 61 Fed. Reg. at 65753. As a result, 
the Agency has announced that it will develop a new policy, including a 
new classification scheme, to implement the proposed NAAQS. If EPA 
takes this opportunity to move beyond the strictures of subparts 2 and 
4, it should seek to develop an innovative and flexible implementation 
policy that will achieve cost-effective emissions reductions without 
hampering operational flexibility. Any such policy should ensure that 
the electronics industry and other similar industries are able to carry 
out necessary process changes without incurring regulatory delays. The 
following implementation issues are of particular importance to the 
electronics industry:
    Major Source Permitting: EPA should not adopt an implementation 
policy that relies on increasingly stringent major source thresholds 
for purposes of New Source Review (NSR) or similar permitting programs. 
As noted above, such an approach has little or no potential to achieve 
significant emissions reductions, but could significantly limit the 
operational flexibility that dynamic industries need to compete 
effectively in the global marketplace. Many ETA members have diligently 
pursued a minor source strategy since 1990, using careful strategic 
planning and, in some cases, expensive control measures, to ensure that 
their plants are not categorized as major sources. As a result, most 
electronics facilities are not subject to major source NSR permitting 
obligations, and are able to make physical or operational changes 
without going through a lengthy regulatory process. An implementation 
policy that adopts more stringent major source thresholds and thereby 
brings smaller sources into the NSR program could wreak havoc on the 
electronics industry by subjecting routine changes to NSR review.
    Minor NSR: Electronics sources are typically regulated under SIP 
permitting programs for minor sources (generally known as minor NSR) 
and have relied on these programs to obtain controls and limitations on 
their potential to emit, thereby avoiding major source status. 
Historically, these minor NSR programs have also been important tools 
for states to regulate sources with respect to attainment requirements. 
Many states have fashioned their minor NSR programs in a manner that 
recognizes the electronic industry's unique flexibility needs and the 
lack of environmental significance of the industry's routine process 
upgrades, advancements and innovations by allowing the use of blanket 
registrations, targeted exemptions, and other similar measures. Any 
change in these programs could disrupt the minor source strategy 
employed by electronics manufacturers and could create regulatory 
delays that would seriously hamper global competitiveness.
    It is also important that any implementation policy be designed to 
preserve the work that has been done to develop innovative cap-type 
permits. These permits encourage pollution prevention and other 
creative approaches for controlling emissions, while at the same time 
providing the flexibility that electronics companies need to compete in 
the global marketplace.
    Emissions Controls: The nature of the electronics manufacturing 
process results in high air flow volume with low concentrations of 
pollutants. Under these circumstances, states have developed regulatory 
requirements for electronics facilities that rely on pollution 
prevention, work practices, and other environmental management 
techniques to control emissions. Many states have fashioned their 
``reasonably available control technology'' (RACT) rules for 
electronics sources in a flexible manner that does not mandate specific 
end-of-pipe control technologies. Moreover, the constant evolution of 
the manufacturing process encourages an electronics manufacturers to 
``build in'' emission controls as part of the planning process. Thus, 
any change in the RACT rules necessitated by a revision to the NAAQS 
could have serious flexibility implications for electronics 
manufacturers.
    Monitoring And Other Compliance Demonstration Approaches: As part 
of the SIP revision process that will be necessary to implement any new 
or revised NAAQS, states will be required to develop a ``comprehensive, 
accurate, current inventory of actual emissions from all sources.'' 
Electronics sources present unique monitoring challenges due to the 
high volumes of air and low levels of pollutants that typify the 
manufacturing process. To date, states have been flexible in working 
with the electronics industry to develop emissions data based on real-
world factors. Implementation of any NAAQS revision must be undertaken 
with this same flexible approach to monitoring and compliance 
demonstration.
    Equitable Allocation of Compliance Burden: In addition to the 
specific issues noted above, EIA also urges the Agency to adopt an 
implementation policy that spreads the compliance burden fairly among 
the industrial, public, and governmental sectors. The policy should not 
focus primarily on private industrial sources for reductions of ozone 
and PM precursors, but should seek cost-effective emission reductions 
from the general public (including mobile sources and consumer 
products) and from governmental sources as well. As noted above, mobile 
and area sources are responsible for the vast majority of emissions in 
many parts of the country. Any implementation policy should reflect 
this fact and shOuld not require states and localities to focus undue 
attention on other sources that contribute only marginally to 
nonattairiment problems.
                               conclusion
    ETA appreciates the opportunity to comment on EPA's proposals to 
revise the NAAQS for ozone, to establish a new NAAQS for 
PM<INF>2.5</INF>, and to develop implementation policies designed to 
attain the proposed standards. EIA believes that EPA should either 
retain the current ozone NAAQS or establish an equivalent standard 
based on a longer averaging period. If EPA decides to switch to a 
longer averaging period, it should select a standard that will not 
undermine the programs that regulatory agencies and businesses have 
developed to meet the current standard. EIA also believes that EPA 
should not establish NAAQS for PM<INF>2.5</INF> at this time. Rather, 
it should retain the current PM standards until such time as further 
research can address the significant uncertainties about the health 
effects of fine particles. If the Agency adopts either of the 
proposals, ETA urges the Agency to develop interim and long-term 
implementation policies that address the unique flexibility needs of 
the electronics industry.
                               __________
 Statement of Stephen L. Johnson, Nominee for Assistant Administrator, 
 Office of Prevention, Pesticides, and Toxic Substances, Environmental 
                           Protection Agency
Introduction
    Good Morning, Mr. Chairman, Senator Reid, and members of the 
committee. I am honored to have the opportunity to appear before this 
committee. Today I'm seeking your confirmation to serve as Assistant 
Administrator for the Office of Prevention, Pesticides, and Toxic 
Substances at EPA. As a career civil servant for the last 20 years, it 
is a privilege and a distinct honor to have the support of President 
Bush and Governor Whitman to serve EPA as part of this Administration.
    Given my background at EPA and in the private sector, I know the 
importance of developing practical and reasonable solutions to our 
environmental and public health challenges. As you know, pesticide and 
chemical regulation can be a contentious subject, with many polarizing 
issues. If confirmed as the Assistant Administrator, I will foster an 
atmosphere with our stakeholders to ensure the Agency is accessible and 
responsive. Given my scientific education and experience working within 
the various scientific disciplines at EPA, I will aggressively promote 
decisions that are based in sound science. I will also work to foster 
consensus-based and common-sense approaches as we advance public health 
and environmental protection. I look forward to working with Governor 
Whitman and the EPA team to advance public health and environmental 
protection.
    Role of OPPTS
    The Office of Prevention, Pesticides, and Toxic Substances (OPPTS) 
has a variety of programs that are at the forefront of protecting 
public health and the environment, including regulating pesticides and 
industrial chemicals, as well as promoting pollution prevention and 
innovative partnerships with our stakeholders. We have enormous 
challenges, but we also have a solid record of accomplishments.
    During my tenure at EPA, pesticide and industrial chemical 
regulation has changed dramatically. In the pesticides area, we are 
implementing the Food Quality Protection Act (FQPA), which is 
strengthening food safety for all consumers, especially for infants and 
children, from pesticides residues in food. We are almost 5 years into 
FQPA implementation to ensure pesticides meet the tougher standards, 
while at the same time ensuring that American agriculture has the tools 
to continue to provide a healthy and abundant food supply.
Key Priorities
    Despite the progress in recent years, important work remains. Our 
regulatory oversight of pesticides, industrial chemicals, 
biotechnology, food safety, and pollution prevention will continue to 
require sustained and dedicated attention. Making sure our decisions 
are based on sound science will require continued consultation with the 
scientific community, peer review and highly trained professionals at 
EPA. Meeting our commitments under Chemical Right-to-Know, FQPA, 
protecting children from lead-based paint risks, bringing our 
stakeholders together to develop workable solutions, and promoting 
diversity in OPPTS, along with a host of many other issues, will 
require continued attention.
    My priorities include building on the solid progress under the FQPA 
to reassess the older pesticides while ensuring an abundant food 
supply. We expect to meet the statutory commitments, while using sound 
science and extensive stakeholder involvement. OPPTS will further 
streamline the process to license (register) new pesticides, while 
seeking new ways to better involve our stakeholders in registration 
decisions. My office has the further challenge of addressing the 
cutting edge issues in biotechnology. I believe this technology holds 
tremendous promise. However, we must continue to advance our science 
and strengthen the regulatory system to ensure biotechnology products 
meet rigorous health and environmental standards. Our goal is to assure 
the public that there is a credible regulatory system in place to for 
food safety and environmental protection.
    On the subject of industrial chemicals, voluntary partnerships on 
the High Production Volume chemical testing program and the Voluntary 
Children's Chemical Evaluation Program will continue to be key 
priorities. Reducing priority PBT pollutants, developing innovative 
partnerships, managing the lead-based paint program, and the core TSCA 
programs, will continue to be important areas of focus. I remain 
committed to our many initiatives with States and industry to advance 
pollution prevention approaches. Also, given today's global 
environment, OPPTS will continue the important scientific and 
regulatory work with the international community. I am firmly convinced 
that these priorities demonstrate that a healthy environment and a 
robust economy can go hand in hand.
Key Principles
    As I address these and other priority issues, I want to mention my 
personal operating philosophy and principles I will follow if confirmed 
as the Assistant Administrator. They include commitments to: 1) Advance 
the best science to support our regulatory decisions; 2) Open 
communication and regular consultation with our stakeholders; 3) Build 
strong and trusting relationships with all our customers, including 
Congress, the States, the tribes, the industry, the scientific 
community, other government agencies, farmers, the international 
community, and the consumer advocate community; 4) Work to quickly 
address the concerns of our stakeholders; 5) Establish partnerships 
with all stakeholders to develop common-sense and innovative solutions; 
6) Strengthen partnerships with other Federal agencies, particularly 
with USDA, FDA; and HUD, NIOSH, and OSHA; and 7) Promote 
professionalism, dedication and diversity within the OPPTS staff.
    To advance these principles, I have already begun the process of 
meeting with many stakeholders and employees in OPPTS to hear a variety 
of opinions on the challenges we face and the future direction we 
should forge. I believe these steps will strengthen partnerships to 
ensure we meet the changing demands in safeguarding public health and 
the environment.
Conclusion
    I would like to close with two personal observations. My family has 
a strong commitment to public service. My father served in the 
Department of the Navy for more than 30 years. Growing up, I always 
admired my father's government service. During college in the early 
1970's, I began my public service as a GS-4 intern, and I am proud to 
have worked at EPA for more than 20 years. This experience has led me 
to have a deep appreciation and abiding respect for the importance of 
reaching for excellence in government.
    On another personal note, I have been fortunate to be able to 
devote the majority of my career to public service and environmental 
protection. For me, serving in the government, with the goal to help 
all Americans and their families, has been a distinct privilege. When I 
reflect on my past service and consider the future, I know that I will 
face difficult, complex, and serious issues. I have confidence that 
having a foundation in sound science and commonsense, coupled with 
inclusive stakeholder participation, will result in quality decisions.
    As Assistant Administrator, I hope to achieve national goals with 
keen sense of the needs and realities of our individual families and 
communities. I hope that my service will reflect positively on my 
children, their everyday choices, and the community that each of us 
live in.
    I look forward to working with you on a bipartisan basis to advance 
the mission of protecting public health and the environment on behalf 
of the American people. Thank you for the opportunity to appear before 
you today. I'll be glad to answer any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senators 
                             Smith and Reid
    Question 1. We would like to ensure that all relevant stakeholders 
are included in the initial planning stages of chemical testing 
programs by Federal agencies, including the animal protection community 
and pediatric health professionals. In your new role, what will you do 
to ensure that the EPA consults with pediatric health professionals and 
the animal protection community prior to the development of all 
chemical testing programs and invites them to participate in their 
development?
    Response. I agree that it is vitally important to include a range 
of stakeholders including the animal protection community and pediatric 
health professionals--in the planning stages of chemical testing 
programs, as well as the development of our regulations and other 
initiatives that we have underway. I can assure you that my Office will 
make every effort to conduct our business in an open, transparent 
atmosphere that allows all of our stakeholders to be a part of the 
process.
    For example, the Agency is establishing a Federal Advisory 
Committee (FACA) to help direct our efforts on the Endocrine Disruptor 
program. We recently conducted a pre-FACA meeting with a wide range of 
stakeholders to ensure that they are a part of this process. Similarly, 
we held a series of open stakeholder meetings to gather input into the 
development of our new Voluntary Childrens' Chemical Evaluation 
Program. These examples are models of how we will interact with our 
stakeholders now and in the future.

    Question 2. Non-animal test methods can be more economical, more 
reliable, more relevant than animal tests, and are also more humane. In 
your new role, what will you do to promote the research, development, 
validation, and acceptance of non-animal test methods?
    Response. I am personally committed to ensuring that non-animal 
tests are developed and validated as quickly as possible. My Office, 
along with EPA's Office of Research and Development, are active 
participants in the National Institutes of Health's Interagency 
Coordinating Committee on Alternative Methodologies (ICCVAM), the 
Federal entity responsible for the development and validation of non-
animal test methods. We are committed to the development and 
integration of alternative methods that have been scientifically 
validated and peer reviewed via ICCVAM and other recognized 
authorities. Validation consists of ensuring that a new method is both 
reliable and relevant for its proposed use. Such methodologies provide 
both high quality data that are responsive to the Agency's needs for 
protecting human health and the environment, and address animal welfare 
concerns.
    We are also committed to ensuring that when tests that include 
animals must be used, that these tests are conducted in a way to reduce 
the number of animals that must be used, reduce the pain and suffering 
of the animals, and, whenever possible, replace animals in testing with 
validated non-animal test systems. I will continue to follow the 
principles of notification as implemented in the High Production Volume 
Challenge program. . EPA reiterated these principles in an October 2000 
letter to program participants which also indicated the commitment by 
EPA's Office of Research and Development and the NIH to pursue research 
that would lead to further protocols for non-animal tests.
    You may also be aware that there have been a number of recent 
developments on this subject, including the October 2000 EPA and NIH 
sponsored ``International Workshop on In Vitro Methods for Assessing 
Acute Systemic Toxicity.'' This workshop developed a number of 
recommendations that range from in vitro protocols for possible use in 
the near-term, to short-term research priorities, to long-term research 
all aimed at reducing the number of animals used to assess acute 
systemic toxicity. Recommendations coming out of this workshop include 
an in vitro protocol that should allow fewer animals to be used in in 
vivo acute toxicity tests. These recommendations will be put forward by 
ICCVAM for all Agencies, including EPA, to consider in late May or 
early June.
    We are encouraged by the progress that is being made in this area 
and will continue to work with animal protection groups as we move 
forward in this very important endeavor. In fact, I have designated 
Sherry Sterling from the OPPTS' Office of Science Coordination and 
Policy to serve as liaison with animal protection groups to ensure that 
their issues and concerns are considered.
                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senator 
                                 Smith
    In 1996 Congress passed the Food Quality Protection Act (FQPA), 
which modified the Federal Food, Drug, and Cosmetic Act (FFDCA) and the 
Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) with 
respect to regulation of pesticides.
    The FQPA amendments of 1996 introduced several major new concepts 
to pesticide regulation, namely, Aggregate Exposure and Cumulative Risk 
and also set definitive timetables to re-evaluate all existing product 
registrations with respect to these concepts.
    Question 1. Could you provide an overview of the policies the 
Agency developed in implementing the decisionmaking process using 
aggregate exposure and cumulative risk and the process of developing 
that policy?
    Response. As Assistant Administrator, I am committed to FQPA 
implementation that is led by sound science supporting decisions; open, 
fair, and predictable regulatory processes; workable transitions for 
pesticide users to new pest management strategies; and a process that 
engages all stakeholders, including the U.S. Department of Agriculture, 
farmers, and other pesticide users.
    The development and implementation of aggregate and cumulative risk 
assessments have closely followed these principles. EPA has used the 
Scientific Advisory Panel (SAP) to ensure that these policies are 
guided by sound science. The SAP, an independent scientific peer 
committee, has met numerous times to invite peer review on both the 
aggregate and cumulative risk assessment methodologies. I will continue 
to use the SAP to conduct rigorous scientific peer review on these 
policies.
    EPA has also formed and received valuable counsel from several 
advisory committees, including the Food Safety Advisory Committee, the 
Tolerance Reassessment Advisory Committee (TRAC), and the Committee to 
Advise on Reassessment and Transition (CARAT). The advisory committees 
have brought together and continue to bring together a wide range of 
stakeholders interested in pesticide policy and their discussions and 
suggestions have played an important role in shaping both our public 
participation process and EPA's approach to developing science policies 
to address the scientific analysis as required by FQPA. As Governor 
Whitman expressed in March 19, 2001, directive to OPPTS, it is the goal 
for the Agency to conduct reregistration and reassessment activities in 
an open and transparent manner, with ample opportunities for public 
participation, and to make all regulatory decisions based upon 
principles of sound science.

    Question 2. What is the status of the re-evaluation of the existing 
product registrations?
    Response. EPA's pesticide reregistration and tolerance reassessment 
are critical parts of EPA's mission to safeguard public health and the 
environment. Since the enactment of FQPA in 1996, EPA has reassessed 
more than one-third of the 9,721 existing tolerances to ensure they 
meet the standards in FQPA. In addition, EPA is now more than 70 
percent complete with re-registering older pesticides. EPA remains on 
schedule to meet the next statutory deadline to reassess 66 percent of 
existing tolerances by August 3, 2002.

    Question 3. Do you expect to review that policy or make any changes 
to the policy?
    Response. I intend to use a variety of means to engage the public, 
USDA, Congress, and the scientific community in discussing the 
decisionmaking process in development of important policies such as use 
of aggregate exposure and cumulative risk. These will include working 
with CARAT, either in full sessions or in workgroups, the Pesticide 
Programs Dialogue Committee, the Scientific Advisory Panel, and other 
affected stakeholders. Co-chaired by EPA's Deputy Administrator and 
USDA's Deputy Secretary, CARAT is made up of stakeholders representing 
a broad range of interests and backgrounds from across the country, and 
provides a forum for these parties to advise EPA and USDA regarding 
strategic approaches for pest management planning and tolerance 
reassessment for pesticides as required by FQPA.
    In addition, I will continue to bring science policy issues to the 
Science Advisory Panel, an independent scientific peer review 
committee, to ensure that rigorous, objective science continues to 
guide EPA's decisionmaking. Further, EPA will continue to provide 
transparent and predictable public review periods on all of EPA's 
pesticide regulatory decisionmaking, through the Federal Register, 
EPA's website, and all other available public fora.

    Question 4. How will you work to involve the USDA more closely and 
integrally in the EPA's regulatory activities that affect crop 
protection?
    Response. While EPA has primary responsibility for implementing the 
Food Quality Protection Act, the U.S. Department of Agriculture (USDA) 
is a key player, especially in interacting with the agriculture 
community. USDA provides critical support to obtain data that improve 
EPA's risk assessments, assist pesticide users adjust to changes 
regarding pesticide uses, and share information on alternative pest 
management strategies. In addition, USDA generates important food 
consumption and pesticide residue data. We also coordinate extensively 
to improve the scientific foundation for pesticide risk assessment.
    As Assistant Administrator, I will work extensively with USDA on a 
variety of pesticide issues, including during proceedings of the 
committee to Advise on Reassessment and Transition (CARAT), which is 
helping to enhance interaction with stakeholders on key FQPA issues. I 
want to emphasize that EPA will continue its efforts with USDA to 
strengthen the communication with minor-use growers to identify 
vulnerable crop-pest combinations and to coordinate efforts to involve 
stakeholders in risk management decisions. I am especially looking 
forward to working with EPA's new Counselor on Agriculture Policy, 
Jean-Mari Peltier. I am confident that she will strengthen our working 
relationship with USDA.

    Question 5. Governor Whitman has announced creation of the position 
of Counselor to the Administrator on Agriculture Policy. What role do 
you see the Counselor on Agriculture Policy playing with your office?
    Response. U.S. agriculture is directly affected by a wide range of 
EPA issues, from the use of pesticides to handling of animal waste. The 
Counselor to the Administrator on Agriculture Policy will act as an 
ombudsman for the agriculture community and to strengthen interaction 
with the agricultural community. This agriculture advisor, Ms. Jean-
Mari Peltier, will work closely with my office and throughout EPA to 
assure that agricultural concerns are considered during EPA 
deliberations; improve transparency of EPA activities with agriculture 
and other affected parties; foster coordination between EPA and USDA; 
and, maintain an awareness of congressional activities related to 
agriculture and environmental protection.
                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senator 
                                  Reid
    Question 1. As Assistant Administrator for the office responsible 
for toxic substances, would you place a high priority on taking a hard 
look at whether and how improvements can be made in the current 
approach to protecting public health from exposure to toxic chemicals?
    Response. I take seriously the responsibility to ensure that the 
citizens of this country are protected from the potential hazards 
associated with chemicals. Be assured that the Agency stands ready to 
assist this committee if it is the will of Congress to consider 
improvements to existing laws.

    Question 2. As you know, I wrote to Administrator Whitman on March 
15 urging her to sign a consent decree to put EPA on a schedule to 
comply with critical pesticide protections for children. I was very 
pleased when the Administrator signed the decree. Time and time again 
since then, President Bush has reminded us of that action, highlighting 
the pesticide settlement as great environmental achievement.
    That achievement is only as good as the dollars the President is 
willing to put behind it. This year, maintenance fees authorized under 
the Federal Insecticides, Fungicide, and Rodenticide Act (FIFRA) which 
support reregistration of pesticides will expire. The administration 
has not requested an extension of that authorization. At the same time, 
your budget also shows a cut of 50 percent from last year's level for 
the pesticide tolerance reassessment program.
    Together the lack of a reauthorization of these FIFRA fees and the 
cut in appropriated dollars for the pesticide tolerance program would, 
by your own estimation, result in the loss of 200 employees who perform 
this important work--25 percent of the pesticide program office. I 
understand that the Administration doesn't view this as a cut because 
it plans to finalize a proposed Clinton Administration rule to raise 
the fees charged pesticide companies to do this work.
    In view of the Administration's strong commitment to advancing 
critical pesticide protections for children, and its reliance upon the 
tolerance fee rule to effect that goal:

    Question 2a. Will you oppose legislative riders seeking to limit or 
prohibit EPA from finalizing or implementing the tolerance fee rule?
    Response. EPA will work to secure to passage of the President's 
budget that calls for implementation of the tolerance fee rule.

    Question 2b. Will you recommend that the President veto legislation 
that contains a rider to block the imposition of the tolerance rule? 
Please provide a yes or no answer to this question.
    Response. It is not possible to provide a yes or no answer at this 
time, because I cannot speculate on the Administration's future 
position on appropriations legislation. It is critical, however, that a 
stable funding mechanism be identified.

    Question 2c. In the event that the rule is blocked either by 
congressional or judicial action, will you commit to fully implementing 
the consent decree signed on March 19, 2001 in NRDC v. Whitman?
    Response. Yes, EPA is committed to seeing that work go forward. 
Currently the Consent Decree is undergoing public comment, and EPA will 
review these comments.

    Question 2d. In the event that the rule is blocked by either 
congressional or judicial action, will you commit to fully implementing 
the programs contained in your budget request including, but not 
limited to: reassessing 9,721 pesticide standards to protect children; 
priority reassessment for high risk pesticides on foods commonly eaten 
by children; health effects research to measure the effects of 
pesticides on children; exposure research to measure pathways of 
pesticide exposure to children; and research to assess the cumulative 
risks pesticides pose to children?
    Response. EPA does not intend to implement any reductions-in-force. 
The Agency is committed to implementing the tolerance reassessment 
program on schedule.
    If the tolerance fee as mandated by FQPA is not, in the opinion of 
Congress, the best method of funding these critical pesticide tolerance 
reassessment programs, we welcome the opportunity to work with the 
Congress to explore other approaches to providing full, stable funding 
for the program.

    Question 2e. In the event that the rule is blocked by either 
congressional or judicial action, will you seek additional appropriated 
dollars or fees to support the above-mentioned programs rather than 
institute cuts to other EPA programs?
    Response. EPA does not plan to implement any reductions-in-force, 
and it is important that a stable funding mechanism be identified.

    Question 3. Would you support legislation to reauthorize the 
maintenance fees FIFRA?
    Response. EPA fully supports the President's budget, and such 
legislation would be inconsistent with the current statutory mandate to 
collect tolerance fees that is reflected in the President's Budget. The 
important work of the tolerance reassessment program must continue, and 
the tolerance fee rule provides for full, stable funding for the life 
of the program. Any alternatives would need to offer similarly stable 
and adequate funds.

    Question 4. Soon industry will begin screening tests of high 
production volume chemicals, under the voluntary program worked out by 
EPA, Environmental Defense and the chemical industry. This is long 
overdue. I think the public would be shocked to learn how little is 
known about the potential dangers of chemicals before they are allowed 
into commerce. My question is about the need for action beyond the HPV 
program. Simply comparing requirements of TSCA with those under the 
Food Quality Protection Act raises some seemingly obvious deficiencies 
in TSCA. Has EPA prioritized chemicals for testing, so that those that, 
based on current information, pose the greatest threat to health or 
high risk of exposure will promptly be subject to analyses beyond HPV 
screening? What about chemicals that new biomonitoring data reveals are 
pervasive in the general population?
    Response. As you likely know, the HPV Challenge Program, launched 
in October 1998, will provide EPA and the public with Internet access 
to screening level health and environmental effects data on over 2,100 
widely used chemicals. The data made publicly available through this 
collaborative effort will allow a diverse set of stakeholders, 
including Federal, State and local governments and other interested 
parties to set priorities for the collection of additional information. 
This program will help the Agency prioritize higher order testing and 
exposure analyses to ensure that risk assessment and management 
activities focus on chemicals which may present the greatest risks. In 
addition, EPA has established a Master Testing List (MTL) which serves 
as an agenda to prioritize industrial chemical testing needs of EPA and 
other Federal agencies. EPA also participates in the Organization for 
Economic Cooperation and Development's (OECDs) HPV Screening 
Information Data Set (SIDS) Program, which screens HPV chemicals to 
evaluate the need for followup action from a global perspective. The 
OECD process provides a platform harmonize chemical testing protocol 
and laboratory testing, as well as opportunities for international 
collaboration to share costs.
    In December, 2000, EPA launched a pilot of the Voluntary Children's 
Chemical Evaluation Program (VCCEP)that specifically used biomonitoring 
data as a key parameter to identify and focus on chemicals to which 
children would have the highest likelihood of exposure. EPA selected 
chemicals for the first tier pilot which were found to be present 
according to available biomonitoring data to be present in the human 
body (adipose tissue/blood/breast milk and breath) and found by 
existing environmental data to be present in a person's environment( in 
food, drinking water, breast milk, air). The VCCEP was developed 
through an extensive stakeholder involvement process. The program is 
designed to ensure that health effects and exposure data are made 
available in a phased (tiered) process. Development of such data will 
allow EPA and others to evaluate potential health risks to children 
associated with certain chemical exposures so that appropriate 
mitigation measures may be taken. EPA will use available biomonitoring 
data in setting chemical risk assessment priorities.

    Question 5. Shouldn't the Congress and EPA be taking a hard look at 
issues under TSCA beyond HPV testing, such as (1) whether there's a 
need to more effectively set priorities to ensure prompt focus on 
additional testing of chemicals that pose the greatest risk of exposure 
or adverse health effects, and (2) whether the current standard and 
mechanisms under TSCA for testing and restricting chemicals promote 
timely and effective action necessary to ensure basic protections to 
public health?
    Response. As you know, TSCA was passed 25 years ago this year and 
has not been reauthorized since that time. However, it does provide the 
Agency with the authority necessary to assess new chemicals coming into 
the marketplace, gather information on chemicals currently produced and 
circulated in commerce, identify and require further testing on 
chemicals that may pose risks, and control production and commercial 
distribution of those chemicals which may pose an unreasonable risk to 
health or the environment. In addition, TSCA requires chemical 
companies to provide the Agency with all available scientific 
information regarding health and safety concerns on the chemicals that 
they produce.
    Since the 1970's, EPA has implemented TSCA to ensure that new 
chemicals are screened prior to their introduction into the 
marketplace. Currently, EPA is reviewing about 1,200 new chemical 
submissions a year. Last year, 700 were permitted to be sold in the 
U.S. To address the most widely used chemicals in this country, EPA 
launched the High Production Volume (HPV) Challenge program in 1998, 
which asked the U.S. chemical industry to voluntarily provide health 
and safety data to the public on the almost 2,800 HPV chemicals. In 
addition, the Agency established a voluntary initiative to gather 
critical data on those chemicals that may pose a risk to children.
    You may also be aware that the Agency has significant efforts 
underway to reduce chemical emissions, to prevent pollution from the 
outset, to design and provide safer chemicals from the start, and to 
work with the chemical industry to find safer chemical substitutes.
    The Agency appreciates the interest that this committee has in our 
ability to ensure that chemicals are used safely in this country, and 
we stand ready to work with you in addressing some of the challenges in 
implementing TSCA.
                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senator 
                                 Baucus
    Mr. Johnson, as you know, price discrepancies exist between the 
United States and Canada when it comes to farm pesticides. The price 
charged to US farmers is sometimes almost twice as much as what the 
Canadian farmer pays. Generally, the Canadian and US pesticides are 
almost identical and are manufactured by the same company, or related 
companies. Recent surveys have placed prices in the US from 117 percent 
to 193 percent higher than those in Canada for virtually the same 
products.
    Last year, the Environmental Protection Agency was placed in the 
position of being an accessory to this scheme because of the laws 
governing the importation of farm pesticides. Although the EPA knew 
there was not an environmental or health risk, the Agency had to stop 
financially strapped farmers from buying a less expensive, but 
identical, product from Canada. Montana farmers have been losing 
between 10 to 40 million dollars per.
    Question 1. First, what does pesticide harmonization mean to you?
    Response. Pesticide harmonization means working with our 
international trading partners to promote consistency in the various 
regulatory and scientific requirements. These efforts help improve 
trade, regulatory efforts, and avoid unnecessary duplication of 
efforts. Harmonization examines the methods and practices used to 
regulate pesticides in various countries, while working toward 
converging the various approaches as appropriate. The purposes are to 
minimize potential disruptions to trade, develop consistent regulatory 
and scientific requirements, support the principles of sustainable pest 
management, and maintain high levels of protection for public health 
and the environment.
    Specifically, a current example is the Technical Working Group 
(TWG) on Pesticides under the North American Free Trade Agreement 
(NAFTA). The TWG has been successful in minimizing regulatory hurdles/
impediments and creating a level playing field among NAFTA countries. 
This work has helped jointly register pesticide products in both 
countries by minimizing regulatory burdens and promoting consistent 
regulatory requirements, consequently eliminating potential barriers to 
trade. The work under the TWG has resulted in successful collaboration 
to jointly register seven new pesticide products between Canada and the 
U.S.

    Question 2. What actions need to be taken to have cross border 
availability of pesticides and what would the timeline look like?
    Response. As you know, EPA's legal authority over pesticides is to 
ensure they can be safely used; its authority does not cover pricing. 
The Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) 
requires the registration of a pesticide before it can be sold and 
distributed in the United States.
    EPA has worked very closely with Congress, U.S. Department of 
Agriculture, State officials, registrants, and growers, to help solve 
the problems U.S. farmers may be experiencing as a result of pricing 
differences. Over the years the Agency has explored a variety of 
administrative actions to help solve this potential problem. While 
these administrative action are helpful, they have not resolved this 
issues, and EPA will continue to work within our current authorities. 
One example that the TWG is working to develop is a NAFTA label. This 
label could help ensure equal access to pesticide products in the 
different countries.
    However, to fully and effectively address this problem, I believe 
that legislation is needed because there does not appear to be adequate 
administrative or regulatory solutions. I will continue to work with 
Congress, U.S. Department of Agriculture, State officials, registrants, 
and growers, in order to resolve this problem, and to assure protection 
of human health and the environment.

    Question 3. Legislation was introduced--legislation that was 
drafted with the technical help of the EPA I might add--to prevent the 
agency from being used in this manner again. Unfortunately, the 
legislation was not passed. Thus, the Agency, and our farmers, are 
going to be in the same position again this year, and the Agency will 
be once again be used to fix the prices our farmers pay. Legislation to 
solve this problem has been introduced again this year.
    Do you support this type of legislation?
    Response. I understand there have been various legislative 
proposals introduced in the Congress to solve this problem. EPA stands 
ready to work with Congress on possible legislative solutions that 
effectively address this potential problem.

    Question 3a. If legislation fails to pass Congress again this year, 
how would you solve this problem?
    Response. There are no apparent administrative or regulatory 
remedies. Nonetheless, EPA will continue to work with all stakeholders 
to use our current expertise to help address the situation.
                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senator 
                                 Wyden
    In Oregon, my pear producers are facing record low prices--in part 
due to the importation of pears from Chile. I am concerned about the 
health quality of fruits and vegetables imported into the U.S. As you 
may know, I began my career in public life as an advocate for the 
elderly when I helped found the Oregon Gray Panthers, and I currently 
serve on the Senate Special Committee on Aging. The reason I bring this 
up is because contaminated fruits and vegetables affect those with weak 
or impaired immune systems, usually Seniors and children, more readily 
than they affect you or me.
    Question 1. What work can you do with the FDA and APHIS to assure 
that imported fruits and vegetables are meeting the strict standards 
you, in the EPA, have set for pesticide use for our own crops? I 
believe that it is very important for you all to be working closely 
together and I would like your assurance that you will make a concerted 
effort to coordinate your office with those others so the American 
people can be assured that their food is safe.
    Response. I am will continue to support the very important work of 
the EPA, FDA and USDA in overseeing the integrity of imported fruits 
and vegetables and other treated foods. As you may know, EPA licenses 
pesticides and establishes a legal residue limit on foods and feed, and 
provides FDA and USDA with the analytical methods used for monitoring 
these residue limits on imported fruits and vegetables. I also believe 
that regulatory harmonization plays an important role to ensure safe 
food and a level playing-field with our trading partners. I expect to 
encourage our current collaborative work with FDA and USDA, expanding 
them where they need it. I will work with both to see that we 
communicate clearly, and I will encourage the important monitoring 
efforts that need to be done to assure that imported food is safe.

    Question 2. I am concerned that the EPA budget favors the re-
registration of pesticides, which is good if you are a large chemical 
company, but decreases funding for tolerance reassessment work, the 
kind of scientific work needed to protect the seniors I just referred 
to. This is exactly the sort of bad budgeting that will lead to a break 
down in the implementation of the Food Quality Protection Act. I need 
your assurance that as Administrator of this important program you will 
do everything you can to make sure that the science is done so that 
people are protected and farmers have fair warning as to the pesticides 
they will be able to use.
    Response. I hope to build on the concrete steps with USDA and the 
agricultural community to ensure our decisions are sensitive to the 
special needs of farmers. I believe important work remains with USDA to 
involve people throughout agriculture in the decisionmaking process so 
there are not any surprises as we implement FQPA. When there are risks 
that must be addressed, EPA will work with USDA to get the message out 
so that farmers can plan accordingly to develop a successful transition 
to safer pest control techniques. The ingenuity and talent in 
agriculture should continue making strides toward using safer 
pesticides, fostering Integrated Pest Management (IPM) techniques, and 
reducing the use of high-risk pesticides. Together, we can develop 
smarter solutions that protect human health and the environment, while 
maintaining the strength of the U.S. agricultural industry which allows 
us to enjoy the safest and most abundant food supply in the world.
                                 ______
                                 
 Responses of Stephen L. Johnson to Additional Questions from Senator 
                                Clinton
    Question 1. In your testimony, you mentioned a commitment to 
strengthening partnerships with USDA and FDA. I am interested in EPA 
strengthening its partnerships with other agencies as well, including 
CDC and NIH. I am concerned about the increasing occurrence of disease 
clusters around the country, and the potential links between these 
clusters and certain environmental factors. If you are confirmed, would 
you work to help build stronger partnerships among EPA, CDC, and NIH--
and with industry, public health advocates, environmental interests, 
and other stakeholders--to help improve our understanding about how 
certain environmental factors may impact human health?
    Response. Yes, as stressed in my testimony, I will place a high 
priority to strengthen our partnership with our stakeholders, including 
our Federal partners and all our stakeholders. I believe that working 
together with everyone at the table, providing input and advice, is 
critical to help effectively address the public health and 
environmental challenges we face. I agree that it is important to 
improve our partnerships that will further the understanding of 
environmental factors and public health. I know that there are a large 
number of research projects already underway to investigate possible 
health or environmental problems possibly linked to environmental 
factors. This work is coordinated by the Agency's Office of Research 
and Development, but regularly help shape priorities and direction. I 
am committed to seeing that our partnership with these research 
agencies are strong and fruitful.

    Question 2. I am pleased that EPA is working to ensure that our 
food supply is safe, that the pesticides, insecticides and other 
chemicals we use to grow an abundant food supply are safe, effective, 
and used appropriately. But I am also concerned that U.S. farmers not 
be inappropriately burdened and put at a disadvantage when it comes to 
farmers overseas who may not be held to the same, high standards as 
U.S. farmers and whose produce and commodities, as a result, may not be 
of the same quality and safety. If confirmed, will you work to 
strengthen partnerships with the Office of the U.S. Trade 
Representative, the Commerce Department, and others that are involved 
in agricultural trade issues?
    Response. As global trade continues to expand, it is critical for 
EPA to strengthen its relationship with other Federal agencies, 
including USTR and Commerce, and continue its participation in 
international pesticide fora that promote the harmonization of 
regulatory requirements and procedures for scientific assessments. For 
many years, EPA has supported a substantial program on harmonization of 
pesticide regulatory systems with our NAFTA trading partners. This 
involves close collaboration with other U.S. Government agencies, 
including USTR, USDA, and FDA. In addition, EPA participates in other 
international arena that promote regulatory harmonization as well as 
the establishment of international limits for pesticides on food.
    I consider international regulatory harmonization to be an 
important way to enhance international trade. Our ability to promote 
fair trade through maintaining health and environmental standards will 
benefit U.S. farmers, consumers, and will require effective 
coordination with all agencies concerned.
                               __________
  Statement of James L. Connaughton, Nominated to be a Member of the 
                    Council on Environmental Quality
    Thank you Mr. Chairman. It is an honor to appear before you and the 
distinguished members of the committee. I am both grateful and honored 
that President Bush has nominated me to be a Member of the Council on 
Environmental Quality (``CEQ'') and, if confirmed, to appoint me as 
chairman.
    When it enacted the National Environmental Policy Act (``NEPA'') 
and created CEQ over 30 years ago, Congress declared that it is the 
``continuing policy of the Federal Government, in cooperation with 
State and local governments, and other concerned public and private 
organizations, to use all practicable means and measures, including 
financial and technical assistance, in a manner calculated to promote 
the general welfare, to create and maintain conditions under which man 
and nature can exist in productive harmony, and fulfill the social, 
economic, and other requirements of present and future generations of 
Americans.''
    Senator John Chafee, one of the greatest environmental statesmen of 
the Senate, described this as a ``tall order, but an important one.'' I 
agree, and fully embrace NEPA's broad policy objective. It is why I 
joined the environmental profession. It is why I have focused my legal 
practice on the most challenging matters of environmental policy and 
the promotion of innovative approaches to environmental protection. The 
commitment to responsible environmental stewardship is a family matter 
in my household. My wife Susanna and I are constantly amazed by our 
daughter Grace's budding passion for nature and conservation. Every day 
my son Spencer says ``O.K. Daddy, give me an environmental issue,'' and 
then earnestly and confidently discusses how to address it. Their 
passion and concern reinforces my own commitment.
    I therefore look forward with great enthusiasm to leading CEQ in 
its core mission. First, to provide objective, well-informed, and 
realistic advice to the President, his advisers, and the Cabinet about 
the future direction of environmental policy. Second, to coordinate the 
implementation of environmental programs and resolve policy disputes 
among Federal agencies, State, tribal, and local government, and 
private citizens. Third, to promote a balanced decisionmaking process 
that accounts for the views of all affected parties.
    I would like to highlight three aspects of my background that are 
particularly relevant to this nomination. The first is the strength of 
my commitment to serving the public interest. I have exceptional role 
models, beginning with my father. With the unflagging support of my 
mother, he spent over 30 years as a clinical professor of child 
psychiatry working to improve the lot of children and families, often 
in the most desperate of circumstances, in Baltimore's inner city. I 
will count myself fortunate if I can bring to government service even a 
fraction of the decency and dedication to the public good that my 
father demonstrated every day of his career. I also will be guided by 
the high standards of public service set by my mentors at the firm who 
previously served both Republican and Democratic presidents and 
Governors with distinction.
    Second, I am a strong proponent of searching for and harnessing the 
power of consensus in meeting shared environmental goals. I have had 
the privilege of traveling the world helping to create what is known as 
the ISO-14000 series of international environmental standards. These 
standards promote effective, results-oriented environmental management 
and responsible environmental communication. They reflect the consensus 
of hundreds of dedicated professionals from industry, environmental 
organizations, consumer organizations, government and academia, from 
the United States and over 50 other countries. Tens of thousands of 
organizations around the world already are quietly and efficiently 
adopting these standards to address the environmental consequences of 
their operations. Remarkably, participation in this process and 
implementation of these standards is entirely voluntary. I have seen 
first hand the dramatic results that such voluntary, market-driven 
action can achieve. It is faster, it is cheaper, and it works.
    Third, I am a forceful advocate and practitioner of environmental 
stewardship where it matters most at the source. I have spent much of 
the last 4 years traveling the country helping companies implement 
``ISO-14001,'' the international environmental management system 
standard. From Oklahoma City, Oklahoma to Ocala, Florida, from Detroit 
Michigan to East Liberty, Ohio, from Windfall, Pennsylvania to 
Kingstree, South Carolina, I have worked with business managers and 
operators on the factory floor, showing them how to integrate 
environmental obligations into their day-to-day operational practices 
and long term business planning. Their efforts are predicated on three 
fundamental commitments: compliance, prevention of pollution, and 
continual improvement. These hard-working people are the nation's front 
line in environmental protection. We must do what we can to capitalize 
on their energy, unleash their creativity, and remove obstacles to 
their success.
    President Bush has encouraged Americans to join him in renewing our 
commitment to protecting the environment and leaving our children and 
grandchildren with a legacy of clean water, clean air, and natural 
beauty. Embarking on the 21st century of environmental quality requires 
not only reinforcement of what is working, but also the zealous 
application of new ideas and methods.
    Mr. Chairman, if confirmed, I look forward to advancing NEPA's goal 
of ensuring productive harmony between man and nature, through a 
constructive dialog with Congress, with Federal, State, tribal and 
local government agencies, and most important, with the public whose 
trust we all hold.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses of James L. Connaughton to Additional Questions from Senator 
                                 Baucus
    Question 1. What are you views on Natural Resource Damages? What 
are some of the positions you've taken in the past on this issue? 
(Given the number of Superfund sites in Montana, and how much they 
cost, this is relevant.)
    Response. Some of my personal, essentially academic views on 
natural resource damages are set out in Evaluating the Present Natural 
Resource Damages Regime: The Lawyer's Perspective, in Natural Resource 
Damages R. Stewart, J. Connaughton & S. Steel, eds. and contributors, 
National Legal Center for the Public Interest (Fall 1995).
    Apart from this, I have not taken personal positions, but have 
represented the views of various clients in:

    <bullet>  discussions with Congress, the Clinton Administration, 
and representatives of State natural resource trustees, as part of 
Congress' consideration of legislative reform of certain aspects of 
CERCLA's natural resource damages liability regime mainly during the 
104th and 105th Congresses;
    <bullet>  comments to the Department of Interior and the National 
Oceanographic Administration on proposed natural resource damages 
assessment rulemakings; some of these comments were addressed in the 
final rulemakings, others were not addressed;
    <bullet>  petitions for review before the D.C. Circuit Court of 
Appeals supporting certain aspects of natural resource damages 
assessment rulemakings and opposing other aspects of such rulemakings; 
some of these arguments were accepted by the court, others rejected in 
General Electric Co. v. United States Department of Commerce, 128 F. 3d 
767 (D.C. Cir. 1997) and Kennecott Utah Copper Corp. v. United States 
Department of the Interior, 88 F.3d 1191 (D.C. Cir. 1996)

    My guiding philosophy in all of these matters has been to refocus 
the liability and damages assessment process in a manner that promotes 
settlements that achieve reasonable restoration in a timely manner, 
while retaining fundamental due process rights of the parties involved.

    Question 2. Mr. Connaughton, what are your views on the NEPA 
process?
    Response. As indicated in my written and oral statements to this 
committee, I strongly support the objectives of NEPA. NEPA has served 
the American people and the environment well. However, through my 
discussions with committee members and conversations with various 
people who deal with NEPA, I am aware that concerns have been raised 
about certain NEPA processes or certain aspects of NEPA's 
implementation. I would be interested? in learning more about the 
concerns that have been raised and work toward continual improvement of 
NEPA implementation.

    Question 3. Are you supportive of reinstating categorical 
exclusions for small projects, particularly small timber sales and 
stewardship projects in our National Forests? Will you be helpful in 
making this happen?
    Response. I am not familiar with the details of this proposal. If I 
am confirmed, I would be happy to review this subject and discuss it 
with you further.
                                 ______
                                 
Responses of James L. Connaughton to Additional Questions from Senator 
                                  Reid
    Question 1. As a member President Bush's transition team at the 
EPA, you were involved in distributing a questionnaire to organizations 
and individuals interested in the work of the EPA. Who received those 
questionnaires? What information was gained by the transition team from 
the questionnaires? How was the information used? How will you use that 
information if you become a member of CEQ?
    Response. The creation and distribution of the questionnaire was 
handled by an advisory group coordinator who worked in a different part 
of the transition operation. I was indirectly involved with respect to 
reviewing a draft of the questionnaire and suggesting the names of 
individuals for the outside advisory group to whom the questionnaire 
would be sent. I do not have either a copy of the questionnaire or the 
list of individuals ultimately selected for the advisory group, but I 
believe both were published during the transition. As I recall, the 
questionnaire included a short, fairly open-ended set of questions 
eliciting advice from advisory group members to the new EPA 
Administrator concerning management and policy issues that she may 
encounter during her time in office. The advisory group members 
submitted their responses to the advisory group coordinator, who then 
compiled the responses into binders and provided them to Governor 
Whitman for her reference upon officially taking office after 
inauguration. I have made no decision at this time whether or how to 
use the information from the questionnaires, if I become a member of 
CEQ.

    Question 2. Could you provide details on what you and this 
Administration see as CEQ's role in advising and forming environmental 
policy?
    Response. As indicated in my written and oral statements to this 
committee, I expect CEQ to continue to fulfill the statutory 
responsibilities established for CEQ by the National Environmental 
Policy Act (``NEPA''). These include three core functions: First, to 
provide objective, well-informed, and realistic advice to the 
President, his advisors, and the Cabinet about the future direction of 
environmental policy. Second, to coordinate the implementation of 
environmental programs and resolve policy disputes among Federal 
agencies, State, tribal, and local government, and private citizens. 
Third, to promote a balanced decisionmaking process that accounts for 
the views of all affected parties. I am also aware that Congress has 
given CEQ a variety of specific responsibilities established by various 
statutes and that CEQ also has a variety of specific responsibilities 
established by Executive Orders. As I have not been confirmed, I am not 
in a position to articulate further detail concerning the 
Administration's plans for CEQ. I understand that key aspects of this 
planning await CEQ having a confirmed chairman in place.

    Question 3. How will the Council deal with other agencies within 
the Administration?
    Response. If confirmed as a member of CEQ, I look forward to the 
Council working quite constructively with the other agencies within the 
Administration. The specific mechanics of such interactions will be 
established when CEQ professional staff have been hired and key sub-
Cabinet positions have been filled in the other Departments.

    Question 4. During her confirmation hearing then-Governor Whitman 
testified that Federal facilities should be subject to the same 
environmental requirements as the private sector. What are your views 
on CEQ's role in ensuring that Federal agencies actually do comply with 
the letter and spirit of environmental laws? As you know, there are a 
number of Federal facilities in Nevada, and in neighboring States which 
impact Nevada, and there are very real concerns about whether agencies 
are disclosing emissions that may effect surrounding communities, and 
potential health effects associated with releases from those 
facilities. EPA and other Federal agencies, DOD for one, do not always 
agree on what is required, or whether requirements have been met. How 
can CEQ ensure that all Federal agencies are responsible environmental 
stewards?
    Response. NEPA's broad mandate contemplates a general role for CEQ 
with respect to contributing to Federal facility compliance. The nature 
and extent of CEQ'S role, however, is a matter for decision within the 
Administration. If confirmed, I would expect to be closely involved in 
such a decision. I will bring to those discussions my prior experience 
in environmental management, compliance assurance, prevention of 
pollution, and resource optimization. I will also bring my experience 
with incentives and disincentives to improved environmental performance 
and responsible stewardship.


                  NOMINATIONS OF THE 107th CONGRESS, 
                             FIRST SESSION

                              ----------                              


                        WEDNESDAY, JULY 25, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 9:54 a.m. 
in room 406, Dirksen Senate Office Building, Hon. James M. 
Jeffords (chairman of the committee) presiding.

    CONSIDERATION OF THE NOMINATIONS OF DAVID A. SAMPSON, ROBERT E. 
 FABRICANT, GEORGE TRACY MEHAN III, JUDITH ELIZABETH AYRES, AND DONALD 
                             R. SCHREGARDUS

    Present: Senators Jeffords, Smith, Inhofe, Bond, Voinovich, 
and Chafee.
    Also present: Senator Kay Bailey Hutchison and Congressman 
Martin Frost.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. We will now open the nominations hearing.
    Welcome to all the nominees and their families. I am sure 
you are very proud to be here this morning.
    Before recognizing members for opening statements, I would 
like to ask each of you to introduce your families who are here 
today as you come to the forefront here.
    First, we have Mr. Sampson. Mr. Sampson, do you have 
members of your family with you?
    Mr. Sampson. Yes, I do. I have my wife, Karen, and my twin 
8 year-old sons, John David and Matthew Nicholas, my parents, 
Paul and Joy Willis, and my sister Cheryl, and her son Jacob.
    Senator Jeffords. Senator, welcome.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchinson. Thank you. Mr. Chairman, we also have 
the Congressman who represents Mr. Sampson's district, 
Congressman Frost.
    Senator Jeffords. Fine. Yes. Please be seated.
    Senator please proceed.
    Senator Hutchinson. Thank you, Mr. Chairman, very much for 
recognizing me to introduce my constituent from Texas for the 
Assistant Secretary of Commerce for Economic Development 
position. I have known Mr. Sampson for a long time. My husband 
and I have both worked with him in different capacities, and I 
cannot think of anyone more qualified for this position than he 
is.
    He is president of the Arlington Chamber of Commerce. 
Arlington is one of our fastest growing suburban areas in 
Texas. It is located between Dallas and Fort Worth, and it has 
been one of our fastest up and coming cities for a long time. 
It is also the home of the Texas Rangers.
    I want to say that Governor Bush appointed Mr. Sampson to 
be vice chairman of the Texas Strategic Economic Development 
Planning Commission in Texas because he wanted someone who 
would look at all the regions of Texas and help them achieve 
their highest economic potential. He did accomplish this by 
putting forward a 10-year economic development plan for Texas. 
He subsequently chaired the Texas Council on Workforce and 
Economic Competitiveness. This experience gave him the 
understanding of the need to integrate economic and work force 
development efforts, a more efficient use of both sets of 
resources.
    He is certainly a hard worker, but he has one added 
advantage that I have assured him he will draw on in addition 
to his economic development experience, and that is he is an 
ordained minister. Now I told him in Washington he might need 
that more than all of the other experience that he has had.
    But seriously, I think that his breadth of knowledge and 
experience will bring his skills to the United States that he 
has used so effectively for Texas. And I am pleased to be here 
for him today.
    Senator Jeffords. Congressman Frost?

 STATEMENT OF HON. MARTIN FROST, U.S. REPRESENTATIVE FROM THE 
                         STATE OF TEXAS

    Mr. Frost. Thank you, Senator, and other members of the 
committee. It is my pleasure to be here with David Sampson and 
to lend my support to him for this very important position.
    Arlington, Texas is the largest population center in my 
congressional district. David served as the president of the 
Arlington Chamber of Commerce for 7 years. I worked very 
closely with him on economic development issues. Arlington is 
represented by two Members of Congress, one Republican, Joe 
Barton, and myself, a Democrat. I can tell you that David 
Sampson was extraordinarily good to work with. He always 
approached matters of economic development on a bipartisan 
basis, was extremely effective, extremely cooperative, and I 
cannot think of any better person in the country for this 
particular position than the nominee that is sitting to my 
right and is appearing before this committee today.
    Senator Jeffords. I thank you for your excellent statements 
and excellent recommendations. I appreciate your being here.
    Senator Hutchinson. Thank you.
    Senator Jeffords. We will move on to the other nominees who 
will be before us.
    Mr. Fabricant, welcome. Do you have members of your family 
that you would wish to introduce?
    Mr. Fabricant. Yes, I do. I would just like to introduce my 
wife, Amelia, and my three children, my daughter, Enrica, she 
is 5 years old, and my youngest son----
    [Laughter.]
    Senator Jeffords. I see them waiving back there. They have 
got good political waves. They are going to go a long way.
    [Laughter.]
    Mr. Fabricant. I would also like to thank my parents for 
coming here, Robert Fabricant and Jacqueline Fabricant. And I 
thank you for the opportunity to speak with you today.
    Senator Jeffords. Mr. Mehan, welcome to the committee. 
Please introduce any members of your family that may be 
present.
    Mr. Mehan. Thank you, Senator. I am happy to have here 
representing all seven of my children and my wife, my oldest, 
Meg, Margaret Elizabeth, who is up from Charlotte. We are under 
strength today, but I think she will handle the duties.
    Senator Jeffords. Thank you. We welcome you to the 
committee.
    Ms. Ayres?
    Ms. Ayres. Good morning.
    Senator Jeffords. Good morning. We are pleased to have you 
here. Do you have anyone you would like to introduce?
    Ms. Ayres. I do. My family was able to come in from 
California. My husband, Jack Burke, and our daughter, Coventry 
Ayres Burke. And then I am fortunate to have extended family 
here able to come; Julie and Joe Nisonger, Dr. Steve Peters, 
and Robert Phiffer.
    Senator Jeffords. Thank you. Pleasant to have you with us.
    Mr. Schregardus, welcome.
    Mr. Schregardus. Good morning, Chairman. Thank you for this 
opportunity. I have brought with me today my daughter, Sarah 
Schregardus, back here. I look forward to the opportunity to 
speak with you this morning.
    Senator Jeffords. Fine. Well thank you all. I welcome you 
to the committee. We want to be expeditious and try to make 
sure that all of you get to your working stations as soon as 
possible. However, we would of course like to have your opening 
statements.
    We will go back and start with Mr. Sampson.

   STATEMENT OF DAVID A. SAMPSON, NOMINATED TO BE ASSISTANT 
   SECRETARY FOR ECONOMIC DEVELOPMENT, DEPARTMENT OF COMMERCE

    Mr. Sampson. Mr. Chairman, Senator Smith, and members of 
the committee, thank you for the opportunity to appear before 
you this morning. I am very grateful to Senator Kay Bailey 
Hutchinson and Congressman Frost for their kind introductions, 
and to you for the warm welcome you have given me and my 
family. My family is very excited about the prospect of moving 
to Washington. It may interest you to know that when the 
President first announced his intent to nominate me, my son, 
John David, was excitedly telling his classmates about the fact 
that we had been asked to come up here, but he made sure to let 
his classmates know that it was not for certain that we were 
moving yet. He said, ``My Dad still has to be confused by the 
U.S. Senate.''
    [Laughter.]
    Mr. Sampson. I hope that he was not being prophetic but 
merely had a slip of the tongue.
    Senator Jeffords. Let me interrupt you. I think some of my 
members would like to make some statements before we get 
moving. I am sure they have other things that may have to take 
them away. So why not start with Senator Smith, do you have a 
statement, or you can recognize as you see fit.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. First of all, let 
me thank you for bringing these nominations up promptly. In the 
years during my tenure as chairman with a different 
Administration, we brought the nominations through promptly, 
and I think, given the disruptions that occur as people wait 
and anticipate these positions, it is a disruption if there is 
a delay. And so I appreciate your promptness here.
    There is one who is not here, Jeff Holmstead, who is the 
President's nominee to head EPA's Air Office. He has been 
considered by the full committee and his nomination is still 
languishing. I would encourage you to do what you can to move 
that forward.
    I want to apologize to the witnesses because I will have to 
leave at around 10:30. One of the problems of this place is 
they try to have us in two or three places at the same time. 
None of us have been able to figure out how to do that yet.
    But I just want to take a few seconds, Mr. Chairman, just 
to welcome each and every one of you, especially Judith Ayres, 
because she was married in Squam Lake which is just a few miles 
from my house. So she has good judgment, I know that right up 
front. So I am looking forward to hearing the testimony of the 
nominees, and appreciate again, Mr. Chairman, your bringing 
them forward.
    Senator Jeffords. Anyone else desire time? Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you, Mr. Chairman. No. 1, thank you for 
holding these hearings. As Senator Smith has pointed out, with 
all the difficult problems that we face, the Administrator 
absolutely has to have her team in place, the Bush 
Administration must have this team in place. We cannot expect 
progress to occur, questions to be answered until they are. So 
I thank you for holding the hearing. I look forward to working 
with you to make sure that these and all the others who have 
been cleared by the committee are confirmed prior to the August 
recess so there will not be any confusion, so that families 
will know where to start school in September, and that is 
vitally important.
    I have to apologize. With appropriations bills on the 
floor, I am going to have to leave. One of those bills may be 
coming up today on EPA, which probably my participation on the 
floor may be more important than here.
    I want to express a special welcome to Tracy Mehan, who 
claims to come from Michigan, but really we all know that he 
was the director of the Missouri Department of Natural 
Resources from 1989 to 1992. We are always happy to share 
experience with other States in need, like Michigan. And in 
this instance, he can use that expertise developed there to 
help the nation's water problems. I think that this experience 
and with his midwestern perspective, the EPA's Office of Water 
will be very important.
    I have had the opportunity to talk to the nominee. I hope 
that they will be getting back to us with an agency 
recommendation on the fishable waters measure, a bipartisan 
measure which I have now sponsored in this second session of 
Congress, to have locally led, incentive-based, voluntary 
solutions to assure healthy watersheds and fishable waters. 
This is something that we ought to be able to do as we have 
much work to do in the contentious areas of clean water.
    This office is going to have to work with this committee, 
and I believe that from our previous discussions you understand 
how critical the water project funding is and the backlog is 
very significant. This is something that is a huge insolvable 
problem for the EPA Appropriations Subcommittee. And I 
appreciate very much your amending the agenda to say that we 
would take a look at these water infrastructure problems, 
because they are huge.
    We look forward to working with Mr. Schregardus on assuring 
compliance assistance and compliance incentives, fixing 
environmental problems. We look forward to hearing from the EPA 
a comprehensive plan to assure that the proposed transformation 
of environmental enforcement or the transmogrification from 
Federal enforcement to State enforcement will work. As you 
probably know, the report coming out of the appropriations 
committee does not make that transfer. We did not feel that 
there was sufficient information on how State enforcement would 
take over for Federal enforcement, and that is why we do not 
have the bipartisan support that we need to make that transfer. 
But we will look forward to working with the Administrator and 
Mr. Schregardus.
    Mr. Fabricant, being the Office of General Counsel, I will 
not even comment on that. You have got a full plate, and more 
than that.
    And I just had the opportunity to mention to Ms. Ayres that 
in the international activities area we have the potential to 
make a significant contribution to improving the quality of 
life, even preserving life in emerging nations around the world 
if we export the technology that developing in the United 
States that is regulated by the EPA in addition to the FDA and 
the USDA. I am talking about biotechnology, genetically 
modified organisms. Under proper regulation, we can reduce the 
amount of chemical pesticides used not only in this country, 
but around the world. And some of the problems in countries I 
have visited have been extreme because they have over-used and 
misused harmful chemicals that can be replaced by genetically 
modified organisms with the BT DNA included to kill pests, for 
example, the genetic modifications that can stop the viruses. 
We can help African farmers produce crops that will feed their 
country. We can promote things like the golden rice that will 
stop deaths of children from malnutrition and blindness. But we 
need the informed leadership of our EPA as well as FDA and USDA 
to help stop the hysterical, unscientific, anti-GMO attitudes 
that Europe has tried to foist on the world. This is going to 
be an exciting challenge, and I look forward to working with 
Ms. Ayres.
    And I apologize for the length of my statement. We have a 
lot of work to do in cooperation with these people and between 
the appropriations subcommittee and this committee. Mr. 
Chairman, I assure you that we look forward to working with 
you.
    Senator Jeffords. You articulated very well the problems 
that we have. I appreciate your interest and explanations. You 
are a valuable asset.
    Senator Bond. We cannot solve them in appropriations by 
ourselves, so we look forward to working with you and these 
distinguished nominees. I thank the Chair, and I thank the 
nominees.
    Senator Jeffords. I look forward to working with you, 
Senator.
    Senator Voinovich?

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. First of all, I would like to thank you, 
Mr. Chairman, for the speedy hearing on these nominations. I 
know that the Administrator and Secretary are anxious to have 
them on board so they can get on with their work.
    I would like to take a brief moment to thank my colleague, 
Senator Carper, for speaking in favor of legislation we 
introduced jointly earlier this month at yesterday's Government 
Affairs Committee on Senator Boxer's legislation to create the 
EPA as a cabinet status agency. I also appreciate his offer 
yesterday to Administrator Whitman to try and help her get her 
nominees confirmed before the August recess. I hope this 
committee will quickly approve these nominees early next week, 
and hopefully the full Senate will consider them before the 
recess.
    Senator Jeffords. That is my intention and we are working 
toward that direction.
    Senator Voinovich. And it is my pleasure to welcome all the 
nominees before the committee today, Mr. Sampson, Mr. 
Fabricant, Mr. Mehan, Ms. Ayres, and especially Mr. 
Schregardus. I did have a chance to work with Mr. Mehan when he 
was with Governor Engler in Michigan while I was Governor of 
Ohio.
    I would like to say, Mr. Chairman, that I have had the 
distinct pleasure of working with Don Schregardus for many 
years. I was pleased on June 28th that President Bush nominated 
him to be the Assistant Administrator for the Office of 
Enforcement and Compliance Assurance at the EPA. I strongly 
believe that he is the right individual for this important 
position. I respectfully request that you support his 
nomination in the committee.
    Don has spent his entire career, this is really 
interesting, working for environmental improvement. He was 
trained as an environmental engineer and began his career with 
the Environmental Protection Agency in 1974 as an inspector and 
compliance officer in the Water Division. He worked in Region 5 
of EPA for 16 years, rising to be the chief of the compliance 
section.
    In 1980, then Governor Dick Celeste recruited Mr. 
Schregardus to be deputy director of Water Programs for the 
Ohio Environmental Protection Agency. Two years later, when I 
was elected Governor, I was pleased to appoint him to my 
cabinet as director of the Ohio Environmental Protection Agency 
because I was impressed with his long career and his service as 
a professional in environmental protection. I was lucky to have 
him serve in my cabinet for my entire term.
    He successfully managed a department which is responsible 
for implementing laws and regulations regarding air and water 
quality standards, solid hazardous and infectious waste 
disposal, water quality planning, supervision of sewage 
treatment and public drinking water supplies, and cleanup of 
unregulated hazardous waste sites. He took an agency which had 
been poorly managed and made it into one of the most effective 
in my administration. We doubled funding for the Ohio EPA at 
the expense of our polluters. Ohio's air and water quality were 
improved. Ohio became the first State in the midwest to receive 
Federal approval for a massive new industrial air permitting 
program. We created voluntary incentives that led to real 
cleanups. Under Mr. Schregardus' leadership, Ohio EPA increased 
enforcement inspections and the total amount of civil penalties 
collected substantially.
    Moreover, Don Schregardus is a fair person. In light of the 
Federal Government's pressing need for effective environmental 
enforcement, I can think of few individuals more experienced or 
qualified to assume this role at the EPA than Mr. Schregardus. 
Originally, given his background in EPA's regional office and 
heading a State agency, I recommended Mr. Schregardus to be 
administrator for Region 5. I later learned he did not receive 
the appointment; somebody else got it. I was surprised later to 
learn that Administrator Whitman had selected Mr. Schregardus 
to be Assistant Administrator based on his strong record and 
career in the Federal and State environmental enforcement. So, 
Mr. Schregardus, I want you to know that your nomination had 
nothing to do with me. Somebody looked at your resume and 
decided this person would make a good person for the job that 
you are being nominated for. So I am pleased that the Bush 
Administration has selected an individual of integrity and 
professional experience and has given him the opportunity to 
rise.
    He is going to be, I think this is important, in charge of 
an agency where he started out as an inspector. Too often I 
think in government today we bring in people from outside, 
maybe sometimes from the private sector, and that is not to say 
anything against that, but to have somebody work their way up 
through the ranks I think will be an especially good thing for 
the EPA, where people who work in that agency will say, hey, 
there is somebody that started out as an inspector and now is 
heading up this particular agency. So it does happen. Thank 
you, Mr. Chairman.
    Senator Jeffords. I thank you, and thank you for that 
excellent recommendation. I agree with you that those that have 
sometimes had the opportunity to be at the lower levels in the 
sense of the hierarchy end up as to the most knowledgeable in 
how to solve the problems.
    Senator Inhofe?

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Yes, Mr. Chairman, I do want to have a 
brief opening statement in order to bring out two very 
significant things where I am going to be asking each one of 
you for a firm commitment.
    First of all, the prior Administration by-passed the 
safeguards of the Administrative Procedures Act which required 
Federal agencies to provide opportunities to informed, 
meaningful public participation as a result of regulatory 
rulemaking process. Now, we set up the APA to force the 
bureaucracy to go in and get the opinions, get the ideas, have 
a system whereby comments can be heard. But the last 
Administration avoided that by making liberal use of interim 
final rules, guidance documents, and policy statements which 
did not require the public comment. For example, in April of 
2000, the U.S. Court of Appeals in Appalachian Power v. EPA 
actually had to strike down an abusive EPA guidance document. 
The court found: (1) EPA was creating broad new authority 
through the guidance document; (2) the EPA did intend the 
guidance document to have binding effect; and (3) the guidance 
document was illegally issued outside the APA rulemaking 
procedures.
    So I would ask each one of you if you will give a 
commitment to this committee at this time to stop this 
practice. Would any of you not commit to do that at this time?
    [No response.]
    Senator Jeffords. That is a better way to ask it.
    Senator Inhofe. Thank you very much.
    The second thing, I have told this story so many times and 
I know that Administrator Browner did not want to hear it 
anymore, and she is not hearing it unless she is tuned in right 
now, and that is the story--I am sure every one of us up here 
has had phone calls from people that received almost terrorist 
type of demands from the EPA. And these are going to the people 
who are paying for all this fun that we are having up here. The 
story I told was the Jimmy Dunn story, a third generation owner 
of a lumber company, he received a notice in 1994 and called me 
up and said the EPA has just put me out of business. That 
notice was very carefully worded to inflict terror in this 
individual to make him think that they were going to fine him 
$5,000 a day because for the past 10 years he had disposed of 
used crankcase oil that eventually made its way to a Superfund 
site. But he had done so legally, selling it to people who had 
licenses to dispose of it. Anyway, that turned out that 
everything is fine with him. However, I have often wondered 
what about those hundreds of people out there that do not call 
their Congressman or their Senator.
    So what I would like to ask of you, and probably, Mr. 
Schregardus, you particularly, and I have talked to you about 
this in my office, because you are going to be dealing with 
this type of thing, but would all five of you make a commitment 
to work with citizens and not harass them and not terrorize 
them. Yes. Yes. OK. Thank you very much.
    Mr. Chairman, Senator Smith and I both have the Senate 
Armed Services Committee, a very significant hearing, and that 
is the reason we have to leave early. But I wanted to get those 
two things in.
    Senator Jeffords. I understand. I would say that this may 
expedite things a bit too.
    [Laughter.]
    Senator Jeffords. Senator Chafee?

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman. Welcome to the 
nominees. Mr. Sampson was saying in his opening statement that 
his young son had said that he is not the Assistant Secretary 
yet because he still has to be ``confused'' by the Senate. So, 
welcome here, and probably prophetic.
    Senator Jeffords. All right. I guess we will go right back 
to where we started and allow you to make your statements.
    Mr. Sampson, please proceed.

             STATEMENT OF DAVID SAMPSON--CONTINUED

    Mr. Sampson. Thank you, Mr. Chairman. I do wish to thank 
the President for nominating me for this position, and express 
my gratitude to the committee members that I have had the 
opportunity to visit with as well as the staff members. I also 
extend my gratitude to Secretary of Commerce Don Evans and his 
staff and to the staff of EDA for all their support and 
assistance that they have provided me since I have arrived 
here.
    I have submitted testimony for the record, but would like 
to summarize my background in economic development philosophy 
for you. I was born and raised in rural southern Indiana, so I 
was exposed firsthand to the economic challenges that confront 
many of our communities even today. I witnessed the economic 
dislocation caused by vast swings in farm commodity prices, 
outmigration of manufacturing facilities.
    I am passionate about economic development. I believe that 
it is an important public policy goal to maximize wealth and 
minimize poverty. The public sector cannot do that. It is the 
private sector, through the investment of capital, that creates 
wealth and minimizes poverty in communities. But the role of 
the public sector plays a very important role in creating the 
kind of environment where the private sector will risk making 
capital investment that creates the kind of jobs that we want 
for all of our citizens. And so I am excited about this 
opportunity. I believe that my past experiences in Texas in 
economic development, both at the State and local level, will 
prepare me well for this position should I be fortunate enough 
to be confirmed by the Senate.
    My long term goal is to lead EDA to become the premier 
standard bearer for economic developers across the country. I 
believe that EDA's programs provide an appropriate and 
critically needed service to America's distressed communities. 
But I am equally committed to the belief that Government is 
accountable for the funds its spends and the programs it 
carries out. As the premier economic development partner, EDA 
must set the standard for excellence in its own operations and 
management.
    My view of management is that an organization functions 
best on the basis of teamwork and partnerships. We can move EDA 
forward as long as we do it as a team. And I look forward to 
working with the staff members of EDA should I be confirmed as 
well as economic development partners at the local, State, and 
Federal level, and certainly, most importantly, working with 
this committee and the Congress and its staff.
    A recent work force analysis study performed by Booz Allen 
highlighted that in EDA the commitment to facilitate economic 
development and provide superior customer service is pervasive. 
I think that speaks well of the current staff of EDA. I look 
forward to having the opportunity to join them should I be 
confirmed.
    In closing, I would like to thank my family for allowing me 
to uproot them from Texas. I consider it a great honor to have 
the opportunity of serving President Bush and my country in 
this position. I appreciate the opportunity to appear before 
you today, and look forward to answering any questions you may 
have.
    Senator Jeffords. Thank you very much for your statement. I 
have just two questions for you. Recently, the Economic 
Development Administration, EDA, finished a comprehensive year 
review of the agency's work force and organizational structure. 
Their review recommended that the EDA work to improve 
communications between the regional offices and the 
headquarters in an effort to better serve economically 
distressed communities. Can you please discuss how these 
improvements can help the EDA effectively and efficiently help 
small rural States such as Vermont.
    Mr. Sampson. Yes, sir. The Booz Allen study, I compliment 
my predecessor for authorizing that study. I think it is very 
helpful. The regional offices are the front line interaction 
between EDA and the States and local communities. It will be 
our goal to ensure that the regional administrators are very 
plugged in to what we are discussing at the headquarters level. 
But more importantly, I think the most important thing we can 
do is to align our existing resources appropriately. And by 
that, I mean making sure that our regional offices have the 
kind of staff that they need to be able to adequately cover all 
of the territories. We need to make sure that our EDRs, 
Economic Development Representatives, are strategically placed 
to adequately cover the geographic and demographic distribution 
of those territories.
    I think the recent legislation which expands our ability to 
work with communities through qualifying under Special Needs 
categories will be very helpful in States like Vermont where 
the overall unemployment rate is low but you do have areas of 
significant under-employment. One of the things that we will 
work to do is to expand our planning grants and our 
infrastructure grants to the broad range of communities, and I 
think the Special Need qualification that you have authorized 
us to utilize will be very helpful.
    Senator Jeffords. While the economic distress in Vermont 
may be not country-wide, there are many small towns and 
villages that are in need of Federal economic development 
assistance. Can you discuss how the EDA allocates its economic 
development resources, and more specifically, discuss how EDA 
works to ensure that small towns, like in Vermont, St. Albans 
or Randolph, are not left behind when it comes to the Federal 
development dollars.
    Mr. Sampson. Yes, sir. Those funds are apportioned on a pro 
rata share to the six regional offices around the country. All 
grants must be consistent with a comprehensive economic 
development strategy that is produced at the local level, and 
then those local communities advance a proposed project to the 
regional office for review and approval. I think it is vitally 
important that we expand the coverage and the reach of our 
economic development representatives in working with those 
small and rural communities to ensure that (1) they do have a 
comprehensive economic development strategy by providing 
adequate and expanded planning grants to them; and (2) work 
with them to advance specific projects that fit within their 
comprehensive economic development strategy to the regional 
office.
    Senator Jeffords. Mr. Fabricant, please proceed with your 
statement.

STATEMENT OF ROBERT FABRICANT, NOMINATED TO BE GENERAL COUNSEL, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Fabricant. Mr. Chairman, members of the committee, 
thank you for providing me with the opportunity to appear 
before you today. It is a great honor and privilege to be here 
as the President's nominee to be General Counsel of the 
Environmental Protection Agency. I want to express to you and 
your staff my appreciation for the many courtesies extended to 
me in preparing for this hearing.
    When Governor Whitman asked me if I would consider serving 
as General Counsel of EPA, it took me but a second to say yes. 
I have spent virtually my entire career in the public sector, 
most recently as Governor Whitman's chief counsel. Prior to 
that, I served in positions in the Governor's office that 
specialized in environment matters, and I have also served in 
the capacity as a deputy attorney general for the State of New 
Jersey with litigation and counseling advice to our New Jersey 
Department of Environmental Protection. Since being admitted to 
the bar, my primary focus has been a career in environmental 
law.
    Given that professional experience in this area, the 
opportunity to serve at EPA in this capacity is a truly 
humbling thing for me. I am grateful to Governor Whitman, to 
the President, and to you for this opportunity. Should you do 
me the honor of recommending my confirmation to the Senate, and 
should I be confirmed, I will devote all my efforts and 
energies to doing a good job.
    Senator Jeffords. Thank you. Mr. Fabricant, you have spent 
much of your career with Administrator Whitman as her advisor 
while she was Governor of New Jersey. Now you are looking at 
being her legal adviser of EPA. What do you see as the biggest 
challenge in taking the step from State government to the 
General Counsel for a Federal agency?
    Mr. Fabricant. The largest step I believe is the complexity 
of the issues and the broad range of State issues that will 
arising and reconciling the different regional aspects of the 
larger Federal EPA versus a State like New Jersey, which has 
many of the same issues that are nationwide but not at the 
level and complexity that you need to reconcile them at the 
Federal level.
    Senator Jeffords. Thank you.
    Mr. Mehan.

STATEMENT OF GEORGE TRACY MEHAN, III, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR FOR THE OFFICE OF WATER, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Mehan. Thank you, Mr. Chairman, members of the 
committee, for the privilege to address you as President Bush's 
nominee for Assistant Administrator for Water at EPA.
    I am very grateful to the President, Governor Whitman, and 
this committee for being considered for this tremendous 
responsibility to protect the waters of the United States. I 
look forward to working with you all to ensure that our 
children continue to enjoy the fruits of America's bounty, 
particularly the lakes, rivers, wetlands, and oceans.
    I grew up on the Mississippi River and had the good fortune 
to marry a resident of the Lake Michigan shores. My wife and 
children, even as we speak, are enjoying a summer's respite on 
a lake in Wisconsin. And my parents are on their way to the 
coast of South Carolina for a well-deserved vacation. My 
family, just as most American families, realize that water 
defines much of their lives, at least the most enjoyable 
aspects. But for many other Americans, many more Americans, it 
is even more important in that it is the basis of making a 
living, supporting a business, or even feeding themselves.
    Given the importance of water in the lives and occupations 
of our citizens, it is understandable that starting in the 
1970's the nation began the hard work of restoring its water 
quality with very great, albeit limited, success. The strength 
of our economy in the postwar era, no doubt created both the 
desire and the means of cleaning up the waters, and I believe 
that has a lot to do with our success. But it was not just the 
money. It was the love of our country and its beautiful waters.
    Many commentators have noted the evolving nature of the 
challenges to further improvements in water quality. We need to 
look beyond the traditional discharge pipe in the water to more 
generalized sources of runoff, polluted runoff. There is also 
the need to look at the entire watershed to assess the most 
cost-effective means of intervention and reduction of a target 
pollutant. These and other challenges, such as restoring 
contaminated sediments and preventing air deposition of 
pollutants to our waters, will require new and creative ways of 
meeting our responsibilities of stewardship in this new 
century.
    I hope to contribute to the search for solutions to the 
water quality challenges of the day, working with the White 
House, Governor Whitman, and of course this committee to 
involve stakeholders from the public and private sectors, from 
State and local government, and from people inside and outside 
of government.
    Working together, I believe we can identify and implement 
successful strategies to maintain and restore the chemical, 
physical, and biological integrity of our waters. No doubt many 
of these strategies will be tailored to specific problems in 
specific communities. Hence, the importance of the watershed as 
both a social and hydrological reality. Here is where 
communities, neighbor to neighbor, can engage one another, 
educate each other, persuade one another in a mutual quest for 
shared goals.
    There are, of course, other problems national in scope 
where the Federal role is a significant if not a paramount one. 
This committee has developed legislation directed EPA to work 
with States, tribes, and other Federal agencies to help finance 
water infrastructure, to set national drinking water standards, 
to protect wetlands, to control discharges from industry and 
sewage treatment plants, and, of course, to reduce nonpoint 
source pollution through various methods. The impact of air 
pollutants, such as mercury or nitrogen, on water quality also 
requires national attention. This is a classic cross-media 
problem and we will need a coordinated approach to addressing 
pollutants which are a threat both to air and water.
    Americans view conservation and environmental protection as 
important elements of the public agenda. They look to public 
officials to harmonize these priorities with social and 
economic objectives. This is a task of great difficulty, but 
one that is well worth the effort.
    I will strive to meet these challenges while relying on the 
best available science and economic analysis with due regard 
for the statutory directives of Congress.
    I will be honored to work with this committee, Mr. 
Chairman, to accomplish the hard work of protecting and 
restoring our nation's water quality. Again, I thank you for 
your time and consideration today.
    Senator Jeffords. Thank you, Mr. Mehan. As you well know, 
there are indications that there is a crisis of rather large 
proportions with respect to the wastewater and drinking waters 
in this nation. In fact, it has been estimated that over the 
next 20 years communities will need between $600 billion and $2 
trillion to upgrade their water infrastructure. I have several 
questions for you related to this issue. What do you see as the 
Federal Government's role in funding water infrastructure?
    Mr. Mehan. Let me say, first of all, there is a role and I 
think we are at the front end of what has to be a very 
sustained dialog in fleshing out and defining what that role 
is. Clearly, historically, most of the resources that have gone 
into our infrastructure have come from municipalities, local 
governments, and other sources. But there has been a clear 
Federal role. And certainly when you look at interstate bodies 
of water, when you look at communities in distress, smaller 
communities running into affordability issues, there is clearly 
I think an opportunity to explore what that role is and to what 
degree.
    Again, I am very pleased that Governor Whitman has listed 
this infrastructure issue as one of her top priorities. I am 
very pleased to begin working with her and the Administration 
and this committee to flesh out and give some direction and 
specificity to what that role is. Again, I will be one voice 
among many in the Administration, but I can tell you there is a 
Federal role, it is a significant one, but it does need some 
refinement, some direction as to what is the legitimate and 
appropriate targeting of that Federal role and involvement.
    Senator Jeffords. As you know, this is going to be a very 
critical issue and finding the funding, with all the other 
priorities that we have, is going to be very difficult, 
especially in looking at the limits that were placed on EPA's 
funding by the recent budget agreement. So this committee is 
going to be dedicated to trying to work with you to make sure 
that we do all we can to help the States and local communities.
    I am also interested in your views on the State Revolving 
Fund programs for supporting drinking water and wastewater 
infrastructure. Are these SRF programs working well? Or do they 
need to have changes, and if so, what changes would you 
suggest?
    Mr. Mehan. Generally, I would say yes. At least from the 
standpoint of a State official and most of the State officials 
I have interacted with, the SRF program has been an effective 
one. It is one that I think both EPA and the States have been 
comfortable with. Generally, that is a good model and a good 
mechanism that has been in place these many years.
    However, in this age of continuous improvement, there is 
always room for more improvement and to what extent it can 
carry the load necessary for all these new challenges, 
especially as we look at grants versus loans. But in the main, 
it is a good program and it is one of the successes of the last 
couple of decades. So I think it is a question of fine tuning 
and refining it. I think it has worked and it provides a lot of 
lessons for the future.
    Senator Jeffords. Senator Voinovich?
    Senator Voinovich. Do you think that the current Federal 
program to help communities in terms of their water and waste 
treatment facilities is adequate?
    Mr. Mehan. If you view that question in terms of what the 
objective need is, there is a huge need, a huge need, and there 
may never be enough resources from the Federal Treasury to deal 
with that. However, I think we need to think comprehensively, 
not just on the money side, but on the technical assistance 
side, on the asset management side, and look at a way to 
optimize whatever Federal resources are ultimately available.
    Again, the needs, as the Chairman indicated, are large 
across the board, whether we are talking wastewater or drinking 
water, in terms of infrastructure, in terms of just operating 
expenses. So in an objective sense, no. But I think the 
question we are going to have to face at some point, whatever 
role the Federal Government has will no doubt be a limited one, 
and the question will be how to optimize and fully leverage and 
effectively use whatever resources are eventually available 
through Federal sources.
    Senator Voinovich. One of the things that I am concerned 
about, and you must have experiences, we do have an aging 
infrastructure in both water and in sewers. If you are candid 
and intellectually honest, you have to look back and find that 
we made major improvements in waste treatment when the Federal 
Government instituted the 75-25 program, which went off I think 
in the middle of the 1980's. That problem is still there.
    In addition to that, I think you are familiar with a lot of 
the new requirements that are coming out of the Environmental 
Protection Agency particularly in the area of CSOs and 
stormwater overflows. I would think it would be incumbent upon 
the next individual that has this job to review those new 
requirements that are coming out to make sure that they make 
sense from a common sense point of view. And if they do, to 
recognize that the local people are not able to handle that by 
themselves. I have got a bill in this year to increase the SRF 
from $1.5 billion to $3 billion a year over 5 years, $15 
billion. Right now, we are trying to get a little paltry sum of 
money, Mr. Chairman, we had the Wet Weather Program last year, 
we asked for $1.5 billion, $750 million in this budget just 
does not provide for it. And then the WIN organization has come 
up with a proposal over a 5-year period of looking at spending 
about $57 billion to deal with the problem.
    I would hope that the director of the agency and you would 
be forthright and candid with Congress in terms of what the 
needs are, and to understand that there is more of a role for 
the Federal Government to play currently than is now being 
played. Some of these new things coming out of the EPA are 
unfunded mandates and somehow we have got to grapple with this 
situation and we have to get it on the table if we are going to 
deal with it.
    Unfortunately, we have these unmet Federal needs and we are 
going off in new directions and new programs and just ignoring 
the fact that these need to be addressed. I would like to hear 
from you. Would you be willing to be an advocate there in terms 
of bringing these things to our attention?
    Senator Jeffords. I share the Senator's feelings there.
    Mr. Mehan. As I have said, I hope I have been direct and 
responsive, infrastructure is a huge issue and there is a 
significant Federal role. Beyond that, I intend to work very 
hard, based on the priorities the Administrator has set out, to 
formulate policy that I think comprehensively addresses all the 
issues you have raised, both in terms of the resources side, 
the money side, but also what are the legitimate mandates. Are 
we looking at these rules in a way where we are getting value-
added, we are getting the biggest bang for the buck. On top of 
that, as I say, I think a third thing which I am hearing from 
the career staff is the whole issue of asset management. Are we 
managing the existing capital infrastructure in a way that 
prolongs its life.
    So, again, that issue, as well as defining what is the 
appropriate extent of the Federal involvement, are all the 
kinds of issues that I intend to weigh in on and, hopefully, be 
a robust participant in those discussions within the 
Administration, and as we move out to the next concentric 
circle, that is the Senate and the House, to weigh in heavily 
on those issues.
    Senator Voinovich. Thank you.
    Senator Jeffords. Mrs. Ayres, please proceed with your 
statement.

STATEMENT OF JUDITH ELIZABETH AYRES, NOMINATED TO BE ASSISTANT 
   ADMINISTRATOR FOR THE OFFICE OF INTERNATIONAL ACTIVITIES, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Ayres. Good morning. I am honored to have the 
opportunity to appear before this committee to see your 
confirmation to serve as EPA's Assistant Administrator for the 
Office of International Activities. It is a distinct honor to 
have been nominated by the President and to have the support of 
Governor Christine Todd Whitman. If the Senate confirms my 
nomination, I also look forward to working closely with members 
of this committee, and other members of the Senate and the 
House of Representatives.
    I believe the Office of International Activities in EPA is 
a place where a common understanding and approach can be 
developed to address the many global environmental problems 
that confront us. If confirmed, I pledge to use my experience 
and talented staff to promote a spirit of environmental 
stewardship which reflects Administration priorities.
    Today, in seeking the committee's confirmation, I offer as 
qualifications my academic background, my public and private 
sector environmental experience, and my record in both venues 
as a proven and fair manager committed to doing the public's 
business in a public way to pursue high environmental 
priorities.
    Environmental protection and gain are at the very heart of 
EPA's major program areas. Each program carries an essential 
international dimension; addressing pollution of air, water, 
solid and hazardous waste, toxic chemicals, and also emergency 
response functions, and pesticides. The international dimension 
is important because we know what goes on in backyards halfway 
around the world may also end up in our own.
    I would also offer comments on the people of the Office of 
International Activities. This is an exceptionally talented, 
dedicated, and professional group of public servants who seek a 
well-managed office with challenging and interesting work, the 
resources to get it done, and a work environment that is fair 
and equitable. Mr. Chairman, President Bush, Governor Whitman, 
and I commit both to the committee and to the Office of 
International Activities that going forward, the office will be 
well-managed, all managers and employees will be held 
accountable, the world will be challenging, and the work 
environment will be fair and equitable.
    In closing, I have chosen to seek confirmation and to re-
enter public service because I believe public service is the 
noblest of professions and I believe protection of the 
environment, in all its many dimensions, to be the most vital 
of endeavors.
    Thank you. I shall be pleased to answer any questions you 
might have.
    Senator Jeffords. Thank you for an excellent statement. If 
confirmed, you will be the head of an office within EPA that 
has responsibility for international activities. Given the 
Administration's position on Kyoto and climate change, our 
international relations on these issues is very important right 
now. How do you see the role you will play within the Agency, 
the Administration, and the international community on these 
issues? What is your role?
    Ms. Ayres. I would ask for some clarification, Mr. 
Chairman. Are you referring specifically to Kyoto or to all 
international activities?
    Senator Jeffords. Either way. Your choice.
    Ms. Ayres. Then thank you, I will take the broader 
approach.
    [Laughter.]
    Ms. Ayres. And that would be, the Office of International 
Activities at EPA works collaboratively with other entities 
within the Federal Government and certainly with other entities 
within EPA itself, the program offices. So International 
Activities will be working with Water, certainly the General 
Counsel's Office, we are not doing much in the Enforcement, but 
all of the areas internally, and then working closely with the 
State Department, Treasury, with the Trade Representative. So 
there is a real collaborative effort. On a few issues, EPA 
Office of International Activities has the distinct lead. 
Certainly, one of those areas has to do with a very vital 
program going on on the Mexican-U.S. border.
    Senator Jeffords. Let us just focus for just a second on 
Kyoto. What are your views or your expectations with regard to 
the international impacts?
    Ms. Ayres. Kyoto, certainly an issue in the new. Certainly 
an issue of great interest to you, I am aware, and certainly 
the Agency is aware, the Administration is aware. At this time, 
the Administration has chosen to not have our country be a 
party to Kyoto. The two issues there essentially are issues of 
equity regarding the numbers of countries who are participating 
and who will be, so it would be an equity issue, and then it 
would also be an issue of how it would affect our economy. The 
feeling of the Administration is that these control mechanisms 
would have deleterious effect on our economy.
    The Administration, as you know, is conducting a cabinet 
level review of climate change policy. They are working on a 
product, I do not know what that product is, when that product 
will be available, but I do know that the Administration is 
committed to looking at this issue at the cabinet level, and 
that is happening regularly.
    Senator Jeffords. Just let me pass information on to you. I 
met recently with a number of different countries that are 
leaders in the environment and they expressed deep concern over 
the attitude of the United States with respect to Kyoto. I just 
want to pass that on because I think we have a responsibility 
to understand the reactions of the world community when we take 
a position which is discouraging with respect to our 
cooperation in Kyoto. I just want to pass that on to you.
    Ms. Ayres. Thank you, Senator. In response, let me say that 
should I be confirmed, both I and the Office of International 
Activities look forward to working with you and the entire 
Congress to the extent that we are involved in this issue as 
the process moves forward.
    Senator Jeffords. Senator Voinovich?
    Senator Voinovich. On Kyoto, if this country is unhappy 
with the current Kyoto treaty, do you think it is incumbent on 
us to come back with an alternative?
    Ms. Ayres. I think it is incumbent upon us to work in the 
interest of the greater good for the global environment, for 
the community of nations. I believe that first steps have been 
taken in that the Administration believes that the climate 
change is a problem, believes that there is a man-induced 
component of that. And from my perspective, having been at the 
Agency for some 12 nonconsecutive days, in my capacity as a 
consultant, I am prohibited from attending any meetings outside 
of the EPA itself. So I am not a principal in this issue at 
this time. However, I believe that the Administration has 
strong feelings that they are wanting to be value-added, and if 
that is in fact bringing forward a plan, possibly domestically 
and internationally, that will be done.
    Senator Voinovich. Well, I would suggest that is what the 
position should be. We have strong feelings and I concur with 
some of the reservations the President has about it. I have had 
hearings on the issue of global warming and there certainly is 
a difference of opinion among the scientists. But the fact of 
the matter is that there is a problem and it seems to me we 
should be part of the solution and not part of the problem.
    This issue has even larger implications than just the issue 
of the environment. It has large implications in terms of our 
relationships with our allies around the world. I can tell you, 
this year I attended the NATO meeting in Vilnius and I was at 
the OSCE meeting in France, our parliamentarians from those 
nations are very, very upset. They basically feel that the 
United States is just stiff-arming this whole thing and walking 
away from it. It is bad, bad public relations.
    If we are not happy with the situation, then we have an 
obligation to come back and say here is what our problems are 
and can we work on some other alternatives. But we do know 
there is a problem and we are willing to participate in working 
with you to do something practical about it even though we may 
not agree with some of the scientists that say we are the main 
cause of this global warming problem. But it is out there and 
we ought to be doing something constructive about it. And I 
would hope that is going to be your attitude and the attitude 
of the Administration.
    Ms. Ayres. Senator, the Agency and the Administration look 
forward to working with you toward a solution that helps solve 
the problem and is an equitable solution to our nation's 
economy, which is basically two of the underpinning principles 
that are being looked at and being included in any plan the 
Administration may come forward with at the cabinet level at 
this time.
    Senator Voinovich. Thank you.
    Senator Jeffords. Some years ago, I started what is now 
referred to as the Alliance to Save Energy with industries in 
this country to try to work together to find ways to conserve 
energy. Three years ago, I was in China and met some of the 
experts in this country who were over looking at China's coal 
consumption, and they came back with a staggering understanding 
that with efficiency improvements they could almost reduce the 
consumption of coal up to 60 percent between the user and the 
provider.
    It seems to me this nation has an opportunity to try and be 
a leader in how to help other nations to do the efficient 
things that we have learned to do here, because if you look at 
China, as you know, and India, and other areas, inefficiencies 
are very serious. I would hope that we would take a leadership 
role in trying to help those nations find ways to be more 
efficient, which would reduce the problems certainly by 
magnitudes of great numbers if those experts are correct.
    So I would hope you would take an interest in seeing what 
we could do to try to work in that area.
    Ms. Ayres. Thank you, Senator. What you have just mentioned 
is really at the very heart of what the International Office at 
EPA is all about, the phrase used is ``capacity building.'' 
Through these capacity building projects, which are truly 
around the world, with lesser developed countries or other 
countries, often the same countries who are grappling with the 
most devastating environmental problem of all, poverty, which 
is one of the reasons why these inefficiencies exist, the 
sharing of technologies, the sharing of expertise from our 
country and oftentimes from the professionals at EPA to these 
other countries in helping them learn new ways of doing things 
that will make them simply more efficient and thus, in many 
instances, less polluting.
    Senator Jeffords. Thank you. I look forward to working with 
you.
    Ms. Ayres. And I look forward to working with you. Thank 
you.
    Senator Jeffords. Mr. Schregardus?

 STATEMENT OF DONALD R. SCHREGARDUS, NOMINATED TO BE ASSISTANT 
  ADMINISTRATOR FOR THE OFFICE OF ENFORCEMENT AND COMPLIANCE 
           ASSURANCE, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Schregardus. Mr. Chairman, Senator Voinovich, and 
distinguished members of the committee, it is an honor and a 
pleasure to appear before you this morning as the nominee to be 
EPA's Assistant Administrator for the Office of Enforcement and 
Compliance Assurance. I am honored and excited that President 
Bush and Governor Whitman have invited me to join the 
Administration to improve public health and the environment in 
this great nation. I am especially pleased to be joined here 
today by my daughter Sarah who flew in from Ohio this morning.
    Compliance and enforcement have always been fundamental 
components of our national environmental program. Governor 
Whitman has expressed her commitment to a strong Federal 
enforcement program, and so do I. Compliance and enforcement 
has been a cornerstone of EPA's programs to improve public 
health and the environment from its beginning. The American 
people trust and rely on EPA to protect the land, air, and 
water where they live. I understand this important 
responsibility and, if confirmed, will do everything in my 
power to meet this responsibility.
    To this end, I believe my 25 years of experience in Federal 
and State environmental regulatory agencies would provide a 
valuable benefit to the Administration. I started my career at 
EPA at a field office conducting environmental studies and 
investigations. While developing permits and enforcement cases 
I learned first-hand the importance of good science in 
environmental decisionmaking. As chief of the Water Division 
Compliance Section in Region 5, I managed one of the most 
successful efforts to bring municipalities into compliance with 
the Clean Water Act. We set records for the most penalties and 
civil actions as compared to previous periods in the Region. As 
a result, water quality improved across the region.
    As director of Ohio EPA, I developed or expanded programs 
in pollution prevention, technical assistance and environmental 
education. I improved the scientific basis for environmental 
decisionmaking. We implemented a program to evaluate the 
quality of all 6,000 public water supplies in Ohio, we placed 
inspectors at each of Ohio's commercial hazardous waste 
disposal facilities, and we tripled the size of Ohio's landfill 
inspection program. With the support of then-Governor 
Voinovich, we added nearly 400 new people to the Agency, half 
of which were placed in the Ohio EPA's district offices where 
they conducted inspections and monitoring. We developed new 
programs to clean up Brownfields, manage and cleanup tire 
dumps, ensure the safety of underground injection wells.
    Senator Jeffords, I was pleased to hear you are interested 
in energy conservation. Ohio was one of the first midwest 
States to join EPA as an active participant in their Green 
Light Program to help reduce energy in buildings across the 
State.
    Throughout my service as director, I recognized the 
importance of public involvement. I expanded public involvement 
in the rulemaking and program development processes, and 
started and supported 25 community-based groups to assist the 
Agency in studying and improving water quality.
    However, the real measure of success in these programs is 
not in the outputs but in the outcomes. During my tenure as 
director of Ohio EPA, one of the top manufacturing and energy 
producing States in the country, air emissions of sulfur 
dioxide, particulate, carbon monoxide, and lead were reduced 
substantially, and for the first time all 88 counties in Ohio 
met the national air quality standards. We had a 50 percent 
reduction in toxic releases to the environment from 1988 
levels, and we realized a 50 percent increase in stream miles 
fully achieving fishable/swimmable Clean Water Act goals. I am 
proud of these accomplishments, but more still needs to be 
done. I look forward to bringing the knowledge gained from 
these successes to apply to the Office of Enforcement and 
Compliance Assurance.
    One area I believe is especially important for the 
compliance and enforcement program is to focus on coordination 
with the other offices in the Agency to ensure the 
Administration has a clear, consistent national approach to 
environmental protection. A clear unified approach to 
environmental protection helps ensure there are no surprises 
and no excuses to environmental compliance. Finally, I will 
seek the involvement of the States and the public as we improve 
and develop new programs.
    From my career in enforcement, I have learned an effective 
compliance and enforcement program involves far more than just 
enforcement orders and lawsuits. Compliance starts with a clear 
understanding of regulatory requirements and timeframes in 
which they must be met. Education and compliance assistance are 
needed to get the word out clearly and uniformly across the 
country. Incentives and voluntary programs can assist 
communities and businesses to achieve environmental controls in 
a cost effective manner. Plans, goals, tracking, and 
accountability are essential to follow progress. States, where 
delegated the national programs, must take the lead. But if 
requirements are not met, then the full range of 
administrative, civil, and criminal enforcement actions must be 
considered. If you should honor me by your confirmation, I will 
work to improve each one of these elements and thereby improve 
public health and the environment in a cost effective manner.
    I look forward to working with you, Governor Whitman, and 
President Bush to make the environment better for all 
Americans. Thank you for the opportunity to speak with you this 
morning.
    Senator Jeffords. Thank you. You are going to have a tough 
job.
    Mr. Schregardus. Yes, sir.
    Senator Jeffords. I am concerned when I look at the budget 
with respect to your role. The Administration's budget for 2002 
cuts 270 EPA enforcement personnel from the office that you 
will be heading while providing $25 million for grants to 
States for enforcement programs. I would like you to tell the 
committee what impact the personnel cuts will have on EPA's 
ability to enforce our environmental laws, and what the State 
Enforcement Grants Program will be designed to do.
    Mr. Schregardus. Mr. Chairman, if confirmed by the Senate, 
I will have the responsibility to support the President and the 
President's budget, and I am committed to do that. I recognize 
the issues that are being considered by the Congress at this 
time on the issue of the President's budget related to moving 
essentially $25 million from the Federal enforcement program to 
the State enforcement program. You have accurately described 
the Office of Enforcement and Compliance Assurance is scheduled 
to be reduced by a total of 270 work year, 205 of those will be 
applied to the Agency reduction to achieve 17,500 FTEs and 65 
FTEs will be moved to other programs.
    With respect to this, Senator, I have worked at both the 
State and national level and I recognize the importance and the 
leadership role that the States have in enforcing the national 
laws. I believe the $25 million proposed to be added to the 
State Grants Program can be an effective, important tool in 
improving State enforcement programs.
    I also recognize that a reduction of $25 million from the 
Federal side will have a real impact on the enforcement 
program. But I certainly believe, and I believe strongly, that 
the resources that remain in the Office of Enforcement and 
Compliance Assurance are substantial and we will carry out a 
vigorous enforcement program based on meeting the priorities of 
the office.
    And so, yes, I do believe that we can carry out a vigorous 
program. We will take actions against facilities that have 
multiple facilities in multiple States. We will take action 
when there is cross-boundary issues. We will take actions where 
the States have not been delegated the program. And we 
certainly will take actions where the States are either 
unwilling or unable to take actions within their States. But I 
also believe, as well as Governor Whitman, that the $25 million 
will substantially help the States carry out their very 
important role in the environmental compliance and enforcement. 
They currently take over 90 percent of the actions, both 
inspections and enforcement, and we think through setting up a 
grants program that requires accountability, a focus on 
environmental priorities, we will see a measured improvement in 
enforcement by the States.
    Senator Jeffords. Well thank you. That is somewhat 
reassuring, but I want to let you know that I intend to be 
watching very carefully over what the impact is. I have full 
faith in the Administrator. I believe she is a wonderful woman 
and I have respected what she has done. But I want to make sure 
she has all those tools necessary and available to her that she 
must have in order to do the job. So I am going to be watching 
like a hawk soaring above there to make sure that she has the 
ability and no hinderance placed in her way to do the job she 
is supposed to do.
    Well thank you all.
    I turn now to Senator Voinovich for any questions he may 
have.
    Senator Voinovich. I just was handed a note that said that 
Senator Bond said this morning the Senate Appropriations will 
not be cutting EPA's enforcement budget. So, one of the things 
that the Administration proposes and the Congress disposes.
    [Laughter.]
    Senator Jeffords. Of course, we are right.
    [Laughter.]
    Senator Jeffords. Thank you all.
    Senator Voinovich. Mr. Chairman, I would like to just say 
one thing. I would like to thank all of you for responding to 
the nomination of the Administration to take on these 
responsibilities. It is a major sacrifice. I know it is 
disruptive to your families. They are making a sacrifice right 
now while you are in this limbo period. Hopefully, you will all 
be appointed, and they will continue to make sacrifices as you 
serve our country. I just want to thank you so much for your 
willingness to step forward and to serve our nation. We need 
outstanding people in our Federal Government, and your 
willingness to serve is very much appreciated by your country. 
Senator Jeffords. I have two obligatory questions that I have 
to ask you. If I do not ask them, you cannot have your job, so 
I think I better ask them.
    Are you willing, and this is for all of you, at the request 
of any duly constituted committee of the Congress to appear in 
front of it as a witness? All nod your heads aye, I hope.
    [Witnesses answered in the affirmative.]
    Senator Jeffords. OK. Fine.
    No. 2, do you know of any matters which you may or may not 
have thus far disclosed which might place you in any conflict 
of interest if you are confirmed in your position?
    [Witnesses answered in the negative.]
    Senator Jeffords. Everybody is shaking their head no.
    Thank you. Now you are on your way. We have to have a vote 
on confirmation, but you are ready to go before that vote. So 
thank you very much for appearing before us today. We look 
forward to working with you.
    [Whereupon, at 11:09 a.m., the committee adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
   Statement of David Sampson, Nominee to be Assistant Secretary of 
                   Commerce for Economic Development
    Mr. Chairman, Senator Smith and members of the committee, Thank you 
for the opportunity to appear before you this morning. I am grateful to 
Senator Kay Bailey Hutchison and Congressman Martin Frost for their 
kind introductions, and to you for the warm welcome you have given me 
and my family. Speaking of my family, I would like to take this 
opportunity to introduce my wife, Karen, and my twin sons, John David 
and Matthew Nicholas.
    I also wish to thank the President for nominating me to this 
position, and express my gratitude to committee members and their 
staffs for the many courtesies extended to me during my visits with you 
over the last month. In addition, I extend my gratitude to Secretary of 
Commerce Don Evans and his staff and to the staff at EDA for the 
support and assistance they have given me since my arrival here in 
Washington.
    I was born and raised in a rural farm community in southern 
Indiana, so I was exposed firsthand at a young age to the economic 
challenges that confront many of our nation's communities even today. I 
witnessed the economic dislocation caused by significant swings in farm 
commodity prices, drought and flood, the relocation of manufacturing 
facilities outside of the Midwest, and the loss of population due to 
lack of economic opportunity.
    I am passionate about economic development. I believe economic 
development is of critical importance because it supports two important 
public policy objectives: creating wealth and minimizing poverty. The 
creation of wealth enables people to be economically self-sufficient 
and provides the resources needed for building safe, healthy, 
convenient and attractive communities in which people want to live and 
raise their families. Minimizing poverty is important because poverty 
is not only de-humanizing, it is extremely costly in terms of 
underutilized human and capital resources, welfare transfer payments, 
soaring public health care costs, crime, and declining neighborhoods 
that lose their value. Thus, the public sector has a legitimate 
interest in supporting those efforts to bring economic opportunity to 
all segments of our society. As President Bush said last week in a 
speech before the World Bank, ``A world where some live in comfort and 
plenty, while half of the human race lives on less than $2 a day is 
neither just, nor stable.''
    But while I am passionate about economic development, I also 
realize it is not the public sector that creates wealth and minimizes 
poverty, but the private sector. Therefore, the public sector role is 
to foster a positive environment where the private sector will risk 
capital investment to produce goods and services and increase 
productivity, thereby providing the high-skill/high-wage jobs that 
offer opportunity for all Americans.
    I have come to understand the nature and importance of economic 
development over the past decade, during which I was actively involved 
in addressing economic development issues at the local level. First as 
a staff member and later as President and CEO of the Arlington, Texas, 
Chamber of Commerce, I was directly involved in local economic 
development efforts because the Chamber functions as the city of 
Arlington's economic development department under a public-private 
partnership agreement that has brought significant growth and 
opportunity to the City.
    Arlington, Texas, is an interesting blend of old and new economy 
with a significant amount of tourism-based economic activity mixed in 
for good measure. In addition, the City has an economically diverse 
work force and population, and faces most of the economic development 
challenges confronting the nation's cities. During my tenure as 
President and CEO, the Chamber's economic development efforts on behalf 
of the city of Arlington resulted in the investment of $2.4 billion in 
private capital and the creation or retention of 28,465 jobs. This 
level of achievement was possible because of an effective public-
private partnership, a bi-partisan working relationship with local, 
State and national officials, the outstanding team of professionals we 
had working on economic development in Arlington, and the strong 
performance-based management system the Chamber and City established to 
guide the economic development program.
    I have also been involved in a number of economic development 
activities at the State level in Texas at the appointment of then 
Governor, now President, Bush. I served as the Vice Chairman of the 
Texas Strategic Economic Development Planning Commission when we 
developed a 10-year strategic economic development plan for Texas. That 
effort was charged by then Governor Bush to ensure the plan developed 
would help all regions of Texas achieve their highest economic 
potential and share in the economic prosperity of the State. I 
subsequently chaired the Texas Council on Workforce and Economic 
Competitiveness where we worked to implement the State's plan to 
integrate its economic development and work force development efforts. 
This experience provided me a greater understanding of the need to 
integrate economic and work force development efforts in order to 
support more efficient use of both sets of resources. It also provided 
me with an appreciation of the potential and promise of the Workforce 
Investment Act and the role it can play in bringing increased 
opportunity to Americans.
    I believe these experiences and my prior experience with community-
based organizations have prepared me to take on the duties of the 
position of Assistant Secretary for Economic Development. I am 
committed to leading EDA to become the premier standard bearer for 
economic developers across the country. I believe that EDA's programs 
provide an appropriate and critically needed service to America's 
distressed communities. But, I am equally committed to the belief that 
the Government is accountable for the funds it spends and the programs 
it carries out. I believe that EDA must be able to demonstrate, through 
tangible outcomes and measures, how it is performing and the value of 
its programs. And, as the premier economic development partner, EDA 
must set the standard for excellence with its own operations and 
management.
    Integration of mission, organization, budget, and performance form 
the basic loop that drives success. EDA must reestablish its strategic 
context and focus by re-affirming the mission and vision of the Agency. 
We will work with a broad cross-section of experts, private and public, 
in the field of economic development, to analyze trends and 
developments. We will work with our partners to develop a coherent and 
comprehensive vision and strategy to meet the challenges of the 21st 
century, and we will be poised to address economic development issues 
as they begin to emerge. EDA will be pro-active in addressing economic 
development in the future, not reactive.
    The strategic vision and mission of EDA will, in turn, dictate the 
organization necessary to achieve that vision. EDA commissioned a work 
force analysis study at the end of fiscal year 2000 so the Agency could 
plan strategically for long range human resource requirements, to 
effectively align the work force with organization goals and 
objectives, and to provide a foundation for focused cross-
organizational placement, training, retraining and recruitment.
    The study identified key work functions and activities, analyzed 
gaps between workload and work force, detailed managerial, technical 
and core competencies, and specified the competencies in which 
deficiencies exist. The study also found that 60 percent of EDA's work 
force is eligible for retirement. Three key recommendations were made. 
First, analyze work processes in greater detail, from a qualitative and 
redundancy perspective, to streamline for greater efficiency and 
effectiveness. Second, reestablish the strategic context and focus for 
EDA by re-affirming the mission and vision of the Agency. Third, 
implement a competency-based Human Resource System to tie employees' 
competency and behaviors to the mission and strategic goals. Such a 
competency model incorporates succession planning, recruitment, 
selection and training and development.
    If I am fortunate enough to be confirmed for the position of 
Assistant Secretary, EDA will aggressively move forward to implement 
the recommendations of the study. Let me assure you, however, that the 
findings of the study will not be used to support requests for 
additional staff resources, but rather will help us make optimum use of 
available staff within current personnel ceilings. We will assess EDA 
structure to ensure that we flatten management structures so there are 
fewer layers between customers and senior policymakers. We will define 
the role of headquarters and align and deploy resources to best serve 
the needs of communities. We will streamline our processes, align 
competencies with activities, and explore new opportunities for 
technological solutions.
    After vision and organization comes budget and performance. EDA 
will derive its budget requests from the outcomes it hopes to achieve, 
and I assure you that if we can't demonstrate the value of an EDA 
program's investments, we will not seek funding for that program. I am 
convinced of the importance of performance-based management systems and 
that program budget requests should be supported by documented results. 
Whatever activities we are going to undertake with public dollars must 
be able to demonstrate benefit for the funds expended through 
measurable, quantifiable performance measures. EDA is assessing its 
performance measures, and is focusing resources to develop and define 
tangible outcomes and performance measures for our capacity building 
programs, planning and technical assistance. It is fundamental that 
solid, substantive planning is a prerequisite for sustainable economic 
development, but it is incumbent upon EDA to tangibly document specific 
outcomes to be achieved, and then to measure our achievements.
    The final recommendation from the work force analysis study 
addressed the need for a competency based Human Resource System that 
ties employees' competency and performance to the Agency mission and 
goals and performance. A competency based Human Resource system 
develops succession planning, recruiting, selection and performance 
measurement around a competency model. I am a strong proponent of The 
Balanced Scorecard, which is a performance management approach that 
assesses customer satisfaction, financial results, and internal 
processes in a way that is practical and measurable and that reinforces 
the organization's critical competencies, goals and objectives.
    Lastly, my view of management is that an organization functions 
best on the basis of teamwork and partnerships. We can move EDA forward 
as long as we do it as a team, and it would be my intention to work in 
a collegial manner with EDA's staff. Let me say that in the short time 
I have been serving as the Secretary's Senior Advisor, I have been most 
impressed by the competence and dedication of the EDA staff, and I look 
forward to joining them should I be honored by being confirmed as 
Assistant Secretary. The work force analysis study highlighted that, 
``The commitment to facilitate economic development and provide 
superior customer service is pervasive throughout EDA.'' It is 
important that the EDA team work in partnership with local, regional, 
State and Federal economic development organizations, along with 
Members of Congress and their staffs, in order to maximize the benefit 
derived from all our efforts. No one program, Agency, private non-
profit, or governmental organization has all the resources or knowledge 
needed to meet the nation's distressed areas' economic development 
needs. By working cooperatively, however, we can make efficient use of 
all our resources to leverage greater private sector investment and 
more businesses and jobs for those Americans who have not been full 
partners in the nation's economic growth.
    In closing, I would like to thank my family for allowing me to 
uproot them from Texas. I consider it a great honor having the 
opportunity to serve President Bush and my country in this position. I 
appreciate the opportunity to appear before you today and the 
courtesies you have shown me, and will be pleased to answer any 
questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses of David Sampson to Additional Questions from Senator Bob 
                                 Smith
    Question 1. In my State of New Hampshire, the town of Londonderry 
has an Ecological Industrial Park. The park's natural gas power plant 
uses 4 million gallons of treated waste water from the city of 
Manchester to cool the plant. This voluntary agreement is an excellent 
example of two industries joining forces to reduce waste and improve 
our environment. The EDA has been very supportive of these projects and 
provided a grant to assist in the development of the National Center 
for EcoIndustrial Development. How do you intend to continue developing 
projects like those in Londonderry?
    Response. In the few weeks I have served as Senior Advisor to the 
Secretary, I have learned that EDA has been one of the leaders in the 
implementation of the ecoindustrial development concept in the United 
States. I was pleased to participate in the ecoindustrial development 
briefing you hosted last week and to see EDA's leadership role 
recognized by many of the speakers. EDA staff report that the agency 
has been involved in ecoindustrial development projects based on the 
model of the Londonderry, New Hampshire EcoPark, i.e., projects at 
which energy generation is the basis for industrial exchanges in 
support of job creation and development in economically distressed 
areas. Two examples they mention are:

    <bullet>  the Riverside EcoIndustrial Park and Business Incubator, 
located in Burlington, Vermont, where EDA provided $1,020,000 in 
funding for the construction of a bioshelter greenhouse and 
infrastructure for capturing and using waste heat from an electrical 
generating station through biomass gasification; and
    <bullet>  the Red Hills EcoPlex Industrial Park, located in Choctaw 
County, Mississippi where EDA awarded a $1,500,000 grant for 
construction of infrastructure to facilitate heat exchanges between the 
anchor tenant (the Red Hills Power Plant: a cleancoal lignitefueled 
electric generating facility) and the various industrial park tenants.

    Should I be confirmed as Assistant Secretary, EDA will continue to 
work in partnership with communities to fund similar projects where 
demand for such assistance has been identified by the communities and 
is consistent with the region's economic development priorities, as 
articulated in the area's Comprehensive Economic Development Strategy 
(CEDS). I am convinced of the value of the ecoindustrial development 
approach. I also believe the agency's support for the National Center 
for EcoIndustrial Development will help disseminate information about 
the success and value of these initiatives to local economic 
development officials throughout the country, thereby encouraging 
development of more such projects.

    Question 2. Further, ecoindustrial development is not only relevant 
to economic development strategies but also efforts to promote resource 
conservation and environmental protection. As such, other Federal 
agencies including the Department of Energy and the Environmental 
Protection agency have a role to play in the advancement of this 
exciting new concept. How do you intend to integrate the work of EDA 
with that of these other agencies to establish a coordinated approach 
for the advancement of ecoindustrial development?
    Response. During the time I have served as Senior Advisor to the 
Secretary, I have been informed that EDA has already begun working with 
other Federal agencies in support of ecoindustrial development. While 
EDA is the lead funding source for the National Center for 
EcoIndustrial Development you mentioned, the agency was joined in that 
effort by both the National Oceanic and Atmospheric Administration 
(NOAA) here at Commerce and the Environmental Protection Agency (EPA). 
EDA also invited other Federal agencies to join in support of the 
Center, but was not successful in obtaining their support. The agency 
is currently in the process of working with EPA to revise the existing 
Brownfields Memorandum of Understanding (MOU) to incorporate efforts to 
cooperate on ecoindustrial development initiatives, and EDA has an MOU 
with NOAA for cooperation on ecoindustrial development. In order to 
further advance interagency cooperation and coordination, if I am 
confirmed as Assistant Secretary we will work with NOAA and EPA to 
invite other appropriate Federal agencies to join us in moving the 
ecoindustrial concept ahead.
    I have been informed by agency staff that EDA and the EPA also have 
collaborated in the past to support local communities in their efforts 
to redevelop brownfield sites as ecoindustrial parks. Examples they 
have identified include:

    <bullet>  the Port of Cape Charles Sustainable Technologies 
Industrial Park, located in Northampton County, Virginia where EDA 
awarded a $400,000 grant for the construction of infrastructure 
(roadways, storm sewer lines, water mains, a pumping station, and other 
assorted improvements) to allow for the development of Phase 1 of the 
ecopark; on a former brownfield site (town dump) assessed by the EPA; 
and
    <bullet>  the Ft. Devens Army Base Reuse, located in Massachusetts, 
where EDA awarded $2.1 million to the base redevelopment authority for 
infrastructure enhancements in support of brownfields redevelopment 
activities. Ft. Devens has developed a reuse plan that incorporates 
industrial ecology principles.

    The agency anticipates continued cooperation with EPA, NOAA and if 
confirmed, I will actively seek the participation of other Federal 
agencies on the development of additional ecoindustrial development 
projects.
                               __________
     Statement of Robert Fabricant, Nominee to be General Counsel, 
                    Environmental Protection Agency
    Mr. Chairman, Senator Smith, members of the committee: Thank you 
for providing me with the opportunity to appear before you today. It is 
a great honor and privilege to be here as the President's nominee to be 
General Counsel of the Environmental Protection Agency. I want to 
express to you and your staff my appreciation for the many courtesies 
extended to me in the preparation for this hearing. I look forward to 
the opportunity, should I be confirmed, of working with all of you and 
your staffs.
    When Governor Whitman asked me if I would consider serving as 
General Counsel of the EPA, it took me but a moment to say yes. I have 
spent virtually my entire professional career in the public sector, 
most recently as Governor Whitman's chief counsel in New Jersey. Prior 
to that, I served in several other positions in the Governor's 
Counsel's Office specializing in environmental matters. I have also 
served as a deputy attorney general in New Jersey, providing advice and 
counsel to New Jersey's Department of Environmental Protection. Since 
being admitted to the bar, the primary focus of my career has been 
environmental law.
    Given my professional experience in this area, the opportunity to 
serve the nation at the EPA is a truly humbling thing. I am grateful to 
Governor Whitman, to the President, and to you for this opportunity. 
Should you do me the honor of recommending my confirmation to the 
Senate, and should I be confirmed, I want you to know that I will 
devote all of my energy and effort to doing the kind of job that merits 
the confidence that has been placed in me for this very important 
position at the EPA.
    When Governor Whitman appeared before this committee as the 
President's nominee for administrator, she spoke of the great goals to 
which the Bush Administration and the EPA are committed, goals that I 
believe the vast majority of the American people share. She spoke about 
making America's air cleaner, its water purer, and its land better 
protected. These are clear and simple concepts that are rarely matched 
by clear and simple solutions. No one knows that better than 
environmental attorneys.
    During the years I had the honor to serve as a member of Governor 
Whitman's administration, I had the opportunity to work on many of the 
most vexing environmental legal issues facing the State of New Jersey. 
Someone once said that New Jersey is America writ small, and it's true 
especially when it comes to environmental challenges. So I believe that 
my service in New Jersey has been good preparation for the job to which 
I have been nominated.
    That being said, however, I come to this position with no 
illusions. I know that the broad array of legal issues confronting the 
EPA are more than just complicated legal questions. They are, at their 
root, questions that speak to our government's stewardship of the 
nation's air, water, and land. Being true to our legal responsibilities 
requires that we be equally true to our moral responsibilities as 
environmental stewards.
    I have often heard Governor Whitman say that every dollar the EPA 
spends on litigation is a dollar that can't be spent cleaning up the 
environment. While talk like that isn't necessarily music to a lawyer's 
ears, I do think it is an important touchstone for a potential general 
counsel to keep in mind. I am a strong supporter of the effort both the 
President and the Administrator are making to build new partnerships 
among all environmental stakeholders and across some longstanding 
traditional divides.
    I believe the Office of General Counsel is well equipped to help 
the Administrator build those partnerships. I have found in my years as 
an attorney that some of the most constructive lawyering isn't done in 
a courtroom, it's done in a conference room, where smart, committed 
lawyers bring all parties together and avoid the need for litigation. 
Providing good, solid, legal advice and counsel to EPA's senior staff 
will, I hope, help my Agency colleagues do their jobs and meet their 
goals for America's environmental progress.
    The EPA is most fortunate to have a very dedicated, extremely 
capable staff of lawyers in the Office of General Counsel. They not 
only work very hard, they care very much about what they are doing. 
They adhere to the highest ethical standards and embody the best of 
what the legal profession has to offer. They are results-oriented 
public servants, who not only know everything there is to know about 
environmental law, they also know the importance of keeping one's 
attention on the ultimate goal and that's environmental progress.
    Mr. Chairman and members of the committee: as the committee with 
primary jurisdiction for writing the laws that the EPA is charged with 
enforcing, I know that, should I be confirmed, I will have the 
opportunity to work very closely with you and your staff. That's an 
opportunity to which I eagerly look forward. But before I let that 
eagerness run away with itself, I would like to pause here to again 
thank you for welcoming me here today and to address any questions you 
may have for me.
    Thank you, Mr. Chairman.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
      Statement of G. Tracy Mehan III, Nominated to be Assistant 
        Administrator for Water, Environmental Protection Agency
    Thank you, Mr. Chairman, and members of the committee, for the 
privilege to address you as President Bush's nominee for the position 
of Assistant Administrator for Water at the United States Environmental 
Protection Agency.
    I am very grateful to the President, Governor Whitman and this 
committee for being considered for this tremendous responsibility to 
protect the waters of the United States. I look forward to working with 
you all to insure that our children continue to enjoy the fruits of 
America's bounty, most especially its lakes, rivers, wetlands and 
oceans.
    I grew up on the Mississippi River and married a resident of the 
Lake Michigan shores. My wife and children, even as we speak, are 
enjoying a summer's respite on a lake in northern Wisconsin. My parents 
are on their way to the coast of South Carolina for a well-deserved 
vacation. For my family, as for most American families, water defines 
much of our lives, certainly the more enjoyable aspects. For many 
Americans, water is even more important--it is the means by which they 
earn a living, support a business, or feed themselves.
    Given the importance of water in the lives and occupations of our 
citizens, it is understandable that, starting in the 1970's the nation 
began the work of restoring its water quality with such great, albeit 
incomplete, success. The strength of our economy in the postwar era, 
creating both the desire and the means of cleaning up our waters, had a 
lot to do with it. But it wasn't just the money. It was the love of our 
country and its beautiful waters.
    Many commentators have noted the evolving nature of the challenges 
to further improvements in water quality. We need to look beyond the 
traditional discharge pipe to more generalized, diffuse runoff. There 
is also the need to look at the entire watershed to assess the most 
cost-effective means of reducing a target pollutant. These and other 
challenges, such as restoring contaminated sediments and preventing air 
deposition of pollutants to water, will require new and creative ways 
of meeting our responsibilities of stewardship.
    I hope to contribute to the search for solutions to the water 
quality challenges of the day, working closely with the White House, 
Governor Whitman and this committee to involve stakeholders from the 
public and private sectors, from State and local government, and from 
inside and outside of government.
    Working together, I believe we can identify and implement 
successful strategies to maintain and restore the chemical, physical 
and biological integrity of our waters. No doubt, many of these 
strategies will be tailored to specific problems in specific 
communities. Hence, the importance of the watershed as a social and 
hydrological reality. Here is where communities, neighbor to neighbor, 
can engage, educate and persuade one another in a mutual quest for 
shared goals.
    There are, of course, other problems, national in scope, where the 
Federal role is a significant one. This committee has developed 
legislation directing the Environmental Protection Agency to work with 
States, tribes and other Federal agencies to help finance water 
infrastructure, to set national drinking water standards, to protect 
wetlands, to control discharges from industries and sewage treatment 
plants, and to reduce nonpoint pollution. The impact of air pollutants, 
such as mercury or nitrogen, on water quality also requires national 
attention. This is a classic, cross-media problem, and we will need a 
coordinated approach to addressing pollutants which are a threat to 
both air and water.
    Americans view conservation and environmental protection as 
important elements of the public agenda. They look to public officials 
to harmonize these priorities with social and economic objectives. This 
is a task of great difficulty, but one well worth the effort.
    I will strive to meet these challenges while relying on the best 
available science and economic analysis with due regard for the 
statutory directives of the Congress.
    I would be honored to work with this committee to accomplish the 
hard work of protecting and restoring our nation's water quality. Thank 
you for your time and consideration.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses by G. Tracy Mehan III to Additional Questions from Senator 
                                 Smith
    Question 1. Water infrastructure was a priority when I was chairman 
and will continue to be my priority because of the great need this 
country currently faces. In the initial hearings it became clear that 
we are faced with a great economic need in the area of drinking and 
wastewater infrastructure. How do you see the role of the Federal 
Government in addressing the $1 trillion need that exists for drinking 
and wastewater infrastructure over the next 20 years? What role do you 
see the States, rate-payers, and the private sector playing in the goal 
of revitalizing our water infrastructure?
    Response. The Administrator has invited all interested parties to 
engage in a national dialog to address future needs for water and 
wastewater infrastructure. As a first step, we are conducting an 
analysis to make sure we understand the challenge facing us as clearly 
as possible.
    I would prefer to wait until I see the results of that analysis 
before offering specific policy recommendations. However, as a general 
principle, I believe all stakeholders, including the Federal 
Government, will have to do their share I further believe that 
increased funding, by itself, is not the entire answer. We also need to 
consider technological and management innovations to reduce costs and 
to assure that the available funding is used efficiently to meet the 
most important priorities.

    Question 2. Do you feel the State Revolving Fund should be the 
source of financing for both drinking and wastewater infrastructure? 
What role do you see grants playing?
    Response. The Clean Water and Safe Water State Revolving Funds have 
been highly successful mechanisms for financing wastewater and drinking 
water infrastructure. In terms of the Environmental Protection Agency 
(EPA), I think the State Revolving Funds should be the vehicles for 
delivering infrastructure financial assistance. I would note that 
several other Federal agencies, for example, the Departments of 
Agriculture and Housing and Urban Development, also have significant 
programs that provide financial assistance for infrastructure 
construction. I look forward to working with Congress and the 
Administration to delineate the right balance of grants, loans, and 
other funding mechanisms.

    Question 3. Many of the current problems facing the water community 
fundamentally come down to a lack of resources. CSOs, SSOs, 
infrastructure, nutrient management all required huge financial 
commitments. One of the greatest challenges we face is how to ensure 
clean, safe water with very limited budgets and without forcing large 
increases on ratepayers. Therefore a certain amount of flexibility must 
be worked into the system and new, more cost-effective technologies 
found. How can we provide both flexibility and resources without 
heavily impacting small towns and disadvantaged communities?
    Response. I agree that a potential increase in user charges is a 
significant issue. I think technological and management innovations to 
reduce costs and increase efficiencies are a necessary part of 
addressing future investment, as well as operation and maintenance, 
needs. I also think that we should explore improvements in the State 
Revolving Funds, for example, reduced or negative interest rates or 
principal forgiveness, that would enable States to tailor more flexible 
funding packages for small and disadvantaged communities.

    Question 4. There has been a backlog of NPDES permits for quite 
some time and now with the CAFO rule, Tulloch-fix rule, wetland NWP 
rule and others the States and EPA will have even more permits to issue 
or reissue. How will you address this problem?
    Response. Eliminating the permit backlog will require intense 
management focus to accomplish. This was the lesson learned in Michigan 
where the backlog was eliminated. I hope to bring the same intensity to 
the challenge at EPA. EPA began an aggressive effort to reduce the 
existing backlog of expired NPDES permits in late 1998. In 1999, the 
Office of Wastewater Management formed a workgroup to assess the 
problem and to develop a national strategy in cooperation with its 
NPDES State partners.
    In addition to the national strategy, each EPA Region has developed 
State-specific plans to describe how each State in the Region would 
meet the backlog reduction targets. As new rules are finalized, the 
Agency will evaluate the adequacy of State grant programs during its 
annual budget review. Overall, the Agency will continue to rely on 
general permits where possible, rather than individual ones, to meet 
its responsibilities under the law.
    The Agency will continue to actively track and manage permit 
issuance efforts, and will work closely with our State partners to 
implement the national and State-specific backlog reduction strategies.
                                 ______
                                 
 Responses by G. Tracy Mehan III to Additional Questions from Senator 
                                 Graham
    Question 1. For many years we have focused on wastewater when we 
talk about water infrastructure. I am concerned that we have not paid 
appropriate attention to water supply. Last year there was a provision 
in the Estuaries bill which authorized an EPA pilot program for 
alternative water supply projects. What is the status of developing 
regulations to administer this program?
    Response. The Agency currently has general grant regulations that 
could be applied in the administration of this program should the 
program receive a direct appropriation from Congress. Many of the types 
of alternative water source projects envisioned by this program are 
currently eligible, at the discretion of the States, under the Clean 
Water State Revolving Fund program. These include water conservation, 
wastewater treatment, and wastewater reclamation and reuse.

    Question 2. What do you think is the role of the Federal 
Government, specifically EPA, in ensuring adequate water supply to 
communities?
    A. is EPA the best agency to deal with water supply?
    B. Are other agencies better equipped to manage water supply 
projects?
    Response. The Federal Government has provided substantial resources 
to ensure adequate water supplies to communities. These resources have 
been provided by the Bureau of Reclamation, the United States Army 
Corps of Engineers, the Rural Utility Service and in limited cases of 
water contamination, through EPA's Superfund program. I am willing to 
begin a dialog with you to explore what the future role for the Federal 
Government is in ensuring adequate water supplies for communities.
                                 ______
                                 
 Responses by G. Tracy Mehan III to Additional Questions from Senator 
                               Voinovich
    Question 1. Currently, the EPA is considering publishing a proposed 
regulation on sanitary sewer overflows. It is my understanding that the 
regulation as currently drafted will place all municipalities in the 
United States in immediate noncompliance, and thus will face 
significant opposition and legal challenges from the regulated 
community, flow would you work with groups such as the Association of 
Metropolitan Sewerage Agencies and other associations to develop a 
sound and effective proposal?
    Response. Sanitary sewer overflows (SSOs) are a serious 
environmental concern in some parts of the country. They can release 
pathogens in places where people may be directly exposed to disease-
causing microorganisms. I am interested in working with all interested 
parties to craft approaches that will address this problem. The current 
draft of the proposed rule is consistent with, but adds more specifics 
to, current requirements for control of SSOs. It resulted from numerous 
discussions from 1995 to 1999 with a Federal Advisory Subcommittee that 
EPA formed to provide insights into potential regulatory approaches for 
SSOs. The Subcommittee. which included several municipal groups in its 
membership, including the Association of Metropolitan Sewerage Agencies 
(AMSA), endorsed the above approach unanimously.
    EPA is currently considering how best to proceed with the proposed 
rule. EPA staff has discussed several alternatives with AMSA and other 
interested parties and I will discuss options with these stakeholders 
before recommending to the Administrator how best to proceed.

    Question 2. Publicly owned treatment works (POTWs) should not be at 
risk of enforcement where reasonable water quality standards, including 
appropriate wet weather standards, are attained. As you know, many 
POTWs, whether in a separate or a combined sewer system, use 
recombination of treated and partially treated effluent to protect 
water quality standards cost-effectively. Full secondary treatment in 
all flow conditions is not necessary. Will you provide flexibility in 
the recombination policy to ensure that the EPA does not require costly 
construction for treatment that goes beyond reasonable water quality 
standards?
    Response. NPDES authorities have considerable flexibility through 
the permitting process to account for different peak flow scenarios 
that provide adequate capacity consistent with generally accepted good 
engineering practices and criteria for long-term design. I believe that 
peak wet weather discharges from POTWs could be approved in an NPDES 
permit as long as the unique design considerations are clearly outlined 
during permit development and where the permit ensures compliance with 
the secondary treatment regulation (40 CFR Part 133) and/or any more 
stringent limitations necessary to meet water quality standards.
                               __________
 Statement of Judith E. Ayres, Nominated to be Assistant Administrator 
  of the Office of International Activities, Environmental Protection 
                                 Agency
    Good Morning Mr. Chairman and members of the committee. I am 
honored to have the opportunity to appear before this committee to seek 
your confirmation to serve as the Environmental Protection Agency's 
(EPA) Assistant Administrator for the Office of International 
Activities. It is a distinct honor to have been nominated by President 
George Bush and to have the support of Governor Christine Todd Whitman. 
If the Senate confirms my nomination, I also look forward to working 
closely with the members of this committee, and other members of the 
Senate and the House of Representatives.
    I believe that the Office of International Activities in EPA is a 
place where a common understanding and approach can be developed to 
address the many global environmental problems that confront us. If 
confirmed, I pledge to use my experience and talented staff to promote 
a spirit of environmental stewardship which reflects Administration 
priorities.
    Regarding my experience, with an academic background in the 
biological sciences and public administration, I have worked in the 
environmental area, both in the public and private sectors, since the 
1970's. My work has spanned from Washington, DC. to Alaska and the 
Pacific Rim, and into Central Europe, Mexico and Central America. The 
issues addressed have been numerous and varied, from the preservation 
of sea turtles and bird habitat to cholera outbreaks and Superfund. I 
have been privileged to work both at the U.S. Department of Interior 
and the Environmental Protection Agency. As Regional Administrator for 
EPA Region IX (1983-88), I managed a staff of some 950 career civil 
servants and a budget of $350 million, heading an office that was 
responsible for regulating air and water pollution and hazardous waste 
in Arizona, California, Hawaii, Nevada, Native American Tribes under 
U.S. law, and the American Protectorates in the Pacific. The Regional 
Administrator's office also managed international programs with Mexico.
    Today, in seeking the committee's confirmation, I offer as 
qualifications my academic background, my public and private sector 
environmental experience, and my record in both venues as a proven and 
fair manager committed to doing the public's business in a public way 
in pursuit of the Administration's environmental priorities.
    Environmental protection and gain are at the heart of EPA's major 
program areas. Each program carries an essential international 
dimension: addressing air pollution, water pollution, solid and 
hazardous waste, toxic chemicals, emergency response and pesticides. 
The international dimension is important because we know that what goes 
on in backyards half-way around the world may also end up in our own. 
For example, transboundary air pollution emanating from Asia can affect 
air quality on our western shores;
    <bullet>  protection of the Rio Grande and the Great Lakes requires 
cooperation with Mexico and Canada;
    <bullet>  disposal of hazardous waste is governed by our agreements 
with industrialized countries around the world;
    <bullet>  the new treaty on Persistent Organic Pollutants (POPs), 
which Governor Whitman recently signed in Stockholm, addresses health 
and environmental problems of pesticides, industrial chemicals and 
industrial by-products;
    <bullet>  imported food consumed by children and other vulnerable 
populations can be contaminated by pesticides banned in the United 
States for health reasons but are still in use in other food-producing 
countries; and
    <bullet>  international trade and investment rules and 
environmental rules will require careful attention to assure that they 
are mutually supportive.
    In short, it is increasingly difficult to protect human health and 
the environment in the United States without simultaneously engaging 
with other countries to do the same.
    As a nation, we have learned that solving global environmental 
problems related to the atmosphere, the oceans, and the earth's 
biological wealth requires concentrated international efforts. For the 
International Office at EPA, environmental gain is sought in the 
international arena outside our country's boundaries through the 
Agency's collaboration with the Congress, other Federal agencies, 
scientists, the financial and business communities, NGO's, and 
philanthropic leaders.
    I would also offer comments on the people of the Office of 
International Activities. This is an exceptionally talented, dedicated 
and professional group of public servants who seek a well-managed 
office with challenging and interesting work, the resources to get it 
done, and a work environment that is fair and equitable. President 
Bush, Governor Whitman, and I commit both to the committee and to the 
Office of International Activities that going forward, the office will 
be well-managed, all managers and employees will be held accountable, 
the work will be challenging, and the work environment will be fair and 
equitable.
    In closing, I have chosen to seek confirmation and re-enter public 
service because I believe public service to be the noblest of 
professions and I believe protection of the environment, in all its 
many dimensions, to be the most vital of endeavors.
    Thank you. I shall be pleased to answer any questions you may have.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
Statement of Donald R. Schregardus, Nominee for Assistant Administrator 
  for Enforcement and Compliance Assurance, Environmental Protection 
                                 Agency
    Mr. Chairman, and distinguished members of this committee; it is an 
honor and pleasure to appear before you this morning as the nominee to 
be EPA's Assistant Administrator for the Office of Enforcement and 
Compliance Assurance. I am honored and excited that President Bush and 
Governor Whitman have invited me to join the Administration to improve 
public health and the environment in this great nation. I am especially 
pleased to be joined today by my daughter Sarah.
    Compliance and enforcement have, and always will be, fundamental 
components of our national environmental program. Governor Whitman has 
expressed her commitment to a strong Federal enforcement program and so 
do I. Compliance and enforcement has been a cornerstone of EPA programs 
to improve public health and the environment from its beginning. The 
American people trust and rely on EPA to protect the land, air, and 
water where they live. I understand this important responsibility and 
if confirmed will do everything in my power to meet this 
responsibility.
    To this end, I believe my 25 years of experience in Federal and 
State environmental regulatory agencies would prove a valuable benefit 
to the Administration. I started my career at EPA at a field office 
conducting environmental studies and investigations. While developing 
permits and enforcement cases I learned first hand the importance of 
good science in environmental decisionmaking. As Chief of the Water 
Division Compliance Section in EPA Region 5, I managed one of the most 
successful efforts to bring municipalities into compliance with the 
Clean Water Act. We set records for the most penalties and civil 
actions as compared to previous periods at the Region. As a result, 
water quality improved across the Region. The keys to this success were 
a clear, consistent, well publicized goal; accurate tracking of the 
universe of facilities; and close planning and cooperation with States 
and the Department of Justice.
    As Director of Ohio EPA, I developed or expanded programs in 
pollution prevention, technical assistance and environmental education. 
I improved the scientific basis for environmental decisionmaking by 
establishing a program to evaluate the safety of sport-caught fish, 
implementing a program to evaluate the quality of all 6000 public water 
supplies in Ohio, placing inspectors at each of Ohio's commercial 
hazardous waste disposal facilities, tripling the size of Ohio's 
landfill inspection program and developing new protocols for monitoring 
the quality of wetlands. With the support of then-Governor Voinovich, 
we added nearly 400 new people to the Agency, half of which were placed 
in Ohio EPA's district offices where they conduct inspections and 
monitoring. We developed new programs to clean up Brownfields, manage 
and cleanup tire dumps, and ensure the safety of underground injection 
wells. On the management side, I implemented a quality management 
program throughout the Agency which improved processes, performance and 
customer satisfaction. The program received unanimous endorsement by a 
public advisory group established by the general assembly. Throughout 
my service as Director I recognized the importance of public 
involvement. I expanded public involvement in the rulemaking and 
program development processes and started or supported 25 community 
based groups to assist the Agency in studying and improving water 
quality.
    The real measure of success of these programs is not in the outputs 
but in the outcomes. During my tenure as Director, Ohio, one of the top 
manufacturing and energy producing States in the country, for the first 
time met all national air quality standards, saw a 50 percent reduction 
in toxic releases to the environment and realized a 50 percent increase 
in stream miles fully achieving fishable/swimmable Clean Water Act 
goals. I am proud of these accomplishments, but more still needs to be 
done. I look forward to bringing the knowledge gained from these 
successes to apply to the Office of Enforcement and Compliance 
Assurance.
    One area I believe is especially important for the compliance and 
enforcement program to focus is on the coordination with the other 
offices in the Agency to ensure the Administration has a clear, 
consistent national approach to environmental protection. A clear 
unified approach to environmental protection helps ensure there are no 
surprises and no excuses to environmental compliance. Finally, I will 
actively seek the involvement of the States and the public as we 
improve and develop new programs.
    From my experience, an effective compliance and enforcement program 
involves far more than just enforcement orders and lawsuits. Compliance 
starts with a clear understanding of regulatory requirements and the 
timeframes in which they must be met. Education and compliance 
assistance is needed to get the word out clearly and uniformly across 
the country. Incentives and voluntary programs can assist communities 
and businesses to achieve environmental goals in a cost effective 
manner. Plans, goals, tracking and accountability are essential to 
follow progress. States, where delegated the national program, must 
take the lead. But if requirements are not met, than the full range of 
administrative, civil, and criminal enforcement actions must be 
considered. If you should honor me by your confirmation, I will work to 
improve each of these elements and thereby improve public health and 
the environment in a cost effective manner.
    I look forward to working with you, Governor Whitman and President 
Bush to make the environment better for all Americans. Thank you for 
the opportunity to appear before you today. I will be happy to answer 
any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses of Donald R. Schregardus to Additional Questions from Senator 
                                 Boxer
    Question 1. U.S. EPA was petitioned in 1997 to withdraw Ohio's 
authority to administer the Clean Air Act, the Resource Conservation 
and Recovery Act and the Clean Water Act. I understand the matter may 
be decided later this year. This petition raises questions about the 
past administration of the Ohio Environmental Protection Agency (OEPA) 
program.
    Will you ensure if confirmed as Assistant Administrator for 
Enforcement that the environmental laws are fully enforced, even if you 
disagree with them or believe they should be changed?
    Response. Yes, I will vigorously enforce all Federal laws and 
regulations.

    Question 2. What specific steps will you take to assure Federal 
environmental laws are properly enforced throughout the United States?
    Response. To ensure Federal laws are properly and consistently 
enforced throughout the country, I will follow the steps discussed in 
my testimony. Basically, I will ensure that OECA helps implement all of 
the following:

    <bullet>  Assist the regulated community, States, Tribes and EPA 
Regional offices as necessary, to clearly define national priorities 
and requirements through development and issuance of guidance, permits, 
training and technical assistance;
    <bullet>  Develop, implement and track compliance monitoring 
programs, including self-monitoring and reporting; EPA and State 
inspections; and compliance followup and investigation;
    <bullet>  Provide compliance assistance and incentives to encourage 
compliance with regulatory programs, especially for small communities 
and businesses. This includes training, speeches, guidance material, 
financial assistance, and individual assistance;
    <bullet>  Ensure consistent application of Federal laws where 
States have been authorized to administer and enforce the Federal 
program. This role will include regular tracking and evaluation of 
State programs, along with technical assistance, training and financial 
support;
    <bullet>  Make regular visits to the Regional Offices to evaluate 
performance and resolve issues. Develop guidance to assist new programs 
or address critical issues;
    <bullet>  Initiate Federal enforcement actions whenever necessary 
to support national priorities, interstate or multi-State compliance 
problems, or where States have failed to take timely and appropriate 
enforcement action.

    Question 3. As you know, there is a Georgia Pacific Company plant 
(GP) located in the south side of Columbus, Ohio. This plant has bad a 
history of problems-most notably that it has exploded twice-first in 
1984 (before you assumed the directorship at OEPA) and again in 1997 
(during your tenure as director). In between these two explosions, the 
plant released tons of chemicals in spills and other un-permitted 
releases in numerous major incidents.
    Please explain the circumstances surrounding chemical spills and 
other unpermitted chemical releases from the GP plant and indicate when 
and how the situation was rectified by OEPA. If the situation was not 
rectified, please explain why OEPA did not rectify the situation.
    Response. See below.
    Question 4. Were the people of the south side of Columbus properly 
notified regarding these incidents at GP. If not, was OEPA aware of 
this deficiency and was the situation rectified? lithe situation was 
rectified, please describe when and how. In particular, what specific 
stops did OEPA take to ensure that the community was informed of what 
steps OEPA would take to ensure that GP would operate safely?
    Responses to Questions 3 and 4. At OEPA these types of activities 
are typically handled at the Division level. For example, spills are 
routinely handled by the Division of Emergency and Remedial Response 
(DERR), and unpermitted air releases would be monitored by the Air 
Office, and would be reported in the Toxics Release inventory (TRI). 
While as Director I was not involved on a daily basis with the 
facility, my understanding of the facts regarding the issues you raised 
are as follows:

    <bullet>  In May 1991 (I was Director of Ohio EPA at this time), 
Georgia Pacific was under orders from Ohio EPA to clean up a pipe line 
spill which had occurred in 1990 including pumping and treating 
groundwater to drinking water standards. Another spill occurred in 
August 1991 which required continuation of the pump and treat system. 
The treatment and cleanup ended in December 1991 and a letter stating 
the company fulfilled its terms of the 1990 consent order was sent to 
the company in February 1992. OEPA subsequently tested 5 nearby 
residential wells in March 1992 and verified all wells were below 
drinking water standards. The results of all samples were sent to the 
residents and the company in July 1992.
    <bullet>  In December 1994, OEPA issued an Administrative Order to 
Georgia Pacific to perform a complete a remedial investigation/
feasibility study of the Columbus Plant, based upon 8 known spills at 
the facility between 1976 and 1991. OEPA issued a press release at that 
time that summarized the site's operating history and the terms of the 
orders. Interim results of the site investigation were sent from OEPA 
in March 1997 to residents explaining the study and groundwater data 
collected to date. The second phase of the site assessment was 
temporarily interrupted in September 1997 when the second explosion 
occurred at the plant.
    <bullet>  Regarding air emissions and odors, which were the major 
complaint received by Ohio EPA from the neighbors, Georgia Pacific had 
unpermitted releases in March 1994, May 1995 and April 1996. As a 
result in May 1996, at the request of OEPA, the Ohio Attorney General 
entered into a consent agreement with Georgia. Pacific that required 
them to test and upgrade their air pollution control equipment and leak 
detection systems. Georgia Pacific was fined $86,250, of which up to 
$66,250 could be suspended for quick installation and testing of the 
pollution control equipment Ohio EPA explained the settlement and the 
status of the pollution control improvements at the site at an October 
1996 meeting of the Marion Franklin Civil Association.
    <bullet>  With respect to the September 1997 explosion of the 
reactor at the GP plant, OEPA attended several public meetings on the 
matter, and regularly provided information to the public, through 
monthly meetings, on the explosion, the cleanup, and the company's 
regulatory responsibilities for restarting the facility. OEPA held a 
public hearing on the permits-to-operate for the repaired kettles; 
public hearings were not typical, but because of the level of community 
interest, we felt they were appropriate in this instance. Also, based 
upon the recommendation of my staff, I required GP to apply for a new 
permit for the rebuilding of the reactor that was destroyed in the 
explosion. There was significant public interest in the facility at the 
time, and the permit application process provides for additional public 
involvement opportunities and a public hearing. When I left OEPA, GP 
had not yet submitted a permit application to rebuild the damaged unit.

    Question 5. Last October, a Federal Labor Department administrative 
law judge that found that officials from the OBPA had ``unlawfully 
retaliated'' against an OEPA employee, Paul Jayko, who was involved in 
the investigation of a high incidence of leukemia in Marion, OH.
    In his decision, Judge Thomas Phalen, Jr. found that OEPA had 
limited the investigation into whether several contaminated sites in 
the community could be the cause of the health problems, and retaliated 
against Mr. Jayko by coercing and restraining him in the course of his 
conducting an environmental investigation protected under the 
``whistleblower'' portions of seven Federal environmental laws.
    Please fully describe your involvement in any decisions to limit 
the scope of the OEPA's investigation into the potential environmental 
causes of the health concerns in Marion.
    Response. I had no direct involvement and limited indirect 
involvement in decisions to address the scope of the Marion 
investigation. Governor Voinovich placed the Ohio Department of Health 
in charge of a multi-agency task force to investigate the causes of 
higher leukemia rates among students graduating from Marion High 
School. Based on the recommendations of the District Officer Chief Ed 
Hannett, Paul Steers, Assistant Chief of the OEPA Northwest District 
Office, was placed in charge of Ohio EPA's team of scientists and 
investigators who worked with the Department of Health. Decisions on 
the scope and steps of the investigation were discussed and made at 
regular joint agency team meetings. The Department of Health made the 
recommendation and the team concurred with the decision to focus the 
investigation on chemicals suspected of causing leukemia (i.e. 
radiation and various organic chemicals).
    On one occasion, before a public meeting where potential pathways 
of exposure were to be discussed, I directed Ohio EPA's field team to 
collect drinking water samples at the school and in the community, and 
have them analyzed on a priority basis for possible contamination. The 
results, which showed no chemical contamination of the drinking water, 
were given to the public.

    Question 6. Please fully describe your involvement in the decisions 
to discipline Paul Jayko and remove him from his position as 
coordinator for the Marion site.
    Response. Upon learning of allegations that Mr. Jayko consumed 
alcoholic drinks while on duty for the State and had improperly charged 
the State for food and alcohol, I instructed the, employee's manager to 
follow State personnel practices, investigate the incident and make 
recommendations based on the facts.
    An incident report was prepared by Jeff Steers, OEPA Assistant 
District Chief, and submitted to OBPA's Human Resources Office. The 
Director of Personnel investigated the incident and held a 
predisciplinary hearing with Mr. Jayko. Immediately after the hearing, 
Mr. Jayko announced to the newspapers that he was a whistleblower. 
Human Resources Office Chief, Bill Kirk, subsequently submitted a 
recommendation to me for disciplinary action against Mr. Jayko, based 
on his behavior pertaining to the purchase and consumption of alcohol 
while on duty for the State, I signed and approved the recommendation 
after obtaining continuation from OEPA's legal office that the 
recommendation was consistent with disciplinary responses for similar 
incidents and that whistle blower standards did not apply.

    Question 7. Do you agree with the whistleblower protection 
provision of Federal environmental laws?
    Response. I agree with the Federal whistle blower protection 
provisions.
                               __________
Responses of Donald R. Schregardus to Additional Questions from Senator 
                                 Chafee
    Question 1a. Congress added the Innocent Landowner defense to 
CERCLA over 14 years ago. The purpose was to remove from liability 
purchasers of real estate who, among other things, at the time of the 
purchase did not know or have reason to know that, the property was 
contaminated. It is my understanding that EPA has rarely, if ever, 
officially determined that a purchaser of contaminated real estate was 
not liable under CERCLA because it qualified for the Innocent Landowner 
defense. In addition, no commercial real estate developer has ever 
qualified for the Innocent Landowner defense. Do you believe that the 
Innocent Landowner defense can apply to a commercial real estate 
developer?
    Response. The innocent landowner defense can apply to a commercial 
real estate developer. If a commercial real estate developer acquires 
contaminated property, after having made all appropriate inquiry, then 
they would qualify for the defense to liability. In fact, EPA is aware 
of several cases in which a commercial entity has qualified for the 
defense.

    Question 1b. Under section 101(35)(B) of CERCLA, a purchaser of 
land establishes that he had no reason to know that there were 
hazardous substances on the property if, at the time of the 
acquisition, he made ``all appropriate inquiry into the previous 
ownership and uses of the property, ``consistent with good commercial 
or customary practice'' at the time of transfer. What factors do you 
believe EPA should use to determine ``good commercial or customary 
practice'' at the time of transfer?
    Response. Under current law, EPA evaluates all facts and 
circumstances surrounding a person's inquiry into the property. In 1989 
EPA published guidance concerning the Innocent Landowner defense. The 
guidance describes the statutory factors relevant to ``good commercial 
or customary practice,'' for example specialized knowledge or 
experience, the relationship of the purchase price to the value of the 
property if uncontaminated, commonly known or reasonably ascertainable 
information about the property, the obviousness of the presence or 
likely presence of contamination, and the ability to detect such 
contamination by appropriate inspection.

    Question 2. Do you believe that a real estate developer who, at the 
time of purchase, does not know and has no reason to know of the 
presence of hazardous substances on the property and then unknowingly 
moves during construction soil that later is found to be contaminated, 
is liable under CERCLA as a ``generator?''
    Response. It is difficult to fully evaluate the liability of a 
person from a brief hypothetical example. Therefore, I am unable to 
draw any conclusions about a person's liability if he or she'' . . . 
unknowingly moves during construction soil that later is found to be 
contaminated . . .'' As a general matter, however, CERCLA requires a 
person to exercise ``due care'' with respect to hazardous substances on 
their property.
                                 ______
                                 
Responses of Donald R. Schregardus to Additional Questions from Senator 
                                Corzine
    Question 1a. In a November 7, 1998 letter to the Columbus Dispatch, 
you commented extensively on the ``NOx SIP call'' that the U.S. EPA had 
recently finalized. You stated in that letter that ``There are several 
fundamental flaws in the U.S. EPA's plan. The science is faulty. The 
Federal plan is based on the notion that air pollutants from the 
Midwest cause ground-level ozone to form in the Northeastern States.'' 
Do you still consider the notion that air pollutants from the Midwest 
cause ground to form in the Northeastern States to be faulty science?
    Response. Regarding the impacts of air pollutants from the Midwest 
on ground-level ozone in Northeastern States, Ohio utilized the same 
models agreed to and accepted by the 26-State committee called the 
Ozone Transport Assessment Group. This model showed Ohio's emissions 
bad a relatively small impact on ground-level ozone in the Northeast. I 
do not know of any better air-quality modeling tool.

    Question 1b. In that same letter, you stated that ``Ohio industrial 
and utility emissions contribute less than 4 percent to smog formation 
along the eastern seaboard.'' Do you still believe this to be the case? 
If not, what do you believe the contribution of Ohio sources to eastern 
seaboard smog formation to be?
    Response. I have not been involved with this issue since December 
1998. However, I am not aware that U.S. EPA ever directly disputed 
Ohio's relative contribution to Northeast air quality.

    Question 1c. You also speculated in that letter that ``it appears 
that the U.S. EPA intentionally set an unreachable deadline so that the 
Federal Government can come in and usurp the States' rights under the 
Federal Clean Air Act and enforce the U.S. EPA plan.'' You further 
referred to the plan as ``draconian,'' and stated that it ``lacks both 
common sense and sound science.'' Do you still hold these views?
    Response. I still believe the time given to the States to develop a 
control program was too short to adequately consider control options, 
develop rules, including potentially an emission-trading program and to 
provide adequate public involvement in the rulemaking process.

    Question 1d. Earlier this year, the Supreme Court decided in EPA's 
favor on the NOx SIP call. Not all of the States have submitted 
revisions for their State Implementation Plans, and the deadline is 
approaching. Are you committed to enforcing the plan by ensuring that 
U.S. EPA prepares and implements a Federal Implementation Plan for 
States that fail to submit their own plans?
    Response. Initially, U.S. EPA's Office of Air and Radiation will 
have the lead in preparing Federal Implementation Plans (FIPs). OECA 
will support the Office Of Air and Radiation as needed in preparing 
FIPs. OECA monitors compliance with the FIP and if necessary, enforces 
the requirements of the FIP. I am fully committed to carry out OECA's 
responsibility under the Clean Air Act.

    Question 2a. U.S. EPA was petitioned in 1997 to withdraw Ohio's 
authority to administer the Clean Air Act, the Resource Conservation 
and Recovery Act and Clean Water Act. Region 5 has been investigating 
this matter and plans to conclude its review later this year. If you 
were confirmed as Assistant Administrator, would you recuse yourself 
from any discussions regarding this issue?
    Response. I have not worked for the State of Ohio for over 2 years 
and I have never had any direct involvement in this review. While there 
appears to be no legal reason to recuse myself; to avoid any appearance 
of impropriety, if confirmed, I will recuse myself from any discussions 
on this matter.

    Question 2b. If the U.S. EPA were to withdraw any of these 
authorities, would you move in aggressively to enforce these laws in 
Ohio?
    Response. I would make every effort to vigorously enforce those 
laws in Ohio.

    Question 3. During your tenure as director of Ohio EPA, you moved 
staff from enforcement to the State's Voluntary Action Program for 
brownfields. If confirmed as Assistant Administrator, would you seek to 
make similar changes at OECA (i.e., moving staff from enforcement to 
compliance assurance)?
    Response. I have not yet reviewed and evaluated the resources 
within OECA. Based on a recent GAO report, however, one of my early 
priorities will be to evaluate resource allocations based upon national 
priorities and regional needs. I will seek to make the best use of 
public funds. At this time, I have no plan to move resources from 
Superfund enforcement to brownfields.

    Question 4a. When you testified before the U.S. House of 
Representatives on February 14, 1997, you stated that Superfund should 
be changed to ``eliminate the duplicative oversight by both the Federal 
and State governments'' and that ``Superfund's efficiency suffers from 
the current overlapping statutory roles for the Federal and State 
governments.'' With respect to the so-called ``finality'' issue at non-
Superfund sites, you further stated that ``we would need to be 
satisfied that the Federal Government would not be dictating the 
administrative process States choose to achieve protective cleanups.'' 
In light of these statements, what are your views of S. 350, the 
Brownfields Revitalization and Environmental Restoration Act of 2001, 
which has been endorsed by Administrator Whitman?
    Response. I support S. 350, and share Governor Whitman's desire and 
the President's desire to see brownfields legislation enacted this 
year. With respect to the process that States use to ensure protective 
cleanups, S. 350 would allow the States the flexibility to use their 
own procedures for cleaning up brownfields sites, provided the State 
program is designed to protect public health and the environment.

    Question 4b. Notwithstanding the above-referenced statements from 
your 1997 House testimony, do you commit to using Federal authorities 
at brownfields sites under the conditions outlined in S. 350 if you are 
confirmed and S. 350 becomes law?
    Response. If I am confirmed, I commit to fully enforce all 
environmental laws, including S. 350 if enacted. As for the Federal 
authorities reserved in S. 350, I commit to using them in all 
appropriate circumstances.

    Question 5a. As the Director of the Ohio EPA, you had the U.S. EPA 
behind you as an enforcement ``backstop.'' As the Assistant 
Administrator at OECA, you would be in charge of this Federal backstop. 
How would this fundamentally different role affect your view of the 
proper balance between enforcement and compliance assistance? Do you 
believe that State environmental agencies and the U.S. EPA should have 
the same approach in this regard?
    Response. As you point out in your question, U.S. EPA has a key 
enforcement role of backing up the States when they are unwilling or 
unable to enforce Federal law Regarding compliance assistance, I 
believe OECA has an important role in developing technical materials 
and training to assist the States with providing compliance assistance. 
EPA needs to recognize and support States' compliance assistance 
programs and to provide direct assistance in States that are not 
delegated the Federal program. OECA focuses compliance assistance on 
priority sectors and environmental issues while encouraging States to 
provide most of the direct assistance.

    Question 6. The U.S. EPA took New Source Review enforcement actions 
against 32 power plants last year. As Assistant Administrator, would 
you advocate continuing these actions? Would you advocate bringing 
similar actions in the future?
    Response. I have had no prior involvement with this issue, however, 
I am aware that EPA has been enforcing the New Source Review (NSR) 
requirements in a number of industry sectors, including power plants. 
The U.S. EPA, led by the Office of Air and Radiation, and the U.S. 
Department of Justice are currently reviewing the NSR program, 
therefore, it is premature to advocate any position regarding future 
actions until the reviews are complete and I can assess them.

    Question 7. As Director of Ohio EPA, you opposed the 1997 U.S. EPA 
standards for ozone and particulate matter and supported Ohio's efforts 
to overturn these standards in court. As the head of OECA, will you 
aggressively enforce the implementation of these standards?
    Response. f confirmed, I will vigorously enforce all Federal 
regulatory requirements.

    Question 8. Under your leadership at Ohio EPA, the Ohio EPA Small 
Business Assistance Office developed a written confidentiality policy 
that states: ``Recognizing the importance of helping businesses feel 
comfortable about using the services of the SBAO, written 
confidentiality procedures for the office were finalized in 1996. The 
SBAO's internal confidentiality procedures means that information 
provided to the office is not turned over to agency inspectors or 
enforcement staff:'' As Assistant Administrator, would you advocate 
development of a similar policy at the U.S. EPA?
    Response. EPA offers many resources--which small businesses may use 
anonymously--to assist small businesses comply with environmental laws. 
For example, EPA's existing Small Business Ombudsman (SBO) is a well-
known resource in the small business community which small businesses 
may access anonymously. EPA's SBO administers a free hotline answering 
fast-specific compliance questions; callers may remain anonymous at 
their own discretion. EPA's Small Business Policy also allows a small 
business to obtain anonymous government-sponsored compliance 
assistance, or confidential compliance assistance from an independent 
State compliance assistance provider, and still get penalty reductions 
or even complete waivers if the small business discloses and corrects 
their violations. I would want to consult with the Agency and review 
the success of these programs before advocating any specific changes to 
the program.

    Question 9. As director of Ohio EPA you supported Ohio's audit 
privilege law, which allows polluters to decide if certain information 
about pollution can be kept from Ohio EPA; it also gives companies 
immunity for certain violations As Assistant Administrator, would you 
advocate development of a similar law at the Federal level?
    Response. I support incentives that encourage companies to evaluate 
their own compliance and take necessary actions to return to compliance 
if problems are identified. I also understand the Federal Government's 
responsibility to ensure that delegated State programs have the 
necessary authorities to enforce those delegated programs. I do not 
believe that Federal audit legislation is necessary. Most States are 
already operating under an audit policy or law that is consistent with 
the minimum requirements for authorization of Federal environmental 
programs.

    Question 10. As Assistant Administrator, how would you handle 
enforcement issues that arise in States that have immunity and/or audit 
privilege? If a State grants immunity to a violator, what criteria 
would you use to decide whether US EPA should take an enforcement 
action against the violator?
    Response. Under current Federal law, States must have adequate 
authority to enforce the requirements of any Federal program they are 
authorized to administer. EPA retains its independent authority to 
enforce environmental protection law in States with audit privilege and 
immunity laws. If a State grants immunity to a violator, I would 
support EPA taking into consideration whether that action is consistent 
with the program requirement as authorized under Federal law. I would 
use the criteria that are provided in current EPA regulations, which 
specify' the requirements for compliance evaluations and enforcement 
authority for specific programs, for example, 40 C.F.R. 271.15-16 
(RCRA). If these criteria are not met, EPA has the authority, and I 
would certainly consider, taking an. independent enforcement action 
against the violator. In all instances, I would ensure that EPA 
continues to work closely with any State where this issue arises, to 
reach a workable solution.

    Question 11. Last October, U.S. Administrative Law Judge Phalen 
found that you and other Ohio EPA officials had improperly removed Paul 
Jayko from his job after Mr. Jayko undertook an investigation into a 
leukemia cancer cluster in Marion, Ohio. In his ruling, Judge Phalen 
stated that OEPA issued public statements that ``constitute a 
misrepresentation of possible threats to human health. . .'' and that 
``It is clear . . . that OEPA held him (Jayko) in. particular disfavor 
for reasons that may only be attributed to his vigorous prosecution of 
the Marion Investigation . . . while OEPA management wanted to do 
something graduated and far less effective.'' Do you agree with these 
findings? How would you handle similar situations as OECA Assistant 
Administrator?
    Response. I do not agree with the Judge's statement that OEPA 
misrepresented possible threats to human health. . I believe that 
OEPA's investigation into the leukemia cluster, under the direction of 
the Ohio Department of Health (ODH), was appropriately carried out. 
Governor Voinovich placed the Ohio Department of Health in charge of a 
multi-agency task force to investigate the causes of higher leukemia 
rates among students graduating from Marion High School. Based on the 
recommendations of the District Officer Chief Ed Hannett, Paul Steers, 
Assistant Chief of the OEPA Northwest District Office, was placed in 
charge of Ohio EPA's tam of scientists and investigators who worked 
with the Department of Health. Decisions on the scope and steps of the 
investigation were discussed and made at regular joint agency team 
meetings. The Department of Health made the recommendation and the team 
concurred with the decision to focus the investigation on chemicals 
suspected of causing leukemia (i.e. radiation and various organic 
chemicals).
    It is my understanding that last week the Ohio Department of Health 
concluded their 4-year study of leukemia in Marion and did not find a 
scientific link between the contamination at the school football field 
and the occurrence of leukemia in the students. Direct or second-hand 
exposure to tobacco smoke was the most common factor linking the 
leukemia victims.
    Regarding the findings pertaining to Mr. Jayko, if presented with 
similar facts as the OECA Assistant Administrator I would act 
similarly. In other words, I would request a fact-based inquiry, 
consult legal counsel regarding external factors (such as the 
whistleblower protection provisions), follow appropriate personnel 
disciplinary procedures, and weigh the recommended course of action 
against the particular facts of the case, before making a final 
decision.


                  NOMINATIONS OF THE 107th CONGRESS, 
                             FIRST SESSION

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James Jeffords (chairman of 
the committee) presiding.

 CONSIDERATION OF THE NOMINATIONS OF BRIG. GEN. EDWIN J. ARNOLD, BRIG. 
  GEN. CARL A. STROCK, NILS J. DIAZ, MARY E. PETERS, MICHAEL PARKER, 
    PATRICK HAYES JOHNSON, CRAIG MANSON, AND MARIANNE LAMONT HORINKO

    Present: Senators Jeffords, Cochran and Carper.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The committee will come to order.
    I want to welcome our witnesses this morning.
    This is an important day as we move forward in this unusual 
time. This is the first time the committee has met since the 
attack on our country last week, an attack that has changed us 
all. In these days ahead, we are going to have to stand 
together to show the strength of this country and our people.
    We are having this hearing today to get on with the work of 
the committee, the Congress and the country. I want each of you 
to know that your commitment to public service which is being 
demonstrated here today is admirable.
    I would like to let everyone know how we are going to 
proceed this morning and then I will recognize my fellow 
committee members for opening statements. We have two panels. 
The first panel will come to the table, each nominee will be 
recognized for 5 minutes to give their statement and your full 
written statement will be included in the record.
    Before you begin, if you could recognize those members of 
your family that are with us today, I would have appreciate it. 
Do you have members of your family here with you today? Please 
introduce them.
    Mr. Johnson. My name is Pete Johnson. I'm from Mississippi. 
I am the nominee for the Federal Co-Chairman of the Delta 
Regional Authority. I have with me my wife of 31 years, 
Margaret; I have my daughter, Mary Margaret; and my youngest 
daughter, Ann Clark, Ann Clark Downing who was married 3 weeks 
ago. Three weeks ago, Mary Margaret announced she would be 
getting married as well, so we are really excited. There is a 
lot going on in our family.
    Thank you.
    General Arnold. Mr. Chairman, I don't have any family 
members here, though I know my wife, Margaret, would love to be 
here. She is currently in Mississippi. My oldest daughter is 
home taking care of my granddaughter who was born a month ago, 
so they are not with us today.
    General Strock. I am Brigadier General Carl Strock, 
Director of Military Programs of the Corps of Engineers. I do 
not have any family here with me except for my brother in arms, 
Ed Arnold. My wife is unpacking boxes as we have recently moved 
to the D.C. area.
    Mr. Diaz. Mr. Chairman, I am by myself. My wife decided to 
stay in Florida to take care of the kids and send me in harms 
way on an airplane on Wednesday night so I could do my duty. I 
thank you for the opportunity.
    Senator Jeffords. I would recognize my fellow colleague, 
Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. I am glad to be here this morning to 
introduce to the committee two of my good friends who have been 
nominated for important positions in the Administration. Pete 
Jackson is in this first panel and the other nominee, Mike 
Parker, who will be in the second panel.
    Pete has been nominated to be the Federal Co-Chair of the 
Delta Regional Authority. As you recall, this was an Agency 
established by Congress 2 years ago when President Clinton 
signed the legislation. It provides an opportunity for economic 
development in the lower Mississippi River Valley. The Delta 
region has substantial problems of poverty and infrastructure 
requirements that this Authority is charged with addressing.
    I am delighted to let the committee know of my high regard 
for Pete Johnson. I have known him a long time, he is a close 
personal friend. He is very well qualified, in my opinion, for 
this important position. He will be working with the Governors 
of all of the States in the region and with local development 
districts, and other elected officials at the local level 
throughout that region in order to identify ways to move this 
region forward economically.
    It is a big challenge but he has the background, 
experience, the intellectual capacity and the determination to 
make this succeed that will ensure that this Authority will be 
a very important contributor to the economic growth and 
development of that region.
    Pete has served in local responsibilities at the Chamber of 
Commerce in his hometown of Clarksdale in Coahoma County; he 
has been head of the Industrial Foundation; he was also named 
as chairman of the Mississippi Marketing Council. He has served 
our State in an elected capacity winning a statewide election 
as State Auditor. During that period of time, he served with 
distinction, he reflected credit on all of his friends who 
supported his election and he has been someone has been looked 
to for leadership at the State and local level for sometime in 
our State. He is a lawyer. He has had experience as a banker.
    With that and his public experience, I think he is equipped 
to do a wonderful job in this new and challenging office.
    Let me mention also my high regard for Mike Parker who is 
nominated by the President to be Assistant Secretary of the 
Army for Civil Works.
    Mike is a former Congressman, served 10 years in the House 
of Representatives. He is also a good friend of mine and I have 
known him for a long time. I think he would be a fine choice in 
this job. He has the practical experience of a landowner, a 
farmer, a businessman who understands the practicality of 
government responsibilities in this area. He is a 
conservationist. He is someone who has served on committees 
with responsibilities for oversight of the activities of the 
Corps of Engineers and other Federal agencies with whom he will 
be working closely in this capacity.
    He is a person who has a lot of determination to succeed, 
to do a good job in whatever he is asked to do. He is well 
educated. I just think he would be one of the best in this job 
that I can think of in my history of serving in the Congress.
    Without qualification or hesitation, I recommend him highly 
to the committee and hope the committee will look with favor on 
his nomination and be able to report him to the Senate for 
confirmation at an early date.
    Senator Jeffords. Thank you. I want to thank you all.
    We will interrupt temporarily for the two votes. As soon as 
I get back, we will go right at it. Sorry for this 
interruption.
    [Recess.]
    Senator Jeffords. We will go through the formal process now 
of listening to you. After each of you has given your 
statement, I will ask you two obligatory questions, then 
members will be recognized to ask questions. When questions 
have been completed, we will call the second panel to the 
table.
    There may be members who are unable to be here today who 
may want to submit questions to you, to answer for the record. 
I would like to have all questions from the members by the end 
of the day so that each of you can answer them as soon as 
possible and we can move things along as expeditiously as 
possible.
    The committee ha scheduled a business meeting for next 
Tuesday. If we have received your answers by then, we will 
consider your nomination at that time.
    Before us today, we have Brigadier General Edwin J. Arnold 
to be a member and President of the Mississippi River 
Commission; Nils J. Diaz to be a member of the Nuclear 
Regulatory Commission; Patrick Hayes Johnson to be Federal Co-
Chairperson of the Delta Regional Authority; and Brigadier 
General Carl A. Strock to be a member of the Mississippi River 
Commission.
    I will start first with General Arnold.

STATEMENT OF BRIGADIER GENERAL EDWIN J. ARNOLD, NOMINATED TO BE 
   A MEMBER AND PRESIDENT OF THE MISSISSIPPI RIVER COMMISSION

    General Arnold. I have a statement I would like to submit 
for the record and I would like to make some brief remarks.
    Senator Jeffords. Your statement will be accepted as part 
of the record. Please proceed.
    General Arnold. Let me begin by saying I am extremely 
honored to be here and I would like to thank the committee for 
conducting these hearings in these very troublesome times.
    I would also like to state that I am extremely proud to be 
an American and doubly proud to be able to wear this uniform in 
the service of our country. I have worn the uniform for 29\1/2\ 
years and I feel the training I have received in the military 
has made me very qualified not only to lead but to also analyze 
situations and to act decisively and confidently in times of 
emergency.
    I have learned through my military experience how to keep 
focused, how to review problems, seek input, build consensus, 
but most importantly how to serve the people of this great 
nation. These traits that I have learned in my military 
training have well prepared me to assume division command in 
the U.S. Army Corps of Engineers, first, in 1998 in the 
Southwestern Division in Dallas, Texas serving the people of 
Texas, Oklahoma, Arkansas and Louisiana.
    In 2000, a year ago, I moved over to the Mississippi Valley 
Division in Vicksburg, Mississippi where my responsibilities 
require me to watch over the Mississippi River and the entire 
valley. I will tell you in that year I have learned quite a bit 
about the Mississippi River, but more importantly I have 
learned there is much more to be learned. It is an extremely 
challenging environment that the Mississippi River Commission 
has been charged to work in and to try to understand.
    Some of the significant challenges we face are that the 
Mississippi River has been declared both a nationally 
significant ecosystem and a nationally significant navigation 
system. Those two designations can very often be competing.
    Our challenge and what we believe is our mission is how to 
make those two aspects work in harmony so that we can preserve 
them both, not only for ourselves but for the people who follow 
us. We are not necessarily talking about balance or compromise 
in that harmony but developing synergy so that we have a win-
win situation.
    Trying to do that development is especially critical now as 
we look at the economic stability of the nation and the value 
of waterborne transportation to that stability through the 
center part of the country. I believe the Mississippi River 
Commission is well suited to help us achieve that balance. The 
Commission conducts public meetings twice annually at major 
cities along the river where people come to tell us what they 
believe the needs of the valley are. Seeking that public input 
and getting stakeholders to the table are extremely important 
as we manage this important resource for the nation. It helps 
develop those win-win alternatives. If I am confirmed as the 
President of the Mississippi River Commission, I will pursue 
those goals and work diligently to keep that resource viable 
for the nation.
    Once again, thank you for this opportunity to speak with 
you today and I would be glad to answer any of your questions 
at this time.
    Senator Jeffords. Thank you.
    Mr. Diaz?

  STATEMENT OF NILS J. DIAZ, NOMINATED TO BE A MEMBER OF THE 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Diaz. Thank you, Mr. Chairman.
    I too appreciate the opportunity to appear before you at 
this difficult and taxing time for our nation. Continuing 
government functions is one of the many ways of showing the 
strength of America.
    Ten days ago seems like a long time. I provided a written 
statement summarizing my qualifications as well as a few 
pertinent views. I would respectfully request that it be 
entered into the record.
    Senator Jeffords. It will be done.
    Mr. Diaz. Mr. Chairman, I believe I have the experience and 
I am committed to fulfill the responsibilities of the office of 
Commissioner of the United States Nuclear Regulatory 
Commission. I am prepared to face both the existing and the new 
challenges with the requisite accountability and transparency. 
There are many important issues with which the Commission will 
be dealing in the coming months. In particular, although I have 
not been a member of the Commission since June 30, I recognize 
that the recent terrorist attacks on our country affect all of 
us and affect all we do. I am certain the Commission is and 
will be giving its utmost attention to assessing implications 
for the Commission's programs. I believe the safeguarding of 
nuclear facilities and material is of vital concern to the 
nation and is a key component of the Agency's mission to 
protect public health and safety and the common defense and 
security.
    I stand ready to serve the nation and if confirmed, I can 
assure you that I will be devoted to addressing the complex and 
emerging issues before the Commission. I will be available, as 
I have always been, to members of the committee.
    Again, thank you. I would be pleased to answer any 
questions you may have for me.
    Senator Jeffords. Mr. Johnson?

  STATEMENT OF PATRICK HAYES JOHNSON, NOMINATED TO BE FEDERAL 
            COCHAIRPERSON, DELTA REGIONAL AUTHORITY

    Mr. Johnson. Thank you, Mr. Chairman.
    I have some prepared remarks as well that I would like to 
submit for the record and I would like to make some other 
comments if I may.
    Senator Jeffords. They will be accepted.
    Mr. Johnson. Mr. Chairman and members of the committee, I 
want to join with my fellow panelists in saying how truly proud 
I am to be an American on this day and of our President and 
this Congress as we meet the challenges ahead of us as a nation 
and a people.
    I appear before you, Mr. Chairman, and this committee, as 
the nominee of the President to be the Federal Co-Chairman of 
the Delta Regional Authority, a newly created Agency which is 
charged with jump starting the economy of the Mississippi Delta 
region. There are some eight States involved in our region. I 
have spent almost three decades in that region participating in 
business activities, practicing law, as a part of State 
government and as a part of the USDA Farm and Home 
Administration.
    I know the region very well. I know its people and I know 
its challenges. This indeed will be the challenge of a 
lifetime. Too, it is the opportunity of a lifetime to impact 
the lives of so many for so many generations to come. I welcome 
that opportunity. I believe that I am up to the occasion and I 
hope, should the committee see fit to recommend me and should 
the Senate confirm me, that I will live up to the expectations 
of those who have encouraged my nomination and that of the 
President.
    Thank you.
    Senator Jeffords. Thank you, Mr. Johnson.
    General Strock?

STATEMENT OF BRIGADIER GENERAL CARL A. STROCK, NOMINATED TO BE 
          A MEMBER OF THE MISSISSIPPI RIVER COMMISSION

    General Strock. Mr. Chairman, I too am deeply honored to 
appear before the committee this morning. As a soldier, 
engineer and lifelong public servant, I am truly excited about 
this opportunity to serve the nation in this capacity.
    I have also prepared a written statement that lays out my 
understanding of the Mississippi River Commission and its 
mission, the significance of the Commission to the people of 
the Valley and the nation and also my role in that Commission. 
It also lays out my qualifications. With your permission, I 
will submit that for the record and confine my remarks to my 
qualifications.
    Before I begin, I would like to take this opportunity to 
express my appreciation on behalf of the Army and the other 
Services for the support that this Congress has given to the 
nation's armed forces. In this time, as we react and respond to 
this attack on our nation, we are truly going to need your 
assistance. The assistance is not only the legislative 
assistance you have offered, but the moral support you have 
demonstrated through your personal presence at the site of the 
Pentagon incident as well as in New York City.
    I can tell you firsthand that the responders out there 
deeply appreciate your being there and they know the 
significance of your presence. Thank you very much for that, 
sir.
    As for my qualifications, in terms of education, 
professional qualifications, experience and commitment to 
public service, I have everything necessary for this important 
position. I have Bachelor's and Master's degrees in Civil 
Engineering; I am a registered professional engineer and a 
member of numerous engineering societies.
    It is my experience in the Army and the Corps of Engineers 
that has prepared me for this position. I have been in the Army 
for 30 years and during that time I have had extensive 
experience in combat engineer units but I have also had the 
opportunity to serve on three different occasions for the Army 
Corps of Engineers in its domestic support. These assignments 
include from 1980-83 in the Mobile District where I was the 
Project Engineer on the Tennessee Tombigbee Waterway and 
projects associated with that project in Mississippi and 
Alabama.
    It is my service as a senior officer in the Corps of 
Engineers that has benefited me most and I think will benefit 
the Commission. In the last 4 years, I have served as Division 
Commander both in the Pacific Ocean Division with 
responsibilities for the Far East and the States of Hawaii and 
Alaska as well as the Northwestern Division in Portland, Oregon 
with responsibility for engineer support in 14 States from the 
Mississippi River to the Pacific Ocean.
    In that capacity, I have developed relationships with 
leaders and agencies at the local, State and national level, 
nongovernmental organizations and many private citizens. I have 
a very deep knowledge of the authorities and legislative 
processes that guide our work and I believe these relationships 
and knowledge will enable me to really contribute in a balanced 
way to resolving the complex problems of the people, the nation 
and the region.
    It is my experience in the Northwestern Division where I 
had responsibility for operation and maintenance of the 
Missouri River Project that will best help here. The Missouri 
River contributes at times up to 70 percent of the water in the 
Mississippi River between St. Louis and Cairo, so the 
interaction between the two rivers is very important.
    If confirmed for this position, I look forward to playing a 
key role in enhancing the economic vitality and the 
environmental quality of this great river and its tributaries.
    Thank you and I am prepared to answer any questions you may 
have.
    Senator Jeffords. Thank you very much. I want to thank all 
of you for your fine statements and to commend you all. This 
past week has been a very memorable and very disturbing week. I 
was never more proud of the United States than I was working 
with the Army Corps and all of the people involved from the 
other emergency agencies in making sure we faced our 
difficulties as best we could. I'm proud to say we have come a 
long way in this past week. I want to thank you all and all of 
your men for exemplary service.
    Mr. Diaz, the nuclear regulatory area is of great concern 
to all of us as to the security and safety of our lives. In 
Vermont, we have our own nuclear plant which I was involved 
with when it started up and I know a number of people have 
raised deep concerns about the safety and what would happen and 
how are we as far as being able to protect those plants. I 
would appreciate any comments you might have.
    Mr. Diaz. I think the Commission has always been concerned 
about the security in the plants. This is not a new issue for 
us. It is an issue we have been dealing with for many years and 
I'm sure we are going to be dealing with it in the years to 
come. I believe that we have in the past, when I was in the 
Commission, upgraded the security of local power plants to make 
it more and more difficult for any terrorist or intruder to 
cause damage. That doesn't mean the systems are perfect, and I 
believe the present circumstances would require the Commission 
to take a completely new look at what these security 
requirements are and how can we work better with our licensees 
and with our government and the designated agencies to ensure 
that the plants are at the appropriate level.
    I do believe we have plans in place that actually address 
this. I know in the last week all nuclear power plants in the 
country have been put on maximum alert. We have a series of 
plans to deal with emergencies and incident response 
coordination for emergencies that I believe provide a very good 
backbone for what we need to do. I'm sure those things will be 
improved and I can assure you if I am confirmed, I will make 
this issue one of my top priorities.
    Senator Jeffords. I would like comments from all of you on 
any concerns you have after this past week as to observations 
of available manpower, training and whatever else. Do you have 
anything of note that you would like to report to this 
committee?
    General Arnold. As you know, the Corps of Engineers 
operates many very important facilities across the nation. We 
have quite a few inside the Mississippi Valley that are 
critical to us. After the events of the past week, we have done 
security reviews of those to make sure they are safe. Some were 
very difficult for us. You can't just block them off from the 
public because as a lock and dam, it may have a Federal highway 
that runs across the top of it or a State highway. We believe 
we have taken prudent security measures without denying those 
facilities the access the public needs as we pass through them.
    We will continue to analyze the facilities in the Valley 
that we are charged to maintain and preserve to make sure we 
are doing the right things so that the benefits derived from 
those facilities will not be denied to the nation.
    General Strock. In a similar fashion, at this very moment, 
we are convening a forum of construction and engineering 
industry to talk about the implications of this disaster, not 
only on our military and civil works missions but on our 
construction and engineering profession throughout the United 
States. We are trying to assess where we go from here.
    On the military side, every one of our installations has 
done a very detailed threat assessment and vulnerability 
analysis and we're putting into place actions and structures 
that will protect us better in the future. We will certainly be 
providing the details of the requirements. This will come as a 
resource requirement for the military forces and we will be 
providing that to Congress very shortly.
    Senator Jeffords. For Generals Arnold and Strock, the 
Mississippi River Commission has been around a long time. Much 
has changed in that time including our focus on balancing 
navigation and flood control needs with environmental 
protection and restoration. How does the Commission strike that 
delicate balance?
    General Arnold. As I mentioned earlier, one of the ways we 
try to do that is constantly seeking public input and very open 
discussion and discourse with various stakeholders. As we look 
at challenges along the river, we need to develop ways, as you 
try to optimize environmental effects or navigation effects, 
that you don't do damage to one of the other aspects of the 
river. There are many people in the Valley and across the 
nation at large who have expertise and knowledge about the 
different aspects for environmental restoration, navigation 
and/or flood protection. The Commission facilitates the 
discussion in bringing that expertise to the table in the 
process of the public meetings. We do those semiannually in a 
very, very open process right in the river itself, which is a 
great natural workshop. That is what the Commission brings to 
the table, setting the forum for public discourse where we can 
get competing interests talking, take advantage of their 
expertise and then develop the win-win solutions to the 
problems we face.
    General Strock. The Mississippi River Commission when it 
was founded in 1879 was really focused on development of the 
Mississippi River as a transportation corridor. Since that time 
our mission has evolved. The Commission has been called upon to 
readjust priorities. With the great floods in the early part of 
the 20th century, the Commission was called upon to institute 
flood control. We did that very successfully.
    Currently, as I see it, the nation is calling on us to have 
more involvement in environmental quality and to integrate that 
more into how we operate this river. It's an evolutionary 
process and I feel very comfortable with how it's working. As 
an example, on a recent inspection tour of the river, we hosted 
all the EPA regional directors who have any responsibility in 
the area aboard the Motor Vessel Mississippi to discuss how we 
will work with the Environmental Protection Agency as we put 
our engineering works into the river. I am very confident we 
are addressing the evolving needs of the nation in the 
Mississippi Valley in a very effective way.
    Senator Jeffords. Now I am going to ask you all the 
obligatory questions. First, are you willing at the request of 
any duly constituted committee of the Congress to appear in 
front of it as a witness?
    General Arnold. Yes.
    Mr. Diaz. Yes.
    Mr. Johnson. Yes.
    General Strock. Yes.
    Senator Jeffords. Do you know of any matters which you may 
or may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in your position?
    General Arnold. No.
    Mr. Diaz. No.
    Mr. Johnson. No.
    General Strock. No.
    Senator Jeffords. We have another panel, but thank you very 
much.
    [Recess.]
    Senator Jeffords. The committee will come to order.
    I want to welcome you all before the committee. I believe 
you were probably here through the first part of our hearing, 
so you understand what we will be doing.
    First of all, I want to welcome you before the committee. 
The positions to which you desire to ascend are very important 
ones and thus we take our job very seriously to make sure that 
you have an opportunity to let us know how well you can 
perform. We want to help make sure you understand we are 
available to try and help you in any way we can.
    Again, if you have members of your family here whose 
presence you would like to announce, please do.
    Mr. Manson?
    Mr. Manson. Mr. Chairman, my wife Penny is back in 
Sacramento today and was unable to be here. She is with our dog 
and our two cats.
    Ms. Horinko. Mr. Chairman, I am especially proud to 
introduce my husband, Tim Horinko; my two children, Catlin and 
Hunter; my parents, John and Joanna Mascini; and my in-laws, 
Larry and Terry Horinko. I further have many friends and 
colleagues here I would also like to recognize and thank for 
their support.
    Senator Jeffords. Fine.
    Mr. Parker?
    Mr. Parker. Mr. Chairman, I have my wife, Rosemary, of 31 
years here.
    Senator Jeffords. Pleased to meet you.
    Ms. Peters?
    Ms. Peters. Mr. Chairman, due to recent events, I did not 
ask my family to travel here from Arizona for today's hearing 
as important as that hearing is. Please know, while they are 
not here with me in person, they certainly are in my heart and 
I am very blessed to have their love and support as I am 
considered for this position.
    Senator Jeffords. I am sure of that.
    I want to welcome you all. It is a pleasure to have you 
with us. We want to allow you to make your statements and we 
will then ask a few questions. We will proceed as before. Mr. 
Manson?

  STATEMENT OF HAROLD CRAIG MANSON, NOMINATED TO BE ASSISTANT 
  SECRETARY FOR FISH, WILDLIFE, AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Manson. Mr. Chairman, I am honored and humbled to 
appear before you as the President's nominee to be Assistant 
Secretary of the Interior for Fish, Wildlife and Parks. I am 
deeply grateful for the confidence shown in me by the President 
and Secretary Norton. I also want to say a word of thanks to 
Secretary of Agriculture, Ann Venneman, who is a colleague from 
Sacramento and who has supported and encouraged me in this 
process.
    I appreciate that the committee has taken the time to hold 
this hearing in this time of great national crisis. You may 
know that the Department of Interior's personnel, including the 
U.S. Park Police and law enforcement elements of the U.S. Fish 
and Wildlife Service have played roles in responding to the 
current crisis.
    Most regrettably a U.S. Fish and Wildlife Service employee, 
Richard Guadagno, lost his life in the crash of the jet in 
Pennsylvania. Mr. Guadagno was a native of New Jersey, a refuge 
manager of the Humboldt Bay National Wildlife Refuge in my home 
State of California. He was highly regarded by all who knew him 
and he embodied the very best attributes of the talented people 
in the U.S. Fish and Wildlife Service and the National Park 
Service. I ask that everyone's prayers be with his family as 
they are with the families of all who have been affected by 
this great tragedy.
    Senator Jeffords. We will take a moment to provide everyone 
an opportunity to have some thoughts. Let me express my special 
thanks from Members of Congress and all of us who know that if 
not for the heroic efforts to bring that plane down, we might 
all have been affected more dramatically.
    Mr. Manson. I want to tell you that as a proud American, I 
am a descendant of Africans, Europeans and Native Americans. I 
was born in Missouri and have resided in the western part of 
the United States for most of my life.
    I received my undergraduate education at the United States 
Air Force Academy and following graduation there, I served 2 
years as a Minuteman Missile launch officer. The Air Force then 
sent me to law school at the University of the Pacific, 
McGeorge School of Law in Sacramento. After that, I served in 
various Air Force Judge Advocate positions in the United States 
and overseas, including a tour in the Department of Law at the 
United States Air Force Academy. During that tour, I was 
assigned with other faculty members to report to the Secretary 
of the Air Force concerning the state of Air Force compliance 
with environmental laws on its overseas bases.
    After I left active duty in 1989, I practiced with a major 
Sacramento law firm and then I was appointed by California 
Governor Pete Wilson to the then newly created position of 
General Counsel of the California Department of Fish and Game. 
I held that position for 5 years after which the Governor 
appointed me to be a judge. I've served on the Superior Court 
in Sacramento since 1998. I have also been a faculty member of 
the McGeorge School of Law since 1992 and I have continued my 
military service in the Air National Guard and I hold the 
current rank of Colonel.
    Apart from the unmitigated enthusiasm I have for what I 
think is the best job in Washington, I offer my experience in 
natural resources law and policy, an ability to build consensus 
across diverse interest groups and a judicial approach to 
decisionmaking. During my tenure with California's Department 
of Fish and Game, we conserved hundreds of thousands of acres 
of wildlife habitat in an innovative multispecies planning 
program in southern California's Coastal Sage Scrub Habitat. 
That Habitat is the home to hundreds of potentially at risk 
plant and animal species. It stretches across the five counties 
in California where growth and development pressures are the 
most intense.
    Our natural community's conservation program had bipartisan 
support as well as the support of landowners, resource users, 
local governments and environmental groups and also had the 
assistance of the U.S. Fish and Wildlife Service.
    As to the largest plans under that program, the San Diego 
Multiple Species Conservation Plan, the Los Angeles Times said 
on March 19, 1997, ``A committee composed of local businesses, 
including Bank of America and Greater San Diego Chamber of 
Commerce, concluded the cost to the public is modest given the 
benefits.''
    In addition to the large scale programs during my tenure at 
California Fish and Game, we pioneered habitat conservation 
plans under our State Endangered Species Act. At one point 
during the 1990's, we had more habitat conservation plans under 
State law than existed in the entire rest of the country under 
Federal law. These plans, based upon the scientific judgments 
of our biologists, involved the cooperation of landowners and 
again, hundreds of thousands of acres of habitat were conserved 
while allowing economic activities to proceed.
    I have spent most of my adult life in public service and 
during that time I've had no prouder moment than when Governor 
Pete Wilson in 1997 signed amendments to the California 
Endangered Species Act. I had been entrusted with the Wilson 
Administration's negotiating portfolio on that and we worked 
for 4 years to build a consensus among environmental groups, 
landowners, local governments and agricultural interests. We 
listened to everybody and eventually our legislation conceived 
by a Republican administration was introduced by three 
Democratic State legislators and won bipartisan support.
    I mention my experiences in California to illustrate my 
commitment to work through environmental and natural resource 
public policy issues on a consensus basis wherever possible. In 
that regard, I am completely committed to what Secretary Norton 
describes as the four Cs, communication, consultation and 
cooperation, all in the service of conservation. I strongly 
support Secretary Norton's philosophy that the Federal 
Government must be a partner with State and local governments, 
individuals and non-governmental organizations.
    If I am confirmed, I will apply my judicial experience to 
the issues involving natural resources and natural parks. Every 
interested party will get a fair hearing--environmental groups, 
landowners, farmers, ranchers, sportsmen, State and local 
government. Second, any decisions or recommendations I give to 
the Secretary will be based on the weight of the evidence.
    One of the aspects I most look forward to if I am confirmed 
is the opportunity to work with the talented and dedicated 
employees of the U.S. Fish and Wildlife Service and the 
National Park Service. I have great respect for these 
professionals who ensure the preservation of our treasures 
every day.
    Mr. Chairman, I love our great country and the physical 
resources with which we have been blessed. If I am confirmed, I 
will do my best to ensure these resources remain a perpetual 
resource of enjoyment for the American people.
    Thank you and I will be pleased to answer any questions.
    Senator Jeffords. Thank you, Mr. Manson. I will leave the 
questions until last.
    Ms. Horinko, please proceed.

STATEMENT OF MARIANNE LAMONT HORINKO, NOMINATED TO BE ASSISTANT 
 ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Horinko. Thank you for the privilege of coming before 
you and the distinguished members of the committee today. I am 
honored that President Bush nominated me to be Assistant 
Administrator for the Office of Solid Waste and Emergency 
Response at the U.S. Environmental Protection Agency. I believe 
that all the public and private sector positions that I have 
been fortunate enough to hold in the past have set the stage 
for this opportunity to serve our country. If confirmed, you 
have my word that I will bring thoughtful deliberation, 
integrity and enthusiasm to the challenges that loom ahead.
    I am particularly attracted to this opportunity to serve 
EPA because thanks to my father, I probably have some 
groundwater running in my veins. My dad is a geologist who 
worked for many years as a university professor and a career 
civil servant at the National Science Foundation. He taught me 
to love science and by example showed me that public service 
was not merely a job but a higher calling. My mother provided 
strong support and reinforcement of our love of science and 
curiosity about our natural environment. Their great respect 
for the natural treasures of our lands impressed me deeply and 
it is because of their early influence that I chose the 
protection of the environment as my calling.
    In my statement today, I would like to share some of the 
key themes and approaches I would bring to this position if 
confirmed. They include innovation, information sharing and 
partnership. One of my principal observations is that there has 
been a sea change in Federal attitudes and approaches to 
managing waste. The old command and control method has been 
supplemented in some measure by partnerships and consensus 
building as the means of cooperative problemsolving.
    An example of that innovation is the emerging linkage 
between environmental cleanup and community revitalization. The 
brownfields story is all about a new way of doing the 
government's business. Like Governor Whitman and President 
Bush, I wholeheartedly support passage of brownfields 
legislation during this session of Congress. With a strong 
brownfields bill and working in tandem with our State and local 
brownfields efforts, there is no limit to what we can 
accomplish.
    Significant challenges face the EPA work force. Much as 
been made about the baby boomer retirement outflow and the need 
for a newly energized and well equipped work force to address 
the challenges of the future.
    I think there is also great opportunity on the information 
side of the equation. More emphasis needs to be placed on 
ensuring that all stakeholders have access to clear and 
understandable information about the health and environmental 
risks they face. Policymaking cannot and should not exist in a 
vacuum. I believe the people who create Federal regulations 
should be required to meet face to face with the citizens whose 
lives they affect. What better way to experience firsthand how 
the policies we make here in Washington can affect the comfort 
and quality of life in our towns and cities across the United 
States.
    If confirmed, I plan to work closely with our State and 
tribal partners to ensure that all cleanups are both protective 
of human health and the environment as well as implemented with 
an eye toward community revitalization.
    Finally, given the tragic events of September 11, I feel I 
must take a moment to talk about a key role for the Office for 
Assistant Administrator as EPA's lead on counter terrorism. I 
spent virtually all of that fateful day with Governor Whitman 
and the outstanding staff at the Emergency Operations Center on 
Pennsylvania Avenue. Amid an ocean of chaos, we observed with 
wonder and awe an island of calm, steady professionals who make 
up EPA's emergency response team. These individuals are not 
only technically and substantively competent but have pulled 
together an organized approach to dealing with the horror of 
chemical, biological or nuclear attacks on our citizens. When 
terror struck on Tuesday, they sprung into action and made 
certain that the public health and safety of our people were 
protected and ensured. They are truly the unsung heroes of our 
Agency. If confirmed, I pledge to give our counter terrorism 
activities the highest priority and to do all that I can to 
make their jobs easier.
    I realize that I've not even scraped the surface of all the 
issues and challenges that await me but I can assure this 
committee that if confirmed, I will tackle each one with 
enthusiasm and equanimity. I will work hard to meet these 
challenges in a fair, balanced, open and honorable fashion. I 
look forward to working closely with the Congress and 
especially the members of this committee on the stewardship of 
our environment.
    Thank you for considering me for this position.
    Senator Jeffords. Thank you for an excellent statement.
    Mike, I guess you came to the House the hear I left.
    Mr. Parker. I took over when you left.
    [Laughter.]
    Senator Jeffords. Pleased to have you with us. Please 
proceed.

  STATEMENT OF PAUL MICHAEL PARKER, NOMINATED TO BE ASSISTANT 
  SECRETARY OF THE ARMY FOR CIVIL WORKS, DEPARTMENT OF DEFENSE

    Mr. Parker. It is a great honor and privilege to appear 
before this committee as the nominee to be the Assistant 
Secretary of the Army for Civil Works. I am very grateful to 
the President, the Secretary of Defense and the Secretary of 
the Army for the trust and confidence they have placed in me.
    If confirmed, I pledge that I will work as hard as I 
possibly can to serve the soldiers, civilians and families that 
make the United States Army, the most powerful and professional 
army in the world.
    I especially want to also publicly thank Senator Cochran 
for his kind words in introducing me earlier.
    Senator Jeffords. I know Senator Lott was hoping to be here 
but he asked me to express his regrets. He was unable to be 
here.
    Mr. Parker. Thank you.
    The Corps of Engineers has a proud history stretching back 
to the beginning of the country. Over the years, the Corps has 
evolved to emphasize its major civil works responsibilities of 
today, conservation and development of the nation's water 
resources which include flood control, navigation, shore 
protection and environmental restoration. All of these tasks 
are important. All are complex and demanding and all require 
significant resources. With competing demands for limited 
dollars, fulfilling these requirements becomes more and more 
challenging. However, I am committed that should I be 
confirmed, environmental considerations will remain a key 
factor in determining our civil works stance for the nation.
    The dedicated and able staff of military and civilian 
employees who make up the Corps of Engineers has risen to every 
challenge in the past and I am sure will continue to carry out 
their responsibilities to the people of this country in these 
vital areas.
    In the last week, you can see the value of the Corps to 
this nation and the dedication of its people as we recover from 
the recent tragedies at the World Trade Center and at the 
Pentagon. The Corps is heavily involved in determining 
structural integrity and debris management in both locations 
and continues to serve as the nation's premiere engineers 
during this time of crisis. Should I be confirmed, I will be 
proud to work alongside these ultimate professionals.
    In the 10-years during which I had the honor of 
representing the Fourth District of Mississippi in the U.S. 
House of Representatives, I applied my commitment to finding 
practical, realistic solutions to problems and issues of 
importance to my constituents. Having served on various House 
committees which deal with a range of issues I can expect to 
face as Assistant Secretary, I understand both the civil works 
and the military program aspects of the Corps of Engineers and 
appreciate the challenges facing the Corps. Should I be 
confirmed, I look forward to serving with the Army and the 
Corps during this landmark era of change and transformation. I 
look forward to serving with the Army team of active, reserve 
and National Guard soldiers who distinguish themselves every 
day by their dedication and hard work. I am prepared to 
undertake the important responsibilities of this post and am 
enthusiastic about the opportunities it presents to me to 
continue to serve this great country.
    I am committed to working closely with and consulting with 
the various stakeholders in the ongoing Corps projects, 
including the Members of Congress who represent the American 
people. If confirmed, I look forward to a strong working 
relationship with you and this committee.
    I would be pleased to answer any questions at the 
appropriate time.
    Senator Jeffords. Thank you, Mr. Parker.
    Ms. Peters, Senator McCain wanted to be here and he has 
given me glowing remarks on your capacity, so that will be made 
a part of the record, but he was disappointed he could not be 
here. Please proceed.

 STATEMENT OF MARY E. PETERS, NOMINATED TO BE ADMINISTRATOR OF 
       THE FEDERAL HIGHWAY ADMINISTRATION, DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Peters. Mr. Chairman, Senator Carper and members of the 
committee, I do very much appreciate the opportunity to appear 
before you today as you consider my nomination for 
Administrator of the Federal Highway Administration. I do 
recognize the many competing demands on your time at this time 
in our country and I appreciate that you have carved out this 
time today.
    I too am honored to have been nominated by President Bush 
and with the concurrence of Secretary Mineta, who I think has 
demonstrated in this past week his tremendous capacity as 
Secretary of the Department of Transportation.
    Should you choose to confirm me, I look forward to working 
with this committee, with each of you, with your very capable 
staffs and many other stakeholders to administer the Federal 
Highway Program.
    Transportation affects everyone in our country. Each one, 
every man, every woman, every child has the right to expect a 
safe, accessible, affordable and reliable transportation 
system. Transportation that is responsive to the citizens and 
the businesses we serve is vitally important to our nation's 
economic health, quality of life and the safety and security of 
every American. The tragedy of September 11 graphically 
demonstrated this very important point.
    There are a number of factors to be considered in ensuring 
that transportation meets these requirements. To respond to 
these factors, if I am confirmed, I would immediately focus on 
several priority areas. Among these are highway safety and 
security, environmental stewardship and streamlining processes, 
the stewardship of public funds to ensure that every dollar 
that is entrusted to the Federal Highway Administration is used 
appropriately in the diligent performance of our duties, 
relieving congestion and bottlenecks, and finally, the very 
important reauthorization of the Transportation Act.
    I have spent more than 15 years in the transportation 
field. I have had the opportunity to be involved in a number of 
local, regional and national transportation issues as State 
Director of Transportation in Arizona. In that capacity, I had 
responsibility for highway, transit, rail and aviation 
transportation functions as well as motor carrier programs, 
driver licensing, vehicle registration, tax collection and tax 
distribution.
    This experience afforded me the opportunity to recognize 
the importance of dealing systemically and inclusively with 
these issues, remaining mindful of the integration of the 
various modal functions in arriving at solutions that meet 
transportation demand. I bring this experience to the position 
for which I have been nominated, as well as knowledge of the 
technical aspects of planning, building, operating and 
maintaining transportation systems, the use of technology in 
arriving at solutions, and a background in the finance and 
economics of those systems.
    Recognizing the many demands on your time, I will make my 
statement very short today. I have submitted for the record a 
longer statement and again, I sincerely appreciate the 
opportunity you have given me to appear before you today and 
would be pleased to answer questions at the appropriate time.
    Senator Jeffords. All of you, your entire statements will 
be made a part of the record.
    I have just a question or two to ask of each of you and 
then we also have obligatory questions we have to ask before we 
can go on to confirmation.
    Mr. Manson, with the possible exception of phosphorous 
pollution, nonendemic nuisance species are the biggest problem 
facing Lake Champlain in Vermont. Sea lampreys have decimated 
the fishery there. Milfoil and water chestnuts have made much 
of the Lake inaccessible and zebra mussels are beginning to 
flourish. The USFWS' Lake Champlain office is working to 
address these problems but needs more resources. What do you 
see as the role of USFWS in working on nuisance species issues?
    Mr. Manson. I'm not familiar with the specific Lake 
Champlain issues but I am aware from my prior experience that 
invasive mutant species issues exist throughout the country in 
various ecosystems and the Fish and Wildlife Service has a very 
important role to play in that arena. If I am confirmed, I will 
certainly a close look at the allocation of resources to deal 
with those types of problems across the board.
    Senator Jeffords. That is one of the advantages. As 
chairman, I get to get a little of my own personal problems 
involved here.
    [Laughter.]
    Senator Jeffords. How do you feel about this role for USFWS 
being formally authorized during the upcoming reauthorization 
of the Lake Champlain Special Designation Act?
    Mr. Manson. Again, I am not familiar with that particular 
piece of legislation but I will look into that and I would 
certainly be happy to provide you an answer for the record 
about that issue.
    Senator Jeffords. I just want to raise your awareness of it 
and hopefully you will remember that.
    Ms. Horinko, I understand that at least 50 percent of the 
Superfund sites in New England are slowed down by the lack of 
either total or partial funding. How much funding should 
Congress appropriate annually to meet the timely cleanup needs 
of the Superfund Program, the whole program?
    Ms. Horinko. You are touching upon one of the most 
important issues the Agency is facing as the Superfund Program 
matures. If I am confirmed, I will be taking a hard look at the 
Superfund budget and engaging in a dialog with you and your 
colleagues on the future of the program and how should we 
prioritize these sites so that they get cleaned up as quickly 
as we possible can, especially including sites in the New 
England region.
    Senator Jeffords. Mr. Parker, you are sitting on a panel 
today with many of the people you will be working with in order 
to carry out the commitment you made in your statement that 
environmental considerations will remain a key factor in 
determining our civil works stance. Will that commitment 
involve consulting with your counterparts at the Department of 
Interior on endangered species and the Department of 
Transportation on highway projects impact on our waterways and 
wetlands, and the Environmental Protection Agency?
    Mr. Parker. Yes, it will. As a matter of fact, before the 
hearing started, Mr. Manson and I were talking about getting 
together if we are both confirmed. We have to sit down and talk 
because one of the problems that we have had--and everyone is 
guilty of this to some degree--are these turf battles where 
they sit around and worry about their own turf so much 
sometimes they forget to consult or they consult in a very 
shallow way with other agencies. They worry so much about turf 
that they don't really solve the problem.
    Especially in this time of national distress of being under 
attack as we have been and are, I think it becomes even more 
imperative that all agencies, especially the Corps, not create 
a situation for themselves where they just sit back and say 
this is our turf, we're the only ones that can control it and 
we're going to make the decisions. They have to truly reach 
out, truly have others involved and everybody have a part in 
the solutions that we have to find.
    Senator Jeffords. Ms. Peters, we need to balance the 
surface transportation system in this country with highways, 
transit and rail, all providing service. ISTEA and T20 through 
their flexibility problems have allowed States to begin to 
create this balance. Do you support these flexibility 
provisions and will you work to retain and strengthen the 
flexibility in the upcoming reauthorization process?
    Ms. Peters. I have discussed this very issue with Secretary 
Mineta and other members of the Department of Transportation, 
including my colleagues who are administrators of transit, rail 
and other modes. We do intend very much to work together to 
preserve and enhance the flexibility provisions of the law so 
the communities can use the best tools available to them to 
respond to transportation issues and not be driven by money or 
silos.
    Senator Jeffords. Senator Carper, do you have any comments 
or questions you want to ask?

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. To our witnesses, our nominees, welcome. We 
are delighted you are here and congratulations on your 
nominations.
    I am especially pleased to welcome Mike Parker, a colleague 
with whom I was privileged to serve for two terms in the House. 
I may be the only person on this panel who was fortunate to 
have been on his data base as a Congressman, as a Democrat, as 
a Republican.
    Mr. Parker. You contributed when I was a Democrat.
    [Laughter.]
    Senator Carper. I understand our witnesses were given the 
opportunity to introduce their families earlier when they were 
seated. I missed that portion. There are a couple of kids here, 
a little boy I can see back there and whose child is that? Ms. 
Horinko? Would you reintroduce your family for us?
    Ms. Horinko. Thank you, Senator Carper. I am delighted to. 
There is my husband, Tim Horinko and my two children, Hunter 
and Caitlin.
    Senator Carper. How old are they?
    Ms. Horinko. Hunter is two and Caitlin is four.
    Senator Carper. They are good kids.
    Ms. Horinko. Yes, they are. Thank you.
    Senator Carper. I don't know that I would be as brave as 
you. When my boys were two and four I don't now that I would 
have brought them in here.
    Thank you for being here and for your willingness to share 
your wife and your mother with the rest of our country.
    Congressman Parker, do you have anyone from your family 
here?
    Mr. Parker. My wife, Rosemary.
    Senator Carper. Thanks for sharing Mike with us for a long 
time.
    I have a couple of questions. Ms. Peters, you look 
familiar. I was Governor of Delaware for the last 8 years and a 
woman named Ann Canby was our Secretary of Transportation. Do 
you know her at all?
    Ms. Peters. Mr. Carper, I know her very well.
    Senator Carper. I have a question for you if I could and it 
relates to the use of congestion mitigation money. States get 
money for a variety of things in transportation and one of the 
things we get money for is for congestion mitigation. We can 
use that money to build roads, intersections, for improving the 
throughput of traffic and integrated traffic management 
systems. In our State we use some of the money for bicycle 
paths or you can use it for freight railroads.
    We don't have discretion in our State governments to use 
the money for passenger rail. In our judgment that seems to 
make sense to mitigate traffic congestion. Do you have any 
thoughts at all about whether States should have that kind of 
flexibility?
    Ms. Peters. I do believe that the States should have the 
maximum flexibility available to them to use funds so they can 
meet their transportation demand in the manner which best 
serves the citizens of their State.
    The whole issue of passenger rail funding and the source of 
that funding, as you are well aware, has been a source of a lot 
of discussion recently. How this money is collected, the user 
fees, and how it is spent is something I would look forward to 
discussing with you further as we go forward. I have had the 
opportunity to discuss that briefly with the Deputy Secretary 
and it is something he is interested in, as I am.
    Senator Carper. When Tommy Thompson, now Secretary Tommy 
Thompson, was Governor of Wisconsin and chairman of the Amtrak 
Board, he put forth a proposal to earmark half a penny of the 
gasoline tax to be used to provide the only supplemental 
appropriation for Amtrak. Any thoughts about that idea? I'm not 
trying to put you on the spot. Whether you support or not, I'm 
to support your nomination but I'm interested in your 
perspective.
    Ms. Peters. I do think passenger rail has to be a very 
important part of the solution to meet transportation demand. I 
was involved in several of the policy discussions with regard 
to allocation of funds to Amtrak. The objection appeared to be 
the user fee basis of doing that.
    As I indicated earlier, I think we need the maximum 
flexibility we can have to spend on transportation. Demand 
needs to be met whether it's met with a highway, with passenger 
rail, with telecommuting or with other programs that disperse 
the amount of demand we have. I think are all important 
considerations.
    I would look forward to working with you and with the 
Secretary to determine if that allocation of money would be 
appropriate.
    Senator Carper. I've just come from a caucus meeting where 
the legislation is being reviewed with the members of our 
caucus on the potential cost of assistance for the airline 
industry in the wake of last week's tragedy. The amount of 
money we will probably be asked to invest as a country in the 
airline industry to help them in their time of need is going to 
be enormous. When we compare the amount of money we put into 
passenger rail for the whole life of Amtrak, I think will put 
that whole issue in a different context going forward.
    Senator Jeffords. I agree with you on that. I believe very 
strongly as you do that the rail alternative, especially for 
transit from DC to New York and places like that makes so much 
more sense than the airways.
    Senator Carper. One more question, maybe two. Ms. Horinko, 
what part of EPA has jurisdiction or owns the issue of 
recycling solid waste?
    Ms. Horinko. That is my part of the Agency.
    Senator Carper. This is kind of a broad question and you 
can take it where you want. Talk to us a bit about your 
interest in recycling solid waste? Where do you and your family 
live, what State?
    Ms. Horinko. We are in Virginia, Centerville, Virginia, 
right in the D.C. area.
    Senator Carper. How do families recycle in your community?
    Ms. Horinko. In Fairfax County where we live, we have 
curbside recycling, we source separate and one day a week along 
with the regular trash, the aluminum, glass and newspaper are 
picked up.
    Senator Carper. Do you want to share some thoughts with us 
as a citizen on your take on recycling, what you all do as a 
family and maybe use that to talk about what we should be doing 
as a country?
    Ms. Horinko. What I told Governor Whitman when I 
interviewed with her to take this job was that if you walk into 
a video arcade that has older video games in Ocean City, 
Maryland or in Bethany Beach----
    Senator Carper. Have you been to Bethany Beach?
    Ms. Horinko. I am a local to the Washington area and grew 
up as a child going to Bethany Beach.
    Senator Carper. We love Bethany Beach, Bethany Beach, 
Delaware, just north of Fenwick Island and south of Rehoboth.
    Ms. Horinko. It is a lovely, idyllic beach town and a 
wonderful place to go to the beach.
    If you put your two quarters into a video game that is more 
than 7 or 8 years old, up pops the EPA logo and it says 
``Reduce, reuse, recycle, William K. Riley, Administrator.'' So 
I told Governor Whitman, at a minimum, we would get that 
changed to ``Christine Todd Whitman'' but while I have Sony and 
Sega on the phone, perhaps we could talk to them about 
extending that to playstations, game boys and maybe they would 
be interested in a cooperative agreement on electronics waste 
recycling while we are working on that. Maybe there are things 
we can do to get folks engaged at the schools in recycling.
    I think recycling is an important issue, not necessarily in 
terms of the risk reduction or environmental protection but 
that it engages consumers at the hands-on level in 
environmental issues. Once they start thinking about if they 
are recycling and source reducing, they take the next step and 
start thinking about what kind of car am I driving, where am I 
choosing to live and what is the air quality in my area. 
Recycling is like a gateway issue that engages people at the 
retail level in environmental protection.
    If I am confirmed, you will have my commitment that we will 
do a number of interesting and fun things to promote recycling 
and get people thinking about the broader issues as well.
    Senator Carper. I have had the opportunity to talk with 
Congressman Parker a time or two in the last couple of weeks 
about an issue near and dear to our hearts in Delaware. There 
is a canal that was built that cuts the State of Delaware 
literally in half called the Chesapeake and Delaware Canal 
which connects the Delaware Bay to the Chesapeake Bay and 
provides a short cut for ships trying to get from the Atlantic 
Ocean to Baltimore.
    Our State is not very big, a lot smaller than Vermont but 
this canal cuts our State in half. It uses a big swath of our 
land and disrupts commerce because we have to figure out how to 
get over this canal.
    The Army Corps of Engineers or the Federal Government took 
over the canal back in the early part of the twentieth century 
and has owned and operated it for a number of years. Under 
Federal law, the Corps has responsibility from time to time to 
provide adequate crossings over this canal.
    For us in Delaware, we'd like to line up and fill the canal 
in, line up citizens on either side, fill in the canal, give us 
an appropriation for shovels and we will fill it in and that 
way ships won't have a short cut to get to Baltimore, they can 
use the Port of Wilmington. Moreover, we wouldn't have our 
commerce disrupted and our way of life disrupted as it has been 
for over 100 years.
    The Corps built a new bridge and as you come off 95 to head 
south you cross that bridge about 10 miles south of I-95. There 
is a bridge not far away in a little town called St. Georges 
where the Corps continues to own, maintain and operate the 
older bridge which is over 50 years old but has refused to take 
over ownership and operation of the new bridge about 3 or 4 
years old.
    One concern I expressed to Congressman Parker is to resolve 
the ownership issue around that bridge as well as the old 
bridge. Initially, I think the Corps wanted to tear down the 
old bridge. As it turns out, traffic is increasing so quickly, 
we will need that capacity from the old bridge as well as the 
new one and about 10 years we can have another fight to build 
another bridge or we can leave the one that is there and keep 
it in some kind of usable capacity so when we need it, it will 
be there.
    I would ask Congressman Parker to share a thought or two on 
this with us today.
    Mr. Parker. You and I have discussed this. I don't know 
everything about the issue as far as all the details and legal 
ramifications, but at the same time, some general statements I 
think would be good to share with you and the committee.
    It is very important that the Corps not put burdens on 
local municipalities or local States that should not be borne 
by them. It is also important that the Corps of Engineers 
follow through with obligations and promises they have made and 
responsibilities they have taken. From that standpoint, I look 
forward to working with you to resolve this.
    I know this is a longstanding problem that you have had and 
if confirmed, I look forward to working with you to resolve 
that in an equitable way and something that will be good for 
this country and also good for the citizens of Delaware because 
the Corps did accept some responsibility that it should follow 
through with. I can assure you I will work to that end.
    Senator Carper. I appreciate those assurances and look 
forward to working with you to resolve the issue of ownership 
and to move forward.
    Thank you.
    Senator Jeffords. Now it comes down to the obligatory 
questions. Are you willing at the request of any duly 
constituted committee of the Congress to appear in front of us 
as a witness?
    Mr. Manson. Yes, I am.
    Ms. Horinko. Yes, I am.
    Mr. Parker. Yes.
    Ms. Peters. Yes, sir.
    Senator Jeffords. Do you know of any matters which you may 
or may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Mr. Manson. No, sir.
    Ms. Horinko. No.
    Mr. Parker. No.
    Ms. Peters. No, sir.
    Senator Jeffords. That ends the hearing. We assure you we 
are going to take up your nominations in a timely process. We 
know you are all anxious to get to work and we need you at 
work, so we will be working very rapidly to get you cleared.
    Thank you all. The hearing is adjourned.
    [Whereupon, at 10:40 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. John McCain, U.S. Senator from the State of Arizona
    Thank you, Chairman Jeffords, for permitting me to introduce Mary 
Peters, who has been nominated to serve as the Administrator of the 
Federal Highway Administration (FHWA).
    I am very pleased the President has selected such an experienced 
and capable individual to fill this important position within the 
Department of Transportation. Mary is a fourth generation Arizonan and 
I know that transferring her residency from Peoria to Washington D. C., 
must come with some trepidations. But while Arizona will miss her, the 
rest of the Nation will certainly benefit from Mary's leadership and 
willingness to take on this new challenge.
    As you all know, the FHWA Administrator plays a critical role in 
overseeing our nation's roads and highways, administering the Federal 
grant programs. These programs provide billions of dollars in funding 
to the States to construct and improve the National Highway System, 
urban and rural roads, bridges, as well as funding for roads in to our 
national parks, Indian reservations and other public lands. Critical to 
carrying out the administrative responsibilities of these grant 
programs is the stewardship of high-dollar transportation projects, 
such as the Big Dig and the Woodrow Wilson Bridge. This must be a top 
priority for the FHWA Administration and I know Mary is well prepared 
to carry out such a responsibility.
    Mary Peters has first hand knowledge of the highway program having 
served in the Arizona Department of Transportation (ADOT) for 16 years. 
She started at ADOT in 1985 and was appointed Director in March 1998. 
Mary has a long and accomplished record and has often received well 
deserved recognition for her efforts. For example, she was named the 
1994 Women's Transportation Seminar Woman of the Year as well as their 
1998 Person of the Year, was profiled by the Arizona Business Journal 
in 1996, recognized as one of the Top 100 Who's Who of Arizona Women in 
Business, and as the Most Influential Person in Arizona in 
Transportation.
    One of Mary's big accomplishments has been her success in 
accelerating Arizona's Regional Freeway System project by 7 years. It 
was originally scheduled to be completed in 2014, but through her 
leadership, it is now projected to be finished in 2007. Under her 
direction, ADOT has been a successful leader in ``design-build'' 
projects, using innovative techniques such as contractual incentives to 
complete road projects with minimal inconvenience to travelers.
    ADOT also has received many awards under Mary's leadership for its 
attention to the environment and visual impact of construction 
projects. And of course Mary was very instrumental in getting the 
Hoover Dam Bypass project underway with the cooperation of Nevada and 
the Federal Government. Early on she recognized this project as 
Arizona's No. 1 priority.
    On a personal side, Mary is one of the kindest persons you'd ever 
want to know. She is a great humanitarian and is genuinely interested 
in the lives of all of her employees. I am told Mary not only knows 
every ADOT employee by their names, but she also knows the names of 
their spouses and children. She understands the importance of family 
and friends and she shows it every day in her care and concern for 
those around her.
    And finally, I cannot resist mentioning an interesting tidbit about 
Mary's past which is a very good indication that she is definitely the 
right person for this job.
    Before Mary became involved in the transportation field, she was in 
the butchering business. She made her living by cutting pork. This 
background should come in very handy for Mary in the months ahead and I 
urge her to rely heavily on her past porkcutting expertise as she works 
to carry out her responsibilities. Mary will undoubtedly face unlimited 
requests to support and fund members pork projects but to the extent of 
her authority, those projects would more appropriately deserve the same 
treatment that she mastered as a butcher.
    Thank you.
                               __________
 Statement of Hon. Blanche L. Lincoln, U.S. Senator from the State of 
                                Arkansas
    As the lead sponsor of S. 1622, the Delta Regional Authority Act, I 
would like to thank Chairman Jeffords for scheduling this hearing on 
the nomination of Pete Johnson to serve as Federal co-chair. Installing 
a Federal co-chair is critical to prompt establishment of the Delta 
Regional Authority, and I hope the committee will swiftly confirm Mr. 
Johnson.
    While I do not know Mr. Johnson personally, my research indicates 
that his experience has prepared him well for this job. Working with 
the Farmers Home Administration, Mr. Johnson became familiar with the 
needs of the Delta region. And his accounting background gives me 
confidence that he will ensure that the Delta Regional Authority 
utilizes the Federal dollars that have been appropriated to it wisely. 
I look forward to working with Mr. Johnson in the coming months as he 
convenes Governors of the States in the Delta region to organize the 
Authority.
    As members of this committee may know, the lower Mississippi Delta 
suffers from a greater measure of poverty and unemployment than any 
other region of the country. Per capita income in distressed counties 
of the Delta is only 53 percent of the U.S. average, and over half of 
the 219 counties and parishes within the Delta Region have had poverty 
rates above 20 percent for the past four decades. I proposed the Delta 
Regional Authority to provide long-term coordination among Federal, 
State and local entities committed to economic development in the Lower 
Mississippi Delta region.
    The creation of jobs, the expansion of existing businesses, and the 
development of local economies are essential to achieving economic 
growth in the region. In order to achieve this growth, resources such 
as an adequate physical infrastructure, a skilled and trained 
workforce, enhanced local leadership, and greater opportunities for 
development and entrepreneurship are needed.
    The Delta Regional Authority will:

    <bullet>  provide technical assistance to small localities that 
have only part-time staff to negotiate the complicated application 
process necessary for acquiring Federal funding for critically 
important transportation, housing, infrastructure and economic 
development projects;
    <bullet>  aid needy localities in meeting the matching fund 
requirements of Federal programs that require such funds; and
    <bullet>  foster cooperation among State, localities, private 
sector interests and charitable, non-profit groups to determine region-
wide solutions to regional problems.

    I thank the chairman and I look forward to working with this 
committee on reauthorization of the Delta Regional Authority next year.
                               __________
   Statement of Brigadier General Edwin J. Arnold, Nominated to be a 
        Member and chairman of the Mississippi River Commission
    Mr. Chairman and members of the committee: I am honored to appear 
before you as the nominee for president and member of the Mississippi 
River Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisers 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    A major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the nation were it not for the protection provided by 
the levees and other flood control works along the main stem of the 
Mississippi and Atchafalaya Rivers. Many have noted that the 
comprehensive project on the lower river provided for passage of major 
floods in 1973, 1983, 1997, and other years without the extensive 
damage suffered in the upper river area during the 1993, 1995, and 2001 
flood events.
    In addition, the navigation features of the project help to 
maintain the river for shipping import and export commodities between 
inland ports and world markets.
    Reorganization of the Corps of Engineers in April 1997 placed the 
entire length of the Mississippi River within one Division of the Corps 
of Engineers. I serve as Commander of this Mississippi Valley Division 
of the Corps. Command of the Division office traditionally has also 
included duties as President of the Mississippi River Commission. The 
reorganization of the Corps now allows management of the Mississippi 
River as a single and unified system and enables the President and 
members of the Commission to more effectively serve as advisers to the 
Chief of Engineers as authorized in the 1879 legislation.
    The Commission members have been active as advisers to the Corps on 
the Upper Mississippi River since the reorganization in 1997. The 
Commission has conducted inspection trips on the Upper Mississippi 
River in August 1997-2001, holding a series of public meetings in the 
St. Paul, Rock Island, and St. Louis Districts each year, in addition 
to the semiannual inspection trips and public meetings in the Memphis, 
Vicksburg, and New Orleans Districts.
    In regard to my personal qualifications, I am a graduate of the 
University of Texas at Austin where I was commissioned in 1972 into the 
U.S. Army Corps of Engineers. I hold both a Bachelor of Science degree 
in Geology and a Master of Science degree in Civil Engineering from the 
University of Texas at Austin. I am also a graduate of the U.S. Army 
Command and General Staff College, School of Advanced Military Studies, 
and the Army War College.
    Since September 2000, I have served as Commander of the Mississippi 
Valley Division and also as president designee of the Mississippi River 
Commission. In this position, I have led and managed the Corps' water 
resources program in the Mississippi River Valley. The boundary of the 
Mississippi Valley Division extends from Canada to the Gulf of Mexico, 
includes portions of 12 States, and encompasses 370,000 square miles. 
The program and activities overseen by the Mississippi Valley Division 
and Mississippi River Commission are conducted by district offices 
located in St. Paul, Rock Island, St. Louis, Memphis, Vicksburg, and 
New Orleans.
    I have served over 29 years in the uniformed military service as an 
Army Engineer. I have commanded at all levels from platoon through 
Division. I served as Resident Engineer, U.S. Army Engineer Division, 
Europe, with duty in Athens, Greece. I was the Battle Lab Director and 
Deputy Commandant at the U.S. Army Engineer School, Fort Leonard Wood, 
Missouri, before I assumed command of the Southwestern Division of the 
U.S. Army Corps of Engineers in Dallas, Texas, my last tour of duty 
before being assigned to my current command of the Mississippi Valley 
Division of the Corps of Engineers, with its headquarters located in 
Vicksburg, Mississippi.
    In my role as Commander of the Mississippi Valley Division, I have 
responsibility for Federal involvement in the areas of flood 
protection, navigation, and environmental preservation along the 
Mississippi River. I directly supervise the programming and expenditure 
of Federal resources through the Army Corps of Engineers Civil Works 
budget within the Mississippi River Valley. My knowledge of the various 
programs and my daily involvement with constituent groups throughout 
the valley make me well qualified for the position of President and 
member of the Mississippi River Commission.
    If confirmed to the position, Mr. Chairman, I would look forward to 
playing a key role in the continual improvement of the Mississippi 
River system and the Mississippi River and Tributaries project by 
applying the most modern practices in water resources engineering. I 
would also look forward to being the President of a Commission that 
focuses not only on the traditional roles of safely passing the 
Mississippi River Basin floodwaters to the Gulf of Mexico, plus 
providing a safe and dependable navigable waterway, but also 
incorporates programs and projects for environmental protection and 
restoration.
    Mr. Chairman, for your information, I have attached my complete 
biography. This completes my prepared statement, and I would be pleased 
to respond to any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
  Statement of Nils J. Diaz, Nominated to be a Commissioner, Nuclear 
                         Regulatory Commission
    Mr. Chairman, members of the committee: It is a pleasure to appear 
before you today. I am honored by President Bush's nomination and by 
the Senate's consideration of my qualifications for a second term as 
Commissioner, U.S. Nuclear Regulatory Commission (NRC). I also 
appreciate that this complex and thorough process was started and 
continues with bipartisan support.
    You may be aware of my credentials from previous appearances before 
you, so rather than take your time, I will briefly state that I am a 
nuclear scientist and engineer by profession. Before coming to the NRC 
in 1996, I was Professor of Nuclear Engineering Sciences at the 
University of Florida, Director of the Innovative Nuclear Space Power 
Institute (INSPI)--a national consortium of industries, universities 
and national laboratories--and President and Principal Engineer of 
Florida Nuclear Associates, Inc. My experience includes thirty-four 
years designing, researching, teaching, training, evaluating and 
managing the engineering, technology and economics of the peaceful uses 
of atomic energy. I have been formally trained in and have practiced 
nuclear medicine in both academic and clinical environments and have 
also owned and operated a few small businesses.
    To the above, I have added 5 years of regulatory experience, 
participating in the exercise and direction of the Commission's 
licensing and regulatory functions. The mission of the Nuclear 
Regulatory Commission is to ensure adequate protection of the public 
health and safety, the common defense and security, and the environment 
in the use of nuclear materials in the United States of America. This 
mission is carried out by an exclusively regulatory mandate. If 
confirmed, I pledge to continue to carry out this mandate and to work 
for a consistently more effective and efficient regulatory framework. 
There is no doubt that the people of the United States want and must 
benefit from effective regulatory operations that assure safe nuclear 
power, radiological and medical industry activities.
    The issue of effective regulation touches every American in our 
increasingly technological society. The effects of a safety-focused, 
efficient NRC regulatory framework are applicable across the board, to 
nuclear power reactors, to fuel manufacturing facilities, to nuclear 
medicine and the radiological industry, to the safe handling, 
transportation and storage of radioactive wastes, and to the NRC 
itself.
    During my first term as Commissioner, many of NRC's activities were 
centered on the safe operation and license renewal of existing nuclear 
power plants. The NRC established initiatives to increasingly focus the 
prescriptive, deterministic regulatory regime on the most safety-
significant matters, employing a more risk-informed and performance-
based approach. By focusing on the most safety-significant matters, 
through a risk-informed approach, the NRC has developed a more 
effective licensing, inspection and enforcement process. Now, it 
appears that the challenge of new power reactor applications could be 
added to the Commission's deliberations. I am prepared to face both the 
existing and the new challenges with the requisite accountability and 
transparency.
    The Commission is also responsible for assuring that the people of 
the United States, and the Congress as their representatives, are fully 
informed of how its responsibilities are discharged, and for 
maintaining its decisionmaking process fully accessible to all 
concerns. I have been, and will continue to be, especially attentive to 
this responsibility.
    I would be honored by the opportunity to help the Commission 
address these issues in a manner consistent with the responsibilities 
assigned by the Congress to the Agency. If confirmed, I will assume the 
Office of Commissioner of the Nuclear Regulatory Commission fully 
cognizant of these obligations and pledging to discharge them to the 
best of my ability.
    Mr. Chairman, Senators, thank you. I am prepared to answer any 
questions that the committee might have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses of Nils J. Diaz to Additional Questions from Senator Corzine
    Question 1. The September 11th terrorist attacks have focused 
attention on the potential vulnerability of U.S. critical 
infrastructure. As a general matter, how do you assess the 
vulnerability of U.S. commercial nuclear reactors to terrorist attacks?
    Response. Nuclear power plants are designed, constructed, and 
operated with many safety features for the protection of public health 
and safety, such as robust containment buildings, redundant safety 
systems, and highly trained operators. They are among the most hardened 
industrial structures in the country and are designed to withstand 
extreme events, such as hurricanes, tornados and earthquakes. All NRC 
licensees with significant radiological materials have emergency 
response plans to enable the mitigation of impacts on the public in the 
event of a radioactivity release. These emergency plans include 
provisions for the coordination of State, local and Federal actions to 
enhance the protection of the public. However, the NRC requirements for 
public protection do not specifically incorporate the consequences of 
large aircraft impacts such as those used in the September 11, 2001, 
terrorist attacks on New York and Washington. Detailed engineering 
analyses of a deliberate large airliner crash have not yet been 
performed, but I understand the Commission intends to critically review 
pertinent information, and I support this effort.
    If confirmed, I intend to consider this issue as a priority for 
review and deliberation.

    Question 2. Recent reports have questioned the adequacy of the 
NRC's Operational Safeguards Response Evaluations. What is your 
assessment of the adequacy of the OSREs?
    Response. The NRC has been considering improvements to its 
safeguard programs for nuclear power plants. The Operational Safeguards 
Response Evaluation (OSRE) program, which is performance-based, was 
designed to improve security inspection efforts by using force-on-force 
exercises conducted by licensees as a method of evaluating their 
response capabilities. While licensees are responsible for identifying 
vulnerabilities in their security programs, their tactical response 
capability has been enhanced by NRC's OSRE program. This program has 
been revised and improved over time as new information was learned, and 
it has proven to be effective in evaluating licensee programs to meet 
design basis threats. The OSRE program has identified a number of 
weaknesses in licensee performance. Where weaknesses were identified, 
NRC ensured that corrective actions were taken.
    NRC security and safeguards oversight activities are not limited to 
the OSREs. The NRC has and will continue to implement the baseline 
safeguards inspection program conducted by NRC inspectors, which 
includes reviews of areas such as access authorization, access control 
measures, audit programs and responses to contingency events.
    A reassessment of the adequacy of the OSREs and other elements of 
NRC's safeguards requirements will be conducted, as discussed in 
Question 3 below.

    Question 3. In July, the NRC announced it was starting a 1-year 
pilot program of the Safeguard Performance Assessments. It has been 
reported that the SPA will be used to determine if the SPA has merit as 
a possible replacement for the OSRE. Do you think that would be a good 
idea?
    Response. It is my understanding that a decision to replace the 
OSRE with the Safeguards Performance Assessment (SPA) has not been 
made. Earlier this year, the Commission recognized that improvements 
could be made to its safeguards activities and, therefore, decided to 
consider alternative potential improvements to the safeguards 
evaluation process. One approach that is being pursued is the SPA pilot 
program, which will be conducted in addition to the ongoing OSRE 
program. For the year 2002, the Commission approved conducting six 
OSREs and eight SPAs. At the conclusion of this program, a 
comprehensive review of the results will be conducted. One aspect of 
this effort will be an evaluation of the effectiveness of safeguards 
requirements and the oversight process.
    If confirmed, I intend to objectively evaluate the agency's 
safeguards and security requirements and oversight programs, including 
the results of the SPA pilot program, OSREs, and the lessons learned 
from the terrorist attacks on America, and work with the Commission to 
finalize a decision on our licensees' safeguards and security 
requirements.

    Question 4. One of the ideas currently under consideration in 
Congress is Federalization of airport and airline security. Do you 
think that Federalization of security at nuclear reactors is an idea 
that Congress should consider? Are there any other security-related 
ideas or additional authorizations that you believe that Congress 
should consider?
    Response. Federalization of security at nuclear reactors has been 
previously considered as part of the agency's safeguards and security 
programs. For example, in 1976 the NRC conducted a study, the Security 
Agency Study, which was transmitted to Congress on August 19, 1976. 
This study examined whether security forces should continue to be 
employed by individual licensees with reliance on local law enforcement 
personnel for emergency assistance or whether a Federal security force 
should be created within the NRC to perform security functions. The 
Security Agency Study concluded that the creation of a special security 
force would not result in a higher degree of guard force effectiveness 
than that which could be achieved through the use of private guards who 
have been trained and properly certified. To this day, this conclusion 
has been in effect.
    Recently, the Commission made several legislative proposals to the 
Congress to provide Federal authority in the safeguards and security 
area. These recommendations would 1) authorize guards at NRC-licensed 
facilities to carry and use weapons to protect property of significance 
to the common defense and security located at facilities owned or 
operated by a Commission licensee; 2) make it a Federal crime to 
introduce dangerous weapons, explosives or other dangerous instruments 
into facilities subject to NRC's licensing or certification authority; 
and 3) make it a Federal crime to commit certain acts of sabotage 
during the construction of a production, utilization, or waste storage 
facility. I believe it would be appropriate for Congress to consider 
these recommendations.
    Furthermore, even before the September 11th attacks, I had urged 
that we study how the term ``enemies of the state'' (10 CFR 50.13 
``Attacks and Destructive Acts By Enemies of the United States; and 
Defense Activities'') has been interpreted by the agency. I believe 
that in light of the terrorist attacks of September 11, 2001, it is 
appropriate for that interpretation to be reassessed, as well as other 
ideas regarding Federalization of security.
    If confirmed, I am ready to work with my fellow Commissioners and 
the Congress to consider what is necessary for the common defense and 
security as applicable to nuclear reactor safeguards.
                                 ______
                                 
  Responses of Nils J. Diaz to Additional Questions from Senator Reid
    Question 1. In your view, what is the role of the Nuclear 
Regulatory Commission (NRC) with respect to site suitability, licence 
application, waste acceptance and closure of a geologic repository?
    Response. My understanding of the NRC's role for the issues cited 
above is as follows:

    a) Site Suitability: The NRC role is to provide preliminary 
comments on the sufficiency of DOE's at-depth site characterization and 
waste form proposal information which could be used to support the 
License Application. NRC is required by statute to conduct prelicensing 
actions, including interactions with Department of Energy (DOE) and 
other stakeholders to provide the basis for any comments. NRC also is 
required to comment on the required Draft Environmental Impact 
Statement (DEIS) which accompanies a Site Recommendation. The NRC's 
initial comments on the DEIS have been provided to DOE and made public.
    b) License Application: NRC has established procedures to receive 
and review license applications for completeness. If an application is 
submitted, the NRC must determine whether it is complete. If it is 
complete, NRC would docket it and notify the public. NRC would then 
conduct a thorough safety review of the application and publish its 
results in a safety evaluation report. NRC would also determine whether 
it is practical to adopt DOE's Environmental Impact Statement and would 
conduct a formal hearing before a licensing Board. Then, the Commission 
would, after deliberation on the evidence presented, including the 
findings of the Board, make a decision on the application, with respect 
to whether or not to authorize construction.
    c) Waste Acceptance: NRC review and approval would be required 
before any waste is authorized to be received at the site. A process 
similar to the process for a construction authorization discussed above 
would be followed. DOE would have to update the safety analysis report 
and the NRC would conduct a new hearing to make a decision as to 
whether to approve receipt and possession of waste onsite based on 
compliance with the EPA standard. The NRC would conduct inspections to 
assure that the waste received was in compliance with the 
specifications contained in the application.
    d) Closure: NRC review and approval of DOE's amendment for closure 
would also be necessary. NRC would repeat the process discussed above 
and the DOE's amendment would include an appropriate update with any 
new information.

    If confirmed, I intend to make a fair, open-minded and objective 
evaluation of the information on the record with respect to site 
suitability and, if an application for a geologic repository is 
submitted, and on any decisions on a license application concerning 
construction, waste acceptance and closure of a geologic repository.

    Question 2. Do you believe that the NRC should require full-scale 
testing of casks used for the transportation of high-level nuclear 
waste?
    Response. The NRC staff believes the current regulatory approach of 
relying on modeling, analysis and/or physical testing, as well as scale 
model testing of transportation casks, is adequate to demonstrate the 
acceptability of the cask design and compliance with the requirements 
of 10 CFR 71 without requiring that all casks be subjected to full-
scale testing. The casks are required to pass the design basis accident 
testing requirements of 10 CFR 71 which are rigorous and include a 30 
foot drop test on an unyielding surface, followed by puncture, fire, 
and submersion tests.
    The staff is also initiating a new study, referred to as the 
Package Performance Study, which will examine the ability of 
transportation casks to withstand severe, beyond design basis 
accidents. This study is planned to include physical testing to 
evaluate the cask's performance under accident conditions more severe 
than the hypothetical accident tests. The staff will use the results of 
this study to verify and validate the transportation accident modeling 
and analysis, and will propose any changes in the regulatory approach, 
as appropriate. In addition, the staff is following closely the 
examination of the recent Baltimore tunnel train fire to learn any 
information that should be considered relevant to NRC requirements.
    If confirmed, I will review the results of staff analyses to 
ascertain the adequacy of the approach, and will also assess the 
results of the tests to ensure that adequate protection of the public 
is maintained. If I conclude that additional full-scale testing is 
necessary, I will make such a recommendation to the Commission.

    Question 3. If the evidence presented by the Department of Energy 
in their licence application for Yucca Mountain appears to indicate the 
health and safety of Nevadans cannot be secured, would you be willing 
to disapprove a license? What type of evidence do you believe is 
sufficient to disqualify the site?
    Response. I will disapprove a license application for Yucca 
Mountain if adequate protection of health and safety cannot be secured 
for Nevadans. The decision to approve or disapprove will be made solely 
upon an assessment of the safety merits of the application and of all 
pertinent information.
    If confirmed, I will insist that the information provided is 
comprehensive, valid to state-of-the-art standards, and that DOE has 
satisfied the burden of proof that EPA's standards will be met.

    Question 4. The Environmental Protection Agency's radiation 
protection standards for the Yucca Mountain site limit the compliance 
period to 10,000 years. If the maximum exposures are shown to occur 
after 10,000 and they are larger than the standards set by the EPA for 
the first 10,000 years of the repository, should the Nuclear Regulatory 
Commission consider disqualifying the site?
    Response. The Energy Policy Act of 1992 required the EPA to 
establish specific radiation protection standards for a mined geologic 
repository at Yucca Mountain. The Act requires that the NRC make an 
assessment of the application to ensure compliance with EPA standards. 
In June, 2001, the EPA promulgated its standards which established a 
10,000 year compliance period. Under the Act, the EPA standards, and 
NRC's conforming regulations, applicable to a repository at Yucca 
Mountain, establish the standard for adequate protection of the public 
health and safety. Presently, the EPA standards, including the 10,000 
year compliance period, are being challenged in the courts. It is 
possible that this could result in changes that would require a new 
determination of adequacy by the NRC. Also, the U.S. Congress may 
determine, based on pertinent health and safety information, that a 
different compliance period is necessary.
    If confirmed, I will be bound by the NRC regulations and the EPA 
standards applicable to Yucca Mountain as they stand at the time of 
decisionmaking.

    Question 5. Reports indicate that the proposed pebble bed modular 
reactors would be built without a containment structure. In light of 
the recent terrorist attacks in New York City and Washington, DC, do 
you think the Nuclear Regulatory Commission should require containment 
structures for these designs?
    Response. The Commission has required that a containment structure 
be included for all licensed light water reactors (LWRs) as a last 
physical barrier for protection against the release of radioactivity. 
As more detailed information is acquired for potential accident 
scenarios for pebble bed modular reactors (PBMR), decisions about the 
necessary protective systems and structures will be made. I believe 
that the protective systems for the PBMRs should be capable of 
providing an equal or greater level of protection against the release 
of radioactivity as that provided by LWRs. Additional requirements 
could be needed based on analyses of the recent terrorist attacks.

    Question 6. In light of the recent terrorist attacks and the 
reported failure of many plants during NRC training exercises, should 
the NRC reconsider implementing a self-regulated, industry training 
program?
    Response. The NRC has been considering improvements to its 
safeguards program for nuclear power plants. The Operational Safeguards 
Response Evaluation (OSRE) safeguards program, which is performance-
based, was designed to improve security inspection efforts by using 
force-on-force exercises conducted by licensees as a method of 
evaluating their response capabilities. While licensees are responsible 
for identifying vulnerabilities in their security programs, their 
tactical response capability has been enhanced by NRC's OSRE program. 
This program has been revised and improved over time as new information 
was learned, and it has proven to be effective in evaluating licensee 
programs to meet design basis threats. The program has identified a 
number of weaknesses in licensee performance. Where weaknesses were 
identified, NRC ensured that corrective actions were taken.
    It is my understanding that no decision has been made to replace 
the OSRE with the Safeguards Performance Assessment (SPA). Earlier this 
year, the Commission recognized that improvements could be made to its 
safeguards activities and, therefore, decided to consider alternative 
potential improvements to the safeguards evaluation process. One 
approach which is being pursued is the SPA pilot program, which will be 
conducted in addition to the ongoing OSRE program. For the year 2002, 
the Commission approved conducting six OSREs and eight SPAs. At the 
conclusion of this program, a comprehensive review of the results will 
be conducted. One key aspect of this effort will be an evaluation of 
the effectiveness of safeguards requirements and the oversight process.
    NRC security and safeguards oversight activities are not limited to 
the OSREs and the SPAs. The NRC has and will continue to implement the 
baseline safeguards inspection program conducted by NRC inspectors 
which includes reviews of areas such as access authorization, access 
control measures, audit programs and responses to contingency events.
    If confirmed, I intend to objectively evaluate the NRC's safeguards 
oversight activities including the SPA pilot program and the OSREs, and 
work with the Commission to finalize a decision on whether to implement 
a self-regulated, industry training program.

    Question 7. If economics will play the greatest role in the 
decision to license and build new nuclear reactors, what are the most 
important factors affecting the economic competitiveness of proposed 
and existing nuclear power plants?
    Response. Economics will play a dominant role in the industry 
decision to build a new nuclear power plant, but the Commission has no 
statutory role in aiding the industry's economic decision. NRC has the 
responsibility to license and regulate nuclear power plants, and to 
maintain a regulatory regime that, first and foremost, protects the 
public health and safety, and the environment. I believe it must do so 
in an efficient and effective manner.
    Although the intricacies of business decisions are outside our role 
as a health and safety regulator, I would expect that the factors which 
are an important part of the business decision associated with a new 
electricity production facility would include a broad range of issues. 
One of the most important considerations would logically be the need 
for electricity in a specific area of the country. Other considerations 
would likely include the costs associated with planning, construction 
and operation of the facility; an evaluation of alternatives for 
electricity production such as natural gas, coal, or purchase 
agreements with other producers; State, local and Federal license and 
permit approvals; and the public environment or attitudes related to 
the primary alternatives being considered.

    Question 8. Do you expect the nuclear power industry to apply for a 
license to construct a new nuclear power plant within the next 10 
years? If so, do you expect that this will be a pebble bed modular 
reactor, a conventional light-water reactor, or another type?
    Response. The industry has expressed their intention to explore the 
addition of new nuclear power plants. There are various possible 
scenarios, but it appears that a new power plant within the next 10 
years is not out of the question. The type of reactor that could be 
selected would depend on factors such as the need for power, plant 
economics as well as other industry requirements, including the lead 
time for plant operation, and NRC's licensing requirements. In the 
short term, utilizing the existing certified light water designs could 
expedite bringing a new plant online. On the other hand, applications 
for new advanced designs, such as the pebble bed modular reactor, could 
necessitate significant analysis but could offer other advantages.
                               __________
Statement of Patrick Hayes (Pete) Johnson, Nominated to be Co-Chairman 
                    of the Delta Regional Commission
    Mr. Chairman and members of the committee: Thank you for the 
opportunity to appear before you this morning as you consider President 
George W. Bush's nomination of me as Federal Co-chairman of the newly 
created Delta Regional Authority. I am especially appreciative and 
humbled by my long time friends Senator Thad Cochran and Senator Trent 
Lott being here today in support of my nomination. In fact it is they 
who recommended me to the President and should this committee choose to 
recommend me to the full Senate I will work diligently to live up to 
their expectations and those of the President as well as those of this 
committee and the entire Congress.
    As a point of personal privilege I would like to take this 
opportunity to introduce to the committee my family who is here with me 
today. My wife Margaret of 31 years, our daughter Mary Margaret Johnson 
who currently lives and works in Atlanta and Anne Clark Downing and her 
husband of 3 weeks Steve Downing. They too live and work in Atlanta. 
The weekend Anne Clark and Steve were married Mary Margaret became 
engaged and we are excited about having another son-in-law.
    When I was first approached about this position I said I was not 
interested but after prayerful consideration and talking with those 
whose opinions I value it became apparent that I could not pass up the 
opportunity to make a positive impact on the lives of the people 
throughout our region for generations to come. When I was a young trust 
officer of our home town bank I was charged with settling the estate of 
one of our prominent local elected officials. When I sat at the desk he 
toiled over for his entire life I noticed a small piece of paper under 
the glass on top of his desk and on it he had typed ``What you do for 
yourself dies with you and what you do for others lives on.'' Indeed, 
as I come before you today hoping you will find favor in my nomination 
I come with a desire to be part of building an economy in our region 
that will change the lives of our citizens for generations to come.
    Public service in my family is not a casual undertaking. In fact I 
am the third generation in our family to be involved in public service. 
My grandfather was a Member of Congress serving the 6th District of 
Mississippi in 1918 through 1922. He returned home to serve our State 
as a Judge and later Governor. My uncle served our State as Lt. 
Governor and Governor and I have served our State as State Auditor and 
our nation as State Director of USDA's Farmers Home Administration.
    I spent the early years of my life on a small farm in south 
Mississippi. My family was unable to put me through college however I 
graduated from the University of Mississippi in 1971 after working my 
way through waiting tables and a variety of other jobs. Law school was 
no easier. I complete night law school while holding down a full time 
job with the First National Bank of Jackson, Mississippi. At age 26 I 
was named to head one of the State's largest trust departments with the 
Bank of Clarksdale in Clarksdale, Mississippi.
    For almost three decades I have been active in trying to make our 
community, State and region a better place to live. The Delta Regional 
Authority holds great promise for our region and I believe that with 
your help we can change the lives of millions of Americans for 
generations to come.
    Again, thank you for the opportunity to appear before you today. 
I'll be glad to try and answer any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Responses of Patrick Hayes (Pete) Johnson to Additional Questions from 
                            Senator Jeffords
    Question 1. Please explain in detail the operation of Correction 
Systems of Mississippi, Inc. Please include the explanation your 
relationship to the corporation before your nomination as Federal Co-
Chair of the Delta Regional Authority and how the relationship will 
change if confirmed to the position.
    Please include in your response information on the following:

    a) ownership interest in Correction Systems;
    b) payment of management fees to you by Correction Systems;
    c) dividends received/to be received by you from Correction 
Systems;
    d) promissory notes issued to you by the company; and
    e) any other relevant information regarding your relationship with 
Correction Systems.

    Response. As State Auditor of Mississippi from 1988 to 1992 my 
staff conducted a study concerning the feasibility of privatizing 
correctional facilities. The conclusion was that there would be 
substantial savings to the State if privatization was implemented. Two 
years after leaving office a State Senate committee called and asked me 
to appear before it and discuss my findings. At that time the State was 
under a court order to relieve prison overcrowding and a Federal Judge 
had imposed a penalty on the State of $500 per inmate per day. During 
conversations with Department of Corrections staff I was asked if I 
knew of anyone who could provide a restitution correctional facility 
for female prisoners in the Jackson, Mississippi area. I personally 
embarked on the task and formed Correction Systems of Mississippi, Inc. 
Which now leases the facility to the State of Mississippi. I own 100 
percent of the company. I am compensated in the form of a management 
fee which is paid on a monthly basis. Should I be confirmed by the 
Senate I will withdraw from active participation in the company at 
which time any compensation received by me from the company will be in 
the form of dividends. Presently the company owes me funds loaned to it 
by me which were used by the company to settle contractor claims. The 
company pays me $5,415.10 per month to service that debt and I in turn 
pay to Valley Bank $3,301.70 per month. The contract with the State 
will expire in 3 years unless re-negotiated prior to that time.

    Question 2. Please explain your relationship with the Clarksdale 
Country Club. Please include in your response:

    a) any ownership interest you have had or currently have in the 
organization;
    b) your current relationship with the club;
    c) a detailed description of the Clarksdale Country Club's policy 
for voting on new prospective members including past practices and 
current practices;
    d) a detailed description of current or past Clarksdale Country 
Club by-laws or practices that may have discriminated against persons 
based on race, creed, color, religion, or sex; and
    e) any other relevant information regarding your relationship to or 
membership in the Clarksdale Country Club.

    Response. Over the past 25 years I have been a member of the 
Clarksdale Country Club. When I left Clarksdale in 1988 to assume the 
State Auditor post in Jackson, Mississippi I sold my stock. Upon moving 
back to Clarksdale in 1991 my wife was given stock in the Country Club 
which is now in her name. Twenty 5 years ago any 3 members could deny 
anyone membership for any reason and a prominent local accountant was 
denied membership for what some of us thought was because he was 
Jewish. I was part of a group that led an effort to change the by-laws 
so that this would not happen again. The negative votes requirement was 
raised to 25 and since that time a number of our Jewish friends have 
become members. Recently an African American physician applied for 
membership. He received 25 negative votes and was denied membership. 
Once again I joined an effort to change the by-laws to raise the 
threshold so that a small group could not thwart the will of the entire 
membership. Our proposal to raise it to 200 was too ambitious and the 
membership voted the change down. Since that time I have successfully 
negotiated a compromise with those opposing the 200 requirement. The 
compromise included that those opposed to the 200 requirement would 
recruit, if necessary, sponsor and support an African-American family 
in the Clarksdale Country Club.

    Question 3. Please detail your service as chairman of the 
Mississippi Marketing Counsel. Please include in your answer your role 
and responsibilities as chairman.
    Was this an appointed position? If so, who appointed you?

    Response. I was appointed to this position by Governor Bill Allain. 
At one time it had the responsibility of marketing and promoting 
Mississippi products however, upon assuming the position I realized 
that it essentially had no power. I convened the counsel on two may be 
three occasions and concluded that it was not a good use of the 
Taxpayers money and recommended that it be abolished. To my knowledge 
my recommendation was eventually followed.

    Question 4. Please detail your service as the State Director of the 
Farmers Home Administration. Please include in your answer your role 
and responsibilities as State director.
    Was this an appointed position? If so, who appointed you?

    Response. I was appointed by former President Bush to this position 
in 1992. I oversaw the farm and rural development programs in 
Mississippi for USDA. That included loan and project approval. Loans 
were made for struggling farmers and low income housing and grants were 
made to rural communities for sewer, water and business and industry 
development programs. It was one of the largest State offices in the 
United States at that time. Since serving in that position the 
responsibilities have been divided into separate agencies.
                               __________
Statement of Brigadier General Carl A. Strock, Nominated to be a Member 
                  of the Mississippi River Commission
    Mr. Chairman and members of the committee: I am deeply honored to 
appear before you as a nominee for membership on the Mississippi River 
Commission. As a soldier, an engineer, and a life-long public servant I 
am excited about this opportunity to serve the nation in this important 
capacity. Mr. Chairman, I would like to make a brief statement about 
the Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for this appointment.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the Commissioners were to serve as advisers 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all or portions of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    A major flood on the lower Mississippi River would have 
catastrophic effects on the inhabitants of the Mississippi Valley and 
the economy of the nation were it not for the protection provided by 
the levees and other flood control works along the main stem of the 
Mississippi and Atchafalaya Rivers. Many have noted that the 
comprehensive project on the lower river provided for passage of major 
floods in 1973, 1983, 1997, and other years without the extensive 
damage suffered in the upper river area during the 1993, 1995, and 2001 
flood events.
    In addition, the navigation features of the project help to 
maintain the river for shipping import and export commodities between 
inland ports and world markets.
    I am well qualified to serve as a member of the Mississippi River 
Commission by virtue of my education, professional qualifications, 
experience, and commitment to public service. I hold a Bachelor of 
Civil Engineering degree from The Virginia Military Institute and a 
Master of Civil Engineering degree from Mississippi State University. I 
belong to a number of engineering societies and am a registered 
professional engineer in the State of Missouri. I am also a graduate of 
the Army's Command and General Staff College and the National War 
College, institutions that develop leadership, strategic thinking, and 
decisionmaking in a values-based environment.
    In addition to my formal education my 30 years of service in the 
United States Army have prepared me for the responsibilities I will 
assume as a member of the Mississippi River Commission. Besides 
extensive service in combat engineer assignments I have three 
assignments in the Corps of Engineers and considerable experience in 
engineering and construction from the project to the corporate level. 
From 1980 to 1983 I served in Mobile District as a Project Engineer 
multiple projects on the Tennessee-Tombigbee Waterway in Mississippi 
and Alabama. I also served as Resident Engineer on Columbus Air Force 
Base in Mississippi. My service as a senior officer in the U.S. Army 
Corps of Engineers has provided me with the opportunity to work with 
leaders and agencies at the local, State, and national level and with 
non-governmental organizations. These relationships coupled with my 
sound working knowledge of authorities and legislative processes will 
enable me to help fashion balanced solutions to complex problems that 
best serve the interests of the people and the nation.
    From 1997 to 1999 I commanded the Pacific Ocean Division in 
Honolulu, Hawaii. In that capacity I had responsibility for the 
construction and maintenance of numerous shallow and deep draft 
harbors, navigation channels, coastal protection structures and flood 
control ,works--most in environmentally sensitive areas of Alaska and 
Hawaii.
    From 1999 to 2001 I commanded the Northwestern Division in 
Portland, Oregon. The Northwestern Division covers 14 States and has 
responsibility for two major drainage basins, the Columbia and the 
Missouri. While my experience in the Northwest contributed dramatically 
to my understanding of the economic, engineering, and environmental 
considerations of major rivers, it is my experience on the Missouri 
that will be most valuable to the Commission. I have a detailed 
understanding of the Missouri River and its impact on the Mississippi 
River. During certain periods of the year the Missouri contributes up 
to 70 percent of the flow of the Mississippi in the reach between St. 
Louis and Cairo. This fact illustrates the value of a Commissioner who 
has an understanding of the interaction between these two great rivers. 
Over the past 2 years I served on the Commission as a member-designee. 
During this time I participated in four inspection trips and became 
very familiar with the Mississippi River and Tributaries project and 
those works that make the system so effective in flood damage reduction 
and navigation. I have worked hard to develop a true understanding of 
the interests of the many groups who use and enjoy the River and depend 
on the Corps to address their concerns--navigators, farmers, sportsmen, 
port operators, levee boards and drainage districts, environmental 
interest groups, and others.
    If confirmed for this position, Mr. Chairman, I look forward to 
playing a key role in enhancing the economic vitality and environmental 
quality of the Mississippi River and its tributaries.
    Mr. Chairman, for your information, I have attached my complete 
biography. This completes my prepared statement.
    Again, thank you for your consideration. I would be pleased to 
respond to any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Statement of Marianne Lamont Horinko, Nominated to be Assistant 
     Administrator, Office of Solid Waste and Emergency Response, 
                    Environmental Protection Agency
    Mr. Chairman, Senator Smith, and distinguished members of the 
committee: Thank you for the privilege of coming before you today. I am 
honored that President Bush nominated me to be Assistant Administrator 
for the Office of Solid Waste and Emergency Response (OSWER) at the US 
Environmental Protection Agency (USEPA). I believe that all of the 
public and private sector positions that I have been fortunate enough 
to hold in the past have set the stage for this opportunity to serve 
our country. If confirmed, you have my word that I will bring 
thoughtful deliberation, integrity, and enthusiasm to the challenges 
that loom ahead.
    I am especially proud to introduce my husband, Tim Horinko, my 
children, Kaitlyn and Hunter, my parents, John and Johanna Maccini, and 
my in-laws, Terry and Larry Horinko. Finally, I would also like to 
thank my many colleagues and friends who have given so generously of 
their support and friendship--not just today, but always.
    I am particularly attracted to this opportunity to serve EPA 
because, thanks to my father, I probably have some groundwater running 
through my veins. My dad is a geologist who worked for many years as a 
university professor and career civil servant at the National Science 
Foundation. He taught me to love science, and by example, showed me 
that public service was not merely a job, but a higher calling. My 
mother provided strong support and reinforcement of our love of science 
and curiosity about our natural environment. Their great respect for 
the natural treasures of our lands impressed me deeply, and it is 
because of their early influence that I chose the protection of the 
environment as my own profession.
    In my testimony today, I would like to share some of the key themes 
and approaches I would bring to this position, if confirmed. They 
include: innovation, information sharing, and partnerships.
    One of my principal observations is that there has been a sea 
change in Federal attitudes and approaches to managing waste since I 
left EPA. The old command and control method has been supplemented, in 
some measure, by partnerships and consensus building as the means of 
cooperative problem solving.
    The expansion of Brownfields approaches to other OSWER programs is 
a symbol of that new way of thinking, and it carries the message of 
productive future land uses as determined by local communities to all 
of our waste efforts.
    An example of that innovation is the emerging linkage between 
environmental cleanup and community revitalization. The Brownfields 
story is all about a new way of doing the government's business. Like 
Governor Whitman and President Bush, I wholeheartedly support passage 
of Brownfields legislation during this session of Congress. With a 
strong Brownfields bill and working in tandem with State and local 
brownfields efforts, there is no limit to what we can accomplish.
    Significant challenges face the EPA work force. Much has been made 
about the baby-boomer retirement outflow, and the need for a newly 
energized and well-equipped work force to address the challenges of the 
future. We need to build a work force that cherishes diversity, rewards 
innovative thinking and creates an atmosphere where programmatic risk-
taking is encouraged.
    I think that there is also great opportunity on the information 
side of the equation. More emphasis needs to be placed on ensuring that 
all stakeholders have access to clear and understandable information 
about the health and environmental risks they face. Policymaking cannot 
and should not exist in a vacuum. I believe that the people who create 
Federal regulations should be required to meet face-to-face with the 
citizens whose lives they impact. What better way to experience, first 
hand, how the policies we make here in Washington, can affect the 
comfort and quality of life in our towns and cities across the United 
States?
    People outside the Agency tell me that it's impossible to figure 
out who does what in government in order to get simple answers to their 
questions. Through partnerships and collaboration, the sharing of 
information and practices among our cleanup programs will reduce the 
inconsistencies that often plague our stakeholders. If confirmed, I 
plan to work closely with our State and Tribal partners to ensure that 
all cleanups are both protective of human health and the environment, 
as well as implemented with an eye toward community revitalization.
    Finally, given the tragic events of September 11, I feel that I 
must take a moment to talk about a key role for the OSWER Assistant 
Administrator as EPA's lead on counter-terrorism. I spent virtually all 
of that fateful day with Governor Whitman and the outstanding staff at 
our Emergency Operations Center on Pennsylvania Avenue. Amid an ocean 
of chaos, we observed, with wonder and awe, an island of calm, steady 
professionals who make up EPA's emergency response team. These 
individuals are not only technically and substantively competent, but 
have pulled together an organized approach to dealing with the horror 
of chemical, biological or air attacks on our citizens. When terror 
struck on Tuesday, they sprung into action and made certain that the 
public health and safety of our people were protected and assured. They 
are truly the unsung heroes of our government. If confirmed, I pledge 
to give our counter-terrorism activities the highest priority, and to 
do all that I can to make their jobs easier.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Responses of Marianne Lamont Horinko to Additional Questions from 
                            Senator Jeffords
    Question 1. This past July, Resources for the Future released a 
publication titled ``Superfund's Future: What Will It Cost?'' One of 
the major findings is that considerable work remains to be done at 
sites already on EPA's National Priorities List, and that EPA's 
Superfund costs will not decline before 2006 at the earliest. These 
conclusions are contrary to views that the Superfund program is 
``winding down.'' I am interested in your understanding of the progress 
of the Superfund program. What is the current revenue remaining in the 
Superfund Trust Fund? How many sites will be added to the NPL this 
year? How many NPL sites will achieve construction complete listing 
this year? What do you believe is the future of the Superfund Program?
    Response. EPA expects that the balance of revenue remaining in the 
Superfund Trust Fund at the end of fiscal year 2001 will be 
approximately $955 million.
    EPA has proposed listing 45 sites on the National Priorities List 
(NPL) this fiscal year. EPA has also finalized 29 sites on the NPL this 
fiscal year. No additional sites will be proposed or listed in fiscal 
year 2001.
    The Agency is working to complete construction, before the fiscal 
year ends, at as many sites as possible to reach the Agency's goal of 
75 construction completions. While the Agency is making much progress 
on cleaning up these sites, the Agency expects the final number of 
construction completions, for a variety of reasons, to be lower than 
the original goal. One key factor affecting the final number of 
construction completions is that many of the sites with remaining work 
tend to be more complex, on average, than those already completed. 
Nonetheless, the Agency is committed to and will continue to work at 
these and other Superfund sites to ensure that they are cleaned up as 
quickly as possible.
    As I stated in my testimony, my key themes would be innovation, 
information sharing, and partnerships. These concepts will be applied 
to the Superfund program through expanding Brownfields, better 
involving the community in such things as future land use, and ensuring 
better access to environmental information. If confirmed, I plan to 
work very closely with this committee, and look forward to our 
cooperative efforts to speed Superfund cleanups.

    Question 2. Under RCRA, EPA has a statutory responsibility, with 
the Office of Federal Procurement Policy, to ensure that Federal 
agencies and all political subdivisions using appropriated Federal 
dollars are purchasing products containing recovered content. In 
addition, there is still a operative Executive Order (no. 13101), which 
requires EPA to provide advice to Federal agencies on and require those 
agencies to buy environmentally preferable products. A recent GAO 
report was critical of the implementation of the program, including the 
availability of useful data that Congress can use to effectively 
oversee the program and determine whether the Agencies are in 
compliance. Will you support continuation and strengthening of these 
procurement efforts?
    Response. Yes, I support the continuation and strengthening of the 
procurement efforts of Federal agencies and am committed to working 
with The Office of Federal Environmental Executive to promote the use 
and purchase of products made with recycled content and to assist 
agencies across the Federal Government, to comply with the Executive 
Order 13101.
    I recognize that a recent GAO report was critical of the 
implementation of this program, and the Agency is reviewing this report 
carefully. I do know however, EPA is currently developing a secure, 
internet-based data base with the names of product suppliers and 
manufacturers that will be accessible by users from any web browser 
connected to the internet. This project ensures that EPA will be better 
able to provide procuring agencies with up-to-date information they can 
use to buy recycled-content products.

    Question 3. Recently, EPA issued a Chemical Safety Advisory which 
said, at this time of heightened alert, the U.S. Environmental 
Protection Agency (EPA) in coordination with the U.S. Department of 
Transportation and the Federal Bureau of Investigation (FBI) suggests 
that those who manufacture, distribute, transport or store hazardous 
chemicals should be especially vigilant regarding the physical security 
of those chemicals.
    You may be aware of the accident prevention provisions (section 
112(r)(7)) of the Clean Air Act, as amended by PL106-40. OSWER has been 
given the primary responsibility at the Agency for implementing these 
provisions, which include providing access to information on the 
offsite consequences of accidents, including those caused by criminal 
or terrorist acts, to local emergency response personnel, qualified 
researchers and limited access to the public. That law also requires 
EPA to assist the Attorney General in preparing and submitting to 
Congress an overdue report on the vulnerability of the facilities 
mentioned above to criminal and terrorist activities.
    Question 3a. What steps will you take to ensure that the owners and 
operators of facilities addressed in the Agency's Advisory have acted 
or are acting to comply with their general duty under section 112(r)(1) 
to identify hazards, design and maintain safe facilities, prevent 
releases and to minimize the consequences of releases that do occur?
    Response 3a. I look forward to exploring with EPA and other 
government decisionmakers the policy, resource and legal issues 
relevant to determining what steps should be taken to safeguard 
hazardous chemicals from criminal and terrorist acts, and will keep you 
informed of our progress. To date, EPA has taken prudent steps, 
including issuance of the Site Security Alert, to warn chemical 
facilities of the potential for criminally caused releases and to 
advise them of available measures for increasing site security. The 
Agency has yet to take an enforcement action against any facility for 
failure to adequately secure its site.
    EPA is also assisting the Department of Justice in its study of the 
vulnerability of chemical facilities to criminal and terrorist activity 
and current industry practices regarding site security. From the study, 
we expect to learn more about possible measures for increasing site 
security and to communicate those measures to industry.

    Question 3b. Will you provide the committee with a regular update 
on the Agency's efforts to ensure that this general duty requirement is 
being actively implemented?
    Response 3b. If confirmed, I will certainly update the committee on 
the Agency's efforts to ensure that this general duty requirement is 
being actively implemented 4. Question: I am pleased by your enthusiasm 
for recycling. At today's hearing, you spoke of recycling being a 
``gateway'' to engage consumers. I agree and look forward to working 
with you on this important issue. How can we promote an increase in 
nationwide recycling efforts? What additional administrative actions 
can be taken by EPA that are not already in place? What type of 
legislation is necessary at the Federal level?
    Response. To increase recycling nationally, attention must be 
directed to two fronts simultaneously: fostering the viability of 
markets for secondary or recycled materials; and helping local 
governments learn how to reduce the cost burden of collecting and 
processing recyclable materials. In partnership with government and 
industry, EPA can foster extended product responsibility and product 
stewardship, encouraging voluntary efforts by manufacturers to reduce 
waste, use secondary materials as feedstock, and to take back products 
at the end of their useful life. Through training and outreach, EPA can 
help transfer lessons learned from one community to others. EPA can 
publicize new and expanding recycling technologies. Assistance, 
outreach, and education can go far to advance recycling across the 
natin. If confirmed, I look forward to working with the committee to 
advance the cause of recycling.
    Question 4. I am pleased by your enthusiasm for recycling. At 
today's hearing, you spoke of recycling being a ``gateway'' to engage 
consumers. I agree and look forward to working with you on this 
important issue. How can we promote an increase in nationwide recycling 
efforts? What additional adminstrative actions can be taken by EPA that 
are not already in place? What type of legislation is necessary at the 
Federal level?
    Response. To increase recycling nationally, attention must be 
directed to two fronts simultaneously: fostering the viability of 
markets for secondary or recycled materials; and helping local 
governments learn how to reduce the cost burden of collecting and 
processing recyclable materials. In partnership with government and 
industry, EPA can foster extended product responsibility and product 
stewardship, encouraging voluntary efforts by manufacturers to reduce 
waste, use secondary materials as feedstock, and to take back products 
at the end of their useful life. Through training and outreach, EPA can 
help transfer lessons learned from one community to others. EPA can 
publicize new and expanding recycling technologies. Assistance, 
outreach, and education can go far to advance recycling across the 
nation. If confirmed, I look forward to working with the committee to 
advance the cause of recycling.
                               __________
   Responses of Marianne Lamont Horinko to Additional Questions from 
                             Senator Smith
    Question 1. The Toxic Release Inventory (TRI) data base and public 
information program has been in place for some time. Recent addition of 
the waste services industry to the TRI system appears to invite 
confusion about the entities responsible for reported chemical releases 
to the environment and where such releases actually occur.
    For example, a company shipping waste containing TRI chemicals to 
an offsite RCRA Subtitle C TSD facility must report this ``transfer'' 
to a permitted facility as an ``offsite release.'' This transferred 
amount is then added to the generator's actual releases to air, land, 
and water to determine the company's ``total releases.'' In reality, 
however, the transferred chemicals were managed at a permitted RCRA 
facility distant from the community (or even State) which must itself 
report the TRI chemicals as a release to the environment where they are 
located. EPA later corrects for this double counting in determining 
overall totals. This raises a number of important questions:
    a) Is this an accurate summary of the current TRI reporting 
requirement for such waste transfers?
    b) Is this approach required by statute or regulation? If so, 
please provide specific citations. If a matter of agency policy, please 
confirm.
    c) Why is a company which transfers TRI chemicals contained in 
waste shipped to a permitted RCRA Subtitle C facility for final 
disposition (which may include disposal or recycling) required to 
report this transfer as a release to the environment?
    d) Isn't the current reporting requirement likely to confuse and 
misinform the local community and other members of the public about 
releases to the environment in the geographic area where the transfer 
originated?
    e) Wouldn't it be more informative to the public to require the 
company transferring TRI chemicals in the manner described above to 
report them as a ``transfer'' to a permitted offsite management 
facility (e.g.; a RCRA treatment, storage and disposal facility) rather 
than as releases to the environment?
    e) Wouldn't the alternative approach suggested under Question 5. 
above improve TRI program administration efficiency by eliminating the 
need to later correct for double counting by the company and the 
offsite facility?
    f) As Assistant Administrator, will you support an improved 
approach that improves program efficiency and provides more accurate 
and informative public reporting?
    Response. In answer to (a) through (g), as you know, the Toxics 
Release Inventory (TRI) is run by EPA's Office of Environmental 
Information (OEI), and does not fall under the responsibility of the 
Office of Solid Waste and Emergency Response (OSWER). Pursuant to 
conversations with your staff, OSWER will work with OIE to provide 
detailed responses to your questions. If confirmed as Assistant 
Administrator, you have my commitment that I will work closely with OEI 
to achieve improved approaches that advance program efficiency and 
provide more accurate and informative public reporting.

    Question 2. In 42 USC 9619 (Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA), the provision on ``response 
action contractors'', provides the following:
    ``(f) Competition--Response action contractors and subcontractors 
for program management, construction management, architectural and 
engineering, surveying and mapping, and related services shall be 
selected in accordance with title IX of the Federal Property and 
Administrative Services Act of 1949 [40 U.S.C. 541 et seq.]. The 
Federal selection procedures shall apply to appropriate contracts 
negotiated by all Federal Governmental agencies involved in carrying 
out this chapter. Such procedures shall be followed by response action 
contractors and subcontractors.''
    a) Even though this provision was enacted in 1986, it is my 
information that EPA has issued any guidance or regulation to implement 
this provision in law. To what extent has EPA implemented this 
provision, particularly with regard to contracts and subcontracts for 
mapping services through guidance to private contractors and EPA 
contracting officers or promulgated an EPA Supplement to the FAR or 
what will EPA do to assure proper implementation and enforcement of 
this provision of law?
    b) The ``Brooks Act'' (40 U.S.C. 541 et. seq.) and the Federal 
Acquisition Regulations (48 C. F. R. 36.601-4 Implementation) specify 
that a broad range of mapping services, including ``Mapping associated 
with the research, planning, development, design, construction, or 
alteration of real property is considered to be an architectural and 
engineering service and is to be procured pursuant to 36.601.'' This 
clearly provides for use of the Qualifications Based selection (QBS) 
process for more than just services related to design and construction. 
However, there have been numerous instances in which EPA is not using 
the QBS process for mapping services (See, for example, SOL U41045, 
PSA#2900 NDN-186-0172-2551-1, RFQ-GA-01-00004, RFQ EPA-039-00, and RFQ-
RT-98-00065). What is EPA doing, or what does EPA propose to do, to 
assure that the law and regulations are properly implemented with 
regard to using the QBS process for mapping contracts?
    Response for Questions 2a and 2b. EPA has followed Federal 
contracting procedures in awarding response action contracts. In terms 
of mapping services, the Superfund program of OSWER had an Interagency 
Agreement with the Federal Emergency Management Agency, and did not 
procure mapping services directly. If confirmed, I would be happy to 
work with this committee to address concerns in this area to the extent 
they involve OSWER programs.

    Question 3. Is it the policy of EPA to retain contractors to 
support regulatory oversight of those same agencies who are contracted 
to other Federal Agencies--specifically under CERCLA and/or RCRA 
corrective action programs? What is EPA policy on potential conflict of 
interest in similar situations?
    Response. EPA contract policies do not allow contractors for 
responsible parties under CERCLA to perform work for EPA. Contractors 
can, however, work for multiple Federal agencies, since it is a Federal 
policy that in a unified Federal Government there is no conflict of 
interest in this situation. If the committee knows of an issue in this 
area, if confirmed, I will work with you to address it.
                                 ______
                                 
   Responses of Marianne Lamont Horinko to Additional Questions from 
                              Senator Bond
    Question 1. The Office of Solid Waste (OSW) developed a methodology 
to assess the potential hazard of organic compounds, which relies upon 
a criteria of persistence, bioaccumulation and toxicity (PBT). OSW 
keeps a list of compounds meeting the PBT criteria. EPA offices, and 
many States, use the PBT list for various regulatory actions, including 
recently increased reporting requirements for metals.
    There is concern in the scientific community over the 
appropriateness of applying the PBT methodology to metals. Scientific 
experts, including EPA scientists, described the problems of applying 
the PBT methodology to metals at an EPA co-sponsored ``Experts 
Workshop'' in January 2000. In May 2000, the EPA Science Advisory Board 
used an Advisory Opinion on risks surrounding smelters to take the 
opportunity to state that EPA's proposals to classify metals as PBTs 
was problematic because the methodolgy did not accurately describe 
metals' environmental characteristics.
    In July 2000, the House Science Committee, in a bipartisan letter 
signed by the Majority and Ranking members of the full committee and 
appropriate subcommittee, noted the scientific controversy. The 
committee strongly urged EPA to seek independent peer review and refer 
the question of the scientific appropriateness of applying the PBT 
criteria to metals to the SAB before deciding whether to include metals 
in any of the Agency's PBT programs or lists.
    In the fiscal year 2001 VA/HUD Conference Report, I proposed, and 
the conferees and Congress accepted, language urging EPA to submit the 
question of PBT and metals to independent peer review. Specifically, we 
urged EPA to seek independent peer review and refer to the SAB the 
question of the scientific appropriateness of applying the PBT criteria 
and methodology to metals before any application of the PBT criteria 
and methodology to metals.
    EPA subsequently disregarded these congressional directives by 
finalizing increased reporting regulations based upon application of 
the PBT methodology to metals without ensuring the scientific validity 
of the action by submitting the issue to independent peer review.

    Question 1a. If confirmed, will you support any EPA actions which 
disregard my VA/HUD language or Congress' bipartisan direction to 
submit the question of the appropriateness of applying the PBT 
methodology to metals for independent peer review by the SAB?
    Response. If confirmed I have no intention of disregarding the 
direction you supplied to EPA.

    Question 1b. If confirmed, would you support any lesser action by 
EPA, such as a consultation, which would fail to meet EPA's Independent 
Peer Review Guidelines?
    Response. I would seek to ensure that EPA's peer review guidelines 
are met.

    Question 1c. If EPA is confident of the scientific underpinnings of 
the application of the PBT methodolgy to metals, what does the Agency 
have fear by submitting the issue to the SAB for peer review?
    Response. The specific charge to the SAB is currently being worked 
out within the Agency.

    Question 1d. If confirmed, what actions will you take to ensure 
that scientific discussion and debate on this issue within EPA, 
especially by the Office of Solid Waste, is open, free and fully 
represented alongside other non-scientific and policy concerns?
    Response. If confirmed, I assure you that EPA will have an open and 
fully representative discussion and debate on all concerns.

    Question 1e. If confirmed, will you take steps to discourage EPA 
regional offices, as well as States and localities, from characterizing 
metals as PBT substances before EPA completes SAB review? Answer: OSWER 
is trying to focus the waste minimization program on reducing hazardous 
constituents of highest concern from the waste streams sent for 
disposal. In carrying out that program, the Agency will certainly work 
to keep regions, States and localities from inappropriately 
characterizing any substances.

    Question 2. This summer, EPA announced its intention to issue an 
action plan in response to recommendations made by Resources for the 
Future (RFF) in a study estimating the Federal costs of Superfund from 
fiscal year 2000 through fiscal year 2009. The RFF study raised some 
very serious questions about where Superfund dollars are being spent 
and how much is going to site cleanup. Many other studies of the 
Superfund program, including those done by the US General Accounting 
Office, the Congressional Budget Office, and Business Roundtable, have 
found similar program and fiscal management problems, while also 
concluding that the program has matured and will not require the same 
level of funding needed in the past.
    Of the four major recommendations made by Resources for the Future, 
two concerned the need for EPA to get its financial house in order. A 
third focused on the uncertainty surrounding the nature, number and 
cost of future NPL sites. Clearly, a number of significant questions 
remain about current program management as well as the future workload 
and makeup of the program. A Superfund action plan also presents 
opportunities for this Administration to revitalize and expand on 
Superfund Administrative Reforms begun in the past reforms aimed at 
making Superfund fairer, more efficient, and more cost-effective.
    Question 2a. Will you have an opportunity to shape the Superfund 
action plan before the EPA Administrator approves it?
    Response. I have met with the principal author of the Resources for 
the Future report on Superfund costs and have been briefed on the 
action plan the Agency is developing. I believe that the action plan 
will address the key recommendations in the report, as well as address 
some of the related issues facing the program. If confirmed, I plan to 
take an active role in refining and implementing the Agency's Superfund 
action plan, and look forward to working closely with this committee on 
the future of Superfund.

    Question 2b. What are your priorities for Superfund administrative 
reform?
    Response. If confirmed, my key administrative reform themes will be 
innovation, information sharing, and partnerships. These concepts will 
be applied to the Superfund program through expanding Brownfields, 
better involving the community in such things as future land use, and 
ensuring better access to environmental information. I will also take 
an active role in implementing the Superfund action plan. I plan to 
work very closely with this committee to improve the Superfund program.

    Question 3. In 1992, Congress directed EPA to revise the Mixture 
and Derived-From Rule. On May 16, 2001, EPA issued final regulations 
re-promulgating the original rule with one minor new revision.
    In the preamble supporting the rule, the Agency expressed it's 
intent to ``continue to pursue actions to reduce any overregulation of 
low-risk wastes arising from the mixture and derived-from rules.'' 
Specifically, the preamble discusses EPA's intent to develop ``two 
targeted exemptions: one for certain solvents destined for wastewater 
treatment and discharge under the Clean Water Act, and another for 
slagged combustion residues from hazardous waste combustors.'' The 
preamble also describes other targeted exemptions being assessed for 
development. Materials supporting EPA's 2002 budget request also 
discussed the Agency's intent to develop approaches to exempt low-risk 
wastes from full Subtitle C regulations.
    The environmental management world has changed dramatically since 
waste management regulations were promulgated in the early 1980's. 
Industry has invested enormous sums in improved waste management 
infrastructure and commitment to environmental protection. State 
program capabilities have increased significantly in their ability to 
manage wastes. Finally, the breadth of other statutory and regulatory 
programs such as the Clean Air Act, Clean Water Act, and the Superfund 
program have matured such that many waste streams are also regulated 
under non-RCRA authorities. We support EPA's intent to revisit RCRA 
regulations, particularly the mixture and derived-from rules, to tailor 
them to better reflect current wastes and waste management capacities. 
However, since these statements were made prior to your nomination as 
Assistant Administrator:

    Question 3a. What are your goals for addressing any over-regulation 
of low-risk waste by the current RCRA program? Do you have thoughts on 
a timetable for such proposals?
    Response. I am firmly committed to examining possible over-
regulation of low-risk waste streams that are subject to the RCRA 
hazardous waste program, and I am committed to exploring the 
possibility of regulatory change in this area. I am certainly aware of 
the concerns industry has expressed, and I know EPA staff have met with 
industry representatives to better understand their perspective. If 
confirmed, I plan to continue that dialog. EPA has also invited States 
to participate in the discussions, and has also notified waste 
management industry and environmental groups about planned activities, 
and will invite a broader participation from these groups as the 
proposals progress.
    Regarding timeframes for proposed rulemakings, EPA expects to 
propose at least a first round of changes in 2002. One category of 
wastes high on EPA's list is certain solvents undergoing wastewater 
treatment under the Clean Water Act. In addition, EPA is also 
evaluating other possible targeted exemptions. Depending on what 
preliminary analyses reveal, EPA hopes to develop additional proposals 
in 2003.

    Question 4. When we passed the original Resource Conservation & 
Recovery Act twenty-five years ago, our goal was ``to recover valuable 
materials and energy from solid waste'' as well as to assure that 
hazardous waste was managed to protect human health and the 
environment. Since then, EPA has used its authority to greatly improve 
waste management. In fact, most of the work that RCRA explicitly 
assigned OSWER in this regard has been accomplished. However, work to 
encourage the recovery of materials and energy before they become waste 
has barely begun.
    The former Administration, through initiatives such as Project XL 
and the Common Sense Initiative, demonstrated that there are other ways 
to obtain desired environmental performance without the inflexibility 
of command-and-control regulations. These initiative as well as a 
series of reports and studies, have also demonstrated that in some 
cases, the very regulations promulgated to manage waste can discourage 
recycling. Over the last decade the Agency has acknowledged the 
disincentives to recycling embodied in the RCRA hazardous waste rules, 
has conducted numerous studies, has evaluated numerous recommendations 
with broad, bipartisan stakeholder support, and yet has failed to take 
any meaningful action to remedy the problem. The courts have been very 
critical of EPA for its overly broad regulation of the recycling of 
secondary materials as well. No efforts have been made to conform the 
recycling regulations to these court decisions. At the same time, 
industry has vastly increased its efficiencies in converting raw 
materials to products. Technological innovation has led to the ability 
to reuse and recycle formerly discarded materials and to avoid the 
generation of wastes.
    Based on recent work on material flows conducted by the World 
Resource Institute, work on life-cycle impacts of recycling, 
landfilling and incineration conducted by Environmental Defense, and a 
commentary on overcoming barriers to Waste Utilization prepared by 
EPA's own Science Advisory Board, it seems there is both a need and 
opportunity to encourage the recovery of materials and energy before 
they enter the waste stream, so that material or energy value, that 
would otherwise be discarded, would be put to higher and better use.

    Question 4a. Can you discuss with us your vision for bringing 
``resource conservation and recovery'' into RCRA?
    Response. I see RCRA as having two principal goals: (a) protecting 
human health and the environment and (2) reducing waste and conserving 
energy and natural resources. Although reducing pollutants at their 
source is EPA's highest priority for conservation, recycling is a very 
close second. I am very eager to promote the recycling of solid and 
hazardous waste because such recycling makes good economic and 
environmental sense. It can conserve virgin resources, and save time 
and money as well.
    EPA recently has been engaged in an effort to remove or eliminate 
regulatory disincentives for recycling, while maintaining protection of 
human health and the environment. EPA's actions include national 
rulemakings which have streamlined regulations to encourage recycling 
for several kinds of wastes, including batteries, pesticides, 
thermostats, mercury-containing lamps, and circuit boards. EPA is 
preparing to propose in the next few months a rule which would promote 
recycling of cathode ray tubes from computers and televisions, along 
with mercury-containing devices. The Agency's Project Excellence and 
Leadership (Project XL), the State of New Jersey's Goldtrack Program 
(an XL project), and other projects have allowed State and local 
governments, businesses and Federal facilities to develop with EPA 
innovative strategies to test better or more cost-effective ways of 
achieving environmental and public health protection. I believe there 
are other innovative ways EPA can increase opportunities for 
environmentally sound recycling, and look forward to working with this 
committee in this regard.

    Question 4b. Do you believe that the Agency has enough statutory 
authority to revamp its ``definition of solid waste'' rules to remove 
the current impediments to recycling?
    Response. Yes, at this point I believe EPA has sufficient statutory 
authority to revise the definition of solid waste to remove current 
impediments to waste recycling. I look forward to continuing these 
efforts and to work closely with States to identify and implement 
further opportunities.

    Question 4c. How do you plan to accommodate the ruling of the DC 
Circuit in the Association of Battery Recyclers case?
    Response. The Association of Battery Recyclers v. U.S. EPA (ABR) 
decision vacated a portion of an 1998 EPA rule that expanded EPA's 
jurisdiction over certain types of mineral processing materials stored 
on the land prior to being reclaimed in production processes. 
Currently, EPA is finalizing a rule codifying the mineral processing 
vacatur, as directed in the ABR Decision. In the final rule preamble, 
EPA also intends to discuss plans for a future rulemaking to revise the 
definition of solid waste. As discussed above (e.g., XLs), EPA is 
engaged in a number of efforts to remove or eliminate regulatory 
disincentives for recycling while maintaining protection of human 
health and the environment. ABR provides an opportunity to revise EPA's 
approach to jurisdiction over recycling in a way that will further 
promote recycling of hazardous secondary materials. If confirmed, I 
look forward to working with this committee in an effort to implement 
the ABR decision.

    Question 4d. Will these issues be a priority to you?
    Response. Yes, I intend to make these issues a priority.

    Question 5. Many of the Office of Solid Waste's regulations have a 
serious impact on small businesses. As Ranking Member on the Small 
Business Committee, I am always concerned about how EPA handles their 
obligation to take into account small business concerns during 
rulemakings under the Small Business Regulatory Enforcement Fairness 
Act (SBREFA), or what I call the Red Tape Reduction Act. Under this 
law, EPA is required to convene panels to take comments from small 
businesses that will be affected by a regulation while the regulation 
is still in draft form. Although this provision has proven to help EPA 
formulate more effective and narrowly tailored regulations without 
sacrificing the objective or the benefits to public health of the 
regulation, there have been rulemakings where EPA did not do as much as 
I believed they should.

    Question 5a. If confirmed, will you vigorously pursue exploration 
of small business concerns during rulemakings, as well as, ensure your 
office's full compliance with SBREFA?
    Response. Yes, I will vigorously explore small business concerns 
during rulemakings, and ensure full compliance with SBREFA. All of 
OSWER's programs are increasingly reaching out to all stakeholders, 
including small businesses, to get their input early in the regulatory 
development process. Many issues can be resolved during this early 
participation, which can take place through web-based interactive 
dialogs and other innovative methods of reaching specific stakeholders, 
and face-to-face meetings and discussions. OSWER will also continue 
active participation and support of the Deputy Administrator's 
quarterly meetings with Small Business Trade Association Executives. 
These roundtable meetings are an important channel of communication for 
the Agency to clarify regulatory interpretations and obtain early input 
on activities that impact small businesses.
                                 ______
                                 
   Responses of Marianne Lamont Horinko to Additional Questions from 
                             Senator Boxer
  energy technology and engineering center (etec)/santa susana field 
                               laboratory
    Question 1. EPA has previously taken the position that Department 
of Energy nuclear facilities such as ETEC at the Santa Susan Field 
Laboratory in California are required to clean up contaminated sites to 
levels consistent with EPA's CERCLA guidance (to a one in a million 
lifetime cancer risk, unless that level cannot be achieved). EPA may 
allow a greater risk of up to one in ten thousand, but only if 
specified criteria are met.
    Recently, EPA has reportedly reversed its position, stating that 
DOE is only required to clean up radio-nuclides at the ETEC site under 
the far more lax guidance in the Atomic Energy Act.
    Can you provide assurance that recent reports are erroneous and 
that EPA CERCLA guidelines, cleanup levels, and methodology will be 
strictly applied at the ETEC site?
    Response. Although DOE is using its own authorities under the AEA 
to clean up radionuclides at the Santa Susana Field Lab (SSFL), DOE has 
publicly agreed to achieving cleanup levels consistent with CERCLA. As 
you may be aware, EPA has been providing an independent ``oversight'' 
role to guide the DOE's activities at SSFL. EPA's Draft Scoping 
Document, which has been submitted to the DOE for its review, proposes 
a conceptual survey plan which will provide for cleanup level 
determinations consistent with CERCLA. The CERCLA cleanup standard is 
referenced as a range of 10-6 to 10-4 lifetime cancer risk, where the 
one-in-a-million risk level is used as a point-of-departure for 
beginning the determination of site-specific acceptable cleanup levels. 
If confirmed, I will work closely with this committee to ensure that 
this cleanup is consistent with CERCLA.

    Question 2. EPA has also assured me that EPA's Las Vegas radiation 
laboratory would conduct a comprehensive independent radiation survey 
of the Santa Susana Field Laboratory. I was also assured that a broad 
range of radio-nuclides would be included and that a contractor would 
not be utilized.
    Can you ensure that past commitments will be honored regarding the 
radiation survey at the Santa Susana Field Laboratory?
    Response. Yes, commitments will be honored regarding the 
radiological survey at the SSFL. The radiological survey at SSFL Area 
IV will be conducted by an EPA contractor under direct and extensive 
contract oversight by EPA's Radiation and Indoor Air Environments Lab 
at Las Vegas, NV. This arrangement is typically how EPA conducts 
investigations at large and complex sites. The survey in this case will 
be comprehensive, addressing all radionuclides that may have been used 
or generated at the site. Based on the magnitude and complexity of the 
proposed survey, EPA has significantly increased its resources directed 
to this project, especially from within the Lab.
                                 ______
                                 
   Responses of Marianne Lamont Horinko to Additional Questions from 
                            Senator Corzine
    Question 1. As you know, Resources For the Future recently 
completed a major report on Superfund's future for Congress. One of the 
report's major conclusions was that a ramp-down of the Superfund 
program is not imminent. The experience of New Jersey in recent years 
seems to bear this out, in that a handful of New Jersey sites have been 
added to the NPL each year. As a general question, how do you view the 
future of the Superfund program and what do you hope to accomplish as 
Assistant Administrator?
    Response. I believe the Superfund program has an important role in 
addressing the nations worst hazardous waste sites and in responding to 
emergency situations. If confirmed, my key themes will be innovation, 
information sharing, and partnerships. These concepts will be applied 
to the Superfund program through expanding Brownfields, better 
involving the community in such things as future land use, and ensuring 
better access to environmental information. I also pledge to give 
counter-terrorism activities the highest priority. I am open to new 
ideas, and would welcome this committee's input as well.

    Question 2. As you know, New Jersey has more Superfund sites than 
any other State in the natin. As of May of this year, 84 of New 
Jersey's 111 NPL sites were not yet cleaned up to the ``construction 
complete'' stage. So I was concerned to see that the fiscal year 1902 
budget request reduced the fiscal year 1902 national target for 
cleanups to 65. This is well below the 85 cleanups per year that have 
been accomplished in the last 4 years; it is also below last year's 
target of 75. When I asked Administrator Whitman about this issue, she 
explained that the reduced target is due to increased cleanup costs at 
remaining sites. What is your understanding of why this target has been 
reduced? Are more funds needed to maintain the pace of cleanups?
    Response. I agree with Administrator Whitman's explanation. A key 
factor affecting the number of construction completions is that many of 
the sites with remaining work tend to be more complex, on average, than 
those already completed. Nonetheless, the Agency is committed to and 
will continue to work at these and other Superfund sites to ensure that 
they are cleaned up as quickly as possible. If confirmed, I plan to 
engage this committee very closely on this effort.

    Question 3. In light of the dwindling balance of the trust fund, 
what is your view of the importance of Superfund cost recovery 
activities?
    Response. Cost recovery is obviously very important to the 
Superfund program. Since its inception, EPA has achieved nearly $7 in 
private party cleanup commitments and cost recovery for every $1 spent 
on enforcement. There have been over $3.1 billion in cost recovery 
settlements alone. It is important to continue aggressive cost recovery 
efforts. I intend to work closely with EPA's enforcement program to not 
only preserve the dwindling trust fund balance, but to reinforce EPA's 
enforcement first policy.
                                 ______
                                 
   Responses of Marianne Lamont Horinko to Additional Questions from 
                            Senator Clinton
    Question 1. If confirmed, will you work closely with me and other 
members of the New York delegation with respect to the Agency's 
emergency response efforts associated with the horrific terrorist 
attack on the World Trade Center in New York City on September11, 2001?
    Response. See answer to number 2.

    Question 2. Will you work to ensure that all necessary and 
appropriate measures are being taken with regard to response efforts at 
the World Trade Center site to protect human health and the 
environment?
    Responses to Questions 1 and 2. If confirmed, I will continue to 
work closely with you and the New York delegation as EPA addresses the 
effects of the September 11 attacks. I join with all Americans in 
honoring the heroic efforts of New York emergency responders. Their 
personal dedication and professional expertise deserve every word of 
praise that has been spoken in their behalf. I also deeply appreciate 
and am proud of the support provided by EPA's emergency response 
personnel in Region 2. EPA has been coordinating with State, Federal, 
and local authorities to provide expertise on cleanup methods for 
hazardous materials, as well as to detect whether any contaminants are 
found in ambient air quality monitoring, sampling of drinking water 
sources and sampling of runoff near the disaster sites. I participate 
in daily telephone calls with Governor Whitman and other EPA 
Headquarters and Regional personnel to support and coordinate the 
responses in New York and Washington. I pledge to work with you and the 
New York delegation to continue EPA's support.

    Question 3. Will you work with the delegation and the committee to 
ensure that we learn from this experience and make any necessary and 
appropriate changes to the Agency's emergency response capabilities?
    Response. Learning all we can from this tragedy will be a high 
priority of mine. EPA will perform a complete lessons learned 
assessment of its operations, and will share that information with both 
the New York delegation and the committee. EPA has already conducted a 
preliminary needs assessment of the counter-terrorism preparedness and 
response program. OMB is reviewing those findings. In the meantime, I 
assure you that EPA and the Administration are committed to a strong 
readiness capability that will protect all U.S. citizens, including 
EPA's own emergency responders, and the environment.
                               __________
 Statement of Harold Craig Manson, Nominated to be Assistant Secretary 
      for Fish and Wildlife and Parks, Department of the Interior
    Mr. Chairman, Senator Smith, members of the committee, I am honored 
and humbled to appear before you as the President's nominee to be 
Assistant Secretary of the Interior for Fish, Wildlife and Parks, 
seeking your confirmation vote. I am deeply grateful for the confidence 
in me shown by the President and Secretary Norton. I also thank 
Secretary of Agriculture Ann Veneman for her support.
    I appreciate that the committee has taken time to hold this hearing 
in a time of great national crisis. As you know, the Department of the 
Interior's personnel, including the U.S. Park Police and the law 
enforcement elements of the U.S. Fish and Wildlife Service and others 
have played vital roles in responding to the current crisis. Most 
regrettably, a U.S. Fish and Wildlife Service employee, Richard 
Guadagno, lost his life in the crash of the jet in Pennsylvania. Mr. 
Guadagno was the refuge manager of the Humboldt Bay National Wildlife 
Refuge in my home State of California. He was highly regarded by all 
who knew him and he embodied the very best attributes of the talented 
people in both the Fish and Wildlife Service and the National Park 
Service.
    I am a descendant of Africans, Europeans, and Native Americans. 
Born in Missouri, gateway to the west, I grew up principally in New 
Mexico and California, where I now reside. I've spent 42 of the last 47 
years living in the western United States, including, in addition to 
New Mexico and California, Arizona, Colorado, and South Dakota.
    I received my undergraduate education at the United States Air 
Force Academy. Following my graduation from the Academy, I served 2 
years as a Minuteman missile launch officer. The Air Force then sent me 
to law school and I received my law degree at the University of the 
Pacific, McGeorge School of Law in Sacramento. I served in various Air 
Force judge advocate assignments in the United States and overseas, 
including 4 years on the Air Force Academy faculty, in the Department 
of Law. During my faculty tour, I was assigned, with several other 
faculty members, to report to the Secretary of the Air Force concerning 
the state of Air Force compliance with environmental laws on its 
overseas bases.
    After leaving active duty in 1989, I practiced law with a major 
Sacramento law firm for 3 years. I was then appointed by California 
Governor Pete Wilson to the newly created position of General Counsel 
of the California Department of Fish and Game. I held that position for 
5 years, after which the Governor appointed me to be a judge. I have 
served on the Superior Court in Sacramento since 1998. I've also been 
on the faculty of McGeorge School of Law since 1992. I continue my 
military service in the Air National Guard, with the current rank of 
colonel.
    Apart from unmitigated enthusiasm for I what think is the best job 
in Washington, I offer my experience in natural resources law and 
policy, an ability to build consensus across diverse interest groups, 
and a judicial approach to decisionmaking.
    During my tenure with California's Department of Fish and Game, we 
conserved hundreds of thousands of acres of wildlife habitat in an 
innovative multiple species planning program in Southern California's 
coastal sage scrub habitat. That habitat, home to hundreds of 
potentially at-risk plant and animal species, stretches across the five 
counties in which California's most intensive growth and development 
pressures exist. Our natural communities conservation program had 
bipartisan support as well as the support of landowners, resource 
users, local governments and environmental interest groups. As to the 
largest of the plans under this program, the San Diego Multiple Species 
Conservation Plan, the Los Angeles Times reported on March 19, 1997:
    ``A committee composed mainly of local businesses, including Bank 
of America and the Greater San Diego Chamber of Commerce, concluded 
>the cost to the public is modest given the benefits.' ``
    In addition to our large scale multiple species plans, during my 
tenure at California Fish and Game, we pioneered habitat conservation 
plans, HCPs, using our State Endangered Species Act. At one point 
during the 1990's, we had more HCPs in the State of California under 
State law than existed in the entire rest of the country under Federal 
law.
    Based on the scientific judgments of our biologists, each of our 
State HCPs involved the cooperation of landowners. Again, hundreds of 
thousands of acres of habitat were conserved while allowing economic 
activities to proceed.
    I have spent most of my adult life in public service. In all of 
that time, I have had no prouder moment than in 1997 when Governor Pete 
Wilson signed into law amendments to the California Endangered Species 
Act. I had been entrusted with the Wilson administration's negotiating 
portfolio on that legislation. We worked diligently for 4 years to 
build a consensus among environmental groups, landowners, local 
governments, and agricultural interests. We listened to everybody. 
Eventually, our legislation, conceived by a Republican administration, 
was introduced by three Democratic State legislators and won bipartisan 
passage. The legislation placed into the California Endangered Species 
Act the concepts of landowner incentives and requirements for effective 
species recovery programs. The legislation also provided for voluntary, 
locally designed programs to conserve habitat while allowing 
agricultural activities to proceed without the counterproductive 
effects of a strict regulatory approach.
    I mention my experiences in California to illustrate my commitment 
to work through environmental and natural resource public policy issues 
on a consensus basis whenever possible. In that regard, I am completely 
committed to what Secretary Norton describes as the ``4 C's'': 
communication, consultation, and cooperation, all in the service of 
conservation. I strongly support Secretary Norton's philosophy that the 
Federal Government must be a partner to State and local governments, 
individuals and non-governmental organizations affected by or 
interested in natural resource policy.
    If I am confirmed, I will also apply my judicial experience to the 
issues involving our natural resources and national parks. First, every 
interested party will get a fair hearing, environmental interest 
groups, landowners, farmers, ranchers, State and local government, 
historic preservation interests, and sportsmen. Second, any decisions I 
make or recommendations I give to the Secretary will be based on the 
weight of the evidence. I agree with the view expressed by both the 
President and Secretary Norton that our natural resources public 
policies must be informed by sound science.
    Earlier, I described the position of Assistant Secretary for Fish, 
Wildlife and Parks as the best job in Washington. One of the aspects of 
the job I most look forward to, if I am confirmed, is the opportunity 
to work with the talented and dedicated employees of the U.S. Fish and 
Wildlife Service and the National Park Service. I have great respect 
for these professionals who ensure the preservation of America's 
greatest treasures every day.
    Mr. Chairman, I love our great country and the physical resources 
with which we have been blessed. If confirmed, I will do my best to see 
that our resources remain a perpetual source of enjoyment for the 
American people.
    I'll be pleased to answer any questions.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
 Responses of Harold Craig Manson to Additional Questions from Senator 
                                Jeffords
    Question 1. The Missisquoi National Wildlife Refuge is moving ahead 
with long overdue construction of a headquarters building and education 
center. The potential educational role of this refuge has never been 
realized. There is currently a significant shortfall in the funds 
needed to construct a facility that can meet this need. What do you see 
as the role of the USFWS in education and outreach, and bow can that be 
met at the Missisquoi Refuge?
    Response. I am advised that the facilities to be constructed at the 
Missisquoi National Wildlife Refuge will include a new headquarters, 
maintenance facility and visitor contact station with exhibit space and 
a multi-purpose room to accommodate some of the educational needs of 
the community in which the refuge is located. The project will replace 
existing facilities which have exceeded their useful life and are not 
suitable for repair.
    I understand the significant role that national wildlife refuges in 
the Northeastern United States can play in educating the public about 
the important fish and wildlife resources that the Service and the 
Department are charged with protecting and managing. It is my 
understanding that the Missisquoi Refuge will be better positioned to 
reach interested citizens and communicate the Service's mission when 
the project is completed.
    The Secretary has targeted improved maintenance of facilities on 
public lands as a priority. I am advised that replacement of these 
facilities will help to reduce the maintenance backlog in the National 
Wildlife Refuge System. If confirmed, I will discuss the funding 
situation for this facility with Service officials and report back to 
you.

    Question 2. The USFWS has a relatively new 26,000-acre refuge in 
Northeast Vermont, part of the Conte National Wildlife Refuge. The 
Refuge Manager is doing a great job, but residents of this area are not 
yet fully comfortable with the Federal Government as a large landowner. 
What would be your approach to working with the State and local 
partners to assure that the refuge is accepted as part of the 
community?
    Response. I understand that the establishment of the Nulhegan Basin 
Division of the Silvio O. Conte National Fish and Wildlife Refuge was a 
collaborative effort between the State of Vermont, the U.S. Fish and 
Wildlife Service; private foundations, and nongovernment conservation 
groups. This effort resulted in the protection of over 133,000 
contiguous acres of former timber company land, with only about 20 
percent in Federal ownership as the Refuge. A large portion of the area 
remains in private ownership as a working forest and the State of 
Vermont acquired about 22,000 acres of the property.
    I am advised that, since the Refuge was established, the State, the 
Service, local citizens and groups have worked together to inventory 
and identify the resources present on both areas. In addition, the 
Service informs me that in January of 2002, a cooperative visitor 
services plan, covering the State and the Refuge land, will be released 
for public review. This plan will outline the many ways in which 
citizens can continue to enjoy the resources of the area, and will 
hopefully ease concerns over the possible effects of the refuge on 
public use of the land.
    As I noted in my statement to the committee, I am fully committed 
to communication, consultation and cooperation as the means of 
conducting our business. If confirmed, I will encourage expanded 
efforts at all three elements by the Refuge staff.

    Question 3. There are now some Atlantic salmon returning to Vermont 
streams, after being absent for more than a century. The numbers are 
still not large and it has taken a lot of time and money to get this 
far. The overall quality of the Connecticut River and other species has 
been helped in the meantime. The White River National Fish Hatchery in 
Vermont has been a lynchpin, although the facility is in need of 
significant upgrades. What is your position concerning USFWS support 
for Connecticut River salmon restoration?
    Response. I am very pleased to hear that the efforts expended so 
far on the Connecticut River Atlantic salmon restoration program are 
showing positive and exciting results. From what I have heard, the 
Connecticut River Atlantic Salmon Commission is an excellent model of 
the type of State, Federal and private partnership we need throughout 
the Nation for more effective conservation efforts.
    While I have not had an opportunity to become familiar with the 
details of the Fish and Wildlife Service's budget, the salmon 
restoration program certainly appears to be the sort of effort which 
needs our support.

    Question 4. The Pittsfield National Fish Hatchery supplies 
salmonids to Lake Champlain and the Connecticut River. These stockings 
are critical to maintain populations while threats such as Sea Lampreys 
are controlled. The hatchery is in need of significant maintenance 
work, some of which is under way as a result of funding I secured last 
year, but the reprogramming of funds to complete the job from within 
the Region has not gone smoothly. How would you ensure that this 
important Federal facility can be improved as needed to continue its 
mission?
    Response. While, as previously indicated, I have not yet bad an 
opportunity to become fully familiar with agency budgets, I am advised 
that there are major maintenance backlogs throughout the National Fish 
Hatchery and National Wildlife Refuge Systems, as well the better-known 
backlog confronting the National Park Service. If confirmed, I will be 
deeply involved in addressing these issues, and will seek to do so 
through a long-term, systematic approach to reducing all these 
backlogs. I would also be glad to look into the status of the 
reprogramming request for the Pittsfield hatchery and report back to 
you.

    Question 5. The USFWS has been a very strong partner with local 
watershed groups, State agencies and the U.S. Forest Service in 
repairing damaged stream banks and restoring Vermont Rivers to a 
healthy condition. The amount of local support and funding leveraged by 
the leadership of the USFWS makes this one of our most valuable 
programs. Do you see this type of partnership as important and how 
would you support it?
    Response. Yes, I consider the development of partnerships and 
cooperative efforts as the most effective approach to conserving our 
natural resources, The cooperation and participation of Federal, State 
and local agencies, organizations and individual citizens generally 
develops and effectively implements far more innovative and cost-
effective solutions to natural resource problems than uniform direction 
from Washington. A cooperative approach to stream and river restoration 
is particularly important due to the physical complexity of waterways, 
which run through multiple jurisdictions and ownerships and serve 
multiple functions such as transportation, water supply, fish habitat 
and recreational uses.
    I have been advised that the Service's Partners for Fish and 
Wildlife Program uses this approach across the Nation and that the 
program has been very successful. The program works with private 
landowners who wish to voluntarily restore fish and wildlife habitat by 
providing them with restoration advice, assistance during project 
construction, and funding support. If confirmed, I will promote this 
and other Service programs that work cooperatively with citizens and 
other agencies and organizations.

    Question 6. In the Northeast, the Fish and Wildlife Service is 
involved in several large natural resource restoration projects 
involving comprehensive partnerships in Rhode Island, New Hampshire, 
Vermont, Maine and Connecticut. Mr. Manson, what are your plans to 
increase agency support to these partnership activities in the 
Northeast?
    Response. As I stated in my response to the previous question, I 
believe these types of cooperative efforts are by far the most 
effective approach to conservation, and I strongly support them. It is 
my understanding that many of these particular efforts are being 
coordinated through the Silvio O. Conte National Wildlife Refuge. It is 
most encouraging for me to see that multiple elements of the Fish and 
Wildlife Service have adopted this approach, and if confirmed, I will 
strongly support the continuation of such cooperative efforts.

    Question 7. How will you help increase agency support for Fish and 
Wildlife Service activities in the Northeast?
    Response. As you know, I am currently most familiar with Fish and 
Wildlife Service activities in California. If confirmed, I will make it 
a high priority to become fully conversant with the Service's 
activities throughout the Nation, and specifically in the Northeastern 
States. I will make an early visit to the Northeast. It appears that 
the Service has a number of highly successful programs there. It is my 
belief that we should encourage and reward success.
                                 ______
                                 
 Responses of Harold Craig Manson to Additional Questions from Senator 
                                 Baucus
    Question 1. It's pretty clear to me that the Fish and Wildlife 
Service is operating under a handicap in my State, and that's a 
staffing and funding handicap. It's my understanding that the Service 
in Montana has recently done its best to catch up on a substantial 
backlog of biological opinions, not from a lack of trying, but from a 
lack of biologists and resources. This problem seriously interferes 
with the business of my State, and certainly doesn't further the 
interests of endangered and threatened species;
    We have only about 19 biologists doing consultation work in 
Montana. I think if you look into this issue, and I ask that you do, 
you'll find that our neighboring States such as Washington and Oregon 
have considerably more biologists, not only in the State as a whole, 
but per national forest. Montana has several of the same issues to deal 
with as those States. Not only that, but we have several endangered and 
threatened species that cover very large territories. This means that 
lots of projects all over the State are impacted by the need to consult 
with the Fish and Wildlife Service before those projects can go 
forward. The Service must have the resources necessary to allow these 
projects to move forward efficiently in a reasonable amount of time, 
with due consideration for the protection of endangered and threatened 
species.
    I have raised this issue with the Administration before. The 
Assistant Secretary of Interior, Lynn Scarlett, wrote to me, saying she 
agreed this problem needed further investigation at Interior. I ask 
that you yourself look into this, and talk to Ms. Scarlett. And please, 
come to Montana, visit the biologists on the ground, compare their 
situation to that of Service employees in other States, visit our many 
fish hatcheries and wildlife refuges. Get a feel for what a very 
limited staff is struggling to deal with. I can't tell you how 
important this issue is to Montana. Will you commit to helping me solve 
this problem?
    Response. Yes. If confirmed, I will consult with Assistant 
Secretary Scarlett and the Fish and Wildlife Service on this issue as a 
high priority, and report back to you. I will also travel to Montana 
for an on-the-ground orientation as soon as practicable.

    Question 2. I have worked long and hard with other members of 
Montana's congressional delegation to bring the Fort Peck 
Interpretative and Visitor Center to Montana. The Interpretative Center 
will remain a part of Fort Peck Dam, under the jurisdiction of the Army 
Corps of Engineers. The Visitor Center will be part of the CM Russell 
National Wildlife Refuge because it will contain interpretive exhibits 
related to the refuge. This Important wildlife refuge has never bad a 
visitor center. I was disappointed that the Service did not ask for any 
funds to pool with the over $6 million already provided through the 
Army Corps and other sources to help build the Visitors Center. I would 
like to see the Service take some ownership of this project, because 
it's important to the refuge and to local residents. And, the Service 
is going to use the center. Could you look into this and see if there's 
any way for the Service to participate in this project?
    Response. If confirmed, I will certainly look into this situation. 
I am advised that the bulk of the Fish and Wildlife Service 
construction budget is currently directed to projects addressing 
critical health and safety issues, including bridge, dam and seismic 
safety measures.
                                 ______
                                 
 Responses of Harold Craig Manson to Additional Questions from Senator 
                                 Smith
    Question 1. Mr. Manson, given that the majority of listed 
endangered and threatened species occur on private lands, we must be 
very cognizant of the rights and concerns of private property owners, 
especially when private land is included in critical habitat, Its my 
understanding that as General Counsel of the California Department of 
Fish and Game, you supported State legislation that prevented State 
biologists from entering private land. While laws like this protect the 
rights of property owners, it can impact on the ability of the 
government to recover listed species. How do you suggest we strike the 
delicate balance between private property rights and species 
protection?
    Also, do you believe that private landowners should be compensated 
under the takings clause of the Fifth Amendment if protecting listed 
species on their land infringes on their rights to use the land as they 
see fit?
    Response. Federal, State and local government employees generally 
have no right to enter private property without either the owners' or 
occupants' permission or under circumstances when members of the 
general public would also be able to do so. There are a number of 
exceptions to this principle, primarily in law enforcement situations, 
but none that would apply exclusively to the California or the Federal 
Endangered Species Acts. Accordingly, the California legislation to 
which you refer was not a question of restricting access previously 
enjoyed by State employees, to the detriment of listed species, but 
rather one of clarifying the existing legal situation for the State 
employees and the public.
    I fully and strongly support the Constitution's requirement that no 
private property may be taken for public use without just compensation. 
This is one of the keystones of our form of government. It is my 
understanding that the Administration is committed to administering the 
Endangered Species Act so that takings of private property do not 
occur. If confirmed, I will do all that I can to ensure that the 
program continues to operate in this fashion.
                                 ______
                                 
 Responses of Harold Craig Manson to Additional Questions from Senator 
                                 Boxer
    Question 1. The Klamath Basin has been called the ``Western 
Everglades'' because of the great diversity and abundance of fish and 
wildlife found there. The six national wildlife refuges in the basin 
are among the most important in the entire National Wildlife Refuge 
System. They are home to millions of migratory birds as well as a 
sizable population of bald, eagles. Unfortunately, the Klamath Basin 
suffers from a chronic shortage in water supply. Because of drought 
conditions, this year proved particularly difficult and has raised 
tough questions about how best to prioritize water use. In 1998, the 
U.S. Fish and Wildlife Service adopted a policy. for Tule Lake and 
Lower Klamath National Wildlife Refuges in California and Oregon that 
prevents irrigation on commercial farmland on the refuges unless 
sufficient water is available to sustain the refuges' marshes. Do you 
support this policy which gives priority to the refuges' ecological 
resources over commercial farming?
    Response. I am advised that the 1998 compatibility determination is 
still a draft and as such has not become policy. The Fish and Wildlife 
Service is currently developing a new environmental assessment that 
addresses this issue and will issue that document later this year for 
public review and comment. I am further advised that this Environmental 
Assessment develops alternatives that incorporate new ways for storing 
and using irrigation water that will seek to minimize conflicts between 
commercial fanning and wildlife habitat objectives.
    As you know, the water uses and priorities in the Klamath Basin are 
very complex. It is my understanding that the curtailment of commercial 
farming on the refuge lease lands may not necessarily free up that 
water for use in refuge wetlands, due to legal priorities for 
endangered species, tribal trust needs and nonrefuge agriculture. For 
example, irrigation for commercial farmland was drastically reduced 
this past summer to avoid jeopardy to endangered species.
    This issue is clearly one of the very highest priorities facing the 
Department and the Fish and Wildlife Service. I believe my prior 
experience, particularly in negotiating the settlement to the Owens 
Valley water litigation, could be quite applicable here, and if 
confirmed look forward to working with you, the other Members of the 
California and Oregon delegations, and the stakeholders to resolve the 
situation.

    Question 2. The National Wildlife Refuge System Improvement Act of 
1997 set new requirements for the management of refuges. In response, 
the U.S. Fish and Wildlife Service issued regulations establishing 
procedures for determining what uses are compatible with the missions 
of the refuge system and mission of each individual refuge. What uses 
do you deem incompatible with the mission of the national wildlife 
refuge system?
    Response. I have not yet had an opportunity to review the 
Improvement Act and the Service's implementing regulations in detail. 
However, I am advised by the Service that it is not possible to list 
the types of uses that might be incompatible with the statutory mission 
of the National Wildlife Refuge System, as those are site specific 
considerations made by individual refuge managers.
    However, it is clear that Congress provided this layering of system 
mission and individual refuge purpose with the compatibility standard 
in order to ensure that wildlife and wildlife conservation come first 
within the Refuge System. This provides a very protective standard.
    If confirmed, I will be highly supportive of addressing 
compatibility questions in accordance with the law.

    Question 3. Recently, the National Park Service developed a 
detailed plan for the future management of Yosemite National Park. The 
plan was developed after considerable input from all of the affected 
stakeholders and over 10,000 members of the public submitted comments 
to the agency. Central to this plan is the notion that visitors to the 
park should be encouraged to leave their personal vehicles outside the 
park and travel through the park on a park transit system. As Assistant 
Secretary for Fish, Wildlife, and Parks you will have responsibility 
for the National Park Service. In this role, will you actively support 
implementation of the. new Yosemite Valley Management Plan?
    Response. I will work closely with the Director of the National 
Park Service to become familiar with the Yosemite Valley Plan and move 
forward with the appropriate restoration of Yosemite Valley, while 
welcoming people to enjoy the park and its resources. I also will work 
to ensure that the future management of the park is accomplished in 
partnership with local jurisdictions and others.

    Question 4. The Bush Administration has indicated its clear intent 
to open the Arctic National Wildlife Refuge to oil and gas development. 
In the past, U.S. Fish and Wildlife Service (Service) biologists have 
indicated that oil and gas development would do irreparable harm to the 
wildlife species that depend upon this refuge. As Assistant Secretary 
of Fish, Wildlife, and Parks it will be your duty to ensure that the 
concerns of wildlife species are addressed before approval is given to 
enter a national wildlife refuge. How will you ensure that there is an 
unbiased assessment of the impacts that oil and gas exploration will 
have on the Arctic Refuge's irreplaceable wildlife species?
    Response. I am familiar with the concerns about the impacts of oil 
and gas exploration on the wildlife resources of the Arctic National 
Wildlife Refuge. I have been advised that a great deal of study of the 
fish, wildlife, and habitats of the Refuge's coastal plain has' been 
conducted by biologists with the Fish and Wildlife Service and the 
Biological Resources Division (BRD) of the U.S. Geological Survey. Many 
of those studies provided the scientific basis for the 1987 Report and 
Recommendations to the Congress of the United States and Final 
Legislative Environmental Impact Statement was based. Additionally, 
some research and monitoring has been conducted since 1987 by the 
Service and BRD
    I am further advised that most of the studies completed to date 
have been necessarily broad-based. However, if Congress authorizes oil 
exploration and production in the 1002 Area, there will be the need for 
further site-specific studies to ensure that these activities are 
undertaken in an environmentally sound manner. The Fish and Wildlife 
Service is this Nation's preeminent agency with expertise in management 
of lands for fish, wildlife and plants. If confirmed, and if Congress 
acts to open the 1002 Area, I will expect biologists with the Service 
and BRD to provide the sound science upon which the. Department can 
base its decisions on where and under what conditions to permit 
specific activities.

    Question 5. While at the California Department of Fish and Game, 
you supported State legislation would have prevented State biologists 
from entering private land. As you know, the Federal Endangered Species 
Act (ESA) applies to both public and private lands, Thus, the U.S. Fish 
and Wildlife Service is required to enforce the ESA on both public and 
private lands. As Assistant Secretary of Fish, Wildlife and Parks, will 
you carry out your statutory duties to apply the ESA on both public and 
private lands?
    Response. If confirmed, I will do so without reservation. The 
California legislation to which you refer was not a question of 
restricting access previously enjoyed by State employees, to the 
detriment of listed species, but rather one of clarifying the existing 
legal situation for the State employees and the public. Additionally, I 
believe we need to involve private landowners in recovery planning and 
solving complex ESA issues.

    Question 6. There are now well over 1,000 species that have been 
federally recognized as threatened or endangered species. The 
Endangered Species Act compels the Secretary of Interior to identify 
habitat that is critical to the recovery of those species and protect 
that habitat from further degradation. Many have alleged that our 
limited success in recovering species is due to our failure to protect 
the habitat upon which those species depend. In States like California, 
where there are a large number of listed species and a great deal of 
habitat that has been identified as ``critical habitat,'' protection of 
this habitat has been limited. How would you interpret the Interior 
Department's obligations to protect and conserve the critical habitat 
of these threatened and endangered species? If you favor limited 
protection for critical habitat, what alternatives do you offer for 
fulfilling Interior's obligations to recover listed species?
    Response. The Endangered Species Act requires that critical habitat 
be designated at the time a species is listed ``to the maximum extent 
prudent and determinable''. The ESA works to protect critical habitat 
through the Section 7 consultation process. The Secretary of the 
Interior's responsibility is to consult with Federal agencies if their 
actions may serve to jeopardize endangered species or result in adverse 
modification of their critical habitat.
    If confirmed, I will make it a priority to ensure that the ESA is 
fully complied with.
    At the same time, I would hope that, if given an opportunity to 
work with you and other interested parties on the ESA, we could 
increase our focus on efforts to recover species so that they could be 
delisted. This perhaps could involve continued pursuit of the approach 
taken in legislation in prior Congresses, in which I was involved on 
behalf of the Western Governors Association, to make critical habitat 
designation a part of the recovery process, where it could be 
designated if a recovery plan found it was needed. There may well be 
other approaches which also merit consideration. However, absent such a 
change in the law, if confirmed I will ensure that the law is carried 
out as it stands.

    Question 7. In the fiscal year 2002 budget request, the Bush 
Administration asked for $8.5 million for the U.S, Fish and Wildlife 
Service's listing and critical habitat designation budget. This request 
is far below the funding level that the agency has indicated it needs 
to sufficiently address the backlog of species that await listing 
decisions and critical habitat designations. Indeed, in a variety of 
court cases the USFWS has asserted that is should be exempt from its 
legal obligations to list and designate critical habitat because the 
agency lacks adequate funding, Clearly more funding is needed to 
address this problem. What will you do to ensure that the President's 
fiscal year 2003 budget request for the USFWS includes a credible 
amount of funding for listing and critical habitat designation?
    Response. I appreciate your concerns regarding the Service's 
listing and critical habitat designation budget. I am advised that the 
Bush Administration's 2002 budget request for listing represented a 15 
percent increase over the 2001 amount requested by the prior 
Administration, and a 34 percent increase over the amount actually 
appropriated for listing in fiscal year 2001.
    In fashioning a 2003 request, I believe the Administration will 
balance the needs of the Endangered Species program, the Service, and 
the Department of the Interior with the many other demands and 
priorities for increased Federal funding, including other aspects of 
the Endangered Species Act itself As you are aware, there are 
significant documented needs and backlogs in many Service and 
Departmental programs. If confirmed, and in time to participate in the 
development of this request, which I am advised is already well 
advanced, I will do my best to ensure that funding is requested based 
on documented needs consistent with the President's priorities.

    Question 8. The press has reported of your involvement in a 
whistleblower case concerning a biologist who was allegedly pressured 
to approve an illegal permit. Government agencies are entrusted by the 
public to fully and fairly implement laws. Political pressures on 
agency staff to break the law, misrepresent an issue, withhold 
information, etc. is unacceptable. As Assistant Secretary of Fish, 
Wildlife and Parks, what will you do to ensure that agency staff are 
not pressured to base policy decisions on political pressure? What will 
you do to ensure that any staff who are pressured have an opportunity 
to disclose this information?
    Response. My involvement in the case you referenced was limited to 
my role as a lawyer defending the California Department of Fish and 
Game and its management in legal actions arising from the alleged 
incident.
    I agree with you that it is unacceptable to subject agency staff to 
political pressures to break the law, misrepresent an issue, withhold 
information or otherwise act in a manner that is illegal or unethical. 
I believe that the best decisions are based on having the best 
information, and if confirmed I would be vigilant in ensuring that 
agency staff contribute information in a work environment that values 
good science and accurate information for the formulation of policy 
decisions.
                               __________
 Statement of Paul Michael Parker, Nominated to be Assistant Secretary 
                      of the Army for Civil Works
    Thank you, Mr. Chairman and distinguished members of the committee. 
It is a great honor and privilege to appear before this committee as 
the nominee to be the Assistant Secretary of the Army for Civil Works. 
I am very grateful to the President, the Secretary of Defense, and the 
Secretary of the Army for the trust and confidence that-they-have 
placed in me. If confirmed, I pledge that I will work as hard as I 
possibly can to serve the soldiers, civilians, and families that make 
the United States Army the most powerful and professional army in the 
world.
    The Corps of Engineers has a proud history stretching back to the 
beginning of the country. Over the years the Corps has evolved to 
emphasize its major civil works responsibilities of today: conservation 
and development of the nation's water resources, which includes flood 
control, navigation, shore protection, and environmental restoration. 
All of these tasks are important; all are complex and demanding; and 
all require significant resources. With competing demands for limited 
dollars, fulfilling these requirements becomes more and more 
challenging; however, I am committed that should I be confirmed, 
environmental considerations will remain a key factor in determining 
our Civil Works stance for the nation. The dedicated and able staff of 
military and civilian employees who make up the Corps of Engineers has 
risen to every challenge in the past and I'm sure will continue to 
carry out their responsibilities to the people of this country in these 
vital areas.
    In the last week, you can see the value of the Corps to this nation 
and the dedication of its people as we recover from the recent 
tragedies at the World Trade Center and at the Pentagon. The Corps is 
heavily involved in determining structural integrity and debris 
management in both locations and continue to serve as the nation's 
premier engineers during this time of crisis. Should I be confirmed, I 
will be proud to work alongside these ultimate professionals.
    In the 10 years during which I had the honor of representing the 
Fourth District of Mississippi in the U.S. House of Representatives, I 
applied my commitment to finding practical, realistic solutions to 
problems and issues of importance to my constituents. Having served on 
various House committees which deal with a range of issues I can expect 
to face as the Assistant Secretary, I understand both the Civil Works 
and military programs aspects of the Corps of Engineers and appreciate 
the challenges. facing the Corps.
    Should I be confirmed, I look forward to serving with the Army and 
the Corps during this landmark era of change and transformation. I look 
forward to serving with the Army team of Active, Reserve, and National 
Guard soldiers who distinguish themselves every day by their dedication 
and hard work. I am prepared to undertake the important 
responsibilities of this post and am enthusiastic about the 
opportunities it presents to me to continue to serve this great 
country. I am committed to working closely with and consulting with the 
various stakeholders in the ongoing Corps projects, including the 
Members of Congress who represent the American people. Mr. Chairman, if 
confirmed, I look forward to a strong working relationship with you and 
this committee. I would be pleased to answer any questions at this 
time. Thank you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                             Senator Smith

    Question 1. As you are well aware, the Army Corps Civil Works 
Program faces a construction backlog of $40 billion in unfunded, but 
authorized projects. The Senate Environment and Public Works Committee 
is currently on schedule to report the next biennial Water Resources 
Development Act in the year 2002. While the Appropriations Committees 
have adhered to a ``no new starts'' policy, this seems to unfairly 
penalize otherwise meritorious projects. What do you recommend the 
Congress do to fairly address both the massive construction backlog and 
the backlog on Operations and Maintenance?
    Response. The construction backlog of the Civil Works Program of 
the Corps of Engineers is real and needs to be addressed. My intention, 
if confirmed, is to work within the Administration and with Congress to 
assure that adequate funding is available to address the construction 
and maintenance backlogs. The Civil Works Program of the Corps of 
Engineers is a direct contributor to the economic vitality of this 
country and investing in water infrastructure is a direct way to 
contribute to the economic vitality and therefore, national security of 
this country. If confirmed, I will work directly with the Corps of 
Engineers to review the backlog of currently authorized projects to 
determine whether it remains in the national interest to pursue those 
projects. In addition, I will place a very high priority on reducing 
the Civil Works maintenance backlog.

    Question 2. In November of 2000, then-Assistant Secretary Joseph 
Westphal and Chief of Engineers General Robert Flowers signed a 
Memorandum of Agreement (MOA) outlining the distribution of 
responsibilities and reporting authority between the two positions. Is 
it your intent to honor this MOA?
    Response. Yes, I do. If confirmed, I will meet with the Chief of 
Engineers at the earliest date possible to affirm this agreement.

    Question 3. What measures do you recommend the Army Corps take to 
avoid a recurrence of the situation encountered with the Upper 
Mississippi River Navigation Study?
    Response. It is my understanding that, subsequent to the Army 
Inspector General report and a review by the National Research 
Council's National Academy of Sciences, the Chief of Engineers put in 
place a number of additional measures to receive and incorporate into 
the planning process the views of other Federal agencies and non-
governmental entities with expertise needed for complex studies like 
the Upper Mississippi River Navigation Study. If I am confirmed, I will 
work closely with the Chief of Engineers, with others in the 
Administration and with Members of Congress to strengthen the Corps 
planning process and the public's confidence in it.

    Question 4. Do you consider environmental restoration to be a 
primary mission of the Army Corps and will you support it to the same 
extent you do the other missions of the Corps?
    Response. Yes, I do. I am committed, if I am confirmed, to seeing 
that the Corps continues to excel in environmental restoration. I 
firmly believe that economic development and environmental restoration 
need not be competing priorities. The most effective projects are those 
that satisfy both critical objectives. The Civil Works program of the 
Corps can truly improve the quality of life for all of our citizens 
through economic prosperity, national security, and environmental 
protection and restoration.

    Question 5. As you may know, on January 15th, 2001, the Air Force 
issued a Record of Decision (ROD) on redevelopment of Homestead AFB, 
rejecting the plan to convert the base into a commercial airport and 
instead approving a plan for mixed use development. The 700 acres of 
land will be transferred to Miami-Dade County, which prefers the 
airport alternative. If the county declines the surplus property, the 
ROD stipulates that the Air Force will consider a request for the 
property to be transferred instead to the Department of Interior.
    Homestead AFB is located approximately 10 miles from Everglades 
National Park and two miles from Biscayne National Park. Last year, the 
Environment and Public Works Committee authorized an $8 billion 
restoration effort in the Everglades. Included in this statute is a 
Sense of the Congress that any redevelopment of the AFB be consistent 
with restoration of the Everglades.

    Question 6. What is your position regarding the disposal of 
Homestead AFB?
    Response. As I understand it, Hurricane Andrew had a significant 
impact on Homestead Air Force Base, and the Air Force looked closely at 
alternatives associated with its future. I am not familiar with the 
details of those alternatives at this time. If confirmed, I will look 
into the situation to ensure that any disposal or redevelopment 
decisions are consistent with the principles in the Corps Comprehensive 
Everglades Restoration Plan and consult with the appropriate committees 
of Congress before making any final decision.

    Question 7. Do you think that any reforms are needed in the Corps 
to restore the faith of the public and Congress in this agency?
    Response. The Corps of Engineers has provided and continues to 
provide this Nation with great service that is technically sound, 
environmentally sensitive and responsive to the needs of the American 
public, and I don't believe any fundamental changes are needed. 
However, I do recognize that the Army must be open to opportunities to 
improve the responsiveness of the Corps of Engineers in meeting 
national needs and developing sound project recommendations. If I am 
confirmed, I plan to actively examine the question of independent 
review and other reforms, in consultation with the Chief of Engineers 
and the National Academy of Sciences and, as appropriate, develop a 
recommendation for consideration by the Congress.

    Question 8. Mr. Parker, would you support updating the Principles 
and Guidelines to reflect recent policy and social changes, such as the 
inclusion of environmental restoration as a Federal purpose, and 
advances in analytical techniques and technologies?
    Response. I believe that the existing Principles and Guidelines 
provide a sound basis for evaluating the economic and environmental 
benefits and costs of proposed projects. It is important, however, that 
as improved methods of evaluation are developed, the Government's 
analysis can benefit from them. If I am confirmed, I will review the 
existing Principles and Guidelines, with particularly attention to the 
way they are implemented, as I assess whether or not they need to be 
revised. Before any decisions are final in this matter, I will consult 
with the Congress.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                             Senator Baucus
    Question 1. Mr. Parker, would you agree that it's high time that 
the current Master Manual be changed? It's been around for decades upon 
decades, and times and river conditions have changed.
    Response. I agree that operating procedures for Civil Works 
projects should reflect current conditions and priorities. The existing 
Missouri River Master Manual is, as you state, one that has been in 
place for many years. The Corps has been involved since 1989 in a 
review of the current Master Manual. This has been and continues to be 
a long process and will be one of my top priorities if I am confirmed.

    Question 2. While the debate over changing the Master Manual has a 
lot to do with endangered species, it also has a lot to do with the 
recreation industry in my State and other upstream States. I'll be 
blunt. We really feel we've been short-changed over the years as our 
reservoirs are drained in the summer, particularly during dry years, 
docks left high and dry, to support downstream interests. What is your 
view on better balancing the needs of upstream recreation interests 
with downstream demands, particularly during a drought?
    Response. If confirmed, I will act on my commitment to consider the 
water resource needs of the entire basin in completing the revision of 
the Master Manual on the Missouri River. The alternatives under 
consideration in the revised draft Environmental Impact Statement 
include a conservation plan component for storage in the upper Missouri 
reservoirs, which would provide more storage in drought conditions. The 
completion of this process will provide the legal, scientific, and 
engineering basis for any changes on balancing upstream recreation 
interests with downstream demands.

    Question 3. How do you think the Army Corps should respond to 
Biological Opinions, in general?
    Response. The Corps should and does give great deference to the 
conclusions of Biological Opinions under the Endangered Species Act. I 
believe that economic development and environmental restoration do not 
need to be competing priorities. We must all work to ensure that we 
avoid impacts to protected species or the critical habitats on which 
they depend. If I am confirmed, I assure you that all of the actions 
taken through the Civil Works program will be consistent with the law 
and will use the coordination and decisionmaking processes provided for 
in the law.

    Question 4. If the Army Corps does not follow the recommendations 
of the US Fish and Wildlife Service's Biological Opinion in formulating 
a Record of Decision on the Missouri River Master Manual, what do you 
think will be the result of that decision?
    Response. I am not familiar enough with the details of this 
extremely complex issue to offer an opinion on the results of any 
decision. However, you have my commitment that, if I am confirmed, I 
will give this matter my fullest attention to ensure that, whatever the 
decision, the outcome has been well thought out and all project 
purposes and all of the interests in the river basin have been taken 
fully into consideration. If confirmed, under my leadership the Corps 
will always implement and follow the law.

    Question 5. Can I count on your commitment to support the 
development of the Fort Peck Fish Hatchery? I've asked for funding for 
the Corps to get this project off the ground. There's tremendous 
support for it in the local Corps and in Montana. It would be a huge 
boon for recreation, the regional economy and endangered and threatened 
species a win-win project.
    Response. When Congress provides funding for a particular activity, 
such as the Fort Peck Fish Hatchery, you should be able to expect that 
the Corps will vigorously apply the funding as appropriated by 
Congress.

    Question 6. Mr. Parker, I would just ask you to familiarize 
yourself with the Yellowstone River cumulative impacts study, because 
it is important that the Corps continue to involve the public in the 
process. The Yellowstone means a lot to an awful lot of people. 
Managing the river will always be controversial, and I want to be sure 
that the Corps truly listens to local voices.
    Response. You have my commitment that, if I am confirmed, I will 
familiarize myself with not only the Yellowstone River study, but also 
with other issues of interest to the residents of Montana.

    Question 7. Will you come to Montana?
    Response. Yes Senator, if confirmed, I would look forward to 
visiting the State of Montana.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                             Senator Wyden
    Question 1. If you're confirmed as Assistant Secretary, what will 
you do to prevent a rerun of this year's attempt to cut the Corps' 
funding in the budget process?
    Response. Senator, I am committed to working within the 
Administration, as well as with Congress, to ensure that the 
contributions of the Civil Works program to the Nation are understood 
and that adequate resources are provided to efficiently and effectively 
carry out the Civil Works responsibilities of the Corps of Engineers. 
If confirmed, I intend to meet with senior Administration officials on 
the challenges facing this country with respect to its water 
infrastructure. The Administration and Congress need to work together 
to assure that this program move forward effectively. I look forward to 
the opportunity to lead this effort.

    Question 2. An issue of particular concern to Oregon ports is 
keeping the Northwest hopper dredges available to keep our navigation 
channels and our ports open for business. The Northwest ports are not 
convinced that the private dredge industry has the capability to meet 
the region's dredging needs in a timely and cost effective way. Our 
ports want the Corps dredges maintained to ensure safe navigation. What 
commitments can you make that the Corps dredges will be available to do 
the work when they're needed?
    Response. I am committed to ensuring safe commercial navigation of 
channels and harbors in the Pacific Northwest and elsewhere in the 
country with maintenance that is cost effective and efficient and that 
adequate hopper dredging capacity is available to respond to the needs 
of Northwest ports. By striking a reasonable balance between industry 
competition and Government-owned dredges, the Corps can meet this 
commitment. If I am confirmed, I will work with the Corps to improve 
actual dredging performance in the Northwest and will not allow the 
Northwest to left without proper dredging capacity.

    Question 3. At a March 1998 hearing before the Subcommittee on 
Energy and Water Development, you questioned the Corps' environmental 
missions and in particular Columbia River Salmon Recovery efforts. 
You've been quoted in the press as saying ``I never even thought they 
were in the scope of the Corps' primary mission.'' My questions are: 
Have your views changed since you made those comments and, if so, how? 
Do you now support salmon restoration efforts in the Northwest as part 
of the Corps' mission? And will you make salmon recovery funding a 
priority?
    Response. The comments were made in the context of a dialog in a 
hearing before the Subcommittee on Energy and Water Development that 
arose because the Corps had reprogrammed money without consulting with 
the Subcommittee. It was and is my opinion that the Corps should 
consult with Congress before making any significant reprogramming 
decisions. I recognize the importance of environmental restoration and 
the Corps unique capability to provide it. Moreover, I support salmon 
recovery efforts in the Northwest that represent cost effective 
application of the best science and engineering available to this 
complex ecosystem challenge. I am supportive of a broad coalition of 
States, Tribes, and Federal agencies being involved in recovery efforts 
and will support the Corps involvement in working within the Northwest 
Region on this issue. I also recognize that the Bonneville Power 
Administration provides for a substantial amount of funding for salmon 
recovery, and I will continue to examine ways that this funding can 
best be leveraged to support Corps activities. If I am confirmed, I 
will look for ways to collaborate fully on salmon recovery efforts and 
will support appropriate levels of funding to maintain Civil Works 
projects to enhance fish survivability.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                             Senator Graham
    Question 1. There is a substantial backlog of projects that have 
been authorized for the Corps to undertake. With current funding 
levels, it seems unlikely that this backlog will ever be fully funded. 
There are also several projects that seem to have very little economic 
benefit and are also environmentally damaging. One example of this is 
O&M dredging of the Apalachicola River. In an August 2000 letter to me, 
then Assistant Secretary of the Army, Joseph Westphal wrote: ``Based 
upon our review and conversation with the Corps, I believe that 
maintaining navigation on the ACF is not economically justified or 
environmentally defensible. With an economic return that has been 
estimated at less that 40 cents for each dollar spent, it is difficult 
to invest nearly $3 million each year on this project in light of the 
Corps overall backlog for operations and maintenance. Further, 
deauthorization of navigation would provide the Corps greater 
flexibility to address important environmental issues along the 
river.''
    Do you support deauthorization of outdated, unjustifiable, or 
unnecessary projects, such as the dredging of the Apalachicola River, 
as a means of providing more flexibility to the Corps to address its 
operations and maintenance backlog?
    Response. I support the deauthorization of outdated, unjustifiable, 
or unnecessary projects. A few years ago, Congress authorized a process 
whereby if authorized projects had not received any fund for five 
consecutive years, they would be eligible for deauthorization. I 
believe we need to review this process to determine whether any changes 
in this process are warranted. If I am confirmed, I look forward to 
working with the Corps to assure that changes to the deauthorization 
process are comprehensive, fair to all, and effective in identifying 
those projects that are no longer in the national interest to pursue.

    Question 2. When General Flowers was confirmed, I expressed 
interest in establishing a process for a regular review of ongoing 
Corps projects outside of the normal budget process. What is your 
opinion of such a process?
    Response. I agree with the importance of regular review of projects 
and priorities. If confirmed, I will work with the Corps and the 
Congress to examine their current procedures and identify other 
opportunities for review.

    Question 3. In recent years, the purpose of many Corps projects has 
been environmental restoration. There are many such projects in 
Florida, the largest being the restoration of America's Everglades. 
There has been substantial concern over statements you made while in 
Congress that question the primacy of environmental restoration to the 
overall mission of the Corps. However, in response to advanced 
questions posed by the Armed Services Committee, you stated: ``I 
believe that projects and programs that protect and restore the natural 
environment are a priority to the American people and a central mission 
for the Corps of Engineers.''
    What do you see as the primary mission of the Corps of Engineers 
and how do environmental restoration projects, such as the restoration 
of the Everglades, fit into that mission?
    Response. Environmental restoration is most definitely a primary 
mission of the Corps of Engineers. In recent years, it has been 
accorded the same priority for resources as the other primary missions 
of flood damage prevention and commercial navigation.

    Question 4. Many Members of Congress have called for significant 
reforms in the way the Army Corps conducts its business. One issue that 
has come to my attention is the manner in which Corps district offices 
interact with other parts of the government as well as with local 
communities that are the beneficiaries of Corps projects. In handling 
issues of importance to Florida, I have had many interactions with the 
Jacksonville district office. They have been helpful, responsive, and 
eager to provide me with the information I have needed.
    Do you plan to conduct an internal review as to the way the 
district offices interact with outside agencies and the people they 
serve in order to help all the districts be as helpful and responsive 
as the Jacksonville district?
    Response. If confirmed, I will conduct an internal review of the 
Corps to review its approaches in dealing with all of its constituents 
and interested parties as we carry out the Army Civil Works program.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                             Senator Boxer
                       buttonwillow/safety-kleen
    Question 1. I understand the Corp of Engineers has not made any 
progress since last October on removing Formerly Utilized Sites 
Remedial Action Program (FUSRAP) waste from the unlicensed Safety-Kleen 
facility at Buttonwillow, California, and that no further studies are 
being conducted. I am deeply disappointed by this continued inaction, 
and that waste continues to sit in an unlicensed California dump when 
other licensed facilities in other States express willingness to accept 
it. Will you commit to working with me to remove the waste from my 
State?
    Response. I will work with you and your staff to become fully aware 
of your concerns regarding the Corps use of the Safety-Kleen facility 
in California for the disposal of FUSRAP materials. I am also quite 
willing to work with you to define a potential solution to your 
concerns.
                      missouri river master manual
    Question 1. Under what circumstances do you believe that the 
Endangered Species Committee provision of the Endangered Species Act 
should be utilized?
    Response. Senator, As I currently understand it, the Endangered 
Species Committee process was established by the Endangered Species Act 
to resolve situations when there is no reasonable and prudent 
alternative that an agency can pursue to preclude jeopardy.

    Question 2. Do you believe that the Endangered Species Committee 
provision of the Endangered Species Act should be utilized to address 
the revision of the Missouri River Master Water Control Manual?
    Response. Senator, If I am confirmed, I have every expectation of 
working toward a resolution that not only serves the congressionally 
authorized project purposes provided by the 1944 Flood Control Act, but 
also complies with the provisions of the Endangered Species Act. If 
confirmed, under my leadership, the Corps will follow the law.

    Question 3. If a proposal is made to invoke the Endangered Species 
Committee provision of the Endangered Species Act, will you commit to 
inform this committee and interested senators at the earliest possible 
opportunity, and to appear before this committee to provide an 
explanation for such action?
    Response. Yes, I will.

    Question 4. The Fish and Wildlife Service has stated in a 
Biological Opinion that the Missouri River Master Water Control Manual 
must be revised to adopt a ``spring rise'' in order to comply with the 
Endangered Species Act. How do you believe the Corps of Engineers 
should respond to this direction?
    Response. Senator, I understand that this is a complex, 
controversial project. While I am not in a position to recommend at 
this point how the Corps of Engineers should respond, you have my 
commitment that, if I am confirmed, this matter will have my attention 
and I will work with the Corps of Engineers, other agencies, and 
Congress to identify a solution. Under my leadership if I am confirmed, 
the Corps will implement the law.

    Question 5. Do you believe that the Corps of Engineers can comply 
with the Endangered Species Act without adopting a ``spring rise'' as 
part of the Missouri River Master Water Control Manual?
    Response. Senator, I am not in a position to comment at this point. 
However, you have my commitment that, if confirmed, I will work to 
resolve this matter in a manner that takes into consideration all of 
the various interests in the region.

    Question 6. Will you pledge to ensure that the Missouri River 
Master Water Control Manual is revised in complete accordance with 
Federal law, including the Endangered Species Act and the Fish and 
Wildlife Service Biological Opinion?
    Response. Yes, Senator, I will. We will make this and all of our 
decisions within the framework of all applicable laws and regulations.

    Question 7. The Corps of Engineers did not recommend a ``Preferred 
Alternative'' in its Revised Draft Environmental Impact Statement on 
the revision of the Missouri River Master Water Control Manual. Do you 
believe that this was an appropriate step for the Corps to take?
    Response. Although I am not yet familiar with all of the 
considerations that went into this decision, it is my hope that the 
approach the Corps has taken will encourage a fair and balanced public 
review of all alternative proposed changes to the Master Manual.

    Question 8. The Corps of Engineers is scheduled to release a final 
Environmental Impact Statement on the revision of the Missouri River 
Master Water Control Manual in May of 2002. Do you intend to meet this 
deadline?
    Response. If I am confirmed, I have every intention of meeting this 
deadline.

    Question 9. Will you act to ensure that the Corps makes a 
recommendation for managing the river by May of 2002 that fully 
complies with Federal law and is based upon sound, scientific research, 
including the 2000 Fish and Wildlife Service Biological Opinion?
    Response. Yes, Senator, I will if confirmed. The considerable body 
of knowledge gained thus far and expected over the coming months, 
including the public comments, will be fully considered in making a 
decision on a Preferred Alternative in 2002.
                                wetlands
    Question 10. What are your views on the regulation and protection 
of wetlands, and how do you intend to carry out your duties as the 
nation's primary wetlands regulator?
    Response. I believe that the Corps of Engineers plays a critical 
role in protecting the aquatic environment, including wetlands, of this 
Nation. The Corps has significantly strengthened the protection of 
wetlands over the past 20 years through its regulatory program. If 
confirmed, I intend to maintain the level of protection of the aquatic 
environment, including the Nation's vital wetland resource, and even 
improve on the protection that currently exists.

    Question 11. The National Academy of Sciences has made disturbing 
findings concerning the Corps' implementation of the wetlands 
regulatory program. Among other things, the National Academy of 
Sciences has found that ``support for regulatory decisionmaking is 
inadequate'' and that the goal of no net loss of wetlands is not being 
met for wetland functions by the mitigation program. If confirmed, what 
steps would you take to address these problems?
    Response.
    If confirmed, I will strongly advocate a level of resources for the 
Corps regulatory program that will ensure that proper decisions can be 
made. I will work to ensure that the Corps focuses on important 
ecological issues in its regulatory program and works with the States 
and others to leverage Federal, State and local resources to a common 
goal of increased protection of the aquatic environment. I am 
concerned, as I know the Corps is concerned, with the results of the 
National Academy of Sciences Report. The focus of the report is on the 
need for the Corps to increase compliance with issued permits. I will 
work with the Corps to improve compliance with issued permits and to 
achieve the successful mitigation for wetland impacts, so that we can 
ensure that the no overall net loss of wetlands goal is attained in the 
program.
                              corps reform
    Question 12. In your responses to questions posed by the Armed 
Services Committee, you stated that in your view the Corps does not 
need to make fundamental changes in the way it operates. What is your 
view of the conclusions and recommendations regarding the Corps of 
Engineers reached by the Army Inspector General, the National Academy 
of Sciences, and the General Accounting Office in relation to the Upper 
Mississippi locks and dams study?
    Response.
    The Corps processes have been evaluated by the national Academy of 
Sciences and found to be basically sound. At this point I do not 
believe fundamental changes are necessary. If confirmed, I will work 
with the Corps to identify changes that would improve the service of 
the Corps to the Nation.

    Question 13. Would you support the establishment of a policy that 
would allow major Corps decisions to be reviewed independently to 
ensure that major projects are economically and environmentally sound?
    Response. If I am confirmed, I will actively examine the question 
of independent review, in consultation with the Chief of Engineers, 
other within the executive branch, and the National Academy of 
Sciences. Whatever improvements may be made must not appreciably 
increase the cost or time of the already overly long planning process. 
I will maintain close communications with Congress throughout this 
process.
                           snake river salmon
    Question 14. A Federal court found the four lower Snake River dams 
in Eastern Washington to be in violation of the Clean Water Act and 
ordered the U.S. Army Corps of Engineers, as the operators of those 
dams, to comply with the Act. It is my understanding that the Corps has 
yet to comply with this order. How do you intend to comply with the 
water quality standards and what is your timeframe for doing so?
    Response. Senator, this is a very important issue and, if I am 
confirmed, I commit to working closely with the Army General Counsel, 
the Corps of Engineers, the Environmental Protection Agency, local and 
State Governments, and the Congress on water quality issues impacting 
the Snake River Dams.

    Question 15. In December of 2000, the National Marine Fisheries 
Service released a final Biological Opinion on the Federal Columbia 
River Power System. In that Biological Opinion, the National Marine 
Fisheries Service states that the removal of the four lower Snake River 
dams is the surest way to ensure the protection and recovery of salmon 
in the Snake River. If removing the lower Snake River dams is 
demonstrated to be the most cost-effective way to comply with both the 
Clean Water Act and the Endangered Species Act, would you support 
removal of the dams?
    Response. Senator, as I understand it, the National Marine 
Fisheries Service's Biological Opinion put into place a broad and 
complex plan of measures to achieve the recovery of the endangered fish 
species. This plan does not envision a decision on dam removal at this 
time. There are many unresolved issues associated with the Clean Water 
Act and how they affect the dams on the Snake River. Given the ongoing 
efforts on salmon recovery and water quality, I am not in a position to 
speculate on what conditions would need to exist for me to recommend 
removal of the dams.

    Question 16. Do you believe that the Corps of Engineers currently 
has authority to remove the dams to comply with Federal laws and 
treaties?
    Response. It is my understanding that they do not.

    Question 17. In the US Army Corps of Engineers' most recent Lower 
Snake River Juvenile Salmon Migration Feasibility Study Newsletter 
(August 2001), the Corps states that ``the only Federal project we 
could find that has received more public comments than this FR/IS 
[Feasibility Report/Environmental Impact Statement] is the U.S. Forest 
Service Roadless Initiative . . . . Interest in the project was 
dispersed over the entire country . . . It appears that no other 
project--including the Florida Everglades, the Missouri River Master 
Manual revision, and the Headwaters Agreement (redwoods)--approached 
this level of public interest.'' What is your timeline for completing 
your feasibility analysis and responding to the public and Congress 
about this Nation issue?
    Response. Senator, it is my understanding that the Corps of 
Engineers' current schedule calls for completion of a Final Feasibility 
Report and Environmental Impact Statement with a Preferred alternative 
in April 2002.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                            Senator Corzine
    Question 1. New Jersey's identity and tourist economy are closely 
linked to its 127 miles of shoreline and beaches. Through the Corps of 
Engineers, the Federal Government has played a vital role in keeping 
our beaches healthy through beach replenishment and shoreline 
restoration projects. These projects help to protect shore communities 
from storm damage, and are extremely important to tourism. What is your 
view of the importance of these projects? Would you give them high 
priority in your role as Assistant Secretary?
    Response. It is my view that shore protection projects play a vital 
role in the safety and economic well being of coastal areas. If 
confirmed, I will work within the Administration and with the Congress 
to increase understanding of the contributions of these projects, which 
are comparable to the benefits of flood control, commercial navigation, 
and environmental projects.

    Question 2. Earlier this year, the Administration proposed changes 
to the beach nourishment cost share formulas. I opposed these changes 
because I think it is unfair to change the rules after projects have 
been agreed to and local sponsors have committed to contributing their 
share. Do you believe that it is the Federal Government's 
responsibility to honor commitments to its non-Federal partners such as 
have been made in beach nourishment agreements?
    Response. I certainly believe the Federal Government should honor 
it commitments. One of the most difficult aspects of making any change 
in policy or law is the need to balance the new benefits to be achieved 
by the change against the effects on existing government activities.

    Question 3. On September 26, 2000, the Assistant Secretary of the 
Army signed a Memorandum of Agreement (MOA) with the U.S. EPA. The MOA 
laid out specific actions to address contamination levels in materials 
that will be placed in the Historic Area Remediation Site (HARS). If 
confirmed, will you work to expedite completion of the terms of the 
MOA, which is already behind schedule?
    Response. If confirmed as Assistant Secretary of the Army (Civil 
Works), I will work with EPA to expedite completion of the terms of the 
MOA concerning materials to be placed in the HARS.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                            Senator Daschle
                      missouri river master manual
    Question 1. The revision of the Missouri River Master Water Control 
Manual has been ongoing for the last 12 years. Last August, the Corps 
of Engineers released a Revised Draft Environmental Impact Statement 
that failed to recommend any Preferred Alternative for managing the 
river. If confirmed, will you commit to revising the master manual in a 
timely manner and to ensure that the revision fully complies with all 
Federal laws, including the Endangered Species Act?
    Response. Yes, I will. If I am confirmed, I will ensure that all 
decisions will be made within the framework of applicable laws and 
regulations, including the Endangered Species Act, and to consult with 
the Congress before finalizing any decisions.
                                 ______
                                 
 Responses of Paul Michael (Mike) Parker to Additional Questions from 
                            Senator Clinton
    Question 1. If confirmed, will you work closely with me and other 
members of the New York delegation with respect to the Corps' emergency 
response efforts associated with the horrific terrorist attack on the 
World Trade Center in New York City on September11, 2001?
    Response. Yes, Senator. The Corps of Engineers has deployed to New 
York City experts in the fields of urban search and rescue, structural 
engineering support, and debris removal and management. These experts 
were on the ground soon after the horrific event occurred. If I am 
confirmed, my commitment will join that of the Corps that these 
resources will remain deployed for as long as the citizens of New York 
need them.

    Question 2. Will you work to ensure that all necessary and 
appropriate measures are being taken with regard to response efforts at 
the World Trade Center site to protect human health and the 
environment?
    Response. Yes. The Corps has a long and extremely successful track 
record of incorporating applicable Federal, State, and city health and 
environmental protection requirements into its activities, including 
its emergency response and recovery activities. This applies to 
activities carried out by both Corps personnel and Corps contractors. 
If I am confirmed, I will work with the Corps, EPA and Health and Human 
Services as the Federal involvement in response and recovery continues, 
to ensure all health and environmental issues are addressed.

    Question 3. Will you work with the delegation and the committee to 
ensure that we learn from this experience and make any necessary and 
appropriate changes to the Corps' emergency response capabilities?
    Response. I place a high priority on incorporating lessons learned 
into ongoing activities and, if I am confirmed, I will work with the 
Corps and all interested parties to examine the scope of Corps 
emergency response authorities, and capabilities and to rapidly pursue 
improvements to these authorities should we determine impediments to 
effective response exist.
                               __________
  Statement of Mary E. Peters, Nominated to be Administrator, Federal 
          Highway Administration, Department of Transportation
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today as you consider my nomination 
for Administrator of the Federal Highway Administration. I am sincerely 
honored to have been nominated for this position by President Bush, 
with the concurrence of Secretary Mineta. Should you choose to confirm 
me I look forward to working with this committee, each of you, and your 
staff to administer the Federal highway program. I recognize the 
historic contributions this committee has made to surface 
transportation and the key role it has played in shaping national 
transportation policy.
    Transportation affects every person in our country and each one of 
them, every man, woman and child, has the right to expect a safe, 
accessible, affordable and reliable transportation system. This 
expectation should be honored, whether it be that of a child living 
within tribal Nation boundaries who needs an education; a person with 
disabilities, like my own brother, who needs access to training 
services; parents who need to spend less time commuting and more time 
with their children, or a senior citizen who needs mobility options. It 
is for these, our ultimate customers, that we provide transportation 
services.
    Transportation that is responsive to the citizens and businesses we 
serve is vitally important to our nation's economic health and the 
quality of life of every American. There are a number of factors to be 
considered in ensuring that transportation meets these needs.
    I would like to mention four of them today national security, 
public safety, quality of life, and commerce. I would normally always 
mention safety first. However, after the terrorist attacks on September 
11, I thought it important not to distinguish between public safety and 
national security on a priority basis.
    The Interstate Highway System met a need identified during World 
War II, providing a coast-to-coast highway system that would allow this 
country to efficiently move troops and equipment, and respond to 
natural disasters. While the system is now complete, it is essential 
that it be operated and maintained in a manner that continues to enable 
the safe and efficient mobilization of military forces and deployment 
of disaster response resources. As last week's tragic events 
demonstrated, it is essential that our highway system, indeed our 
entire transportation system, dependably serve public safety, disaster 
response and recovery, and other national security requirements.
    Transportation is important to public safety in a number of 
aspects, including safety of the infrastructure itself and the ability 
of police, fire and other emergency response personnel to reach the 
incidents to which they are responding. Most importantly, we must make 
our highways safer for all who use them. Too many die or are injured on 
our roads. In addition, if an ambulance is stuck in traffic, or a fire 
truck cannot reach the blaze, our public safety needs cannot be met. An 
efficient, effective transportation system is a crucial component of 
public safety.
    Mobility is a key component to a good quality of life. The ability 
to safely, efficiently and predictably get to our jobs, our children's 
activities, our religious services, to obtain medical services, shop 
for our needs or take a vacation are all affected by our nation's 
transportation systems.
    Economic growth and our ability to compete in a global economy are 
dependent on transportation systems and services. As Secretary Mineta 
has mentioned, when he served as Mayor of San Jose, California, he 
learned that transportation was the most effective tool available to 
him in fostering economic development. The ability for commerce to move 
in a seamless, efficient transportation system can position our country 
to remain a leader in the world economy or inhibit our ability to do 
so. Building the Interstate Highway System and designating the National 
Highway System were strong steps toward ensuring viable interstate 
commerce. Now we must ensure that the operation of that system 
supports, rather than hinders, commerce.
    To respond to these factors, if I am confirmed, I would immediately 
focus on several priority areas. These are highway safety, 
environmental streamlining, stewardship of public funds, congestion and 
bottlenecks, and of course reauthorization.
    While progress has been made, more than 40,000 persons lose their 
lives every year in highway crashes, and more than 3 million are 
injured. Ninety-four percent of all transportation fatalities occur on 
highways, and if confirmed I would make it a top priority to improve 
highway safety. Using the three-pronged approach of engineering, 
enforcement and education we can improve our safety record and reduce 
lives lost on the nation's highways. We must ensure that available 
funds are spent in ways that generate the greatest possible 
improvements for our investment. Rumble strips, for example, are an 
excellent, relatively low-cost, way to reduce run-off-the-road crashes 
that occur predominantly on rural two-lane roadway sections. Another 
area of emphasis is work zone safety, both for highway workers and the 
public.
    I believe that we can be respectful stewards of the environment 
while improving review processes so they are more efficient and less 
duplicative. Secretary Mineta has said that taking longer does not 
necessarily result in a better project. If confirmed, I would work with 
you, my fellow modal administrators, State and local officials, the 
environmental community, industry and others to develop methods for 
streamlining the environmental approval processes while remaining 
mindful of the critical importance of environmental stewardship.
    In my position as Director of the Arizona Department of 
Transportation, I frequently reminded people in my Agency that the 
funds we had been entrusted with to accomplish our mission were indeed 
the public's money. I bring that strong belief to the position for 
which I have been nominated, and if confirmed will work to further 
improve and strengthen oversight and accountability of the public funds 
entrusted to the Federal Highway Administration. This includes the 
responsibility to accurately and completely estimate and disclose costs 
at the onset of all projects, as well as to monitor progress and 
expenditures during the life of projects to ensure we indeed get what 
we are paying for.
    Congestion and bottlenecks have a detrimental effect on air 
quality, commerce, and our overall quality of life; it is both 
expensive and aggravating. This growing level of congestion is, of 
course, the result of demand significantly outpacing capacity; however, 
the solution is not just to add capacity. Congestion must be approached 
from a systemic and operational standpoint, using a variety of tools 
including technology, intermodal and multimodal solutions as well as 
capacity improvements. In addition, there are a number of options to 
complete construction projects more quickly once they are approved. If 
confirmed, I would make relieving congestion a top priority.
    The Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA) and the Transportation Equity Act for the 21st Century (TEA-21) 
were landmark pieces of legislation. These acts, including firewalls, 
minimum guarantees and flexibility provided the funding and tools that 
allowed transportation directors, such as myself, to be significantly 
more responsive in meeting the State's transportation needs. The 
upcoming 2003 Transportation Reauthorization provides an opportunity 
for us collectively to build on these successes as well as to be 
forward-focused on the transportation challenges and opportunities in 
the 21st Century. We can take this opportunity to encourage innovation 
and take advantage of the exponential gains possible when the public 
and private sectors collaborate to meet these challenges. If confirmed, 
I look forward to working with you on transportation reauthorization.
    I have spent more than 15 years in the transportation field. I have 
had the opportunity to be involved in a number of local, regional and 
national transportation issues as State Director of Transportation in 
Arizona. In that capacity, I had responsibility for highway, transit, 
rail and aviation transportation functions, as well as motor carrier 
programs, driver licensing and vehicle registration, and tax collection 
and distribution. This experience afforded me the opportunity to 
recognize the importance of dealing systemically and inclusively with 
issues, remaining mindful of the integration of the various modal 
functions in arriving at solutions for the many transportation 
challenges in a rapidly growing State like Arizona.
    I bring this experience to the position for which I have been 
nominated, as well as knowledge in the technical aspects of planning, 
building and operating transportation systems, the use of technology in 
arriving at solutions, and a background in the finance and economics of 
these systems. I have the management and leadership skills to work with 
Secretary Mineta to lead the Federal Highway Administration in a clear, 
strategic direction should I be confirmed.
    Recognizing the many demands on your time, I sincerely appreciate 
the opportunity you have afforded me to appear before you today as you 
consider my nomination. I would be pleased to respond to any questions 
you may have.
                                 ______
                                 
                                                September 20, 2001.

Senator Bob Smith, Ranking Member,
Senate Environment and Public Works Committee,
Dirksen Senate Office Building,
Washington, DC 20510-6175.

Dear Senator Smith: It is with a great deal of pleasure that I contact 
you on behalf of my friend, constituent and fellow Arizonan, Mary 
Peters. I had hoped to be with Mary this morning as the committee 
considers her nomination to be Administrator of the Federal Highway 
Administration. However, we have not yet eompleted our work on the 
National Defense Authorization Act.
    President Bush could not have picked a better candidate to head the 
Federal Highway Administration, nor could the Senate consider a better 
nomination to administer the Department of Transportation's highway 
transportation programs. As head of the Arizona Department of 
Transportation (ADOT) Mary was known throughout the State as someone 
who was willing to listen to all sides of an issue and work toward 
building both a consensus and a solution. Her fair and balanced 
approach to the diverse transportation problems of Arizona has won her 
bipartisan respect and praise throughout the state. I have no doubt 
that you will also be impressed with her fairness, her lmowledge and 
her commitment to our nation's highway transportation needs.
            Sincerely,
                                                 Bob Stump,
                                               Member of Congress. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Responses of Mary E. Peters to Additional Questions from Senator 
                                Jeffords
    Question 1. Do you support full implementation of the new 8-hour 
ozone standard, including EPA & DOT guidance to the States on ensuring 
conformity of transportation plans with that standard? Please give the 
committee a date certain on when the guidance will be issued.
    Response. EPA has the responsibility to develop and implement 
health based air quality standards. In July 1997, EPA promulgated 
stricter ozone and new fine particle standards which have redefined 
clean air and will have widespread impacts on the transportation 
community in broader regions of the country.
    In October 2000, Congress amended the Clean Air Act to provide a 
12-month grace period for newly designated nonattainment areas to meet 
transportation conformity requirements.
    The U.S. Court of Appeals had delayed the implementation of these 
revised standards. On February 27, 2001, the U.S. Supreme Court 
reversed the Court of Appeals and upheld EPA's authority to promulgate 
the standards. However, the Court also concluded that EPA must develop 
a reasonable implementation strategy that would reconcile what the 
Court considered to be ambiguous provisions of the Clean Air Act.
    EPA is developing the implementation plan for the 8-hour ozone 
standard to address the Court decision. State and local implementation 
guidance, including conformity guidance will be developed once details 
of the implementation plan are known.
    DOT and EPA have been working on new conformity guidance. As with 
the setting of the air quality standards, EPA has primary 
responsibility for developing the conformity guidance. I will continue 
to work with the EPA to ensure that appropriate guidance is developed 
and that State and local transportation agencies will have enough lead 
time and flexibility to address the conformity requirements.

    Question 2. Increasing evidence from studies done in California and 
elsewhere indicate that the health and cancer risks associated with 
mobile source air toxics increase significantly above a certain volume 
of traffic, levels usually associated with multi-lane highways. How 
should this information be incorporated into the NEPA analysis done by 
DOT?
    Response. In just March of this year, EPA identified 21 Mobile 
Source Air Toxics (MSATs). It is important to note that in the Final 
Rule, EPA stated that they had not found that all of these 21 MSATs to 
present a risk to public health. EPA will evaluate the need for and 
appropriateness of additional mobile source air toxics controls for on-
highway and nonroad sources, and their fuels. EPA has established a 
Technical Analysis Plan to conduct research and analysis on MSATs. EPA 
has stated that they will conduct a future rulemaking by July 1, 2004, 
in which they will revisit the feasibility and need for additional 
controls.
    I will work closely with EPA to research mobile source air toxics 
to analyze the feasibility and need for additional controls of highway 
engines and vehicles and their fuels, and the need for additional 
project-level analysis conducted as part of the NEPA review. As 
research results on air toxics emerge, FHWA will factor these into its 
scoping process to determine how to address air toxics and the 
appropriate methodology to employ.

    Question 3. In the June 2000 article you submitted to the Arizona 
Chapter of the Associated General Contractors, you state that Federal 
highway funding ``should not come with strings attached that tell us 
where and how to spend those dollars. Washington should not be allowed 
to dictate funding requirements to States in the new authorization 
act.'' Do you still believe that Congress should not send any 
requirements for highway funds distributed to States?
    Response. I believe that, for the most part, the goals of the 
Federal Government for the Federal-aid highway program and those of the 
State Departments of Transportation are mutually supportive. In my June 
2000 article, I expressed the position Arizona, like many States, holds 
that the Nation will better achieve its goals if State and local 
governments have the flexibility and are accountable for addressing 
their particular needs and issues. I presented the viewpoint of our 
Governor and the Arizona State Legislature. If my nomination is 
confirmed as Federal Highway Administrator, I will support and 
implement the laws of the United States.

    Question 4. One program that comes with strings attached is the 
CMAQ program which is provided to States with clean air conformity 
problems. The CMAQ program prohibits funding for projects ``which will 
result in the construction of new capacity available to single occupant 
vehicles unless the project consists of a high occupancy vehicle 
facility available to single occupant vehicles only at other than peak 
travel times.'' The purpose of the program is to encourage States to 
look at non-highway solutions to road congestion. Examples include 
transit, better operation of existing roadways, intelligent 
transportation systems, high occupancy vehicle lanes, etc. Do you 
believe that we should eliminate the CMAQ program or significantly 
rewrite it to allow funds to be used on new road construction?
    Response. No, the CMAQ program should not be eliminated. When 
viewed in a national context, the CMAQ program provides just the type 
of flexibility the States need. In practice, it is Title 23's most 
flexible program.
    CMAQ program eligibility should not be expanded to include new road 
construction projects available to single occupant vehicles at other 
than peak travel times. The strength of the CMAQ program is its 
inherent focus on improving the efficiency of the transportation 
network, including roads and transit, and assisting clean air goals.

    Question 5. Necessary transportation projects should go forward, 
and should advance in an efficient and timely way. But efficiency 
should not come at the expense of environmental protection and 
enhancement. So-called ``environmental streamlining'' needs to address 
improvements to the decisionmaking process but it should not involve a 
retreat from resource protection. How will you proceed with 
environmental streamlining?
    Response. Through Section 1309 of TEA-21, the Congress gave strong 
direction to streamline the environmental review process. I see this 
environmental streamlining mandate as having two parts: the need to 
reduce transportation project delays and the need to continue to 
protect and enhance the environment. I believe that substantial 
improvements can be made in delivering transportation projects in a 
timely fashion while continuing to be good environmental stewards.
    If confirmed, I will work with the Congress, the environmental 
community, and others as I pursue environmental streamlining.
    FHWA can and must take action. For example, as the lead Federal 
agency on transportation projects, FHWA is uniquely positioned to bring 
together the various agencies that participate in the development of 
transportation projects and programs. FHWA should build on prior 
efforts to do this at various scales, from the national program to 
specific projects.
    We should enhance cooperation with the State and local 
transportation agencies. FHWA can do a better job of coordinating the 
Federal Government's involvement in those projects. FHWA should work 
with State and local agencies to improve their understanding of 
legitimate Federal needs that stem from multiple Federal environmental 
statutes.
    We should build on longstanding relationships with other Federal 
agencies that have statutory responsibilities to review or approve 
transportation projects. One promising area is the development of 
dispute resolution capabilities, to institutionalize in all agencies 
the skills needed to identify and address conflicts in a timely manner.

    Question 6. TEA-21 directed the Secretary to develop a memorandum 
of understanding with Federal resource agencies to achieve 
environmental streamlining. Such an MOU was executed in July 1999. Will 
you use this agreement as the basis for continuing compliance with TEA-
21 directives? Will you seek any additional statutory measures to 
facilitate environmental streamlining?
    Response. I would continue to use the July 1999 MOU. While I see 
the MOU as setting the right framework, I believe that its main benefit 
will come from efforts to implement it among the signatory agencies in 
offices around the country.
    I have reached no firm conclusions about the need for statutory 
changes. I will continue to evaluate this issue, and welcome the 
opportunity to work with the committee on this issue if I am confirmed.

    Question 7. Local governments have been waiting for over 3 years 
since TEA-21 was passed for the Federal Highway Administration to issue 
final regulations that allow local officials greater authority in the 
statewide planning process. TEA-21 made clear that there should be a 
substantially greater role for rural local officials in the planning 
and funding allocation of Federal highway and transit funds. The goal 
of this change in the law was to give rural officials more authority 
and to close the gap between urban and rural officials in regard to 
participation in the planning process. The comment period on these 
regulations closed in September 2000 and FHWA has had more than enough 
time to issue a final rule. When can I expect a final rule to be 
issued?
    Response. I know the leadership of this committee wrote to 
Secretary Mineta in March of this year asking the Department to 
withdraw its proposed rules and to craft new proposals. However, I am 
aware of how important this issue is to both State DOTs and local 
officials. The FHWA and FTA have advised State DOTS that the TEA-21 
requirements for consultation are in effect as statutory mandates, even 
without any rulemaking changes.
    I am very supportive of a variety of efforts to develop training 
and technical assistance and to develop and share best practices.
    In Arizona, we successfully developed a new regionally based 
planning and programming process by bringing together the State DOT 
with regional planning agencies. They came to agreement on what is 
called the ``Casa Grande Resolves.'' One of its guiding principles is 
that the planning process must include early and regular dialog and 
interaction at the State and regional levels; and recognize the needs 
of State, local and tribal governments, and regional organizations.
    I would work closely with the Secretary and other modal 
Administrators to foster local official consultation.

    Question 8. As you know, I believe that transportation and air 
quality planning must go hand in hand. The conformity requirements of 
the Clean Air Act have stimulated smart growth efforts and protect 
future air quality. Will you support and make sure that there is a 
constant and tight linkage between transportation planning and air 
quality goals?
    Response. I will support the linkage between transportation 
planning and air quality goals as defined in the Clean Air Act.
    The CAA's transportation provisions have been instrumental in 
reducing air pollution. Emissions reductions from motor vehicles have 
accounted for 84 percent of the total emissions reductions of the six 
criteria pollutants since 1970. Technological advancements driven by 
the Clean Air Act and EPA's motor vehicle emission and fuel standards 
have substantially reduced emissions, and these reductions are 
projected to continue well into the future.
                                 ______
                                 
   Responses of Mary E. Peters to Additional Questions from Senator 
                               Lieberman
    Question 1. In the June 2000 article that you submitted to the 
Arizona Chapter of the Associated General Contractors you state, ``. . 
. preventing States from moving forward with critical congestion relief 
projects due to not achieving air-quality goals that have no basis in 
science actually worsens the situation rather than betters it. These 
counterproductive measures, intended to punish States that do not 
comply with sometimes unachievable and unnecessary Federal mandates 
should be erased from future authorization acts.''
    As you are aware, I am strongly committed to improving our nation's 
air quality and, because mobile sources are a significant contributor 
of air pollutants, I played an instrumental role in formulating the 
conformity standards in the Clean Air Act. Do you still believe, as 
your recent article would suggest, that these Federal mandates are 
``unnecessary'' and ``counterproductive?''
    Response. As FHWA Administrator I will do everything possible to 
help States comply with the Clean Air Act, without the need for 
invoking sanctions, through transportation programs that reduce 
congestion and reduce emissions. If sanctions are triggered, I will 
ensure the law is carried out.

    Question 2. A 2-year study released last year by the South Coast 
Air Quality Management District in California concluded that the 
highest community cancer risks, as high as one cancer in every 300 to 
400 people, were found in neighborhoods located within 2 kilometers on 
major freeway corridors. Will you require that the Administration 
perform a cancer risk analysis and provide a comprehensive review of 
alternative for large urban highway expansions? Doesn't NEPA require 
that alternatives capable of mitigating an effect as serious as cancer 
be considered?
    Response. In just March of this year, EPA identified 21 Mobile 
Source Air Toxics (MSATs). It is important to note that in the Final 
Rule, EPA stated that they had not found that all of these 21 MSATs to 
present a risk to public health. EPA will evaluate the need for and 
appropriateness of additional mobile source air toxics controls for on-
highway and nonroad sources, and their fuels. EPA has established a 
Technical Analysis Plan to conduct research and analysis on MSATs. EPA 
has stated that they will conduct a future rulemaking by July 1, 2004, 
in which they will revisit the feasibility and need for additional 
controls.
    I will work closely with EPA to research mobile source air toxics 
to analyze the feasibility and need for additional controls of highway 
engines and vehicles and their fuels, and the need for additional 
project-level analysis conducted as part of the NEPA review. As 
research results on air toxics emerge, FHWA will factor these into its 
scoping process to determine how to address air toxics and the 
appropriate methodology to employ.


                  NOMINATIONS OF THE 107th CONGRESS, 
                             FIRST SESSION

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Senate Dirksen Building, Hon. James Jeffords (chairman of 
the committee) presiding.

CONSIDERATION OF THE NOMINATIONS OF WILLIAM W. BAXTER, KIMBERLY THERESE 
                     NELSON, AND STEVEN A. WILLIAMS

    Present: Senator Jeffords.
    Also present: Senators Roberts and Thompson.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The hearing will come to order.
    Good morning to everyone. It is a pleasure to have you with 
us. Given the events of the past 5 weeks, I want each of the 
nominees to know that your continued willingness to be a public 
servant is admirable and I appreciate that. The positions that 
you have been nominated to fill will help the country remain 
strong and committed to people during these threatening times.
    I would like to let everyone know how we are going to 
proceed this morning. I will recognize first Senator Thompson 
and then Senator Frist if he arrives for Mr. Baxter, and I 
understand Senator Thompson has another hearing on bioterrorism 
that he needs to get to. So we will let you go on your way 
whenever you desire.
    Then I think we'll just go right ahead and proceed. I would 
like to recognize Senator Thompson to introduce our nominee.

STATEMENT OF HON. FRED THOMPSON, U.S. SENATOR FROM THE STATE OF 
                           TENNESSEE

    Senator Thompson. Thank you very much, Mr. Chairman. I am 
very pleased to be here today to introduce a fellow Tennesseean 
and a good friend of mine, Bill Baxter, who has been nominated 
by the president to serve on the board of directors for the 
Tennessee Valley Authority. I want to thank you, Mr. Chairman, 
for so expeditiously scheduling this hearing so we might 
consider Mr. Baxter's nomination before we adjourn. I want to 
thank you for inviting me here today and to be able to speak 
and participate with Senator Lieberman on our hearing on 
bioterrorism, which has just started.
    Mr. Chairman, as you know, the Tennessee Valley Authority 
is the nation's largest public power system. It serves 158 
local power distributors and 62 industrial customers, the 
majority of whom are located in Tennessee. TVA also manages the 
Tennessee River system, our nation's fifth largest, providing 
flood control and navigation on over 800 miles of commercially 
navigable waterway. And TVA is headquartered in Knoxville, the 
hometown of the nominee that you are here to consider today, 
Bill Baxter.
    Bill is a long-time friend who has had a distinguished 
record of service in both the public and private sectors in 
Tennessee. He is chairman of a family owned business, Holston 
Gases, Inc., a distributor of propane, industrial, medical and 
laboratory gases. From December 1997 to January of 2001, he 
served as Commissioner of the Tennessee Department of Economic 
and Community Development. During his tenure, the State of 
Tennessee attracted an impressive level of private investment, 
as well as numerous new jobs. This extensive experience in both 
the public and private sectors will benefit Bill, as well as 
TVA should he be confirmed for this position.
    I agree with my colleague Senator Frist that TVA needs a 
new management structure to better prepare it to meet the 
challenges that it faces today, from electricity restructuring 
to curbing air pollution in the Great Smoky Mountain National 
Park, and continuing to reduce its level of debt. The job will 
not be easy. TVA needs leaders who have business experience, 
management experience and leadership ability. Bill Baxter has 
all three.
    So I am pleased that Bill's nomination, if confirmed by the 
Senate, will ensure that Tennessee continues to be represented 
on the TVA Board. The majority of TVA's operations is located 
in Tennessee, and Tennessee should have a prominent voice in 
how TVA is managed. I'm confident that Bill Baxter will be a 
strong voice for the entire Tennessee Valley region if he is 
confirmed to serve on this board.
    So it is with great pleasure that I have the opportunity to 
be here to introduce to you Bill Baxter of Tennessee.
    Senator Jeffords. Thank you very much, Senator.
    Mr. Baxter, do you have members of your family here that 
you would like to introduce?
    Mr. Baxter. I do, Mr. Chairman. My wife, Ginger Baxter, is 
here.
    Senator Jeffords. We are pleased to have you with us.
    Mr. Baxter. Thank you, Senator.
    Senator Thompson. Thank you.
    Senator Jeffords. You now have 5 minutes to give your 
statement, and if it's longer than that, we will put it in the 
record for you. And so, go ahead.

STATEMENT OF WILLIAM W. BAXTER, NOMINATED TO BE A MEMBER OF THE 
      BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

    Mr. Baxter. Thank you very much. I will take less than 5 
minutes, I can assure you.
    I am honored to be here today as President Bush's nominee 
as a Director of the Tennessee Valley Authority, and I am 
personally very grateful for the support and encouragement of 
Senator Thompson and Senator Frist from my home State. I 
appreciate, Mr. Chairman, you and the committee expediting this 
hearing so that we can answer any questions you might have and 
get to work if you see fit to put me to work.
    I look forward to joining Glenn McCullough and Skila Harris 
who have come before this committee on the TVA Board and 
working with them as well.
    As the Senator mentioned, I am a life-long resident of 
Knoxville, which is the home of the headquarters of Tennessee 
Valley Authority. My family and my business have been users of 
TVA power for five decades. And so I appreciate the critical 
importance of TVA to our area.
    For the last 3 years as Commissioner of Economic 
Development for the State of Tennessee, I have come to 
understand more fully the crucial role that TVA plays in the 
economic prosperity of the entire seven-State region that it 
serves. And as the nation's largest public power producer and 
steward of the nation's fifth largest river system, TVA has and 
will continue to play a pivotal role in the economic future of 
our region.
    Several challenges lay immediately, however, in TVA's 
future. First and foremost is the job of continuing to provide 
reliable, low-cost electricity to the Tennessee Valley, a 
region that has been growing at a rate of 3 to 4 percent 
annually, exceeding the national average considerably. To 
support this growth, a primary effort of TVA in the immediate 
future will be considering increasing its base generating 
capacity. We want to make sure that the lights don't go out in 
the Tennessee Valley for lack of prudent planning or wise, 
forward-looking investment.
    Second, TVA should be a leader in addressing air pollution 
issues that come with fossil fuel power plants. TVA's record 
investments thus far in pollution abatement measures, along 
with its recent announcements of significant new investments 
over the next few years will continue. Today, we know that the 
users of electricity want both reliable, affordable power and 
responsible environmental conduct of business. TVA and all 
other power producers must strive to achieve both.
    I grew up in the Smoky Mountains, Mr. Chairman, and I still 
hike there on a regular basis with my family and friends, and 
I'm as interested as anyone in that region in the long-term 
health of these mountains and the preservation of their beauty.
    Third, the restructuring of the electric production and 
transmission industry in our country will continue, with 
lessons learned from California and elsewhere. TVA must 
continue its earnest efforts to prepare for this restructuring. 
Significant progress has already been made. Senator Frist, 
Senator Thompson, Senator Cochran, Congressman Ed Bryant from 
Tennessee and many others have been working on this very 
complex issue. I'm happy to have developed a working 
relationship with many of TVA's major customers during my 3 
years in economic development with the State of Tennessee, and 
I for one believe that listening to your customers is a good 
place to start when talking about restructuring.
    Likewise, constructive dialog with the investor-owned 
utilities can be very beneficial to all of our understanding of 
the proper role of TVA in the restructured environment. And I 
would look forward to productive conversations with the 
executives of those investor-owned utilities as we move forward 
thoughtfully to the restructured marketplace.
    Fourth, the prudent management and stewardship of the 
Tennessee River system is one of the fundamental missions of 
TVA. In fact, it was the original mission of TVA, and from my 
perspective TVA has done a superlative job in this area and 
improvements continue to be made every year. Successfully 
performing this core responsibility will continue to be a high 
priority at TVA and, again, listening to our customers, all the 
users of the Tennessee River system, will be the key to making 
those continuous improvements.
    I grew up on Norris Lake, which is the first lake created 
by the first TVA-built dam, and my family's business has been 
located on the Tennessee River for the last four decades, so I 
know first-hand the importance of TVA's river stewardship.
    And fifth, TVA is a $7 billion a year business, and it must 
be run with best business practices. I look forward to bringing 
my 20 years of experience in the private sector to the TVA 
organization, and doing everything I can to ensure that best 
business practices are employed and the best possible financial 
results are produced.
    As you know, TVA has a very large debt, but the good news 
is that this debt is being paid down in a steady, responsible 
manner. In fact, today TVA's interest expense as a percent of 
its revenues is at the lowest rate in the past 20 years. Real 
progress is being made on this critical issue. The stimulating 
business challenge at TVA is to continue to reduce that debt, 
while at the same time investing prudently in additional 
generating capacity, meeting our environmental 
responsibilities, promoting economic development in the Valley, 
and managing the Tennessee River system in a professional 
manner, all the while maintaining rates as low and steady and 
predictable as possible for the families and businesses of the 
Tennessee Valley.
    This is a business challenge of the highest order, and I 
look forward to being fully involved in ensuring TVA's 
performance in these areas.
    Once again, I would like to thank the Chairman and the 
committee for expediting this process, as I know you have many 
important issues to deal with today as we speak. And if I could 
on a personal note as an American citizen and as a father of 
four, I want to express my appreciation to each of the members 
of this committee for all you're doing to make our country 
strong and to preserve our liberties for the next generation.
    Thank you very much.
    Senator Jeffords. Thank you for an excellent statement.
    We have two other nominees this morning. I would like Ms. 
Nelson and Mr. Williams to come forward please.
    First, I will ask each of you, do you have members of your 
family with you, and if you do, would you like to introduce 
them?
    Ms. Nelson. I do, Senator. I have my husband, Kevin Cadden, 
my father, George Nelson, my aunt Florence Bojack, and my two 
girls Kelsey and Mackenzie.
    Senator Jeffords. Mr. Williams?
    Mr. Williams. Thank you, Mr. Chairman. I have my wife Beth 
behind me, my daughter Heidi, my mother Mary Jane Williams, my 
in-laws Elson and Jane Grim, and my sister Wendy and her 
husband, John Kelsey.
    Senator Jeffords. Well, that's an excellent representation.
    Ms. Nelson, why don't you proceed? You have 5 minutes.

STATEMENT OF KIMBERLY TERESE NELSON, NOMINATED TO BE ASSISTANT 
   ADMINISTRATOR, OFFICE OF ENVIRONMENTAL INFORMATION, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Nelson. Thank you, Senator.
    Good morning. It is certainly a privilege for me to appear 
before you as the nominee to be the Assistant Administrator for 
Environmental Information and the Chief Information Officer for 
the United States Environmental Protection Agency. I am honored 
that President Bush has nominated me to serve with 
Administrator Whitman in this Administration.
    As the former Chief Information Officer for the 
Commonwealth of Pennsylvania's Department of Environmental 
Protection, I understand first-hand the critical role that 
environmental information plays in sound environmental 
decisionmaking. I also understand how rapid, sweeping and 
profound information technology advancements are creating 
expectations for government to keep pace with the private 
sector.
    The need for strong public administrators has never been 
more evident than during the past month, when our country 
experienced such devastating loss--and you alluded to that. The 
events on September 11 have crystallized the nation's 
understanding of its reliance on technology for very basic 
operations, for human communications and comprehension of the 
disaster that we all experienced. This reliance now causes all 
public administrators, and particularly those in the technology 
and information arena, to reexamine and strengthen our 
programs, our security systems and the quality of our 
information. I am both honored and challenged to contribute to 
our nation's preparedness in these areas.
    I believe it is the obligation of all government officials 
to create and manage organizations that allow our citizens to 
access information and services with minimal bureaucratic 
barriers. The information that we provide must be of 
exceptional quality and supported with the analytical tools 
which facilitate its use for assessing and managing risk, and 
for measuring our environmental improvements. The services that 
we provide must be fast and error-free, and most importantly 
these services must be convenient to the public, even if that 
means crossing traditional bureaucratic lines.
    Today, EPA and the States are working hard to provide 
consistently high environmental information. We know that the 
challenges we face in the 21st century cannot be solved by EPA 
alone, but require the Agency to partner and cooperate with 
many others. We must join with States, tribes, local 
governments, businesses and communities to design and 
disseminate the kind of information products that provide a 
clear understanding of environmental conditions and solutions.
    If confirmed, I intend to promote the President's 
principles for government reform. I will assist Administrator 
Whitman in this effort by helping to sharpen the focus of EPA's 
environmental information strategies, reduce the burden on 
industries, promote intergovernmental cooperation and apply 
some of the best practices to achieve internal efficiencies. I 
am fortunate that EPA has begun this process. I hope to use 
many of the solid efforts already underway as a springboard to 
accomplish some lasting change.
    It is my vision that one day EPA's staff, the Agency's 
partners and the general public will be able to easily access 
all relevant non-sensitive environmental information about our 
regulated facilities and our natural resources; that we will be 
able to improve the interaction we have and the understanding 
of the regulating community, including the way they report to 
us; that we more effectively measure environmental conditions; 
and finally that we can enhance the understanding of the 
interrelationship between our activities at EPA, the compliance 
behavior of companies, pollution prevention strategies and 
environmental improvements.
    I believe these activities will contribute significantly 
toward the burden reduction, the improved data quality and 
security, and more informed environmental decisionmaking. And I 
believe we can do this while continuing to meet the public's 
demand for better environmental information in a more secure 
environment.
    I am a strong believer in the commitment to work in 
government service. My family has a long history of public 
service. My father, who is here today, retired from the Navy 
Department with 40 years. My younger brother just retired from 
the Air Force with 20 years of service. And I have two older 
brothers who both served during the Vietnam Conflict. After 28 
years in State government, my husband now is here in Washington 
as Director of External Affairs for the Federal Energy 
Regulatory Commission.
    I, too, have served in government--22 years with the 
Commonwealth of Pennsylvania. More than half of that time I 
spent with the Department of Environmental Protection. During 
that time, I helped develop and implement a blueprint for 
integrating our program-specific information systems. I managed 
several process improvement teams that significantly changed 
both the permitting and the compliance activities of the 
Agency, and made that information publicly available in an 
award-winning information system. And finally, I created for 
the first time in that Department their Office of Information 
Technology, which was the first executive-level CIO in the 
Department.
    I am now both ready and enthusiastic to join public service 
here at the Federal level as the Assistant Administrator at 
EPA. I am confident I can bring the necessary vision, 
leadership and experience to work with our partners to achieve 
those things I have addressed today.
    Should I be confirmed by the Senate, I look forward to 
working with you, Chairman Jeffords and other members of the 
committee and Congress, Administrator Whitman and the entire 
Administration to make the environment better for all Americans 
and to be responsive to the citizens we serve.
    Thank you and I would be happy to answer any questions you 
or other members may have.
    Senator Jeffords. Thank you very much.
    We have Senator Pat Roberts with us, and I understand that 
you probably have a reason for being here.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Yes--the gentleman in the middle with the 
smile on his face, who has been a good friend for years. Is it 
appropriate that I say my remarks now, sir?
    Senator Jeffords. Yes, it is very appropriate. He is going 
to speak with either before or after option.
    Senator Roberts. Steve, what do you think?
    [Laughter.]
    Mr. Williams. I think you are a tough act to follow, but I 
would like to try.
    Senator Roberts. I apologize for being late, Mr. Chairman. 
The Wilson Bridge was really not very cooperative. It isn't 
like it is at home, Steve, as you well know.
    Mr. Chairman, Ranking Member and distinguished committee 
colleagues, it is with great pleasure to introduce to the 
committee Mr. Steve Williams, nominated to become the next Fish 
and Wildlife Service Director. Steve is professionally 
qualified for this important conservation position. During his 
6-year tenure as Secretary of Kansas Wildlife and Parks, he 
reinvigorated our State, Mr. Chairman, and all of Kansans 
interests by fulfilling the Department's mission of conserving 
and enhancing the natural heritage of Kansas, its wildlife and 
its habitats. He's a biologist. He's an outdoorsman, so he 
understands the unique duties the Director has in really 
balancing the conservation requirements with recreation 
opportunities.
    What impresses me about Steve is that he is not a desk-
bound manager. He visits all of our State parks; has done that. 
He listens to park employees and to local officials. And he 
coordinates with them their improvements to their operations. 
He talks with producers. He talked with landowners about 
working with him on improving water quality and wildlife 
habitat. I have been there. I have heard him. I have worked 
with him in that respect.
    He listens to the recreationists, working to improve access 
for hiking and camping and bird-watching. I am sure he will 
continue this practice in visiting Fish and Wildlife Service 
operations all across our country. He has proven to work with 
all environmental stakeholders. Our Kansas hunters, our 
fishermen really appreciate his very innovative programs to 
open up the fishing and hunting opportunities to Kansans on 
private lands. The Walk and Hunting Area opens up private lands 
for public use. This program, his program is popular, with 
700,000 acres that have been enrolled. For fishermen, he has 
created the Fishing Impoundment and Stream Habitats, opening up 
farm ponds to public fishing.
    I hope the committee is also aware that Steve's work and 
communications with the environmental organizations is 
appreciated. Charles Benjamin of the Kansas Sierra Club 
actually commented on Steve's nomination, ``I can't think of a 
better person for that job.''
    With Steve's success in Kansas, I am confident that he will 
make very popular improvements to the National Wildlife Refuge 
System, and fairly administrate the Federal wildlife laws and 
the Endangered Species Act. Therefore, I hope the committee 
will approve his nomination so the entire Senate can confirm 
him as soon as possible.
    Mr. Chairman, that is the end of the prepared remarks that 
I helped write, by the way, but I would say that knowing Steve 
as I have known him back through the years, production 
agriculture and some in the environmental community have had 
what I call a rather meaningful dialog in past decades. I won't 
call is a sheep and cattle war, but I think you can get the 
drift of my conservation, and also conversation. And so if 
there was one man that was the oil-can person in all of this, 
it was Steve. Steve could talk with those who were the 
landowners, the farmers, the ranchers and the environmentalists 
and the conservationists, and somehow bring that together to 
where today in Kansas we don't have a problem. We don't have 
controversy.
    And so this is again the oil-can person who did that job. I 
think he's a natural for the job on a national scale, and I am 
just delighted to be here to testify in his behalf, not only 
for the job he's going to do, but as a personal friend. And I 
thank the Chair for indulging me.
    Senator Jeffords. Thank you. As always whenever you speak, 
you enlighten everybody's day and make it a little bit better, 
and it's good to have you here. Stick around.
    [Laughter.]
    Senator Jeffords. Mr. Williams, please proceed.

  STATEMENT OF STEVEN A. WILLIAMS, NOMINATED TO BE DIRECTOR, 
UNITED STATES FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Williams. Thank you.
    Thank you very much, Senator Roberts, for those kind words.
    If I could just indulge the chairman for a second, when I 
was introducing folks, I didn't introduce my son. He is at 
Kansas State University, probably should be in class, but he 
may be watching over the Internet, and it is his birthday 
today.
    Senator Jeffords. All right. We will allow you to do that.
    Senator Williams. Thank you, Mr. Chairman.
    Senator Roberts. Mr. Chairman, that is the home of the 
ever-optimistic, but not so successful lately Wildcats, but 
hope springs eternal, Mr. Chairman.
    [Laughter.]
    Mr. Williams. Mr. Chairman and members of the committee, it 
is a great honor for me to be nominated by President Bush as 
the Director of the Fish and Wildlife Service. I appreciate the 
confidence expressed by Secretary Gale Norton in my 
qualifications and ability to lead this Agency, and also 
Senator Roberts' confidence.
    It really is an honor to be here today and to have the 
committee consider my qualifications to lead our nation's fish 
and wildlife conservation agency. Should I be confirmed by the 
Senate, I assure you that I will eagerly assume the awesome 
responsibility of preserving and promoting our nation's fish 
and wildlife conservation heritage.
    I sit before you today as the nominee, and also as the 
Secretary of the Kansas Department of Wildlife and Parks. I 
have served as Director of this agency for the last six and a 
half years. My colleagues in the other 49 States have praised 
President Bush's decision to nominate a State Director to this 
important Federal position. As a State fish and wildlife agency 
Director, I believe that I bring certain qualifications, 
experience and perspective to this position that will benefit 
constituents in each of your States.
    During the 44 years of my life, I have had the opportunity 
to travel throughout much of this country. I was born in 
Bellows Falls, Vermont while my family farmed in Westminster.
    Senator Jeffords. I knew there was something really good 
about you.
    [Laughter.]
    Mr. Williams. At that time, my family was farming in 
Westminster for markets in Boston and small towns in southern 
Vermont. I grew up in rural areas of the northeast where I 
enjoyed fishing, hiking, exploring fields and forests. I've 
spent the last 16 years working in State fish and wildlife 
agencies in three different States. I started as a wildlife 
biologist and have been promoted to administrative positions of 
ever-increasing responsibility.
    I have managed State programs from a centralized location, 
relying on widely distributed geographic offices and personnel. 
I believe that communicating and cooperating with individuals 
in organizations is the only effective means to accomplish 
positive fish and wildlife management. This approach includes 
consideration of all interested parties, partners and technical 
expertise. I believe that common sense approaches to difficult 
resource issues are always in the best interest of those 
involved. Under my leadership, as Senator Roberts alluded to, 
the Kansas Department of Wildlife and Parks has initiated new 
partnerships with State agencies, agricultural organizations, 
conservation organizations and private individuals.
    One of these was the walk-in hunting area program, again 
that Senator Roberts mentioned. This program is a voluntary 
incentive-based program that has increased recreational 
opportunity, improved local economies and provided private 
landowners with income, all financed with the revenue from 
Kansas hunters. In just 6 years, the program has grown to 
somewhere around 10,000 acres and Senator, this year we're over 
800,000 acres. We've just finished up our sign-ups.
    This and many other examples of private-public partnerships 
are being practiced by State and Federal agencies across the 
country. I hope to expand on such opportunities if I am 
confirmed in this position.
    The Fish and Wildlife Service is facing challenging times. 
Lawsuits concerning the listing of threatened and endangered 
species and critical habitat designation has consumed much of 
the time and financial resources of the agency. Fish hatcheries 
and refuges require considerable attention and investment to 
maintain the existing infrastructure. Our law enforcement 
officers are stretched thin as they attempt to deal with 
illegal trade in importation of wildlife. Ecological Services 
Offices face mounting project reviews and additional demands on 
their time. The research component of the Service has been 
somewhat diminished, and managers are forced to make decisions 
sometimes without all the desired information.
    Finally, relationships between the Service and States, 
sportsmen and--women, the fishing and hunting industry, and 
private citizens I believe are strained. If confirmed as 
director, I will work tirelessly to improve relationships, 
forge new partnerships and solve issues confronting the agency. 
I have experienced some success by working cooperatively with 
disparate interest groups, by challenging existing assumptions, 
by communicating a vision, and by encouraging novel approaches 
to solve problems.
    The mission of the Fish and Wildlife Service has expanded 
dramatically over the past few decades. However, two things 
remain constant. The sportsmen and--women of the country have 
been the primary financiers of fish and wildlife conservation. 
I would like to take steps to shore up what was once a powerful 
relationship between the Service and our nation's hunters and 
anglers. Second, private landowners provide habitat for the 
majority of fish and wildlife resources. I respect these 
landowners' rights and I will work cooperatively in their 
interest and in the interest of wildlife.
    I will strive to strike a balance between the important 
issues of endangered species protection, and the issues 
associated with preserving and promoting fishing and hunting in 
this country.
    The list of issues confronting the new Director of the Fish 
and Wildlife Service is considerable. However, with the support 
of this Administration, Congress, States organizations and 
individuals, the Service will rise to the challenge and improve 
our nation's fish and wildlife resources. Americans care deeply 
about fish and wildlife. If confirmed as Director, I will 
approach the responsibilities of that position with a passion 
to deliver programs, opportunities and a vision for the Service 
that includes protection and conservation for the American 
public's use and enjoyment.
    I pledge to work cooperatively, collaboratively and through 
communication with all members of the U.S. Congress to assure 
that we meet the needs and desires of the American public. We 
have an impressive conservation heritage in this country. We 
must continue the progress made by previous generations to 
assure that future generations share in the wonderful blessings 
that we all enjoy.
    Thank you, Mr. Chairman. I think my time is up.
    [Laughter.]
    Senator Jeffords. Right on the button, sir.
    Mr. Williams. I appreciate your considering my 
qualifications. Thank you.
    Senator Jeffords. I am going to ask Mr. Williams a question 
first, so that Senator Roberts can hear your I know very 
erudite answer. But endangered species, both plants and 
animals--sea lampreys, zebra mussels, water chestnut et 
cetera--are one of the greatest threats to Lake Champlain and 
encroaching in other areas. The U.S. Fish and Wildlife Service 
Lake Champlain Office has helped coordinate their response in 
Vermont and New York State and local agencies, and having just 
completed an environmental impact statement, is now ready to 
launch a full-scale sea lamprey control program. The Lake 
Champlain Office, however, lacks the personnel and resources 
needed to complete this work.
    How would you support the work of the Service's in this 
partnership in protecting the native species that inhabit Lake 
Champlain?
    Mr. Williams. Well, I would start out by saying that I've 
had the opportunity over the past 2 years to serve on the 
Invasive Species Advisory Committee, which advises the National 
Invasive Species Council. I don't pretend to be an expert on 
invasive species, but I have had I believe a good exposure to 
those issues. And you are correct, they are some of the most 
critical issues facing the country in terms of environmental 
issues.
    With respect to Lake Champlain, I can assure you that if I 
am confirmed I will take a very close look at that and look at 
how resources are divided amongst the facilities in the 
Service. And I can assure you that both Secretary Norton and 
myself and other folks in the Department of Interior recognize 
this problem and are prepared to go to work to do our best to 
control where we can and solve invasive species issues in other 
parts of the country.
    Senator Jeffords. In the Silvio Conte National Fish and 
Wildlife Refuge in the Nulhegan Basin, the Service works with 
Vermont, New Hampshire and other States, nongovernment 
organizations, local governments and citizens to protect and 
enhance fish and wildlife resources within the Connecticut 
River Valley, using seed money from the Service to facilitate 
the partnership--a major success in the protection of the 
thousands of acres of former Champion Paper Company lands in 
northeastern Vermont through a partnership of Federal, State 
and private timber company efforts. Another is the multi-year 
Invasive Species Management Agreement with the USDA and local 
universities to facilitate control of invasive species across 
State lines. The partnership efforts involved allowed the 
government to do more with less and increase its interaction 
with the American public. How will you increase agency support 
for these kind of activities?
    Mr. Williams. I've had considerable experience with pulling 
together partnerhips in Kansas, and recognize that that really 
is the model for the future. The old command and control 
approach to conservation just is inappropriate in these times. 
And Senator Roberts spent one beautiful afternoon in McPherson, 
Kansas on just such a partnership, bringing together Federal 
agencies, our State agency and many private partners.
    I think in response to your question, the best thing I can 
do is to provide that as part of a vision for all folks in the 
Service to search out those partnerships, to bring together 
local conservation organizations, other NGO's, to work with 
communities in areas, to show them the benefits, both economic 
and environmental benefits, of investing in our natural 
resources.
    I am somewhat familiar with that area. In fact, just at the 
end of this month a year ago, I spent some time hunting 
woodcock just south of the area in northeastern Vermont, and I 
think folks in that area will, as time goes by and that refuge 
continues to develop, will really appreciate again not just the 
environmental benefits of it, but also the economic benefits of 
the refuge.
    Senator Jeffords. The Mississquoi National Wildlife Refuge 
is moving toward a long overdue replacement of its headquarters 
building. I have worked to support this project for a number of 
years and helped to secure the $2 million to $3 million needed 
to complete the project. Full funding of this project at the $3 
million level will be critical to the public outreach and 
educational function of the Mississquoi Refuge. This is for 
Senator Roberts, as well, who knows how important this is.
    I see that the U.S. Fish and Wildlife Service, especially 
through accessible refuges like the Mississquoi, filling an 
increasingly important role in providing public information on 
fish, wildlife, natural resource issues. How will you ensure 
that this role is fulfilled in the Mississquoi Refuge, 
especially through the headquarters project?
    Mr. Williams. I'm not fully briefed on all the details of 
that particular project. I can assure you that I think that 
public outreach, public education is a critical component of 
the Service's mission. Again, should I be confirmed, I would be 
happy to meet with you and your staff and the staff of the 
Service and see what we can do to move the project along.
    Senator Jeffords. Good answer.
    [Laughter.]
    Mr. Williams. Thank you.
    Senator Jeffords. The U.S. Fish and Wildlife Foundation has 
supported several important wildlife conservation projects in 
Vermont in recent years. They have worked with a broad range of 
groups, including Orbis Company and the Ruptagrao Society, and 
the Lake Champlain Lands Trust. Their flexible and 
collaborative approach is ideally suited to our approach to 
conservation in Vermont. How would you support the mission of 
the Foundation, especially in Vermont and the Northeast?
    Mr. Williams. I'm familiar with the National Fish and 
Wildlife Foundation through their partnership with the Kansas 
Department of Wildlife and Parks on about a $5 million wetland 
restoration project near Milford--north of Milford Lake. And I 
should back up and say again, these partnerships that can 
leverage State money or Federal money or private money are 
really the model for the future. And I would again urge, 
cajole, set as part of the daily activities of Service 
employees to look for opportunities to work with a number of 
partners, including landowners, to pull together resource 
projects that make sense for those areas.
    I have fairly good experience in--well, I've had a great 
experience in the Northeast. I shouldn't say fairly good 
experience, but a fair amount of experience having worked in 
Massachusetts for 7 years with the Division of Fish and 
Wildlife, and of course born in Vermont. I know folks in that 
area and have relationships with them, and I would do my best 
to . . .
    Senator Jeffords. Well, thank you. That's my final 
question.
    Other members will have an opportunity to submit questions 
in writing to all three of you. I will give them 24 hours, so 
if you don't get any by then, that will be too late. But 
anyway, just to let you know.
    Thank you, Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    Senator Jeffords. Mr. Baxter?
    Mr. Baxter. Yes.
    Senator Jeffords. Last May, I introduced S. 933, the 
Combined Heat and Power Advancement Act, which would encourage 
the development of distributed generation and combined heat and 
power projects by standardizing the interconnection process. Do 
you think this legislation should apply to the TVA?
    Mr. Baxter. I think the TVA should be a leader in any of 
these new technologies that are being explored in our country. 
I think that's one avenue that TVA perhaps has not taken full 
advantage of that it should. There are opportunities there to 
be a leader in research in new ways to generate electricity, to 
conserve electricity and to co-gen electricity and heat. So I 
would certainly be in favor of TVA pursuing those kinds of 
opportunities.
    Senator Jeffords. Would you support the TVA electing to 
voluntarily adopt such a process which would encourage the 
development of energy-efficient projects and increase the 
supply of electricity in the region?
    Mr. Baxter. Yes, I would. And I would emphasize, again 
coming from the private sector, I would emphasize the economic 
benefits to the users of electricity of those conservation 
efforts. And I think if that case can be made more clearly, we 
will have a greater success in encouraging people with these 
efforts.
    Senator Jeffords. Would you commit to voluntarily complying 
with FERC regulations as they apply to interconnection to 
transmission systems?
    Mr. Baxter. I shouldn't make a commitment today because I 
don't fully understand all the complexities of that issue. I do 
know that in the TVA title language that has been worked out 
between many of the stakeholders with TVA, that FERC 
jurisdiction over the transmission system has been an issue 
that's been discussed and favorably considered. So to the 
extent it fits within that TVA title negotiated language, I 
would support it. And if not, I would be open to entertaining 
and understanding what all the pros and cons are of that issue.
    Senator Jeffords. Do you think that TVA, which is already 
over $26 billion in debt, should take on additional debt to 
finance new power plants when private industry is willing to 
accept the financial risk of constructing new plants?
    Mr. Baxter. If you look at the needs of electric power in 
the Valley in the next few years, it's very likely that TVA 
will need to add base-generating capacity to meet the growth 
opportunities there in that seven-State region. There are many 
possibilities of financing such an addition to generating 
capacity, and certainly partnering with private sector 
companies should be one of those options that we look at. It 
seems to me that long term, again, there is a real opportunity 
for TVA there as we restructure the market to find private 
sector partners for some of these projects, and I believe they 
are actively considering that now.
    Senator Jeffords. Shouldn't the TVA at least institute some 
kind of competitive bidding for new projects to ensure that the 
taxpayers of the Tennessee Valley region are paying the lowest 
possible price for their power, and that new generation is 
constructed in a cost-effective manner?
    Mr. Baxter. Yes, sir.
    Senator Jeffords. Good answer.
    [Laughter.]
    Mr. Baxter. Right.
    Senator Jeffords. Thank you again. There may be questions 
from other members.
    Ms. Nelson, in light of the events of the past 5 weeks, the 
sensitivity of sharing information has come under increased 
scrutiny. Security concerns have now been added to the debate 
over the public's right to know and confidentiality of 
companies' trade secrets. Can you tell the committee how you 
intend to balance these needs, especially in light of the 
increased security concern?
    Ms. Nelson. I think I have always been a very, very staunch 
advocate for public access to information. I like to believe 
that that's one of the reasons I was selected for this job. 
Back in Pennsylvania, we were very aggressive about making 
information publicly available on our web site and through 
other sources.
    However, September 11 did change some things. Our lives are 
all different as a result of what happened. When I come into 
the garage every day, the trunk of my car is inspected, the 
back seat of my car is inspected. My girls can't take a tour of 
the Capitol as a visitor. And in fact, EPA has taken some 
information off of its web site, as have many other government 
organizations. They are not the kind of things we like to see.
    Personally, with my own background, it's my own personal 
desire to see as much information publicly available as 
possible, because I think that's how we energize and leverage 
our citizens to help us protect the environment, so that they 
can make the right decisions.
    But I think in light of what has happened, we all have to 
balance more carefully the decisions that we have to make in 
terms of public access and security, and the integrity of the 
information that we provide, to make sure that we're providing 
the right information at the right time to the right people.
    Right now, there are people in the agency that are looking 
and doing an inventory of our web site. I hope in the future 
that we can apply the best analytical minds to make the sound 
and reasonable decisions about the kinds of information we 
supply and how we supply it. But we do I think have to strike 
that balance, which is very different today than it was 2 
months ago. And that will be a difficult job we all have in 
terms of striking that balance to ensure that we're protecting 
all of the people of the country.
    Senator Jeffords. Thank you. Again, other members will have 
an opportunity, but I'll give them just a short time to submit 
questions.
    I want to move you along just as fast as I can, but there 
are two obligatory questions that I have to ask everyone who is 
seeking such offices, and a nod of the head will do or a shout 
or whatever else you want.
    Are you willing at the request of any duly constituted 
committee of the Congress to appear in front of it as a 
witness?
    Mr. Baxter. Yes.
    Mr. Williams. Yes.
    Ms. Nelson. Yes.
    Senator Jeffords. Everyone says yes.
    Do you know of any matters which you may or may not have 
thus far disclosed which may place you in any conflict of 
interest if you are confirmed in this position?
    Mr. Baxter. No, sir.
    Mr. Williams. No, sir.
    Ms. Nelson. No, sir.
    Senator Jeffords. Good answers.
    Thank you very much. That is the end of this morning's 
process. We have another meeting I have to go to in view of the 
circumstances in the Senate today. So thank you all, and we 
will move forward just as soon as we can to make sure that you 
get there as fast as possible.
    Mr. Baxter. Thank you, Mr. Chairman.
    Mr. Williams. Thank you, Mr. Chairman.
    Ms. Nelson. Thank you.
    [Whereupon, at 10:15 a.m., the committee adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement by Hon. Bill Frist, U.S. Senator from the State of Tennessee
    I thank the chairman and members of this committee for holding this 
hearing in a timely manner.
    The Tennessee Valley Authority has played and will continue to play 
a critical role in the future of Tennessee and the entire TVA region. 
TVA is the nation's largest public power producer serving over 8.3 
million customers thorough its 158 distributors with a revenue of $7 
billion annually. In addition, TVA manages the fifth largest river 
system in the country.
    Over the last 7 years as a Senator from Tennessee, I have come to 
realize that TVA is more than a power public company, more than steward 
of a river system, it is an integral part of the Valley's economy and 
community.
    An organization of this size with such an important role must have 
the very best leadership and management team in place. The board must 
be able to lead the organization into a future which presents many 
challenges including inevitable restructuring of the electric industry, 
addressing air quality issues, and managing TVA's debt.
    I am pleased that President Bush has nominated an individual who 
has the experience and the skills to help lead TVA into this dynamic 
future. Simply put, Bill Baxter is the right man for the job.
    I have known Bill for most of the last decade and can personally 
attest to his intelligence, integrity and ability.
    In addition, I've had the opportunity to spend time at his home in 
Knoxville. As a young man, Bill cut the lawn of this home, came to love 
the property and the expansive view it offered of the Great Smoky 
Mountains. Even at a young age, he vowed to himself that someday he 
would return to this property, not just to cut the lawn, but as its 
owner. And today, he shares this wonderful home with his wife, Ginger, 
also a native of Knoxville, who is here with him today.
    I should add the Baxter's have four outstanding children, the two 
oldest, both girls, are pursuing their college careers at Harvard and 
Morehead State, while the two youngest, both boys, are completing their 
high school years at Central High School in Knoxville.
    A TVA Director must fill three needs for the agency that Bill 
Baxter fits exceptionally well:

    <bullet>  business acumen
    <bullet>  a commitment to public service
    <bullet>  and leadership skills that will benefit the entire 
Valley.

    I'd like to elaborate briefly on each of these.
    Bill is a business man--and a good one--who for over 20 years has 
shown he knows how to manage a company and meet a bottom line. He is 
chairman of Holston Gases, Inc. a distributor of propane, industrial, 
medical and laboratory gases. Holston Gases, Inc. has eight 
distribution facilities throughout middle and east Tennessee.
    Bill is a public servant who knows the importance of economic 
development. He served as commissioner of the Tennessee Department of 
Economic and Community Development for 2 years, returning to his family 
business early this year. During his tenure in State government, 
Tennessee achieved three consecutive years of record private capital 
investment and job creation, shattering all previous records and 
winning national acclaim.
    Bill is also a community leader who knows that a successful 
community must have citizens who are willing to give of themselves. 
That's why Bill has served as United Way Chairman, board chairman for 
the Knoxville Zoo, and in a variety of other civic and philanthropic 
roles. He's also extremely loyal to his college alma mater, Duke 
University, where you'll find him in the stands during basketball 
season.
    Bill's energy knows no bounds; his ability to assess a situation 
and make good business decisions is second to none; and as a life-long 
Tennessean, he deeply cares about the Tennessee Valley. For Bill 
Baxter, the opportunity to serve on the TVA Board is a life-time dream 
come true.
    Mr. Chairman, Bill's background in business, government and as a 
community leader will be a great addition to TVA's board, and I know he 
is looking forward to joining Chairman Glenn McCullough and Director 
Skila Harris as quickly as possible. Mr. Baxter comes before you with 
my full confidence and highest recommendation.
    Thank you.
                               __________
Statement of William W. Baxter, Nominated to be Member of the Board of 
                 Directors, Tennessee Valley Authority
    I'm honored to be here today as President Bush's nominee as a 
Director of the Tennessee Valley Authority. And I am personally very 
grateful for the support and encouragement of Senator Bill Frist and 
Senator Fred Thompson from my home State of Tennessee. I appreciate 
very much the committee expediting this hearing, and I look forward to 
answering any questions you might have today. If the committee and the 
full Senate see fit to confirm my nomination, I look forward to joining 
Glenn McCullough and Skila Harris on the TVA Board and joining them in 
the work at hand.
    As a lifelong resident of Knoxville, the home of the headquarters 
of the Tennessee Valley Authority, my family and my business have been 
users of TVA power for nearly five decades, and I appreciate the 
critical importance of TVA to our area. For the last 3 years, as 
Commissioner of Economic Development for the State of Tennessee, I've 
come to understand even more fully the crucial role that TVA plays in 
the economic prosperity of the seven-State region it serves. As the 
nation's largest public power producer as well as the steward of the 
nation's fifth largest river system, TVA has and will continue to play 
a pivotal role in the future of the region.
    Several challenges lay immediately in TVA's future:
    (1) First and foremost is the job of continuing to provide 
reliable, low cost electricity to the Tennessee Valley, a region that 
has been growing at a rate of 3-4 percent annually exceeding the 
national average considerably. To support this growth, a primary effort 
of TVA in the immediate future will be increasing base and peak 
generating capacity. We want to make sure that the lights don't go out 
in the Tennessee Valley for lack of prudent planning or wise, forward 
looking investment.
    (2) TVA should be a leader in addressing air pollution issues that 
come with fossil fuel power plants. TVA's record investments thus far 
in pollution abatement measures, along with its recent announcements of 
significant new investments over the next few years, will continue. 
Today we know that the users of electricity want both reliable, 
affordable power and responsible environmental conduct of business. 
TVA, and all other power producers, must strive to achieve both. I grew 
up in the Smoky Mountains and I still hike there on a regular basis 
with my family and friends, and I am as interested as anyone in the 
long-term health of these mountains and the preservation of their 
beauty.
    (3) The restructuring of the electric production and transmission 
industry in our country will continue with lessons learned from 
California and elsewhere. TVA must continue its earnest efforts to 
prepare for this restructuring. Significant progress has been made on 
the complex issues of how TVA will fit in the larger scheme of this 
restructured market. Excellent work has already been done by Senators 
Frist and Thompson from my home State, Senator Cochran of Mississippi, 
Congressman Ed Bryant from Tennessee, and many others. I'm happy to 
have developed a working relationship with many of TVA's distributor 
customers during my 3 years in economic development in the State of 
Tennessee, and I believe listening to these customers is good business, 
especially on the issue of deregulation. Likewise, constructive dialog 
with investor owned utilities can be very beneficial to understanding 
the proper posture of TVA after restructuring, and I look forward to 
productive conversations with the executives of these companies as we 
move forward thoughtfully into the restructured electric market place.
    (4) The prudent management and stewardship of the Tennessee River 
system is one of the fundamental missions of TVA; in fact, it was the 
original mission of TVA. From my perspective, TVA has done a 
superlative job in this area, and improvements continue to be made 
every year. Successfully performing this core responsibility will 
continue to be a high priority at TVA, and listening to our customers, 
all the various users of the Tennessee River system, will the key to 
making those continuous improvements. I grew up on Norris Lake, the 
lake created by the first TVA built dam, and my family's business has 
been located on the Tennessee River for four decades. I know first hand 
the importance of TVA's river system stewardship.
    (5) TVA is a $7 billion business, and it must be run with the best 
business practices. I look forward to bringing my 20 years of private 
sector business experience to the TVA organization and doing everything 
I can to ensure that best business practices are employed and the best 
possible financial results are produced. As you know, TVA has a very 
large debt, but the good news is this debt is being paid down in a 
steady, responsible manner. In fact, today TVA's interest expense as a 
percent of revenues is at its lowest level in 20 years. Real progress 
is being made on this critical issue. The stimulating business 
challenge at TVA is to continue to reduce this debt in a disciplined 
fashion, while at the same time investing prudently in additional 
generating capacity, meeting our environmental responsibilities, 
promoting economic development in the valley, and managing the 
Tennessee River system in a professional manner, all the while 
maintaining rates as low and steady and predictable as possible for 
both home and business use. This is a business challenge of the highest 
order, and I look forward to being fully involved in ensuring TVA's 
performance in all these areas.
    Once again, I want to thank the chairman and the members of the 
committee for expediting this process, as I know you and the other 
members of the Senate have critically important issues to deal with 
today. As an American citizen and as a father of four, I want to 
express my appreciation to each of you for all that you are doing to 
make our country strong and to secure our liberties for the next 
generation.
    Thank you very much.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
  Responses of William W. Baxter to Additional Questions from Senator 
                                Jeffords

    Question 1. About 3 years ago, the Environmental Protection Agency 
issued administrative actions against several TVA power plants for 
violating the New Source Review requirements of the Clean Air Act. 
Apparently, TVA made significant modifications to these plants without 
getting the necessary air quality permits. Now, TVA is fighting these 
actions in court. Shouldn't TVA, a quasi-Federal agency, be a leader in 
complying with the law and adopting state-of-the-art pollution 
prevention and control technology, rather than wasting its resources 
fighting another Federal agency?
    Response. It is my understanding that there is a legal disagreement 
between TVA and EPA concerning the types of repairs and maintenance 
work done to the TVA plants which should or should not require air 
quality permits, and I'm sure reasonable people can disagree about a 
certain technical legal matters. However, I think it is important to 
note that through this very process of repair and maintenance, TVA has 
continuously made their fossil plants more efficient and cleaner 
burning. Additionally, TVA has invested over $1 billion in improved 
pollution control equipment over the years and just recently announced 
several hundred million additional dollars of investment for the same 
purpose.
    I agree with you, Senator Jeffords, that TVA should be a leader in 
pollution control efforts, and it would be my intention, if confirmed 
by the Senate, to advocate this position on the board. The challenge at 
TVA, as well as with any power producer, is to properly balance the 
need for the production of ample and affordable electricity for the 
families and businesses in our service area while at the same time 
investing aggressively in pollution control technology.
    I believe TVA should work cooperatively with the EPA on these 
matters. I agree with you that lawsuits between Federal agencies are a 
waste of resources, and every effort should be made between Federal 
entities to compromise and negotiate mutually beneficial agreements so 
that progress is made for those citizens affected.

    Question 2. What will you do to ensure that TVA aggressively 
reduces air pollution and aims to achieve at least 1990 levels of 
carbon dioxide emissions?
    Response. The first order of business at TVA is to ensure that it 
is being operated as a very efficient business so that financial 
resources are available to continue its investments in state-of-the-art 
air pollution control technology. Without such financial health, TVA 
will not have the resources necessary to invest in these very expensive 
but very worthwhile improvements in air pollution control. As to the 
setting of targets for levels of reduction of specific pollutants, I 
again would advocate TVA working cooperatively and regularly with the 
EPA to establish mutually agreed upon goals and monitor satisfactory 
progress in this very important area.

    Question 3. What portion of TVA's generation base should come from 
renewable energy sources?
    Response. Currently, if hydropower is included, TVA produces 
approximately 12 percent of its power from renewable sources, which 
also include solar, wind and biomass. This is an area in which I have 
particular interest, and it is my intention to become personally 
involved in TVA's efforts in increasing the generation base that comes 
from renewable energy sources. TVA has a very good record of 
continuously improving the generating capacity from its hydroelectric 
dams, and as technology becomes available to further increase this 
productivity, I would advocate implementing that technology in the TVA 
system. Further, TVA has now established the largest wind farm in the 
southeastern United States, and I look forward to learning more about 
the potential for growing this generation base into a feasible part of 
our future. TVA is also involved in demonstration projects in solar and 
biomass, and I will be personally involved in investigating the 
feasible technologies that are available today that could be put to use 
in the TVA system as soon as possible. Finally, I support TVA's Green 
Power Switch program, which allows families and companies to 
voluntarily accept a small surcharge on their monthly bill in order to 
purchase blocks of electricity generated from renewable sources. In 
fact, my business and my home have purchased such blocks of green 
energy.
                                 ______
                                 
  Responses of William W. Baxter to Additional Questions from Senator 
                                Bunning
    Question 1. TVA announced plans in 1997 to cut its debt in half by 
2007 and increased rates for its distributors specifically in order to 
reduce its debt. TVA has now acknowledged that it will not meet its 
debt reduction targets and is only on track to make a small dent in its 
overall debt. As part of the TVA board, do you plan to meet the 
original plan of cutting TVA's budget in half by 2007? If not, can you 
provide a justification for Kentucky's TVA customers paying higher 
rates to help TVA drastically decrease its debt when it appears that 
TVA has no plans to do so?
    Response. It is my understanding that in 1997 TVA increased its 
rates for the first time in 10 years in order to more aggressively 
reduce its large debt. The original announced goal was to cut TVA's 
debt in half in 10 years. Since that announcement, significant 
additional capital investments have been required for pollution control 
equipment as well as added generating capacity to ensure ample power 
availability in our growing region. TVA's debt will be significantly 
reduced by the year 2007, but it will not be half of its 1997 level.
    There is no question that TVA's large debt load is a major 
financial challenge for the agency, and if confirmed by the Senate, it 
would be my intention as a businessman to focus intently on maximizing 
the schedule of debt reduction for TVA. This is critically important to 
the financial health of the agency which will enable it to continue 
investments in air pollution efforts and adding generating capacity 
where required for the continued economic growth of the region.
    The business challenge facing TVA is to properly balance the 
multiple goals and responsibilities of the agency at the same time: 
power generating capacity, responsible pollution control, and 
aggressive debt reduction, all the while keeping rates as low as 
possible for TVA's customers. I would advocate TVA adopting a realistic 
but aggressive debt reduction schedule and communicating regularly with 
the Congress about TVA's progress in meeting these goals.

    Question 2. TVA's Fiscal Year 2001 earnings are a record $6.9 
billion and its projected earnings in Fiscal Year 2002 are to be over 
$7 billion. TVA charges higher electricity rates to its Kentucky 
customers compared to rates charged by other Kentucky utility 
companies. The recent downturn in the economy in Kentucky has made 
increased energy costs even more painful. Would you, as a member of the 
TVA Board, reduce Kentucky TVA customers' rates so that they compare to 
other Kentucky energy customer's rates given the record revenues that 
TVA has earned?
    Response. TVA's gross revenues have increased as the economy of the 
TVA region has grown. Fortunately, our region has grown at a faster 
rate than the Nation over the last 10 years, and the attendant demand 
for electricity has grown along with it. TVA's rates should be based on 
its costs and a prudent return to provide for continued investment in 
the necessary infrastructure to produce and transmit power throughout 
the region.
    The potential for deregulation and restructuring of the power 
production industry presents the possibility of the favorable impacts 
of competition. Through this process of deregulation and restructuring 
of the industry, a fair and equitable way for TVA's customers to have 
the option to purchase power from sources other than TVA should be one 
of the important results. Coming from the private sector, I believe 
that competition makes us all better, competition will make TVA better, 
and competition will give the customer the choices it deserves.

    Question 3. TVA has admitted that it has a continued desire to 
build new generation facilities. Many of the new generation facilities 
may not even be needed and would likely increase TVA's huge debt 
threatening its financial viability and health. A significant portion 
of TVA's debt is linked to construction of power plants that currently 
are not running. Would you support allowing distributors to build new 
generation for their increased needs which would allow TVA to focus its 
financial resources on rate relief for its current customers and long 
term debt reduction?
    Response. Based on the limited information I have available to me 
at this time, I certainly do not oppose the option of allowing 
distributors to build new generation if they so choose. This would be a 
business decision on their part requiring a large capital investment 
and a confidence in an ultimate return on that investment. Of course, 
TVA should not build new generating facilities that are not needed, but 
through close communication and collaboration with its customers, TVA 
has an obligation to make prudent investments in generating capacity 
that will be clearly needed as our region continues to grow 
economically.
    [Omission] an annual and ongoing basis as part of good long-term 
planning. The key to success in making these important business 
decisions is accurate knowledge of your customers' needs. Additionally, 
TVA should study closely the private sector's research on future growth 
in demand for electric power. These investment decisions must be made 
in the context of the entire industry and not in isolation.
    As a government entity, TVA is not subject to the Federal Energy 
Regulatory Commission (FERC) jurisdiction over its power sales like 
private utility companies. Therefore, its rates, charges, terms and 
conditions are not subject to FERC regulatory requirements. TVA's 
competitor electricity companies, which are subject to FERC, are at a 
disadvantage in trying to compete with TVA. Would you support putting 
TVA on a level playing field with private utility companies and placing 
TVA under FERC regulation?
    It is my understanding that consensus language has been developed 
in the ``TVA Title'' which has been drafted after many months of 
negotiations with TVA customers and many other interested parties. This 
language is sponsored by Senators Frist and Thompson from Tennessee and 
Senator Cochran from Mississippi, and I believe Congressman Bryant from 
Tennessee has been instrumental in this effort as well. It is my 
understanding that there are important steps taken toward FERC 
jurisdiction over some aspects of TVA's operations although control of 
TVA rates is not one of them. Developing this consensus language among 
all the affected parties was a very difficult task and I would have 
strong confidence in that consensus language as we take our first steps 
into the deregulated environment.
    I recognize that this is a very complex area, and I have much to 
learn about it, if confirmed by the Senate. If I am confirmed to the 
TVA board, I will dedicate myself to studying thoroughly this very 
important area, and I can assure you that my 20 years of private 
business experience will inform my values and my views on the results 
which deregulation and restructuring should achieve for the customer. I 
would intend to have regular, open and constructive dialog with the 
executives of privately owned utilities throughout the region to ensure 
a complete mutual understanding of where we need to come out at the end 
restructuring and the steps that need to be taken along the way. If TVA 
listens intently to its customers and learns from other power producers 
throughout the region, we will get the right result.
                                 ______
                                 
  Responses of William W. Baxter to Additional Questions from Senator 
                                 Wyden

    Question 1. Are you aware that the Federal Energy Regulatory 
Commission (FERC) has taken steps, in part through issuance of Order 
No. 2000, to encourage participation of transmission owning utilities, 
including non-FERC jurisdictional ones like TVA, to participate in 
regional transmission organizations (RTOs)?
    Response. Yes. I have received a preliminary briefing from TVA on 
this subject and have done some general research in the financial 
press.

    Question 2. Do you believe it would be good policy for TVA to 
participate in an RTO in the southeast formed according to FERC's RTO 
standards?
    Response. My honest answer is I do not have enough information at 
this time to state an opinion on TVA's participation in an RTO in the 
southeastern United States. However, I do believe that as the 
deregulation and restructuring of the power production industry takes 
place, the transmission system will be equally as important as our 
regional and national generating capacity. Currently, our transmission 
system throughout the United States is not designed to ``seamlessly'' 
transmit power from region to region. There are technical challenges 
which will need to be met, and major capital investments to improve the 
transmission system will be necessary.
    It is my view that TVA should participate in some form in the 
regional transmission of power in the southeast, whether this be an RTO 
or some other mutually agreed upon structure. It is my understanding 
that extensive discussions are already underway among the power 
producers as well as distributor customers in the southeast. The 
guiding principle for TVA as well as FERC should be what is best for 
the customer: the most efficient transmission system possible that will 
lend itself to the most affordable electric power rates possible.
    One final general comment: it is my view that TVA's communications 
with other Federal agencies should improve dramatically. This would 
include FERC, the Department of Energy, EPA, and others. I have found 
in business that stronger efforts at communication usually show the way 
to better relations and to solutions that work for everyone.
                               __________
    Statement of Kimberly Terese Nelson, Nominated to be Assistant 
 Administrator for Environmental Information, Environmental Protection 
                                 Agency
    Good morning, Mr. Chairman and members of the committee. It is a 
privilege and a pleasure to appear before you as the nominee to be the 
Assistant Administrator for Environmental Information and Chief 
Information Officer for the United States Environmental Protection 
Agency (EPA). I am honored that President Bush has nominated me to 
serve with Administrator Whitman in this Administration. I am pleased 
to be joined today by my husband, Kevin Cadden, two daughters, Kelsey 
and Mackenzie, my father, George Nelson, and my aunt, Florence Bodziak.
    As the former first Chief Information Officer for the Commonwealth 
of Pennsylvania's Department of Environmental Protection (DEP), I 
understand firsthand the critical role that environmental information 
plays in sound environmental decisionmaking. I also understand how 
rapid, sweeping, and profound information technology advancements are 
creating expectations for government to keep pace with the private 
sector.
    The need for strong public administrators has never been more 
evident than during the past month, when our country experienced such 
devastating loss. The events since September 11 have crystallized the 
nation's understanding of its reliance on technology for basic 
operations, human communications, and comprehension of the disaster 
experienced. This reliance now causes all public administrators, and 
particularly those in the technology and information arena, to 
reexamine and strengthen our programs, our security systems, and the 
quality of our information. I am both honored and challenged to 
contribute to our nation's preparedness in these areas.
    I believe it is the obligation of all government officials to 
create and manage organizations that allow our citizens to access 
information and services with minimal bureaucratic barriers. The 
information that we provide must be of exceptional quality and 
supported with analytical tools which facilitate its use for assessing 
and managing risk, and for measuring our environmental improvements. 
The services that we provide must be fast and error free. Most 
important, these services must be convenient for the public, even if 
that means crossing traditional organizational lines.
    Today, EPA and the States are working hard to provide consistently 
high quality environmental information. EPA's strong commitment to 
public access must always be balanced by the need to protect privacy 
and maintain the integrity and security of our information policies. 
The events of September 11 also underline that our commitment to public 
access carries the responsibility to review carefully our publicly 
available products to ensure that, while benefiting the public, they do 
not contribute to compromising sensitive or vulnerable resources or 
facilities.
    We know that the environmental challenges of the 21st century 
cannot be solved by EPA alone--they will require us to partner and 
cooperate with many others. We must join with States, Tribes, local 
governments, businesses, and communities to design and disseminate 
user-focused information products that provide a clear understanding of 
environmental conditions and solutions.
    If confirmed, I intend to promote the President's principles for 
government reform to make EPA more citizen-centered, results-oriented, 
and market-based. I will assist Administrator Whitman in this effort by 
helping to sharpen the focus of EPA's environmental information 
strategies, reduce burden on industries, promote intergovernmental 
cooperation, and apply best practices to achieve internal efficiencies.
    I am fortunate that EPA has many important building blocks in 
place. I hope to use these solid efforts as a springboard to accomplish 
lasting change. And, by continuing to build partnerships between the 
Federal Government and those concerned with environmental protection, I 
believe we can achieve a goal that we all share B to leave the air 
cleaner, the water purer, and the land better protected than we found 
it.
    I will work to lead the Agency to make technology investments that 
will provide long-term value for the Agency, investments that will be 
good for all EPA programs. However, I recognize that the application of 
technology is the easy part. Far more important is achieving 
transformation using technology as the enabler for meeting the needs of 
citizens and employees alike, and using information as a strategic 
resource for environmental decisions at all levels.
    It is my vision that one day EPA staff, the Agency's partners, and 
the general public will be able to:
    <bullet>  easily access all relevant non-sensitive environmental 
information about regulated entities regardless of program or 
regulating agency;
    <bullet>  easily access all relevant non-sensitive environmental 
information about a physical location, even when that information is 
gathered by different government agencies;
    <bullet>  improve interaction with, and understanding of, the 
regulated community including changing the way information is reported;
    <bullet>  more effectively measure environmental conditions; and
    <bullet>  enhance understanding of the interrelationship between 
EPA activities, compliance behavior, pollution prevention, and 
environmental improvements.
    Of course, achieving this vision will require extensive 
collaboration with my fellow Assistant Administrators, Federal agencies 
and departments, State and tribal partners, the regulated community, 
and others.
    I believe these activities will contribute significantly toward 
burden reduction, improved data quality and security, more informed 
environmental decisionmaking, and greater flexibility for States to 
manage environmental programs. And we can do this while continuing to 
meet the public's demands for better environmental information in a 
more secure environment.
    I am a strong believer in the commitment it takes to work in 
government service. My family has a long history of government service. 
My father retired from the Navy Department with 40 years of service. 
Earlier this year, my younger brother retired from the Air Force with 
20 years of service, and my two older brothers served during the 
Vietnam conflict. After 28 years in State government, my husband is now 
Director of External Affairs at the Federal Energy Regulatory 
Commission.
    I, too, have served in government--22 years with the Commonwealth 
of Pennsylvania. More than half of my career has been spent in a State 
environmental protection department. During that time I helped develop 
and implement a blueprint for integrating DEP's program-specific 
computer systems. I managed several Process Improvement Teams that 
significantly changed the department's permitting and compliance 
processes and made information about these activities available to the 
public in an award-winning system. Finally, I created the first Office 
of Information Technology, the first executive level CIO in the 
department.
    I am now both ready and enthusiastic to join public service at the 
Federal level as the Assistant Administrator for Environmental 
Information and the Chief Information Officer for the U.S. 
Environmental Protection Agency. I am confident that I can bring the 
necessary vision, leadership, and experience to work with our partners 
to achieve those things I have addressed today.
    Should I be confirmed by the Senate, I look forward to working with 
this committee, Members of Congress, Administrator Whitman, and the 
entire Administration to make the environment better for all Americans 
and to be responsive to the citizens we serve.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Responses of Kimberly Terese Nelson to Additional Questions from 
                             Senator Smith
    Ms. Nelson, I have submitted some questions regarding the way the 
OEI administers the Toxic Release Inventory (TRI) program. I would 
appreciate if you would give this issue your personal attention because 
the way the program is currently being run it has created confusion 
among the entities responsible for reporting chemical releases and the 
public at large who are greatly mislead by the way the information is 
being reported.
    The Toxic Release Inventory (TRI) data base and public information 
program has been in place for some time. Recent addition of the waste 
services industry to the TRI system appears to invite confusion about 
the entities responsible for reported chemical releases to the 
environment and where such releases actually occur.
    For example, a company shipping waste containing TRI chemicals to 
an offsite RCRA Subtitle C TSD facility must report this ``transfer'' 
to a permitted facility as an ``offsite release.'' This transferred 
amount is then added to the generator's actual releases to air, land, 
and water to determine the company's ``total releases.'' In reality, 
however, the transferred chemicals were managed at a permitted RCRA 
facility distant from the community (or even State) which must itself 
report the TRI chemicals as a release to the environment where they are 
located. EPA later corrects for this double counting in determining 
overall totals. This raises a number of important questions:
    Question 1. Is this an accurate summary of the current TRI 
reporting requirement for such waste transfers?
    Response. Because EPCRA requires facilities to report on all 
releases (the EPCRA definition of release includes disposal), including 
those that are sent to-offsite RCRA subtitle C facilities for disposal, 
the reporting requirement does not involve double counting. Only when, 
When EPA aggregates the TRI data to determine total releases, however, 
does the issue of double counting becomes relevant.

    Question 2. Is this approach required by statute or regulation? If 
so, please provide specific citations. If a matter of agency policy, 
please confirm.
    Response. EPCRA Section 313 (g)(1)(C)(iv) requires reporting on the 
annual quantity of the toxic chemical entering each environmental 
medium. P. 298 of the conference report states ``reporting on releases 
to each environmental medium under subsection (g)(1)(C)(iv) of the 
conference substitute shall include, at a minimum, releases to the air, 
water (surface water and groundwater), and land (surface and 
subsurface), and waste treatment and storage facilities.'' (U.S. 
Congress, House of Representatives. ``Conference Report No. 962,'' 99th 
Cong. 2d Session (1986),. EPA believes that the The ``quantity of the 
toxic chemical entering each environmental medium'' includes all 
releases. and EPCRA section 329(8) defines release to include disposal.

    Question 3. Why is a company which transfers TRI chemicals 
contained in waste shipped to a permitted RCRA Subtitle C facility for 
final disposition (which may include disposal or recycling) required to 
report this transfer as a release to the environment?
    Response. As discussed previously, EPA believes that the statute 
requires the reporting of disposal as a release. Off-site transfers to 
another facility for recycling are not reported as releases to the 
environment, but rather as offsite transfers for recycling.

    Question 4. Isn't the current reporting requirement likely to 
confuse and misinform the local community and other members of the 
public about releases to the environment in the geographic area where 
the transfer originated?
    Response. The reporting requirement should not confuse or misinform 
the public since the data regarding the specific types of releases is 
made readily available. In the data EPA makes available to the public, 
the Agency clearly distinguishes between onsite and offsite releases.

    Question 5. Wouldn't it be more informative to the public to 
require the company transferring TRI chemicals in the manner described 
above to report them as a ``transfer'' to a permitted offsite 
management facility (e.g.; a RCRA treatment, storage and disposal 
facility) rather than as releases to the environment?
    Response. Facilities do report such transfers as transfers to 
offsite management facilities. Section 6 of the TRI Form R is titled 
``Transfers of the Toxic Chemical in Wastes to Off-Site Locations.'' On 
the form, among other things, the facility designates the type of waste 
management activity (treatment, disposal, recycling, or energy 
recovery) being performed at the offsite location.

    Question 6. Wouldn't the alternative approach suggested under 
Question 5. above improve TRI program administration efficiency by 
eliminating the need to later correct for double counting by the 
company and the offsite facility?
    Response. Not all offsite facilities receiving waste will meet the 
TRI reporting criteria and need to file reporting forms, therefore, if 
EPA did not require transferring facilities to report transfers for 
disposal as releases these releases could go unreported.

    Question 7. As Assistant Administrator, will you support an 
improved approach that improves program efficiency and provides more 
accurate and informative public reporting?
    Response. The Toxics Release Inventory has been, and continues to 
be a valuable resource for communities, citizen groups, academics, 
investment companies, and industry. The program has been very 
successful to date. I will continue to look for opportunities to 
streamline reporting and otherwise improve the usefulness of the 
information.

    Question 8. EPA has described the Cross-Media Electronic Reporting 
and Recordkeeping Rule (CROMERRR) as voluntary, and thus having little 
cost impact on regulated facilities. Yet I am hearing that industry 
regards the electronic recordkeeping provisions as essentially 
mandatory, in that they would apply to almost any use of computers to 
meet EPA recordkeeping requirements. Accordingly, the costs involved 
would seem to be huge on the order of Y2K. Would you be willing to 
consider withdrawing the electronic recordkeeping provisions from the 
rest of CROMERRR for further analysis and discussion with interested 
parties?
    Response. EPA's current regulations do not require electronic 
recordkeeping. CROMERRR would not require companies to switch from 
paper recordkeeping to electronic recordkeeping; accordingly, 
electronic recordkeeping would be voluntary under CROMERRR. In response 
to EPA's proposal of CROMERRR, some members of the regulated community 
have asserted that, for them, compliance with the recordkeeping 
criteria in CROMERRR would not, as a practical matter, be entirely 
``voluntary'' because they already maintain electronic records.
    In light of the comments provided in response to the proposal, EPA 
has decided to conduct further analysis of the impact of the 
recordkeeping provisions of CROMERRR. This analysis will, as a matter 
of practical necessity, entail further discussions with interested 
parties. Of course, until the comment period closes on November 29 and 
EPA has had an opportunity to evaluate all comments and to conduct such 
additional analysis as may be required, it would be premature to commit 
to any particular procedural course of action or substantive revision 
of the rule. By the same token, it would also be premature to rule out 
procedural steps, like withdrawing the recordkeeping provisions of the 
rule, or substantive changes to the recordkeeping criteria themselves. 
In considering comments received on the proposed rule, EPA will 
consider all options and alternatives, including limiting the scope of 
the recordkeeping provisions, adjusting the provisions themselves, 
identifying classes of cases that can be treated less stringently, and 
providing for the ``grandfathering'' of existing company systems. EPA 
hopes to go forward with the recordkeeping component of CROMERRR, but 
will do so only if the agency can find an approach that does not impose 
unwarranted costs on the regulated community.

    Question 9. I understand that today many companies use computers to 
help meet EPA recordkeeping requirements. Are you aware of any 
significant problems that EPA or State enforcement officials have 
actually encountered with accessing or verifying these electronic 
records? I would appreciate it if you would look into this matter and 
report back to the committee.
    Response. State and Federal enforcement communities have expressed 
concern about their ability to use electronic records as evidence for 
compliance and enforcement purposes. There is little case law available 
in this area, and EPA has been cautious in dealing with this issue. I 
understand that the EPA Office of Environmental Information recently 
asked the EPA Office of Enforcement and Compliance Assistance to 
provide additional information on problems encountered when using 
electronic records. When that information is available, if confirmed, I 
will be happy to provide it to the committee.
                                 ______
                                 
   Responses of Kimberly Terese Nelson to Additional Questions from 
                              Senator Bond
    There is concern in the scientific community over the 
appropriateness of applying EPA's persistent, bioaccumulative, and 
toxicity (PBT) methodology to metals. Scientific experts, including EPA 
scientists, discussed the problems of applying the PBT methodology to 
metals at an EPA co-sponsored ``Experts Workshop'' in January 2000. In 
May 2000, the EPA Science Advisory Board used an Advisory Opinion on 
risks surrounding smelters to take the opportunity to state that EPA's 
proposals to classify metals as PBTs were problematic because the 
methodology did not accurately describe metals' characteristics in the 
environment.
    In July 2000, the House Science Committee, in a bipartisan letter 
signed by the Majority and Ranking members of the full committee and 
relevant subcommittee, noted the scientific controversy. The committee 
strongly urged EPA to seek independent peer review and refer the 
question of the scientific appropriateness of applying the PBT criteria 
to metals to the SAB before deciding whether to include metals in any 
of the Agency's PBT programs or lists.
    In the fiscal year 2001 VA/HUD Conference Report, I proposed, and 
the conferees and Congress accepted, language urging EPA to submit the 
question of PBT and metals to independent peer review. Specifically, we 
urged EPA to seek independent peer review and refer to the SAB the 
question of the scientific appropriateness of applying the PBT criteria 
and methodology to metals before any application of the PBT criteria 
and methodology to metals.
    EPA subsequently disregarded these congressional directives by 
finalizing increased reporting regulations based upon application of 
the PBT methodology to metals without ensuring the scientific validity 
of the action by submitting the issue to independent peer review. In 
its January 2001 Federal Register notice, EPA committed to seeking 
external peer review of the scientific appropriateness of applying the 
Agency's PBT criteria to metals generally and to the specific issue of 
whether lead and lead compounds should be considered bioaccumulative or 
highly bioaccumulative. EPA stated it would send this issue for review 
to its SAB in June 2001.
    However, in its September response to questions this committee sent 
to EPA in June of this year, EPA appears to have changed its position. 
Instead of addressing this related set of scientific questions as a 
single, cohesive matter, the Agency now seems intent on dividing the 
promised inquiry into two separate reviews, the narrower part of which 
will be sent to the SAB this fall, with the broader inquiry on PBT-
metals generally to be deferred to some unspecified later time, even 
though the answer to the broader question may obviate or inform 
consideration of the narrower question. There are also indications the 
Agency now plans to downgrade the metals-PBT issue to a 
``consultation'' rather than a full review.
    Questions. If confirmed, will you support any EPA actions which 
disregard my VA/HUD language or Congress' bipartisan direction to 
submit the question of the appropriateness of applying the PBT 
methodology to metals for independent peer review by the SAB?
    The Agency is still trying to decide whether to submit the issues 
to the SAB as a single package addressing both the broader PBT-metals 
question and the narrower bioaccumulative/highly bioaccumulative issue. 
The Office of Environmental Information is playing a key, some would 
say domineering, role in this process. If confirmed, will you take 
steps to ensure that the full set of issues in the broader review--
consistent with my VA/HUD language and Congress' bipartisan direction--
is referred to the SAB together with the narrower issue relating to 
bioaccumulation?
    Why is the Agency considering asking the SAB to undertake two 
separate reviews instead of a single, comprehensive review? Are the 
Agency's deliberations on this issue based on policy or scientific 
considerations? If they are based on policy considerations, 
specifically what are they? If they are based on scientific 
considerations, specifically what are they?
    Has the Agency consulted with the SAB about whether it makes sense 
to bifurcate the review with the narrow, subsidiary question being 
considered before the broader, more fundamental question? If not, why 
not? If so, what position has the SAB taken on bifurcating the review?
    If confirmed, would you take steps to ensure that the referral of 
this issue to the SAB is expedited?
    If confirmed, would you support any lesser action by EPA, such as 
an SAB consultation, which would fail to meet EPA's Independent Peer 
Review Guidelines?
    If confirmed, what steps will you take to ensure free and open 
scientific debate and discussion (1) among EPA's various program 
Offices with an interest in this subject (including the Office of 
Environmental Information), and (2) between EPA and outside groups with 
expertise and interest in this matter?
    Response. EPA is currently considering how to submit the PBT issues 
both the broader PBT metals question and the narrower bioaccumulation 
question to the Science Advisory Board, and has not yet made a final 
decision. Regarding peer review in general, I recognize the importance 
of conducting independent peer review of key science policy issues. I 
plan to assure that this type of peer review be undertaken on policy 
issues my office addresses.
                               __________
 Statement of Steven A. Williams, Nominated to be Director, U.S. Fish 
            and Wildlife Service, Department of the Interior
    Mr. Chairman and members of the committee, it is a great honor for 
me to be nominated by President Bush as the Director of the Fish and 
Wildlife Service. I appreciate the confidence expressed by Secretary 
Gale Norton in my qualifications and ability to lead the agency. It is 
also an honor to be present here today and to have this committee 
consider my qualifications to lead our nation's fish and wildlife 
conservation agency. Should I be confirmed by the Senate, I assure you 
that I will eagerly assume the awesome responsibility of preserving and 
promoting our nation's fish and wildlife conservation heritage.
    I sit before you today as the nominee and as the Secretary of the 
Kansas Department of Wildlife and Parks. I have served as director of 
this agency for the last six and a half years. My colleagues in the 
other 49 States have praised President Bush's decision to nominate a 
State director to this important Federal position. As a State fish and 
wildlife agency director, I believe that I bring certain 
qualifications, experience, and perspective to this position that will 
benefit constituents in each of your States.
    During the 44 years of my life, I have had opportunities to travel 
and live throughout much of the United States. I was born in Bellows 
Falls, Vermont while my family farmed in Westminster for markets in 
Boston and small towns in southern Vermont. While growing up in rural 
areas of the northeast, I enjoyed fishing, hiking, and exploring fields 
and forests. I developed a deep appreciation for conservation as 
practiced by my friends and neighbors.
    I received a B.S. in Environmental Resource Management from The 
Pennsylvania State University, an M.S. in Biology from the University 
of North Dakota, and a Ph.D. in Forest Resources also from Penn State. 
While going to college, I worked seven summers in Jackson Hole, Wyoming 
within Grand Teton National Park. During this time, college provided 
knowledge and honed my analytical skills but summers fed my passion for 
working with the nation's people and their natural resources.
    I have spent the past 16 years working in State fish and wildlife 
agencies in three States. I started as a wildlife biologist and have 
been promoted to administrative positions of ever-increasing 
responsibility. I have managed State programs from a centralized 
location relying on widely distributed geographic offices and 
personnel.
    I believe that communicating and cooperating with individuals and 
organizations is the only effective means to accomplishing positive 
fish and wildlife management. This approach includes the consideration 
of all interested parties, partners, and technical expertise. I believe 
that common sense approaches to difficult resource issues are in the 
best interest of all involved.
    Under my leadership, the Kansas Department of Wildlife and Parks 
has initiated new partnerships with State agencies, agricultural 
organizations, conservation organizations, and private individuals. One 
of these partnerships has opened more than 830,000 acres of private 
land for public hunting. This program is a voluntary, incentive-based 
program that has increased recreational opportunity, improved local 
economies, and provided private landowners with income, all financed 
with revenue from Kansas hunters. In just 6 years, this program has 
grown from 10,000 acres to more than 830,000 acres. This and many other 
examples of private-public partnerships are being practiced by State 
and Federal agencies across the country. I hope to expand on such 
opportunities if I am confirmed in this position.
    The U.S. Fish and Wildlife Service is facing challenging times 
ahead. Lawsuits concerning the listing of threatened and endangered 
species and critical habitat designation has consumed much of the time 
and financial resources of the agency. Fish hatcheries and refuges 
require considerable attention and investment to maintain existing 
infrastructure. Law enforcement officers are stretched thin as they 
attempt to deal with illegal trade and importation of wildlife. 
Ecological Services' offices face mounting project reviews and 
additional demands on their time. The research component of the Service 
has been diminished and managers are forced to make decisions, 
sometimes without desired information. Relationships between the 
Service and States, sportsmen and women, the fishing and hunting 
industry, and private citizens are strained.
    To face these challenges, the Service is staffed by dedicated and 
talented people with a deep commitment to fish and wildlife 
conservation. They endeavor each day to meet the demands and issues 
confronting them in the best interest of the resources and the nation. 
The nation is better off because of the work of Service employees.
    If confirmed as Director, I will work tirelessly to improve 
relationships, forge new partnerships, and solve issues confronting the 
agency. I have experienced success by working cooperatively with 
disparate interest groups, by challenging existing assumptions, by 
communicating a vision, and by encouraging novel approaches to solve 
problems.
    The mission of the U.S. Fish and Wildlife Service has expanded 
dramatically over the past few decades. However, two things remain 
constant, sportsmen and women of the country have been the primary 
financiers of fish and wildlife conservation. I would like to take 
steps to shore up what was once a powerful relationship between the 
Service and our nation's hunters and anglers. Second, private 
landowners provide habitat for the majority of fish and wildlife 
resources. I respect these landowner's rights and will work 
cooperatively with them in their interest and in the interest of 
wildlife. I will strive to strike a balance between the important 
issues of endangered species protection and the issues associated with 
preserving and promoting fishing and hunting in this country.
    As America becomes more urbanized and our citizens become 
generations removed from the land, it is important to maintain a 
collective connection to the natural world. Hunters, anglers, trappers, 
and wildlife observers maintain that connection. The Service should 
partner with State agencies, private organizations, and individuals to 
promote wildlife-associated activities for our citizens.
    The list of issues confronting the new Director of the Fish and 
Wildlife Service is considerable; however, with the support of this 
Administration, Congress, States, organizations, and individuals, the 
Service will rise to the challenge and improve our nation's fish and 
wildlife resources. Americans care deeply about fish and wildlife 
resources. If confirmed as Director, I will approach the 
responsibilities of that position with a passion to deliver programs, 
opportunities, and a vision for the Service that includes protection 
and conservation of our resources for the American public's use and 
enjoyment.
    I pledge to work cooperatively, collaboratively, and through 
communication with all members of the U.S. Congress to assure that we 
meet the needs and desires of the American public and its fish and 
wildlife resources. We have an impressive conservation heritage in this 
country. We must continue the progress made by previous generations to 
assure that future generations share in the wonderful blessings that we 
all enjoy.
    Thank you Mr. Chairman and members of the committee for considering 
my qualifications for this position.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Smith
    Question 1. Mr. Williams, in June, I introduced S. 990, the 
American Wildlife Enhancement Act, which encourages conservation 
efforts by promoting local control and State partnerships through 
flexible, incentive driven conservation programs and increased 
partnerships with local land owners. Two of the titles would provide 
money to the States to protect wildlife and areas that they determine 
to be in need of protection. What is your position on programs such as 
this? As Director of the Fish and Wildlife Service, would you support 
programs that give the States the Flexibility to fund the conservation 
priorities they have identified?
    Response. While I have not yet had an opportunity to become 
familiar with the provisions of your bill S. 990, I am a strong 
supporter of the approaches you describe, particularly ensuring that 
States can exercise flexibility to pursue their conservation 
priorities. If confirmed, I will look forward to working with you on 
these issues.

    Question 2. The other title of S. 990 would provide money to small, 
private landowners who would like to enter into species recovery 
agreements to protect endangered and threatened species on their land. 
Given that the majority of listed species occur on private lands, I 
feel that we must always be aware of the rights of private property 
owners and work with them in a collaborative process to protect listed 
species. If confirmed, how will you attempt to balance the rights of 
property owners and the protection of endangered and threatened 
species?
    Response. It is my understanding that the Administration requested 
and received funding in the Interior Appropriation bill for a new 
program to provide incentives to landowners for protection of 
endangered species on their lands. I strongly support this approach to 
conservation.
    It is also my understanding that the Administration is committed to 
administering the Endangered Species Act so that takings of private 
property do not occur. If confirmed, I will do all that I can to ensure 
that the program continues to operate in this fashion.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Chafee
    Question 1. Due to high property values and small total acreages 
available for protection, many areas in the Northeast are under severe 
threat as development encroaches on the region's last remaining open 
spaces. In Rhode Island, coastal properties continue to be lost to 
development at a great pace, including valuable wildlife areas in close 
proximity to the State's five National Wildlife Refuges. Over the past 
2 years, I have worked to secure Land and Water Conservation Fund 
earmarks to ensure that the FWS has the necessary resources to purchase 
expensive coastal habitats. As Director, how will you ensure strong 
Agency support for critical Fish and Wildlife Service activities in 
Rhode Island and the Northeastern region?
    Response. As you know, I am currently most familiar with Fish and 
Wildlife Service activities in Kansas. However, I have also worked in 
State wildlife agencies in Massachusetts and Pennsylvania, and have 
lived in Vermont and other New England States. If confirmed, I will 
make it a high priority to become fully conversant with the Service's 
activities throughout the Nation, and I look forward to renewing my 
acquaintance with the people and issues in the Northeastern States.

    Question 2. Further land acquisition by the Fish and Wildlife 
Service in Rhode Island depends upon the completion of a Land 
Protection Plan for the Rhode Island Complex. In particular, a 250-acre 
project contiguous to the Ninigret NWR is being jeopardized due to the 
delay in getting this Plan approved. As Director, will you see that the 
Land Protection Plan for Rhode Island is approved as expeditiously as 
possible?
    Response. I am not familiar with the status of this or other Land 
Protection Plans. If confirmed, I will look into this and report back 
to you at an early date.

    Question 3. During our meeting on October 16, you referred to the 
importance of partnerships in meeting the Agency's mission of 
protecting natural resources and animal species. Please elaborate on 
how you envision partnerships strengthening Service activities in the 
Northeastern region and across the country.
    Response. I consider the development of partnerships and 
cooperative efforts the most effective approach to conserving our 
natural resources. The cooperation and participation of Federal, State 
and local agencies, organizations and individual citizens generally 
develops and effectively implements far more innovative and cost-
effective solutions to natural resource problems than uniform direction 
from Washington. While in Kansas, I initiated a number of new 
partnership activities between conservation and agricultural interests 
generally, and between hunters, anglers and farmers and ranchers 
specifically. If confirmed I will place a high priority on bringing 
that approach to the activities of the Service.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Baucus
    Question 1. Mr. Williams, I would just like to secure your 
commitment to come out to Montana if you are confirmed as Director of 
the U.S. Fish and Wildlife Service. I know you will have many 
significant challenges to deal with as Director, but Montana is also 
facing significant challenges when it comes to how the Service is 
funded, and how those funds are distributed among Regions. I know I've 
said this many times in this committee, but the Service in Montana is 
understaffed and overworked. It would be very helpful, I think, if you 
could see for yourself the conditions under which the Montana staff are 
working, and the effect it has on the Service's ability to fulfill its 
mission in Montana. Will you come to Montana, Mr. Williams?
    Response. If confirmed, I will travel to Montana at an early date, 
and will consult with you prior to the visit.

    Question 2. Mr. Williams, do you think that the Fish and Wildlife 
Service is implementing the Endangered Species Act in an effective 
manner? If not, what changes would you make in how the Service does its 
job? How would those changes further the purpose of the Endangered 
Species Act?
    Response. I have not yet had an opportunity to be fully briefed on 
how the Service administers the Endangered Species Act, and therefore 
have no specific plans or proposals for any changes at this time. 
However, it appears that the Service has for several years been moving 
toward a cooperative and (where possible) incentive-based approach to 
the conservation and recovery of listed species, and for promoting the 
conservation of at-risk species so that their listing is not necessary. 
I understand that the Administration has proposed new programs, funded 
in the Interior Appropriation bill, which further advance this 
approach. I am a strong advocate of proceeding in this fashion, while 
addressing the specific legal requirements for the protection of listed 
species, and consider this by far the most effective way to recover 
listed species and to avoid the need to list others.

    Question 3. Do you have any thoughts on how the Service can do a 
better job of partnering with private landowners to preserve and 
protect endangered and threatened species? Along those same lines, what 
would you do to combat the negative image many associate with the 
Endangered Species Act and its effect on private property?
    Response. In addition to the approach indicated in my response to 
your previous question, it seems clear to me that there is a great deal 
of misunderstanding about the ESA, and particularly its effect on 
landowners. While I have not had an opportunity to become familiar with 
how the Service currently addresses this issue, I am sure there is room 
for improvement both in how the agency cooperates directly with 
property owners and in how it explains its activities and requirements 
to the public, including landowners. If confirmed, I will make 
addressing this a high priority.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                                 Boxer
                           endangered species
    Question 1. The citizen suit provision of the Endangered Species 
Act (ESA) has been used by citizens to ensure that the U.S. Fish and 
Wildlife Service (FWS) fulfills its mandate to prevent species 
extinction and recover listed species. For example, 92 percent of all 
the California listings in the past 10 years were initiated by citizen 
petitions. In several ways, this Administration has expressed hostility 
toward citizen participation in the ESA process.
    Question 1a. Do you agree that citizens have a valid role to play 
in the petitioning and enforcement provisions of the Endangered Species 
Act (ESA)?
    Response. Yes, I believe citizen involvement is a key element in 
making the ESA work.

    Question 1b. Do you support the Administration's failed effort to 
substantially restrict the ability of citizens to secure the listing of 
imperiled species under the ESA?
    Response. While I am not familiar in detail with this proposal, I 
am advised that it was a good-faith effort to address a real and 
continuing problem. If confirmed, I will look forward to working with 
you and other interested parties to address this issue in a way which 
commands wide support.

    Question 2. Inadequate funding of the Endangered Species Act has 
been a major hurdle to effective implementation of the statute. For 
several years the Service has argued in court that it could not list 
more species because it lacked the funding to process the petitions. 
FWS has stated that it would need at least $120 million must to address 
the existing listing and critical habitat backlog Yet, the 
Administration's funding request for these programs was anemic.
    Question 2a. What will you do to ensure that the Service has 
adequate funding for listing and other elements of the endangered 
species program?
    Response. I am advised that the Bush Administration's 2002 budget 
request for listing represented a 15 percent increase over the 2001 
amount requested by the prior Administration, and a 34 percent increase 
over the amount actually appropriated for listing in fiscal year 2001.
    In fashioning a 2003 request, I believe the Administration will 
need to balance the needs of the Endangered Species program, the 
Service, and the Department of the Interior with the many other demands 
and priorities for increased Federal funding, including other aspects 
of the Endangered Species Act itself. There are significant documented 
needs and backlogs in many Service and Departmental programs. If 
confirmed in time to participate in the development of this request, 
which I am advised is already very well advanced, I will do my best to 
ensure that funding is requested based on documented needs consistent 
with the President's priorities.

    Question 2b. What other measures will you take to deal with the 
substantial backlog of listing, critical habitat designations, and 
Section 7 consultations?
    Response. I will if confirmed undertake as a priority an 
examination of the Service's current management practices, including 
for the ESA, to determine if there are ways to more effectively utilize 
the resources and personnel available to the program. I would also 
explore whether a greater emphasis on a cooperative approach with all 
interested parties might permit the agency to devote a greater 
percentage of available resources toward on-the-ground conservation 
efforts.

    Question 3. Do you believe that the regulatory definition of 
``harm'' in the ESA, which prohibits certain kinds of habitat 
modification without a permit, needs modification? Are you committed to 
enforcing all of the ESA's habitat protections, including those that 
apply to private lands?
    Response. Because I returned to my position in Kansas following the 
confirmation hearing, I have not yet had an opportunity to become 
familiar with the Service's administration of the ESA in sufficient 
detail to address regulatory definitions. However, I can assure you 
that if confirmed, I will enforce all of the provisions of the ESA, 
including those applicable to private lands.

    Question 4. Do you believe that the ESA is a fundamentally sound 
statute, or do you believe that it needs to be legislatively amended? 
If you believe it needs to be amended, please indicate the kind of 
changes you believe are necessary. Similarly, do you anticipate pushing 
forward with any major Administrative reforms relating to ESA 
implementation? If so, what are they?
    Response. As indicated in my response to your question 3, I have 
not yet had an opportunity to become sufficiently familiar with the 
Service's administration of the ESA to have developed any general or 
specific plans or proposals for changes, whether relating to internal 
management, regulations or legislation. I do believe that the ESA is 
one of our Nation's most important conservation statutes, and as with 
any major program, there may be ways in which it can be made more 
effective. If confirmed, I can assure you that any changes I might 
propose would be aimed at greater effectiveness in accomplishing the 
purposes of the Act.
                             grizzly bears
    Question 5. As you undoubtedly know, FWS finalized a plan last year 
to recover grizzly bears by reintroducing them to their historic range 
through ``citizen management'' a plan that was developed 
collaboratively by the timber industry, labor and conservation groups. 
The Bush Administration recently announced that it would not continue 
with these efforts. Will collaborative efforts to engage local people 
in species recover receive support from this Administration in the 
future?
    Response. While I cannot speak for the Administration at this time, 
I am a strong advocate of State and local involvement in all types of 
conservation efforts, including the recovery of listed species. If 
confirmed, I will continue this advocacy within the Administration.
                          landowner incentives
    Question 6. The FY02 Interior appropriations conference report 
contains a total of $50M for two new endangered and threatened species 
landowner incentive programs proposed by the Administration. Could you 
explain specifically how you intend to spend the new endangered and 
threatened species landowner incentives money?
    Response. I am advised that the Administration's request for these 
funds provided that they would be used for competitive grants to 
individuals and groups engaged in private, voluntary conservation 
efforts benefiting listed and at-risk species, and to States, Tribes 
and territories for development of such programs by these entities. 
These programs can help recover listed species and help ensure that 
other species never need to be candidates for listing.
    I have not yet had an opportunity to explore with the Service any 
details on how the programs might best be implemented. However, if 
confirmed, ensuring that these new programs are placed in operation as 
quickly as possible will be one of my highest priorities.

    Question 7. I fully support landowner incentives; they are the best 
way to Make the ESA work effectively on private lands. However, I 
cannot support programs that pay landowners to comply with the law 
(i.e., programs that fund activities a private landowner is already 
obligated to do to comply with the law). Do you agree with this 
position?
    Response. I agree that we should not pay landowners to comply with 
the law. I would draw a distinction, however, between this and programs 
which provide financial assistance for such conservation actions as 
development of Habitat Conservation Plans. This is particularly 
valuable where done by local governments in cooperation with 
landowners, as I am advised is the case in Southern California.
    I also believe it is valuable and appropriate to offer financial 
incentives to landowners to improve habitat or otherwise contribute to 
the conservation and recovery of listed species, which they otherwise 
have no obligation to undertake.

    Question 8. The USDA has a number of successful habitat 
conservation programs that are popular with farmers and other private 
landowners (e.g., Wetlands Reserve Program, Conservation Reserve 
Program, etc.). I have long thought a similar landowner program with a 
specific focus on habitat that benefits listed species should be 
developed. Do you agree that such a program makes sense? If so, will 
you work with me to explore the possibility of developing such a 
program?
    Response. If confirmed, I would be pleased to work with you in 
exploring such an approach. I have considerable experience in Kansas 
working with both conservation and agricultural interests and programs, 
and would be quite interested in seeing whether the approach taken with 
the Wetlands and Conservation Reserve programs could be applied to our 
ESA recovery efforts.
                            unlisted species
    Question 9. What priority do you place on the conservation and 
recovery of endangered and non-game species, in comparison to game 
species, in fulfilling the Fish and Wildlife Service's mission of 
``conserving, protecting and enhancing the nation's fish and wildlife 
and their habitats for the continuing benefit of the American people?''
    Response. I believe the conservation and recovery of endangered and 
non-game species, in cooperation with States, private landowners and 
others, is and must continue to be a major element of the Service's 
mission.

    Question 10. As the Secretary for the Kansas Department of Wildlife 
and parks you supported the Conservation and Reinvestment Act that 
would provide dedicated conservation funding for the proactive 
management of wildlife species before they become listed as threatened 
or endangered.
    Question 10a. What is the Administration's position on permanent 
conservation funding?
    Response. I am advised that the Administration has not yet taken a 
position on the Conservation and Reinvestment Act.

    Question 10b. What will you do as the director of the Fish and 
Wildlife Service to ensure that there is a reliable revenue stream for 
these unlisted species?
    Response. If confirmed, I will be an advocate within the 
Administration for funding for non-listed species, both for the Service 
and through cooperative efforts with the States.
                            wetlands habitat
    Question 11. The Fish and Wildlife Service under Acting Director 
Marshall Jones filed comments on the Corps of Engineers' proposed 
changes to the nationwide wetlands permit program that raised a series 
of concerns with the proposal. It is my understanding, however, that 
the Secretary of the Interior has decided not to submit the comments. 
As Director, what would you do to ensure that the release of scientific 
comments or scientific information is not blocked or delayed by 
political interference?
    Response. While I am not familiar with the details, I am advised 
that the Secretary is still reviewing the comments received on this 
issue from the various bureaus and offices within the Department, with 
a view toward submitting a unified Departmental comment.
    If confirmed, I am committed to working with the Secretary and 
other policymakers within the Department to ensure consideration of the 
best available scientific information in the Department's 
decisionmaking process.
                            wildlife refuges
    Question 12. The National Wildlife Refuge System Improvement Act of 
1997 set new requirements for the management of refuges. In response, 
the U.S. Fish and Wildlife Service issued regulations establishing 
procedures for determining what uses are compatible with the mission of 
the refuge system and the mission of each individual refuge. What uses 
would you deem to be incompatible with the mission of the national 
wildlife refuge system?
    Response. I have not yet had an opportunity to be fully briefed on 
the Improvement Act and the Service's implementing regulations. 
However, it is my understanding that the Act provides that decisions as 
to what activities may be compatible are to be site specific 
determinations made in accordance with the requirements of the Act. It 
accordingly is not possible to provide a list of activities or uses 
which are generically incompatible.
                    arctic national wildlife refuge
    Question 13. The Bush Administration has indicated its clear intent 
to open the Arctic National Wildlife Refuge to oil and gas development. 
Yet, FWS biologists have said in the past that oil and gas development 
would do irreparable harm to the wildlife species that depend upon this 
refuge. More recently, there was evidence that the Secretary 
suppressed, and possibly even altered, information the Service provided 
regarding the biological impacts of drilling.
    Question 13a. How will you ensure that there is a unbiased 
assessment of the impacts that oil and gas exploration will have on the 
Arctic Refuge's irreplaceable wildlife species?
    Response. As indicated previously, I am committed to open dialog 
and reliance upon the best science in making decisions. If confirmed, 
and if Congress acts to open the 1002 Area, I will expect U.S. Fish and 
Wildlife Service biologists to assemble the sound science upon which 
the Department can base its decisions on where and under what 
conditions to permit specific activities.

    Question 13b. How will you ensure that all of the relevant 
information is provided to Congress in a timely way?
    Response. If confirmed, it will be my priority to ensure that 
Congress receives information it requests from the Fish and Wildlife 
Service on this and any other issue.
                    arctic national wildlife refuge
    Question 14. Will you protect the professionals in your agency from 
any repercussions that might result from public disclosure of 
scientific information, whether through the press or other means?
    Response. As I have stated in response to prior questions, I am 
fully committed to the use of the best science in making decisions. I 
am also committed to protecting the professionals in the U.S. Fish and 
Wildlife Service from any adverse repercussions that result from their 
acting in a legal and professional manner. As a trained scientist and 
manager I am aware that any scientific agency, which the Service is, 
must have policies to ensure that information disseminated in its name 
is in fact valid. I have not had an opportunity to become familiar with 
the Service's policies in this regard.

    Question 15. Are there any restrictions on agency scientists about 
communicating with congressional staff, outside interest groups, the 
media, or other interested parties?
    Response. I have not yet had an opportunity to become familiar with 
how the Federal process to coordinate and review information released 
in an agency's name operates. If confirmed, I expect to become 
knowledgeable about this process very quickly.

    Question 16. The fiscal year 2000 Interior Appropriations bill did 
not provide funds for lease sale preparation in the Arctic Refuge 
coastal plain as the Administration had originally requested. Are you 
aware of any plans that are underway to draft regulations or otherwise 
plan for leasing in the coastal plain?
    Response. No, I am not.
                 management of outer continental shelf
    Question 17. While the Minerals Management Service has the lead 
role on Outer Continental Shelf leasing issues, the U.S. fish and 
Wildlife Service has a responsibility to consider the impacts that 
leasing will have on listed species, migratory birds, polar bears, sea 
otters, wildlife refuges, and other resources under the Service's 
jurisdiction. I am deeply concerned about the impacts of offshore 
leasing activities in California, Alaska, and other sensitive 
ecosystems. Will you ensure that the U.S. Fish and Wildlife Service 
continues to provide scientific expertise regarding the impacts of 
offshore development activities?
    Response. I believe the Fish and Wildlife Service has a significant 
role to play, in conjunction with other agencies, in the assessments of 
the effects of Federal activities on fish and wildlife resources, and I 
anticipate that this important role will continue.
                                 ______
                                 
 Responses of Steven A. Williams to Additional Questions from Senator 
                               Lieberman

    Question 1. How will you ensure that the integrity of the National 
Wildlife Refuge System is maintained, including ensuring that the 
purposes of each refuge are upheld?
    Response. It is my understanding that through the National Wildlife 
Refuge System Administration Act, as amended by the National Wildlife 
Refuge System Improvement Act of 1997, the Congress has charged the 
Secretary, and, by delegation of authority, the Director, with 
maintaining the biological integrity of the System and with ensuring 
that the mission of the Refuge System and the individual refuges are 
upheld. It is my further understanding that the Congress set forth in 
the Act a process by which determination are to be made as to whether 
proposed uses of a refuge would comply with these requirements. If 
confirmed, I will strongly support these provisions.

    Question 2. The laws governing National Wildlife Refuges mandate 
that any uses be compatible with their purposes. For example, the 
purposes of the Arctic National Wildlife Refuge are to conserve fish 
and wildlife populations and habitats in their natural diversity, to 
fulfill international treaty obligations, to provide for continued 
subsistence uses and to ensure water quality and quantity. Will you 
support protecting the purposes for which all refuges, including the 
Arctic Refuge, were established?
    Response. If confirmed, I will strongly support carrying out the 
law by protecting the purposes for which all refuges, including the 
Arctic National Wildlife Refuge, were established, in accordance with 
the procedures established by law. I will also carry out any addition 
direction which Congress may provide for management of Arctic or any 
other refuge.

    Question 3. The congressional Research Service found that the House 
passed bill (H.R. 4) and Senator Murkowski's S. 388 appear to reduce 
the authority of the U.S. Fish and Wildlife Service over the Arctic 
Refuge coastal plain, including to ``eliminate the usual compatibility 
determination processes.''
    Question 3a. Could you support legislation that would reduce your 
authority over refuge management of fish, wildlife and their habitats 
and other purposes?
    Response. From a general standpoint, I cannot say what my position 
would be on any piece of legislation until I have had an opportunity to 
review it.

    Question 3b. Given the U.S. Fish and Wildlife Refuge's conclusions 
that the Arctic Refuge coastal plain is the center of wildlife activity 
for the refuge, how could you support the Administration's endorsement 
of legislation that would allow oil development activities that would 
not be found compatible with the refuge's purposes?
    Response. It is my understanding that the President has stated that 
this issue is a priority for him, and I support him on this. The 
President's plan emphasizes that Congress should require the use of the 
best available technology and ensure that energy production activities 
protect the environment of the refuge. Ultimately, a decision to allow 
oil development in the coastal plain of the refuge is reserved to 
Congress, and if confirmed I would consider it my responsibility to 
provide the best available information to address this matter.

    Question 4. In light of the recent news that the Interior Secretary 
appeared to omit scientific information provided by the U.S. Fish and 
Wildlife Service, in response to questions from a congressional 
committee chairman, how will you give the public confidence that the 
full information provided by your professional scientific staff is used 
to base management and policy decisions of the USFWS and the Department 
of the Interior?
    Response. If confirmed, I am committed to working with the 
Secretary and other policymakers within the Department to ensure 
consideration of the best available scientific information in the 
Department's decisionmaking process. This is a responsibility I would 
take very seriously.

    Question 5. The U.S. Fish and Wildlife Service with its 
professional biologists and as the land manager of the Arctic National 
Wildlife Refuge provides scientific information to the public through 
its web site, publications, and presentations to the National Research 
Council and the media. Will you support the continued distribution of 
this scientific information by the professional scientists and land 
managers of the U.S. Fish and Wildlife Service?
    Response. Yes.

    Question 6. Will you support the professionals in your agency from 
any repercussions that might result from public disclosure of 
scientific information, whether through the press or other means? Are 
there any restrictions on agency scientists from being contacted by the 
media?
    Response. As I have stated in response to a prior question, I am 
fully committed to the use of the best science in making decisions. I 
am also committed to protecting the professionals in the U.S. Fish and 
Wildlife Service from any adverse repercussions that result from their 
acting in a legal and professional manner. As a trained scientist and 
manager I am aware that any scientific agency, which the Service is, 
must have policies to ensure that information disseminated in its name 
is in fact valid. I have not had an opportunity to become familiar with 
the Service's policies in this regard, nor with how the Federal process 
to coordinate and review information released in an agency's name 
operates. If confirmed, I expect to become knowledgeable about this 
process very quickly.

    Question 7. Existing law prohibits leasing, development and 
production of oil and gas from the Coastal Plain of the Arctic National 
Wildlife Refuge (in Section 1003 of the Alaska National Interest Lands 
Conservation Act). Can you commit to us that the U.S. Fish and Wildlife 
Service will not engage in planning for 3-D seismic exploration or 
lease sales for the Arctic Refuge coastal plain activities that are not 
allowed under current law, nor will it work on such plans if done by 
the Interior Department or BLM?
    Response. If confirmed, I will not engage in activities prohibited 
by law, nor would I cooperate with others in doing so. I am not 
sufficiently familiar with the applicable statutes to know if planning 
for activities, and contributing environmental expertise to planning, 
is allowable, and if confirmed my actions would be carried out with 
full respect for the law.

    Question 8. The fiscal year 2002 Interior Appropriations bill did 
not provide funds for lease sale preparation in the Arctic Refuge 
coastal plain as the Administration had originally requested. Are you 
aware of any plans that are underway to draft regulations or otherwise 
plan for leasing in the coastal plain?
    Response. No, I am not aware of any such plans.

                                   - 

</pre></body></html>
